<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2017

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
           Prepared Statement of the American Bar Association
    Chairman Shelby, Vice Chairwoman Mikulski, and subcommittee 
members, I am Paulette Brown, President of the American Bar Association 
(ABA) and a partner at Locke Lord LLP.

    REQUEST: I am submitting this statement today on behalf of the ABA, 
which has over 400,000 members. The ABA recommends funding for the 
Legal Services Corporation (LSC) at $475 million, the administration's 
fiscal year 2017 budget request.
    For the implementation of ``Equal Justice Under Law,'' our 
Government has a true partner in the ABA. We have created an annual ABA 
Day of Service in October, operate an ABA Center for Pro Bono, produce 
an annual award program for pro bono work, established the Commission 
on the Future of Legal Services, and host, with our colleagues at the 
National Legal Aid and Defender Association, the annual Equal Justice 
Conference.
    To strengthen legal aid is to strengthen the rule of law. I do not 
just pay lip service to legal aid and to pro bono work; I am very 
passionate about these services and try every day to remember and live 
``to whom much is given, much is required.'' In my third year of law 
school I personally participated in a clinical program which partnered 
with Essex/Newark Legal Services in New Jersey. Following my graduation 
and for several years thereafter, I worked pro bono for that same legal 
services office, successfully representing dozens of tenants in an 
important landlord/tenant case. Later, as a member of the ABA 
Litigation Section, I helped train young legal services lawyers and 
other lawyers who provided pro bono services. Furthermore, I have 
provided pro bono services to members of our military. However, pro 
bono services themselves are not sufficient to meet the needs of our 
vulnerable.

    HISTORICAL NEED: First of all, I want to thank the Senate 
subcommittee for taking the initiative to restore LSC's budget--5.4 
percent, 2.6 percent, and 2.6 percent increases over the past 3 years.
    However, the fiscal year 2016 LSC appropriation is still 15.7 
percent lower than it was in 2010 (in fiscal year 2016 dollars), while 
the number of people qualifying for assistance is about 25 percent 
higher than it was in 2007. Compare also the fiscal year 2016 funding 
of $385 million to LSC's average appropriation of $663,944,870 (in 
fiscal year 2016-adjusted dollars) during the 1980s. LSC seriously 
needs an increase.
    Furthermore, robust funding for the LSC is desperately needed 
because other funding sources have diminished since the country's 
economic downturn. All States, save Alabama, Florida, and Idaho, now 
provide State-government funding for legal aid programs. However, as a 
lingering effect of the recession, in some States State funding is 
indeed way down due to declines in filing fees supporting legal aid. 
Revenue from Interest on Lawyers' Trust Accounts (IOLTA) has also 
decreased approximately 80 percent nationally in the past 9 years, 
causing their grants for legal aid programs to diminish by 68 percent.
    Funding for the Legal Services Corporation has been a high priority 
issue for the ABA for four decades. The ABA has supported the provision 
of legal services to those who cannot afford them since establishing 
the Standing Committee on Legal Aid and Indigent Defendants (SCLAID) in 
1920. Supreme Court Justice Lewis F. Powell, while serving as ABA 
President in 1964, called for a major expansion of the Nation's legal 
services, and the ABA worked closely with many others to achieve this 
goal, culminating in President Nixon signing LSC into law in 1974.
    I commend your efforts for low-income Americans now when the need 
for legal aid is near an all-time high. Civil legal aid is a 
constituent service performed in every State and congressional district 
in the country, complementary to your own constituent services. I 
believe there is an opportunity for legal aid programs to work more 
closely with your constituent services staffers to help constituents 
resolve their legal matters, thus potentially alleviating the need for 
other Federal program funds. In so doing, LSC funding provides long-
term benefits.
    The local legal aid programs help people at or below 125 percent of 
Federal poverty levels--this year, $11,880 for an individual and 
$24,300 for a family of four. The most recent data from the U.S. Census 
Bureau show that over 95.2 million Americans--one in three--qualified 
for civil legal aid at some point in 2014.
    Significantly, studies show that 50-80 percent of all eligible 
people seeking legal aid services are turned away due to lack of 
resources. That impediment seriously hamstrings justice in our legal 
system. In fact, in 2015 the World Justice Project ranked the United 
States 65th of 102 countries in its Rule of Law Index for civil justice 
access, behind Moldova, Zimbabwe, and Venezuela.
    Consider a few examples of how funding increases bolster 
accessibility. LSC's modest increases over the past three fiscal years 
allowed Alabama's program to keep the Anniston office open and 
Maryland's program to open an office in Montgomery County and expand 
the statewide Self-Help Center. Mr. Chairman, LSC is the largest 
provider of civil legal assistance to low-income Americans, and Alabama 
is more dependent on LSC funds as part of Legal Services Alabama's 
overall budget than any other State in the country. LSC grants fund 
legal aid programs in each of the 50 States, the District of Columbia, 
Puerto Rico, and American Samoa.

    AREAS OF HELP: Legal aid helps clients with health concerns, 
consumer and finance matters, family law, obtaining an education, 
individual rights, income maintenance, juvenile law, tribal law, 
employment, disability, housing matters like foreclosures and 
evictions, and more.

    BENEFICIARIES: Several groups in particular are beneficiaries of 
legal aid services:

    1.  Veterans returning from war,
    2.  Older Americans,
    3.  Rural Americans,
    4.  Women, constituting nearly 70 percent of clients, and
    5.  Natural-disaster victims.

    Returning military veterans and families, such as over 1.6 million 
U.S. troops who have served in Iraq and Afghanistan since 2001, receive 
legal aid for consumer issues, employment, family law, homelessness, 
and benefits for service-related injuries that can take months or years 
to obtain.
    Older Americans often need help as victims of financial fraud. 
Additionally, seniors commonly have housing issues. Vice Chairwoman 
Mikulski, Maryland faces one of the Nation's highest foreclosure rates. 
Housing issues account for 38 percent of the Maryland Legal Aid 
Bureau's caseload. Nationally, housing issues account for the second-
largest percentage of LSC grantees' total caseload (28 percent). This 
includes landlord-tenant disputes, prevention of foreclosures, 
renegotiation of home loans and mortgages, and assistance to renters 
whose landlords are undergoing foreclosures. Last year LSC aided over 
half a million people with housing issues nationally.
    For example, Nicole Perez, an attorney with Legal Aid of Los 
Angeles, spent a year and a half saving an elderly disabled widow of a 
Vietnam veteran from foreclosure. The elderly woman's husband had 
suffered from the effects of Agent Orange poisoning, but had been 
denied benefits. Nicole and her colleagues successfully blocked the 
forced sale of the house and managed to get the $45,000 in retroactive 
benefits and nearly $1,500 in ongoing monthly payments from the VA, 
ensuring the elderly widow would be financially secure in her home.
    Rural Americans oftentimes have difficulty obtaining needed legal 
assistance. Mr. Chairman, Legal Services Alabama is working to ensure 
those rural areas have a means of accessing legal aid. In 46 of 
Alabama's 67 counties, more than 50 percent of the population lives in 
rural areas, making legal aid more difficult to obtain. LSC grantees 
are sometimes the only means by which low-income citizens living in 
more remote areas can receive legal aid. This year LSC developed a 
Rural Summer Legal Corps that will commence in the summer of 2016.
    Women often gain assistance with the most frequent type of case: 
family law issues. More than one-third of all cases deal with family 
law matters such as domestic violence, custody, and guardianship for 
children without parents.
    Disaster victims really see value in the LSC's work. In my home 
State of New Jersey, LSC provided storm-related legal assistance for 
victims of Hurricane Sandy, including help with improper evictions, 
identity verification, denial or inadequate reimbursement of insurance 
claims, delays in repairs, and home repair scams. Each year natural 
disasters throw thousands into poverty, create extensive legal 
entanglements, and can overwhelm legal aid programs.

    SPECIFIC EMPHASES: This year's request emphasizes the improved use 
of technology with LSC's Technology Initiative Grants (TIG) program. It 
has provided efficiencies associated with statewide Web sites and 
enhanced case management systems.
    LSC is also innovating with its Pro Bono Innovation Fund (PBIF), 
first funded in fiscal year 2014. The PBIF supports collaborative 
projects to develop replicable pro bono legal service innovations. The 
thousands of hours of pro bono service private lawyers provide each 
year in a public-private partnership are critical but totally 
insufficient to replace Federal LSC funding, which provides the 
framework through which most pro bono services are delivered. These 
projects create partnerships with local law schools, community 
organizations, rural populations, and corporate attorneys. Having this 
Federal money to leverage more pro bono efficacy is critical.
    In accordance with its strategic planning, the LSC this past year 
followed through on its commitment to strong management and 
accountability for Federal funds. Examples include new purchasing and 
contracting protocols, mandatory training on conflicts of interest and 
whistleblower policies, and updated records-management policy and 
retention schedules.

    COST/BENEFIT: In March 2015 the Tennessee Bar Association published 
a new report entitled ``Economic Impact of Civil Legal Aid 
Organizations in Tennessee.'' The chart below summarizes the principal 
economic benefits that civil legal aid programs provide.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The report and chart reveal $11.21 of economic benefit per dollar 
invested. Eighteen percent of the benefits are attributable to 
preventing foreclosure, which itself offsets the cost of all legal aid, 
providing a 2-to-1 return. Foreclosure lowers property values, damages 
consumers' credit, soaks up the time and resources of lenders, and 
reduces municipalities' property tax collections. Preventing 
foreclosure is a measureable public good.
    Likewise, preventing domestic violence saves a victim the trauma 
and costs of ``medical treatment, counseling, police protection, and 
other support,'' valued at over ten thousand dollars per victim per 
year.
    The savings for the communities alone merit the cost. Likewise, do 
the direct client and family benefits. On top of the community savings 
and direct client and family benefits, the well-recognized economic 
multiplier effect guarantees the value of LSC appropriations.

    CONCLUSION: As the economy revives, LSC funding should also revive. 
Down 15.7 percent from 2010 (in fiscal year 2016 dollars) and with 25 
percent more people qualified for legal aid, LSC is in serious need of 
an increase. Certainly no decrease is in order. Given LSC's excellent 
benefit/cost ratio and exemplary management and accountability for 
Federal funds, we encourage you, while still considering the fiscal 
issues the country faces, to fund this meritorious program at $475 
million.
                                 ______
                                 
  Prepared Statement of the American Educational Research Association
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, thank you for the opportunity to submit written testimony 
on behalf of the American Educational Research Association. 
Appreciative of the continuing stringent times, we recommend that the 
National Science Foundation receive $8 billion in fiscal year 2017. 
This recommendation is consistent with that of the Coalition for 
National Science Funding, in which we are an active member. In 
addition, I would like to state our support for the $953 million 
requested for the Education and Human Resources (EHR) Directorate and 
$289 million requested for the Directorate for Social, Behavioral and 
Economic (SBE) Sciences in fiscal year 2017.
    AERA is the major national scientific association of 25,000 
faculty, researchers, graduate students, and other distinguished 
professionals dedicated to advancing knowledge about education, 
encouraging scholarly inquiry related to education, and promoting the 
use of research to serve public good. Many of our members are engaged 
in science, technology, engineering, and mathematics (STEM) education 
research. Our members work in a range of settings from universities and 
other academic institutions to research institutes, Federal and State 
agencies, school systems, testing companies, and nonprofit 
organizations, engaged in conducting research in all areas of education 
and learning.
    AERA values the leadership role of the National Science Foundation 
(NSF) in advancing scientific breakthroughs and fundamental knowledge. 
This testimony focuses specifically on the two directorates that 
primarily support education research at NSF. We are particularly 
enthusiastic about how the Education and Human Resources Directorate 
(EHR) plans to use these resources to advance sustained and significant 
STEM research. In addition to the significant investments in education 
sciences provided by EHR, AERA values the important role the Social, 
Behavioral and Economic Sciences Directorate (SBE) in funding important 
education research, including the essential statistical information 
provided by the National Center for Science and Engineering Statistics.
    On behalf of AERA, I wish to highlight significant activities 
within the EHR Directorate and to offer our enthusiastic support for 
continued emphasis on core STEM education research to better engage, 
sustain, and retain STEM learners, leading to an inclusive and 
competitive STEM workforce.
    The EHR Directorate at NSF is responsible for providing the 
research foundation necessary to achieve excellence in U.S. STEM 
education. EHR sets out to accomplish this goal by supporting the 
development of a scientifically literate citizenry as well as a STEM-
skilled workforce. This responsibility requires coordination and 
collaboration across all NSF directorates and with other Federal 
agencies.
    AERA supports the three core research areas: Broadening 
participation and institutional capacity; learning and learning 
environments; and STEM professional workforce development. Furthermore, 
we are pleased to see that the EHR Core Research (ECR) program 
continues to be a top priority in fiscal year 2017 with increased 
funding in every division. Investments like ECR have successfully 
increased the percentage of funding allocated to research and 
development within the EHR Directorate.
    EHR bolsters Federal investments in STEM education by funding the 
research and development that informs strategic education investments 
across NSF and other agencies. We urge the subcommittee to look 
favorably on this request as an opportunity to support a well-developed 
and compelling plan.
    AERA's interest in the Social, Behavioral and Economic Sciences 
(SBE) Directorate relates primarily to the directorate's support of 
research that promotes the understanding of people and reveals basic 
aspects of human behavior in the context of education and learning. The 
budget plan for SBE in fiscal year 2017 reflects priorities for 
advancing fundamental knowledge in the social, behavioral, and economic 
sciences that provides critical research to promote the Nation's 
economy, security, and global leadership. The budget for SBE is not 
even 4 percent of the NSF budget, yet it provides approximately 66 
percent of the Federal funding for basic research in social, 
behavioral, and economic sciences at academic institutions. In 
addition, AERA has a strong interest in the National Center for Science 
and Engineering Statistics (NCSES) within SBE. NCSES provides 
invaluable statistical information about science and engineering in the 
U.S. and around the world.
    NCSES collects and analyzes data on the progress of STEM education 
and the research and development. This information also provides 
valuable information on the trajectories of STEM graduates both in STEM 
and non-STEM careers.. The fiscal year 2017 budget request for NCSES 
will support critical activities to improve surveys and redesign 
questionnaires to improve data on measures of educational pathways for 
scientists; develop new data techniques building on administrative 
data; and enhance data tools, techniques, and visualizations to 
facilitate access to statistical resources.
    Thank you for the opportunity to submit written testimony in 
support of $8 billion for the National Science Foundation reflecting 
$953 million for the Education and Human Resources Directorate and $289 
million requested for the Directorate for Social, Behavioral and 
Economic Sciences in fiscal year 2017. AERA would welcome any 
opportunity to work with you and your subcommittee to best support the 
crucial advances of the National Science Foundation. Please call on us 
if we can provide additional information regarding this budget 
proposal.
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
                    fiscal year 2017 budget request
    The American Geophysical Union (AGU), a non-profit, non-partisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the fiscal year 2017 budget request for the National 
Aeronautics and Space Administration (NASA), the National Oceanic and 
Atmospheric Administration (NOAA), and the National Science Foundation 
(NSF). The AGU, on behalf of its more than 60,000 Earth and space 
scientist members, respectfully requests that the 114th Congress 
appropriate:

  --$20.3 billion overall for NASA,
    --$2 billion for the Earth Science Mission Division,
    --$1.71 billion for the Planetary Science Mission Division,
    --$740 million for the Heliophysics Mission Division;
  --$6.05 billion overall for NOAA;
  --$8 billion overall for NSF.
             national aeronautics and space administration
    AGU requests that Congress appropriate $20.3 billion for NASA in 
fiscal year 2017. Additionally, AGU requests that Congress appropriate 
$2 billion for NASA's Earth Science Mission and $1.71 billion for 
NASA's Planetary Science Mission. These increases represent a 5 percent 
increase over the fiscal year 2016 appropriated levels and ensure that 
NASA is able to continue its work and preserve U.S. leadership in Earth 
and space science and exploration. Of note is that a request of 5 
percent allows NASA to grow above the rate of inflation and make 
critical progress towards achieving the scientific goals outlined in 
the Decadal studies produced by the National Research Council.
    AGU also requests that Congress appropriate $740 million for NASA's 
Heliophysics Science Mission. Unlike NASA's other Science Missions, 
Heliophysics received a cut in fiscal year 2016 and has seen only 
nominal increases in earlier years. This request is a 5.7 percent 
increase year-over-year from fiscal year 2015 to fiscal year 2017 and 
will ensure that NASA's Heliophysics Division is able to fulfill the 
intention of the National Space Weather Strategy and restore real 
dollar investments in heliophysics missions.
    Within NASA's Science Mission Directorate, AGU requests that 
Congress set equitable appropriation levels for the Earth, Planetary, 
and Heliophysics Divisions to ensure they are in harmony with their 
respective Decadal studies produced by the National Research Council.
Earth Science and Planetary Science Divisions
    Missions within NASA's Earth Science Division aid in flood and 
drought prediction, earthquake response, and optimizing military and 
commercial marine operations. Greater knowledge and forecasting skills 
are urgent when we consider the effort, time, and costs of protecting 
coastal infrastructure, human and animal health threatened by toxic 
algal blooms, developing new water resources for manufacturing and 
agriculture, and restoring communities in the wake of hazards. These 
observations, and many others like them, are integral and require the 
vantage point of outer space.
    NASA's Planetary Science Division advances our understanding of the 
solar system and inspires future generations of scientists. NASA is on 
schedule to launch the next Mars rover in 2020 and plans to launch a 
Europa mission in the same decade, furthering our understanding of the 
conditions needed to sustain life.
    Both areas of science, Earth and planetary, are complementary. The 
study of the Earth system--Earth's interacting physical, chemical, and 
biological processes--informs our understanding of other worlds in the 
solar system, and our exploration of these bodies advance our knowledge 
of Earth's evolution.
Heliophysics Science Division
    Studying the sun and its interactions with Earth is crucial to 
increasing our knowledge of the dynamic solar processes that impact all 
life on our planet. This includes advance detection and warning of 
space weather events, such as solar storms, that have the potential to 
cause serious damage to our satellites, energy grid infrastructure, and 
the electronics we depend on everyday. The request would ensure that 
NASA's Heliophysics Division continues to advance our understanding of 
the threat of space weather, as directed by last year's National Space 
Weather Plan, and other interactions between the sun and the Earth.
            national oceanic and atmospheric administration
    AGU requests that Congress appropriate $6.05 billion for NOAA in 
fiscal year 2017. This would be a 5 percent increase over the fiscal 
year 2016 appropriated level for NOAA. Investing in NOAA not only keeps 
our country resilient in the face of environmental and public health 
hazards, but also strengthens our Nation's capacity for science-based 
innovation and provides superior economic value by enabling businesses 
and government to better manage risk.
    In the face of natural hazards and environmental emergencies, NOAA 
serves as an essential foundation of community resiliency and public 
health. Weather, water, and climate events cause an average of 
approximately 650 deaths and $15 billion in damage per year. NOAA is 
also responsible for around 90 percent of all presidentially declared 
disasters. Strong support for NOAA will allow the agency to create 
detailed flooding forecasts for the 100 million Americans who do not 
currently have them; maintain the NEXRAD radar system used for 85 
percent of all tornado and severe storm warnings; and continue adding 
to the 39,000 lives saved by NOAA's satellite rescue program. The 
services provided by NOAA are irreplaceable in emergency situations 
where time is a matter of life and death.
    NOAA also plays a critical role in ensuring our economic stability. 
One third of U.S. GDP is affected by weather and the environment; 2015 
saw 10 weather and climate disaster events resulting in losses 
exceeding $1 billion. From large corporations to small businesses, the 
decision-based forecasting provided by NOAA allows American enterprises 
to make informed choices that save vital time, money, and resources. 
The high quality, uninterrupted data provided by NOAA and interpreted 
by NOAA scientists is a fundamental tool that millions of Americans 
rely on every day.
    NOAA is constantly improving its ability to prepare for, respond 
to, and recover from major disasters and national security emergencies. 
NOAA's Space Weather Prediction Center forecasts geomagnetic storms 
from the sun, and can provide a 15- to 60-minute warning time before 
the surge of charged particles reaches Earth. These storms can disable 
power grids, shut down telecommunications, and disrupt commercial and 
military global positioning systems (GPS). Experts estimate the next 
large storm has the potential to cost our economy $1-2 trillion. 
Without NOAA's advanced warnings, our national security and economy are 
left in a dangerously vulnerable position.
                      national science foundation
    AGU requests that Congress appropriate $8 billion for NSF in fiscal 
year 2017. This would be a 7.2 percent increase over the fiscal year 
2016 appropriated level for NSF.
    The Foundation is critical to America's ability to compete globally 
in technological and scientific innovation. Faced with ever-increasing 
international competition, maintaining U.S. scientific leadership 
requires continued robust investments in basic research and STEM 
education. NSF's annual budget provides about a quarter of the total 
Federal budget for basic research conducted at U.S. colleges and 
universities. NSF is the only Federal agency that supports research and 
education across all STEM fields at all educational levels. Over 90 
percent of NSF's projects are funded using grants or cooperative 
agreements, of which three-fourths go to academic institutions. 
Research and education programs supported by NSF help increase and 
develop the knowledge base needed to push the frontiers of science, 
mathematics, and engineering disciplines, contribute to the development 
of the future science and technology workforce, underpin new fields of 
inquiry, and promote interdisciplinary research and education. All of 
these undertakings facilitate technological innovation.
    Even under tight budget constraints, it is vital for NSF to have 
steady budget levels that demonstrate real growth. Under constant 2014 
dollars, NSF lost 5.8 percent of its budget from fiscal year 2010 to 
fiscal year 2014. This stagnant pace of funding is creating an 
innovation deficit in the U.S.--a widening gap between the actual level 
of Federal Government funding for research and higher education and 
what the investment must be for the U.S. to remain the world's 
innovation leader.
Geosciences Directorate
    The Geoscience Directorate (GEO) awards research grants in the 
Earth, atmospheric, ocean, and polar sciences. Much of the geoscience 
research budget leads to a better understanding of critical national 
needs, such as water and mineral resources, energy resources, 
environmental issues, climate change, and mitigation of natural 
hazards. AGU asks the subcommittee to strongly support these programs.
    GEO supports infrastructure, operation, and maintenance costs for 
cutting edge facilities that are essential for fundamental and applied 
research. Geoscience-based research tools and academic expertise helped 
to track and contain the BP Deepwater Horizon oil spill, saving 
billions of dollars for Gulf industries and untold costs to the 
environment. Among the major infrastructure that NSF supports are the 
U.S. Arctic and Antarctic Facilities and Logistics, Academic Research 
Fleet, EarthScope Operations, Incorporated Research Institutions for 
Seismology (IRIS), the Ocean Drilling Program, the Ocean Observatories 
Initiative, and the National Center for Atmospheric Research. All of 
these programs are essential to our Nation's innovation and economic 
well-being. AGU strongly supports robust and steady funding for the 
operation and maintenance of these major facilities.
Earth Science Education
    The geoscience workforce is aging and retiring at a fast rate. 
Congress can grow this workforce, stimulate economic growth in the 
energy, natural resources, and environmental sectors, and improve 
natural resource literacy by supporting the full integration of Earth 
science information into mainstream science education at the K-12 and 
higher education levels. AGU strongly supports the new NSF INCLUDES 
program (Inclusion Across the Nation of Communities of Learners that 
have been Underrepresented for Diversity in Engineering and Science), 
the Integrated NSF Support Promoting Interdisciplinary Research and 
Education program (INSPIRE), the Graduate Research Fellowships (GRF), 
the Research Experiences for Undergraduates (REU), and the Faculty 
Early Career Development Program (CAREER). These programs are effective 
in building a science and engineering workforce for the twenty-first 
century that supports academia, industry, national defense, and Federal 
and local governments.
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the American Geosciences 
Institute's perspective on fiscal year 2017 appropriations for 
geoscience programs within the subcommittee's jurisdiction.
    The American Geosciences Institute (AGI) supports critical earth 
science research conducted by the National Science Foundation (NSF), 
the National Oceanic and Atmospheric Administration (NOAA), the 
National Institute of Standards and Technology (NIST), and the National 
Aeronautics and Space Administration (NASA). Cutting-edge research on 
the Earth, energy, and the environment has fueled economic growth, 
mitigated losses, and improved our quality of life. All of these 
agencies carry out vital mission-focused geoscience research and 
participate in a range of interagency collaborations with the U.S. 
Geological Survey, the Department of Energy, other Federal agencies, 
and State, tribal, and local agencies on topics ranging from emergency 
planning and response to anticipating water availability. The Earth 
system is highly complex and interconnected, geoscience information 
from all these agencies is vital for decisionmaking at all levels of 
government.
    AGI respectfully requests at least $8 billion funding for NSF, 
including $1.4 billion for the Geoscience Directorate. AGI supports the 
President's request for $5.85 billion for NOAA, $1 billion for NIST, 
and $2.03 billion for NASA Earth Science programs.
    AGI is a nonprofit federation of 51 geoscientific and professional 
societies that represent more than 250,000 geologists, geophysicists, 
and other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources, resilience to 
hazards, and the health of the environment.
                      national science foundation
    Research across all areas of science and engineering contributes 
knowledge and understanding about many societal issues ranging from 
homeland security to cyberinfrastructure, and it produces revolutionary 
and often unforeseen breakthroughs. Basic research provides information 
that is used to improve people's quality of life, it is the foundation 
for a dynamic and innovative economy, and it strengthens the security 
of the Nation.
    NSF not only provides core funding and essential infrastructure for 
basic research, it also supports the education and training of the next 
generation of the workforce. AGI believes that investment in NSF 
programs, where funding is allocated based on competitive, scientific 
merit and peer review, will pay important dividends in maintaining U.S. 
dominance in science and technology far into the future. AGI supports 
the President's request for $8 billion for NSF.
    NSF Geosciences Directorate: The Geosciences Directorate (GEO) is 
the principal source of Federal support for academic earth scientists 
and their students who seek to understand the Earth and the processes 
that sustain and transform life on this planet. The Geosciences 
Directorate provides about 64 percent of Federal funding for basic 
geoscience research at academic institutions. The Directorate expects 
to distribute about 1,400 research grants and 1,600 competitive awards 
in fiscal year 2017 while also supporting indispensible research 
infrastructure and instrumentation. AGI respectfully asks the 
subcommittee to provide the Geosciences Directorate with at least $1.4 
billion for fiscal year 2017.
    The GEO Directorate plays a significant role in NSF's cross-
foundational initiatives, particularly the Innovations at the Nexus of 
Food, Energy, and Water Systems (INFEWS) and Prediction of and 
Resilience against Extreme Events (PREEVENTS) activities. Geoscience 
research is fundamental to all elements of INFEWS, contributing 
information on fossil, nuclear, and renewable energies; the quantity, 
quality, and distribution of water supplies; the characteristics, 
health, and stability of soils; and on the critical zone where earth, 
biological, and human systems intersect. The PREEVENTS initiative will 
strengthen the Nation's resilience to natural disasters such as 
hurricanes, droughts, and earthquakes, which are all linked to the 
Earth system. These investments in pre-disaster research and mitigation 
will provide an excellent return on investment, both in monetary and 
social terms. AGI supports $62 million for INFEWS and $43 million for 
PREEVENTS, including $14.78 million for INFEWS and $23.50 million for 
PREEVENTS in the Geoscience Directorate, and particularly stresses the 
importance of the Earth Science Division's contribution to this work.
    NSF's Division of Polar Programs (PLR) funds basic research in the 
Arctic and Antarctic and manages all U.S. activities in Antarctica as a 
single, integrated program. As the U.S. enters its second year chairing 
the international Arctic Council, it is especially important to enhance 
polar research initiatives. The polar regions are the focus of intense 
scientific and political interest as the new navigation routes are 
opening access to resources and presenting security challenges. NSF-
funded research and infrastructure are helping the United States 
understand environmental conditions in extreme environments, develop 
polar technology, and construct data-driven strategic and security 
policies. AGI suggests a minimum of $465 million for the Division of 
Polar Programs.
    NSF funds facilities that enable researchers to access locations, 
data, and technologies that serve the overall research community. AGI 
strongly supports robust and steady funding for infrastructure and the 
operation and maintenance of major facilities, including the Academic 
Research Fleet, Geodetic and Seismological Facilities for the 
Advancement of Geosciences and EarthScope (GAGE and SAGE), Ocean 
Drilling Activities, the Ocean Observatories Initiative, and the 
National Center for Atmospheric Research (NCAR). A centralized pool of 
national geoscience infrastructure is an efficient way to achieve the 
maximum return on investment and to ensure that the nation has the 
equipment and expertise needed to respond rapidly to opportunities and 
emergencies. AGI supports both the discretionary and mandatory funding 
requested by the President for these essential facilities within the 
Geosciences Directorate.
    Directorate for Education and Human Resources: AGI's Status of the 
Geoscience Workforce Report 2014 predicts a shortfall of approximately 
135,000 geoscientists by 2022. NSF funding for geoscience education is 
essential to develop the competitive, skilled workforce that can fill 
this predicted gap in areas of vital national interest including energy 
and the environment. Geoscience education also creates an informed 
citizenry prepared to make well-founded decisions about the management 
of our planet and its resources. Outreach and education are important 
at all levels from K-12 through graduate-level education and should 
include formal and informal outlets to facilitate lifelong learning. 
AGI strongly supports funding for geoscience education at all levels 
and particularly supports programs to diversify the geoscience student 
population and workforce such as the INCLUDES (Inclusion across the 
Nation of Communities of Learners that have been Underrepresented for 
Diversity in Engineering and Science) initiative. AGI urges Congress to 
provide funding for the President's total request of $242 million for 
NSF's Directorate for Education and Human Resources.
            national oceanic and atmospheric administration
    Geoscientists rely on NOAA for much of the data and long-term 
monitoring that enable research and rapid response for events such as 
hurricanes, drought, marine oil spills, and a range of coastal 
phenomena. The National Weather Service (NWS), Oceanic and Atmospheric 
Research (OAS), National Ocean Service (NOS), and the National 
Environment Satellite, Data and Information Service (NESDIS) programs 
provide the data necessary for understanding and mitigating these 
events, as well as sustaining our natural resources. AGI supports the 
President's request for $5.85 billion for NOAA and hopes that the 
subcommittee will continue to support these crucial initiatives.
    In addition, AGI supports increased funding for NWS to support 
landslide hazard assessments and to reduce losses from landslides and 
other ground failures.
             national institute of standards and technology
    Earth scientists and geotechnical engineers versed in the 
geosciences conduct basic research at NIST that is used by the public 
and private sectors to build resilient communities and stimulate 
economic growth. The research conducted and the information gained is 
essential for understanding natural hazards, identifying the 
infrastructure needed to build strong communities, and stimulating 
economic growth.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), an interagency program responsible for the 
efficient coordination of research and resources to understand and 
mitigate earthquakes, but has received only a small portion of 
authorized funding in the past. AGI strongly supports the President's 
request for $1 billion for NIST and urges Congress to reauthorize and 
fund the National Earthquake Hazards Reduction Program (NEHRP).
             national aeronautics and space administration
    NASA's current fleet of Earth-observing satellites provides the 
data necessary to understand our dynamic planet. Scientists rely 
heavily on data gathered from space to support weather and climate 
predictions and to understand the links between oceans, atmosphere, 
land, and biological systems. Government agencies and the private 
sector use NASA information intensively for decisionmaking and in 
business.
    Continuous, consistent, reliable data is the foundation for 
accurate assessments and forecasting of Earth's interconnected systems. 
Landsat satellites have been observing Earth's land surfaces 
continuously since 1972; geoscientists use Landsat data to monitor, 
predict, and react to drought, wildfires, changes in vegetation, and 
other changes to the Earth's surface. Data from the GRACE mission allow 
scientists to calculate groundwater and soil moisture levels, providing 
vital information for farmers and water managers. The GRACE-FO (Follow-
On) mission will extend this essential dataset. AGI strongly supports 
the continuation of the Landsat program and applauds the commitment to 
launch Landsat 9 as early as 2021 and Landsat 10 in or close to 2029. 
We support the President's request for $2.03 billion for NASA Earth 
Science, including $131 million for Landsat 9 and $34 for the GRACE-FO 
mission.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    This statement focuses on the National Science Foundation (NSF) and 
National Aeronautics and Space Administration (NASA).
    On behalf of this Nation's 37 Tribal Colleges and Universities 
(TCUs), which compose the American Indian Higher Education Consortium 
(AIHEC), thank you for the opportunity to express our views and 
recommendations regarding the National Science Foundation's TCU Program 
(NSF-TCUP) and the National Aeronautics and Space Administration's 
Minority University Research and Education Project (NASA-MUREP) for 
American Indian and Alaska Native STEM Engagement Program (MAIANSE) for 
fiscal year 2017.
                          summary of requests
    National Science Foundation (NSF)--Education and Human Resources 
Directorate (EHR): Since fiscal year 2001, a TCU initiative has been 
funded and administered under the NSF-EHR. This competitive grants 
program enables TCUs to enhance the quality of their STEM 
instructional, research, and outreach programs. TCUs that have been 
awarded an NSF-TCUP grant are expected to complete a comprehensive 
program needs analysis and to develop a plan for addressing both their 
institutional and NSF goals, with a primary goal being significant and 
sustainable expansion and improvements to STEM programs. Through NSF-
TCUP, tribal colleges have been able to establish and maintain programs 
that represent a key component of the career pipeline for the American 
Indian STEM workforce. We urge the subcommittee to fund competitively 
awarded NSF-TCUP grants at a minimum of $14,000,000.
    National Aeronautics and Space Administration (NASA)--NASA 
Headquarters, Office of Education--Minority University Research and 
Education Programs (MUREP): In 2014, the NASA-MUREP program initiated 
two competitive grant programs to enhance the range of STEM education 
and research opportunities open to 34 eligible TCUs: (1) Earth Systems, 
Technology, and Energy Education for MUREP (ESTEEM); and (2) the TCU 
Experiential Learning Opportunity program. Together, these programs 
comprise MUREP's program for American Indian & Alaskan Native STEM 
Engagement (MAIANSE). Activities funded under these programs help to 
address critical science education and research needs of TCUs, are 
helping to build the Native (and national) STEM workforce, and enhance 
the economic development of tribal communities. We strongly urge the 
subcommittee to fund the NASA MUREP program for American Indian & 
Alaskan Native STEM Engagement (MAIANSE) at, or above, the fiscal year 
2014 level.
    Tribal Colleges and Universities: ``DOING SO MUCH WITH SO LITTLE.'' 
TCUs are an essential component of American Indian/Alaska Native (AI/
AN) education. Currently, 37 TCUs operate more than 75 campuses and 
sites in 16 States, within whose geographic boundaries 80 percent of 
all American Indian reservations and Federal Indian trust land lie. 
They serve students from well over 250 federally recognized tribes, 
more than 85 percent of whom receive Federal financial aid--primarily 
Pell grants. In total, the TCUs annually serve 160,000 AIs/ANs and 
other community members through a wide variety of academic and 
community-based programs. TCUs are public institutions accredited by 
independent, regional accreditation agencies and, like all U.S. 
institutions of higher education, must regularly undergo stringent 
performance reviews to retain their accreditation status. Each TCU is 
committed to improving the lives of its students through higher 
education and to moving AI/ANs toward self-sufficiency. To do this, 
TCUs serve many roles in their reservation communities, functioning as 
community centers, libraries, tribal archives, career and business 
centers, open access computer labs, summer camps, community farms, 
economic development centers, GED training and testing centers, child 
and elder care centers, and more.
    The Federal Government, despite its direct trust responsibility and 
binding treaty obligations, has never fully funded TCU institutional 
operations as authorized under the Tribally Controlled Colleges and 
Universities Assistance Act of 1978. Yet despite funding challenges, 
TCUs are leading the Nation in preparing AI/AN nurses and more 
recently, in preparing teachers for our Native schools. For example, in 
2014, half of all AI/AN special education teachers in Montana graduated 
from Salish Kootenai College. TCUs train other professionals in high-
demand fields, including agriculture and natural resources management, 
human services, IT technicians, and building tradesmen. By teaching the 
job skills most in demand on our reservations, TCUs are laying a solid 
foundation for tribal economic growth, with benefits for surrounding 
communities, and the Nation as a whole. But that is not enough. TCU 
leadership understands that we must do more--we must move beyond simply 
workforce training. Today, TCUs are tackling the tougher--but much more 
significant--issue of job creation, because we know that to break the 
cycle of generational poverty and end the culture of dependency that 
grips so much of Indian Country, simply preparing students for a very 
limited labor market is not enough. We must create new industries, new 
businesses, and a culture of self-sufficiency and innovation. Our job 
creation initiative is focusing initially on advanced manufacturing, 
through a partnership with the U.S. Department of Energy, National 
Laboratories, TCUs, and industry.
    Tribal colleges continually seek to instill a sense of hope and 
identity within Native youth, who one day will lead our tribal nations. 
Unfortunately, the high school drop-out rate for Native students 
remains around 50 percent. To help address this alarming reality, TCUs 
are partnering with the Department of the Interior's Bureau of Indian 
Education to help create a lasting ``college-going culture'' in Indian 
middle and high schools. TCUs are reaching back to create a bridge for 
Indian students as early as elementary school, encouraging them to 
abandon any notion of dropping out of high school and instead, to think 
that the natural course is to finish high school and go on to the local 
TCU. In addition, TCUs offer Dual Credit courses for high school 
students, provide math teachers for local high schools as a strategy 
for improving course delivery, host Saturday academies, after school 
programs and summer camps for middle and high school students, and at 
the other end of the spectrum, they offer GED training and testing.
    As noted earlier, the TCUs' operations funding is insufficient, and 
their budgets are further disadvantaged because, on a per student 
basis, the colleges receive funding for only about 85 percent of their 
academic enrollments. Approximately 15 percent of the TCUs' collective 
enrollments are non-Indian students living in the local community, but 
TCUs receive Federal funding based only on Indian students, defined as 
members of a federally recognized tribe or the biological children of 
enrolled tribal members. While many TCUs do seek funding from their 
respective state legislatures for their non-Indian, State-resident 
students (often referred to as ``non-beneficiary'' students) successes 
have been, at best, inconsistent. Given their locations, often hundreds 
of miles from another postsecondary institution, TCUs are open to all 
students, Indian and non-Indian, believing that education in general, 
and postsecondary education in particular, is a catalyst to a better 
economic future for their areas.
    A recent independent, economic impact study proves this, 
illustrating that TCUs create lasting value from multiple perspectives: 
students, society, and taxpayers. TCUs elevate their students' lifetime 
incomes, and this in turn benefits society as a whole by increasing the 
region's economy and generating a wide array of savings through 
improved lifestyles. The increased employment benefits taxpayers 
through increased tax receipts and a reduction in the need for welfare 
and unemployment benefits. In fact, every dollar spent is quadrupled in 
the lifetime income of students; society gains over five times the 
investment in added income and social savings; and the taxpayers get 
back almost two and a half times the investment. In short, the TCUs are 
a very sound investment of Federal funds.
                             justifications
National Science Foundation/Tribal Colleges and Universities Program 
        (NSF-TCUP) in the Education and Human Resources Directorate
    American Indian students have the highest high school drop-out 
rates in the country. Those who do pursue postsecondary education often 
require developmental classes before beginning their studies in 
earnest. Placement tests administered at TCUs to first-time entering 
students indicate that 71 percent required remedial math. Of these 
students, our data indicate that while 63 percent successfully complete 
the course, many do not do so in 1 year. Without question, a large 
proportion of the TCUs' already limited resources is dedicated to 
addressing the continual failings of K-12 education systems.
    To help rectify this, TCUs have developed strong partnerships with 
their K-12 feeder schools and are actively working, in large part 
through support from NSF-TCUP grants, to engage young students in 
community and culturally relevant science and math education and 
outreach programs. These efforts include weekend academies and summer 
STEM camps that reinforce and supplement the instructional programs 
that K-12s are able to provide.
    For the past 15 years, NSF-TCUP has provided essential capacity 
building assistance and resources to TCUs. In the years since the 
program began, NSF-TCUP has become the primary Federal program for 
building STEM capacity at the TCUs. NSF-TCUP has served as a catalyst 
for capacity building and positive change at TCUs and the program can 
be credited with many success stories. Today, American Indians and 
Alaska Natives are more aware of the importance of STEM to the long-
term survival of tribes and tribal communities, particularly in areas 
such as renewable energy and technology-driven economic development.
    The NSF-TCUP, administered by the Education and Human Resources 
Directorate, is a competitive grants program that enables TCUs to 
develop and expand critically needed science and math education and 
research programs relevant to their respective communities. Through 
this program, TCUs that have been awarded an NSF-TCUP grant have been 
able to enhance their STEM instructional offerings, workforce 
development, research, and outreach programs.
    For example, NSF-TCUP funds have allowed Northwest Indian College 
(NWIC) in Bellingham, Washington to cultivate a comprehensive science 
education program that, beginning at the high school level, provides a 
range of mentoring, peer tutoring, research, service learning, and 
academic enrichment opportunities that help to grow the next generation 
of American Indian scientists, science teachers, and leaders. A new 
NSF-TCUP grant awarded to NWIC is producing a collaborative research 
partnership for geoscience education with Western Washington University 
(WWU). This collaborative is designed to increase and modify the 
geosciences curriculum at NWIC and establish an educational continuum 
that will facilitate the articulation of NWIC graduates into the 
graduate geoscience curriculum at WWU. A shared research agenda will be 
developed between the two institutions that uses the Bellingham Bay 
ecosystem as a theme for scholarly studies and place-based instruction. 
Administrative changes at both institutions will include student 
mentoring, articulation agreements, co-listed courses, and cross-
cultural faculty development.
    Despite its advances and successes, funding for the NSF-TCUP 
program has been stagnant. Therefore, not all of the TCUs have had an 
opportunity to benefit from this program; in fact the percentage of 
proposals funded has declined each year beginning in 2004. We urge the 
subcommittee to fund competitively awarded NSF-TCUP grants at a minimum 
of $14,000,000.
National Aeronautics and Space Administration (NASA) Office of 
        Education/Minority University Research and Education Programs 
        (MUREP) and American Indian & Alaskan Native STEM Engagement 
        (MAIANSE)
    College of Menominee Nation (CMN) in Keshena, Wisconsin is one of 
four tribal colleges to win 3-year grant awards designed to improve 
teaching and learning about global climate change. For this project, 
CMN is working in collaboration with Argonne National Laboratory, 
University of Wisconsin-Milwaukee and UW-Platteville, National Council 
for Science and Environment, and of course, NASA. The overarching goals 
of the CMN project are to explore climatic factors that affect 
photovoltaic module performance, and to design an evaluation tool for 
comparing different solar energy systems. The project has three main 
objectives: (1) to provide an experiential learning opportunity for 
four to six STEM students to construct a user-friendly solar energy 
system evaluation tool, including cost analysis and investment payback 
schedule; (2) to establish innovative teaching curricula that meld STEM 
concepts with climate change literacy resulting in combined social 
science and physical science courses with wide student appeal; and (3) 
to develop an educational train-the-trainer model as a training outlet 
for TCU faculty and local middle school teachers to learn how to 
incorporate climate change topics in the classroom. The project is 
intended to advance discovery and understanding of climate-related 
research while promoting teaching, training, and learning of STEM 
principles. The results of this research will advance knowledge and 
understanding of the short- and long-term performance of solar energy 
systems, thereby allowing consumers to make educated choices about 
solar module return on investment for residential and commercial 
energy. One of the goals of the MAIANSE programs is to create a diverse 
and highly skilled climate-related workforce. Continuation and 
expansion of these NASA programs will give more TCUs the opportunity to 
increase their capacity and advance the NASA mission in Indian Country. 
We strongly urge the subcommittee to fund NASA-MUREP MAIANSE programs 
at a minimum of $3,500,000.
                               conclusion
    Tribal Colleges and Universities provide access to quality higher 
education opportunities, including STEM-focused programs, for thousands 
of American Indians and Alaska Natives. The modest Federal investment 
that has been made in TCUs has paid great dividends in terms of 
employment, education, and economic development. Continuation of this 
investment represents one of the most cost-effective strategies for 
enabling Tribal (and national) STEM-based economic development.
    We greatly appreciate your past and continued support of the 
Nation's Tribal Colleges and Universities and your thoughtful 
consideration of our fiscal year 2017 appropriation request.
                                 ______
                                 
        Prepared Statement of the American Physiological Society
    The American Physiological Society (APS) thanks you for your 
sustained support of science at the NSF and NASA. The APS is a 
professional society, numbering more than 10,000 members, dedicated to 
fostering research and education as well as the dissemination of 
scientific knowledge concerning how the organs and systems of the body 
function. In this letter we offer our recommendations for fiscal year 
2017 funding levels for these two agencies.

  --The APS urges you to fund the fiscal year 2017 NSF budget at a net 
        level of $7.96 billion to prevent further erosion of program 
        capacity.
  --The APS urges you to restore cuts to NASA's life sciences research 
        budgets and to increase funding for the Human Research Program.

    NSF and NASA support scientific research and technology development 
programs that are critical to the future technological excellence and 
economic stability of the United States. Federal investment in research 
is critically important because breakthroughs in basic and 
translational research are the foundation for new technologies that 
help patients, fuel our economy, and provide jobs.
NSF Funds Outstanding Research and Education Programs
    NSF provides support for approximately 20 percent of all federally 
funded basic science and is the major source of support for non-medical 
biology research. This includes integrative, comparative, and 
evolutionary biology, as well as interdisciplinary biological research. 
Time and time again we have seen that the knowledge gained through 
basic biological research is the foundation for more applied studies 
that sustain the health of animals, humans and ecosystems. NSF-funded 
research has led to countless new discoveries that could not have been 
envisioned when the research began. Nevertheless, these unforeseen 
applications have had enormous impact on science, health and the 
economy worlds.
    The majority of the NSF funding is awarded through competitive, 
merit-based peer review. Merit review ensures that the best possible 
projects are supported. Both the scientific reviewers and NSF program 
staff consider not only the intellectual merit of each research 
proposal, but also its broader impacts. NSF's criteria for broader 
impact address the potential for research to benefit society or to 
achieve specific outcomes. NSF has an exemplary record of 
accomplishment in terms of funding research that produces results with 
far-reaching potential. Since its inception in 1950, NSF has supported 
the work of 217 Nobel Laureates, including the 2015 winners of the 
Chemistry and Economics prizes.
    Biological research is just one part of the NSF portfolio. The APS 
believes that each of the NSF directorates support research that is 
critical to NSF's mission ``to promote the progress of science; to 
advance the national health, prosperity, and welfare; to secure the 
national defense . . .'' Collaboration among scientific disciplines is 
increasingly recognized as the best and most efficient way to advance 
science. This will only be possible with strong support for all 
disciplines of research.
    In addition to funding innovative research in labs around the 
country, the NSF education programs foster the next generation of 
scientists. The APS is proud to have partnered with NSF in programs to 
provide training opportunities and career development activities to 
enhance the participation of underrepresented minorities in science. We 
believe that NSF is uniquely suited to foster science education 
programs of the highest quality, and we recommend that Congress 
continue to provide Federal funds for science education through the 
NSF.
    The APS joins the Federation of American Societies for Experimental 
Biology (FASEB) in recommending that the NSF be funded at a level of 
$7.96 billion in fiscal year 2017. The NSF is poised to address major 
challenges facing our Nation and our world in the 21st Century. The 
agency is already engaged in crucial efforts to enhance understanding 
of everything from the human brain to how the climate is changing, but 
it needs adequate resources to continue to carry out its mission.
Support for Life Sciences Research Should Be Increased at NASA
    NASA sponsors research across a broad range of the basic and 
applied life sciences, including gravitational biology, biomedical 
research and the Human Research Program (HRP). The gravitational 
biology and biomedical research programs explore fundamental scientific 
questions through research carried out both on Earth and aboard the 
International Space Station, which provides an environment for the 
conduct of experiments in space. NASA's HRP conducts focused research 
and develops countermeasures with the goal of enabling safe and 
productive human space exploration.
    During prolonged space flight, the physiological changes that occur 
due to weightlessness, increased exposure to radiation, confined living 
quarters, and alterations in eating and sleeping patterns can lead to 
debilitating conditions and reduced ability to perform tasks. APS 
scientists are actively engaged in research that explores the 
physiological basis of these problems with the goal of contributing to 
the identification of therapeutic targets and development of novel 
countermeasures. The knowledge gained from this research is not only 
relevant to humans traveling in space, but is also directly applicable 
to human health on Earth. For example, some of the muscle and bone 
changes observed in astronauts after prolonged space flight are similar 
to those seen in patients confined to bed rest during periods of 
critical illness as well as during the process of aging.
    NASA is the only agency whose mission addresses the biomedical 
challenges of human space exploration. Over the past several years, the 
amount of money available for conducting this kind of research at NASA 
has dwindled. The number of projects and investigators supported by 
NASA through the HRP has declined by 30 percent over the last twelve 
years; similarly, the number of projects and investigators supported 
through the Space Biology program has declined by more than 50 percent 
over that same period. (https://taskbook.nasaprs.com/Publication/).
    In the past, appropriations legislation specified funding levels 
for biomedical research and gravitational biology, but recent internal 
reorganizations at NASA have made it difficult to understand how much 
money is being spent on these programs from year to year. The APS 
recommends that funding streams for these important fundamental 
research programs be clearly identified and tracked within the NASA 
budget. The APS also recommends restoration of cuts to peer-reviewed 
life sciences research to allow NASA-funded scientists to conduct 
research that will be critical in not only supporting the success of 
future long-range manned space exploration but also leading to 
innovative discoveries that can be applied to Earth-based medicine. As 
highlighted above, investment in the basic sciences is critical to our 
Nation's technological and economic future. This innovative engine of 
research fuels our world leadership and our economy. The APS urges you 
to make every effort to provide these agencies with increased funding 
for fiscal year 2017.
                                 ______
                                 
      Prepared Statement of the American Psychological Association
                      national science foundation
    The American Psychological Association (APA) is a scientific and 
professional organization of more than 122,000 psychologists and 
affiliates. APA urges the subcommittee to fund the National Science 
Foundation (NSF) at $8 billion in fiscal year 2017. The Coalition for 
National Science Funding (CNSF), an alliance of over 140 universities, 
businesses, and scientific associations (including APA) also endorses 
this level of support for NSF, the only Federal research agency 
``charged with the promotion of scientific progress across all 
scientific and engineering disciplines'' and one that is vital to U.S. 
economic health, educational achievement, global competitiveness, and 
national security.

    APA urges Congress to:
1. Support Core Psychological Research at NSF
    NSF is the only Federal agency whose primary mission is to support 
basic research and education in math, engineering and science--
including the behavioral and social sciences. NSF's investment in basic 
research across these disciplines has allowed for extraordinary 
scientific and technological progress, ensuring continued economic 
growth, improvements in the design, implementation and evaluation of 
public education, strengthened national security, and the generation of 
cutting-edge new knowledge.
    Although psychologists receive funding from diverse programs within 
NSF, most core psychological research is supported by the Social, 
Behavioral and Economic Sciences Directorate (SBE), with its focus on 
the variables that determine human behavior across all ages, affect 
interactions among individuals and groups, and decide how social and 
economic systems develop and change. In addition to core behavioral 
research in cognitive neuroscience, human cognition and perception, 
learning and development, and social psychology, SBE will continue to 
invest funds to participate in initiatives and Cross Directorate 
programs such as Understanding the Brain (which includes cognitive 
science, neuroscience, and the BRAIN Initiative), Innovations at the 
Nexus of Food, Energy, and Water Systems (INFEWS), Risk and Resilience, 
and the effort to increase participation of underrepresented groups in 
STEM fields (NSF INCLUDES).
    The Biological Sciences Directorate at NSF also provides support 
for research psychologists who ask questions about the very principles 
and mechanisms that govern life at the level of the genome and cell, or 
at the level of a whole individual, family or species. In previous 
testimony, APA has expressed concern about diminishing support for key 
behavioral research programs within this Directorate, most notably 
those focused on learning and cognition. We urge NSF to strengthen 
support both in the Biological Sciences Directorate and Foundation-wide 
for research projects that seek to understand the neural or genetic 
mechanisms by which learning occurs, use learning as an assay for the 
effects of environmental change on a biological system, construct and 
evaluate artificial learning systems, conceptualize the role of 
learning in biodiversity and evolution, and apply learning principles 
to education and workforce challenges.
2. Counter Specific Threats to NSF Merit Review and the Social and 
        Behavioral Sciences
    Addressing questions about human behavior is as critical to our 
Nation's survival and well-being in a global context as investigating 
those physical mysteries both minute as a nanostructure and vast as the 
universe. Leaders in industry as well as science continue to urge 
Congress to stop singling out individual scientific disciplines or 
entire NSF Directorates, such as SBE, for elimination or further 
drastic reductions, and to stop attacking individual, peer-reviewed 
grants funding social and behavioral scientists (including 
psychologists). All NSF grant proposals are reviewed with two merit 
criteria: Intellectual Merit and Broader Impacts. Grant proposals must 
advance knowledge and benefit society, and for the last 60 years, NSF 
has used this gold-standard merit review process to review and award 
the best scientific, engineering, and education research. APA urges 
Congress to avoid attempts to substitute political review for 
scientific peer review.
3. Address Increasing Investments in Science by Global Competitors: 
        U.S. Must Not Create Innovation Deficit and Make Policy Through 
        ``Expensive Guessing''
    APA concurs with CNSF that uncertainties in the Federal budget 
process, deep cuts to scientific research programs due to 
sequestration, and legislative attacks directed at peer merit review 
processes and specific grants are imperiling the U.S. capacity to 
remain globally competitive while other nations pour enormous resources 
into research; leading to an innovation deficit with vast economic and 
national security implications; rendering our attempts to address 
national challenges in the areas of health, education, public safety 
and national security expensive guessing rather than policy--making 
based on empirical data; adding to job loss and reduced productivity in 
States and districts across the country, which otherwise would continue 
to benefit from the scientific enterprise and resulting technology 
transfer; and further restricting the pipeline for our future 
scientific workforce.
                         department of justice
    APA is deeply committed to reforming the criminal justice system, 
supporting those with mental illness within this system, and ensuring 
that the best scientific evidence is funded and used to make 
programmatic and policy changes.

    APA urges Congress to:
1. Reduce Incarceration, Protect Public Safety, and Provide Better 
        Stewardship of Tax Dollars
    APA strongly supports bipartisan efforts in Congress to reform the 
Federal criminal justice system. The vast majority of incarcerated 
offenders return from jail or prison to their communities, and an 
estimated 77 percent of former prisoners are rearrested within 5 years 
of release. This represents a systemic failure which Congress and many 
States are making important steps to redress. Fiscal year 2017 
appropriations for DOJ represent another avenue for reform and to 
reduce the burden of incarceration on public coffers and affected 
families and communities.
    Achieving these goals requires a shift in strategy and funding 
priorities. To this end, APA applauds many themes of the DOJ fiscal 
year 2017 budget request and urges the subcommittee to adopt a similar 
approach in appropriations for the Bureau of Prisons (BOP) and Office 
of Justice Programs (OJP).
    DOJ projects a $210.8 million decrease in BOP operating costs this 
year, due to decreases in the prison population, and APA supports DOJ's 
proposals to reinvest much of this savings into enhancements to help 
BOP continue to reduce population numbers. Specifically, APA urges the 
subcommittee to provide BOP with an additional: $9.7 million for mental 
health staff; $20 million for changes to restrictive housing intended 
to provide better alternatives for individuals with mental illness; 
$42.6 million for cognitive behavioral treatment in residential 
treatment centers; and $91.3 million to facilitate prisoner reentry, by 
enhancing pre-release programming, increasing available reentry center 
beds, facilitating prisoner-family connections, and improving 
educational and vocational training. These investments will make 
offenders more likely to thrive and maintain employment when they 
return to the community, which protects public safety, makes families 
stronger, and adds to the tax base.
    APA also urges the subcommittee to adequately fund a number of 
priorities at OJP to support similar reforms in State prison and local 
jail systems. Several States have provided leadership in reducing 
unnecessary incarceration, and OJP can help ensure other States gain 
the benefits of similar reforms. APA specifically requests that the 
subcommittee provide: $100 million for the Second Chance Act; $30 
million for Justice Reinvestment; $5.4 million for the Indigent Defense 
Initiative (Answering Gideon's Call); $58 million for Criminal Justice 
Statistics; and $48 million for Research, Development, and Evaluation 
within the National Institute of Justice (including $3 million for 
Social Science Research on Indigent Defense).
    Finally, APA asks the subcommittee to provide strong funding for 
juvenile justice programming, to support intervention in the lives of 
young people while the chances are highest for them to develop along a 
healthy, productive, and fulfilling trajectory. APA requests: $80 
million for juvenile justice Part B formula grants; $10 million for 
girls in the juvenile justice system; $4 million for the National Forum 
on Youth Violence Prevention; $25 million for the Community-Based 
Violence Prevention Initiative; $42 million for the Delinquency 
Prevention Program (Title V); $5.4 million for the Improving Juvenile 
Indigent Defense Program; $30 million for the Juvenile Accountability 
Block Grant; $20 million for the Smart on Juvenile Justice Initiative; 
and $23 million for the Defending Childhood initiative.
2. Address Mental Illness and Reduce Strain on Criminal Justice Systems
    APA strongly supports diversion from deeper levels of justice 
system involvement, when public safety allows, so that individuals with 
mental illness can obtain the care they need. Law enforcement officers 
who serve on crisis intervention teams (CIT) divert individuals pre-
arrest and connect them with public mental health resources; problem-
solving courts provide pre-trial diversion, while maintaining the 
accountability of court supervision; and probation provides community 
corrections alternatives to incarceration that also maintain 
accountability and provide community mental health resources. Diversion 
also allows criminal justice agencies to focus on those individuals for 
whom correctional custody is deemed necessary, and this includes 
providing the mental and behavioral healthcare to which inmates have a 
constitutional right.
    To support important State and local government efforts across the 
Nation in addressing the high rate of mental and behavioral health 
needs among those in contact with criminal justice systems, APA asks 
the subcommittee to provide the Bureau of Justice Assistance (BJA) 
with: $14 million for the Justice and Mental Health Collaboration 
Program (formerly MIOTCRA); $42 million for the Drug Court Program; $6 
million for Veterans Treatment Courts; and $7.5 million for the new 
National Training Center to Improve Police-Based Responses to People 
with Mental Illness. APA notes the particular importance of funding 
this new national center, given current gaps between CIT training 
demand and opportunities.
3. Support Improved Police-Community Relations
    DOJ has supported an initial round of review and reforms (e.g., the 
Presidential Task Force on 21st Century Policing and police body-worn 
camera activities) to help address the crisis in trust between 
communities of color and law enforcement agencies. APA urges the 
subcommittee to provide adequate funding to BJA, Community Oriented 
Policing Services, and the Office of Juvenile Justice and Delinquency 
Prevention to support additional Federal, State, and local activities, 
by providing: $30 million to the Body-Worn Camera Partnership Program; 
$10 million for the Smart Policing--Body-Worn Camera Demonstration; and 
$20 million for Procedural Justice--Building Community Trust. APA 
recognizes the strain for all involved when mistrust exists between 
minority communities and law enforcement and believes that these 
investments can help replace destructive mistrust with mutually 
beneficial partnerships.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) recommends that 
Congress approve a budget of $8 billion for the National Science 
Foundation (NSF) for fiscal year 2017. This level of funding would 
provide 4 percent real growth in NSF research funding. The NSF supports 
one quarter of all federally funded research at U.S. colleges and 
universities; or more than 1,800 colleges, universities and other 
institutions in all 50 States, the District of Columbia and Puerto 
Rico. In 2017, NSF will directly support about 377,000 researchers, 
postdoctoral fellows, trainees, teachers and students. NSF funding is 
irreplaceable for much of the basic research that underlies U.S. 
innovation.
            nsf programs expand u.s. science and engineering
    Over 90 percent of the fiscal year 2017 NSF budget would fund 
research, education and related activities, largely as competitive 
awards in the form of grants or cooperative agreements. The budget 
request includes a special focus on support for early career 
investigators. More than three quarters of the NSF's budget is 
allocated to U.S. colleges and universities, not only directly 
underwriting research projects but also training the Nation's future 
scientists and engineers. Other recipients of NSF funding include; 
private industry, all levels of government, nonprofits and 
international organizations.
    Sustained NSF investments in basic research and the people who make 
the discoveries are crucial to stimulating the U.S. economy, enhancing 
the lives of people and shaping a future improved by science and 
technology. NSF grants have supported nearly 220 Nobel Prize winners. 
In fiscal year 2017, the agency expects to evaluate more than 52,000 
research proposals and make over 12,000 new awards. The proposed 
funding levels in the administration's NSF budget would allow an 
estimated 800 additional grants, raising funding success to a projected 
23 percent rate.
                nsf support advances biological sciences
    The NSF funds nearly 70 percent of basic biology research at the 
Nation's academic institutions. Advances in bioscience and 
environmental biology clearly depend heavily upon NSF appropriations. 
Broad support for biology produces knowledge essential to the Nation's 
agriculture, health and environment. NSF supported research has already 
spawned many innovations that push today's growing bio economy in areas 
such as biofuels, bio renewable chemicals and nanotechnology.
    In the fiscal year 2017 request, the Directorate for Biological 
Sciences (BIO) receives $790.5 million, or a 6.2 percent increase from 
fiscal year 2016. In fiscal year 2017, BIO expects to receive 6,200 
proposals for competitive awards, approving 1,600 new awards. BIO 
funding includes studies of molecules, cells, tissues, organs, 
organisms, populations, communities, ecosystems and the global 
biosphere. The directorate regularly partners in multidisciplinary 
efforts with programs in chemistry, engineering, mathematics, computer 
sciences and more. It is the Nation's principal supporter of basic 
studies in environmental biology, biodiversity and plant biology. The 
fiscal year 2017 budget will be distributed via BIO's five divisions: 
Molecular and Cellular Biosciences (MCB), Biological Infrastructure 
(DBI), Environmental Biology (DEB), Integrative Organismal Systems 
(IOS) and Emerging Frontiers (EF). BIO also supports the Plant Genome 
Research Project (PGRP) and the National Ecological Observatory Network 
(NEON), as well as myriad programs for education and career development 
in the biological sciences.
    In fiscal year 2017, BIO will solicit research proposals that align 
with the directorate's new Rules of Life emphasis that includes the 
genotype to phenotype challenge; plant and microbial sciences, 
including study of the microbiome; synthetic biology and the origin of 
life. The directorate expects extensive integration with mathematical 
and physical sciences, computer science and engineering. As another 
example of BIO's broad strategy, MCB's support of synthetic biology 
encourages work with other divisions and directorates to develop tools 
that advance bio manufacturing, biofuels and novel biomaterials for our 
bio economy. This includes additional investment related to the CRISPR/
Cas9 genome editing technology.
    The ASM strongly supports a fiscal year 2017 increase for 
microbiome research of $2.7 million, for a total investment of $16.4 
million. NSF supported studies have already contributed to the Federal 
strategy to understand and utilize microbiomes, which are the 
collective microorganisms that live in, on and around plants and 
animals. Microbiome researchers investigate the role of microbes in 
plant and animal function, productivity, health and resilience to 
environmental change, as well as microbes' role in soil and marine 
ecosystems. Studies are highly diverse in scale and subject; for 
example, metagenomics (the entirety of collective genomes in microbial 
communities), the composition of individual communities and collective 
metabolic activity within a specified microbiome.
    In the past year, NSF supported research on microbiomes has 
reported on how the composition of microbial communities may respond to 
changing conditions, how plant defense hormones help determine root 
microbiomes comprising microbes that protect against pathogens, how the 
gut microbiomes of baboons living together become similar and the 
suspected link between high fat and high sugar diets, intestinal 
bacteria and cognitive function.
    NSF supported projects frequently incorporate microorganisms as 
research tools or targets, integral to discoveries in health, 
agriculture, environment, sustainability, bio manufacturing and much 
more. Examples from the past year point to NSF's unique role in U.S. 
research:

  --Scientists have modified a plant gene that normally helps fight 
        bacterial infection (Pseudomonas syringae) to instead fight 
        viral infection (turnip mosaic and tobacco etch viruses), the 
        first time a plant's innate defense system has been altered to 
        confer resistance to a new disease.
  --Bacteria in biofilms communicate with one another via electrical 
        signaling similar to neural communications in the brain, 
        according to researchers who earlier described how biofilm 
        communities internally resolve resource shortages and metabolic 
        stress.
  --The first atlas of airborne microbes across the continental United 
        States identified more than 110,000 bacterial and 55,000 fungal 
        species, baseline data with implications for health and disease 
        in the public, agriculture and the environment.
            nsf partnerships promote cross cutting research
    Among the many strengths of NSF's fiscal year 2017 portfolio is the 
agency's ambitious vision of cross cutting discovery. NSF excels at 
stimulating multidisciplinary research that draws best practices and 
leading edge technologies from diverse scientific and engineering 
disciplines, often leveraging systems level strategies. Several fiscal 
year 2017 efforts epitomize greater emphasis on creative partnerships:

  --Expanded agency wide efforts and external partnerships will 
        accelerate the INFEWS initiative (Innovations at the Nexus of 
        Food, Energy and Water Systems).
  --The NSF wide BioMaPS program, with an emphasis in synthetic biology 
        at the intersection of biology, engineering and physical 
        sciences, expects new potentially valuable outcomes. Many 
        synthetic biology products are currently poised for 
        commercialization, such as biofuels, drugs and food additives. 
        New research promises advances in important economic sectors 
        like agriculture, industry and medicine.
  --BIO will assume full operation of the soon to be completed NEON 
        network for ecological research, built on partnerships with 
        other NSF entities and private organizations. Using sensor 
        sites and cyberinfrastructures, it is the first research 
        platform to collect standardized data nationwide.
  --Scientists with the Ecology and Evolution of Infectious Diseases 
        Initiative (EEID), a joint NIH, NSF, Department of Agriculture 
        (USDA) effort, are studying the mosquito borne transmission of 
        Zika and dengue viruses in Ecuador, in the context of 
        socioecological and environment's effects on disease spread.
  --The new BIO USDA Plant Biotic Interactions (PBI) program will make 
        its first grant awards during fiscal year 2017, in areas that 
        include plant microbiomes, pathogens and defenses.

    The ASM appreciates the opportunity to submit testimony and urges 
Congress to fund NSF with $8 billion in fiscal year 2017. NSF funded 
research is a cornerstone of U.S. innovation in science and technology 
with vast benefits across the Nation and around the world.
                                 ______
                                 
  Prepared Statement of the American Society of Mechanical Engineers 
                                 (ASME)
    As the Federal budget faces increased scrutiny due to sequester 
spending caps, it is important that research and development remain 
among the highest priorities for domestic discretionary spending. 
Scientific and engineering research have long been the foundation of 
our Nation's economic growth and prosperity and have positioned the 
U.S. as a global leader in innovation. Our country's economic strength 
derives from our ability to produce the world's best scientists and 
engineers, nurture new ideas and innovation, and develop new 
technologies and industries. Now, however, with other countries 
investing more heavily in basic and applied research, it is becoming 
difficult for the U.S. to keep pace. If America is to remain a global 
economic leader, we must continue to invest in the scientific and 
engineering enterprise that generates new technologies, industries, and 
jobs. The ASME Manufacturing Public Policy (MPP) Task Force strongly 
supports the President's budget request and urges Congress to fully 
fund basic research and the programs outlined below so that the full 
national security and economic benefits of our domestic innovations can 
be realized.


                               OVERVIEW OF NIST'S FISCAL YEAR 2016 BUDGET REQUEST
                                                 [$ in millions]
----------------------------------------------------------------------------------------------------------------
                                                        Fiscal Year   Fiscal Year
                                                            2016          2017       Increase (%)   Increase ($)
                                                          Enacted      Requested
----------------------------------------------------------------------------------------------------------------
NIST..................................................          964        1,000              5.2           36
STRS..................................................          690          730.5            5.9           40.5
ITS...................................................          155          189             22             34
NNMI..................................................           25           47             88             22
MEP...................................................          130          142              9.2           12
----------------------------------------------------------------------------------------------------------------


    The MPP Task Force strongly supports the administration's budget 
request of $1 billion for NIST in fiscal year 2017. This represents a 
5.2 percent or $36 million increase over fiscal year 2016 enacted 
levels.
The National Network for Manufacturing Innovation (NNMI)
    The MPP Task Force strongly supports dedicating $47 million to 
funding new and established National Network for Manufacturing 
Innovation (NNMI) Institutes. ASME has long supported the creation of a 
national network of manufacturing Institutes to work towards bridging 
the gap between basic research and market impact of technology. The 
administration's continued efforts to fund Department of Commerce-led 
NNMI Institutes through NIST reflects the vital role NIST plays in the 
administration's goal of creating a fully operational innovation 
pipeline.
    The NNMI achieves this goal by providing a ``manufacturing research 
infrastructure where U.S. industry and academia collaborate to solve 
industry-relevant problems. The NNMI is a network of Institutes for 
Manufacturing Innovation, each with a unique focus but a common goal to 
create, showcase, and deploy new capabilities and new manufacturing 
processes.'' \1\
---------------------------------------------------------------------------
    \1\ Manufacturing.gov.
---------------------------------------------------------------------------
    In addition to the $47 million in discretionary funds for NNMI, the 
President's budget requests an additional $1.9 billion in mandatory 
funding for NNMI over the next 10 years to achieve the administration's 
goal of a national network of 45 manufacturing Institutes.
Hollings Manufacturing Extension Partnership (MEP)
    The MPP Task Force has long supported MEP as a catalyst for 
technological innovation and is pleased with the administration's 
request of $142 million. MEP provides support to small and medium-sized 
manufacturers (SMMs) across the United States and Puerto Rico to 
develop sustainable practices in the U.S. These SMMs are crucial to the 
U.S. economy as they support and create a significant number of jobs 
focused in product commercialization, lean production, process 
improvements, and supply chain optimization.
Construction of Research Facilities (CRF)
    NIST laboratories remain a critical resource that is vital to the 
economic health and national security of the United States, as outlined 
in the President's Innovation Agenda, inspired by the original 
``America COMPETES Act of 2007'' (Public Law 110-69). The NIST 
engineering laboratory ``promotes the development and dissemination of 
advanced technologies, guidelines, and services to the U.S. 
manufacturing and construction industries through activities including 
measurement science research, performance metrics, tools and 
methodologies for engineering applications, and critical technical 
contributions to standards and codes development.'' The up-keep and 
modernization of our laboratories is at the very crux of the research 
done at NIST, and without proper funding for our facilities and 
equipment, important programs suffer. The MPP Task Force supports the 
administration's request for $95 million in discretionary funds for 
Construction of Research Facilities in fiscal year 2017.
                        nist's standards mission
    Part of the mission of NIST is to promote the use of American 
standards, conformity assessment programs and technology in countries 
and industries around the world as a means of enhancing U.S. 
competitiveness and opening new markets for U.S. products and services. 
Standards provide technical definitions and guidelines for design and 
manufacturing. They serve as a common, global language, define quality 
and establish safety criteria. In the United States, standards are 
developed by private-sector organizations in close collaboration with 
representatives from industry, government, and academia. These 
standards are used by industry and are frequently adopted by government 
agencies as a means of establishing regulatory requirements. They are 
vital to the economic health of many industries, and--more 
importantly--they help to ensure the health and safety of the American 
people and citizens in countless nations around the world.
    As a standards developer, ASME is in an outstanding position to 
describe the value of NIST standardization efforts and their impact on 
American commerce. Over the years, the Department of Commerce and NIST 
have played an indispensable role in ensuring acceptance by other 
nations of U.S.-developed standards that continue to identify and 
incorporate technological advances and that also reflect changing needs 
for industry, regulation, and public safety. Unlike in the U.S. where 
standards development is largely the province of private sector 
organizations, standards development in many other countries is 
undertaken with strong government support. The U.S. voluntary consensus 
standards process enables innovation, reduces redundancy in public and 
private sector research, and reduces government costs. The governments 
of many of our key trading partners invest significant resources to 
promote acceptance of competing standards (developed by organizations 
in those countries) in the global marketplace. It is therefore 
essential that the U.S. Government, in partnership with private sector 
standards development organizations, strengthen its commitment to 
ensuring adequate representation of U.S. interests in international 
standards negotiations.
    Enabling U.S. manufacturers to design and build to one standard or 
set of standards increases our competitiveness in the world market. 
Similarly, decisions made in standards bodies outside of the United 
States have a profound impact on the ability of U.S. companies to 
compete in foreign markets. The ability of NIST to assist U.S. 
standards developers in their negotiations with international standards 
organizations is important to the U.S. business community. The U.S. 
must be a full participant in global standards development if our 
industries are to compete effectively in a world market. We believe 
that NIST plays a unique and crucial role in maintaining, and growing, 
the competitive edge of U.S. industry in the emerging landscape of the 
high technology manufacturing sector.
                               conclusion
    The administration's commitment to NIST appears to be strong, as 
demonstrated by its willingness to support increases for key NIST 
initiatives for fiscal year 2017. The full funding of the NNMI and MEP 
programs are crucial for the U.S. to remain competitive globally over 
the next several decades. The Task Force remains strongly supportive of 
these initiatives as well as the underlying goals of NIST as they 
relate to advanced manufacturing and technological innovation.
              introduction to asme and the mpp task force
    The National Institute of Standards and Technology (NIST) Task 
Force of the Committee on Government Relations Inter-Sector Committee 
on Federal R&D of the ASME Public Affairs and Outreach Sector is 
pleased to have this opportunity to provide comments on the fiscal year 
2017 budget request for NIST. The MPP Task Force and ASME Standards & 
Certification have a long-standing relationship with NIST and thus 
recognize NIST as a key government agency that contributes 
significantly to the development and application of technology.
    Founded in 1880 as the American Society of Mechanical Engineers, 
ASME is a worldwide engineering society of over 140,000 members focused 
on technical, educational and research issues. ASME conducts one of the 
world's largest technical publishing operations, holds approximately 30 
technical conferences and 200 professional development courses each 
year, and sets many industry and manufacturing standards.
    Mechanical engineers play a key role in the research, technology 
development, and innovation that influence the economic wellbeing of 
the Nation. ASME has supported the mission of NIST since it was founded 
in 1901, as the National Bureau of Standards. In fact, ASME was 
instrumental in establishing the Department of Commerce, NIST's parent 
agency. The technical programs of NIST are unique in that they foster 
government and industry cooperation through cost-sharing partnerships 
that create long-term investments based on engineering and technology. 
These programs are aimed at providing the technical support so vital to 
our nation's future economic health.
    Statement approved by the ASME Manufacturing Public Policy Task 
Force (MPPTF).
    ASME is a non-profit technical and educational organization with 
more than 140,000 members globally. The Society's members work in all 
sectors of the economy, including industry, academia, and government. 
This position statement represents the views of the MPP Task Force of 
the Committee on Government Relations Inter-Sector Committee on Federal 
R&D of the ASME Public Affairs and Outreach Sector and is not 
necessarily a position of ASME as a whole.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), I 
submit this testimony for the official record to support the requested 
level of $8 billion for the National Science Foundation (NSF) for 
fiscal year 2017. ASPB recognizes the difficult fiscal environment our 
Nation faces, but we believe that sustained investments in scientific 
research will be a critical step toward economic recovery and continued 
global competitiveness for our Nation.
    ASPB would like to thank the subcommittee for its consideration of 
this testimony and for its strong support for the research mission of 
NSF.

    Our testimony will discuss:

  --Plant biology research as a foundation for addressing food, fuel, 
        environment, and health concerns;
  --The rationale for robust funding for NSF to maintain a well-
        proportioned science portfolio; and
  --The rationale for continued funding of NSF education and workforce 
        development programs that provide support for the future 
        scientific and technical expertise critical to America's 
        competitiveness.

    ASPB is an organization of professional plant biology researchers, 
educators, graduate students, and postdoctoral scientists with members 
across the Nation and throughout the world. A strong voice for the 
global plant science community, our mission--achieved through work in 
the realms of research, education, and public policy--is to promote the 
growth and development of plant biology, to encourage and communicate 
research in plant biology, and to promote the interests and growth of 
plant scientists in general.
    food, fuel, environment, and health: plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
most life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of energy security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of biological principles that underpin improvements in the health and 
nutrition of all Americans.
    In particular, plant biology is at the interface of numerous 
scientific breakthroughs. For example, with high throughput 
experimental approaches facilitating extraordinary syntheses of 
information that are NSF-supported, plant biologists are using computer 
science applications to make tremendous strides in our understanding of 
complex biological systems, ranging from single cells to entire 
ecosystems. Understanding how plants function ultimately will result in 
better and more productive crops, new sources of fuel, and the 
development of better medicines to treat diseases like cancer.
    Despite the significant positive impact plants have on our Nation's 
economy and in addressing some of our most urgent challenges, including 
food and energy security, Federal investments in fundamental plant 
biology research are modest. Still scientists have maximized and 
leveraged this funding in order to understand the basic function and 
mechanisms of plants, providing a foundation for vital advances in 
practical applications in agriculture, health, energy, and the 
environment.
    To address future societal challenges that might be mitigated 
through investements in plant biology research and to prioritize 
community research efforts, ASPB organized a two-phase Plant Science 
Research Summit with funding from NSF, the U.S. Department of 
Agriculture, the Department of Energy, and the Howard Hughes Medical 
Institute that resulted in the development of a community agenda 
document: Unleashing a Decade of Innovation in Plant Science: A Vision 
for 2015-2025 (plantsummit.files.wordpress.com/2013/07/
plantsciencedecadalvision10-18-13.pdf). The report, part of an ongoing 
and iterative process, puts forth a 10-year consensus agenda to fill 
critical gaps in our understanding of plant biology in order to address 
the grand challenges we face. As a research community, our vision is to 
create plant systems that are flexible and adaptable to new and 
existing challenges by increasing the predictive and synthetic 
abilities of plant biology. In achieving these goals, the plant science 
research community will make significant contributions to:

  --exploring, conserving and utilizing our natural resources;
  --protecting, maintaining and improving crop productivity; and
  --creating new plant-inspired industries.
           robust funding for the national science foundation
    ASPB encourages the greatest possible support for the Directorate 
of Biological Sciences (BIO) and proportional funding increases across 
all of the scientific disciplines NSF supports. As scientific research 
becomes increasingly interdisciplinary with permeable boundaries, a 
diverse portfolio at NSF is needed to maintain transformational 
research and innovation.
    NSF funding for plant biology specifically enables the scientific 
community to address cross-cutting research questions that could 
ultimately solve grand challenges related to a sustainable food supply, 
energy security, and improved health and nutrition. This notion is 
reflected in the National Research Council's report A New Biology for 
the 21st Century.
    NSF BIO is a critical source of funding for scientific research, 
providing the majority of the Federal support for non-medical basic 
life sciences research at U.S. academic institutions and beyond. BIO 
supports research ranging from the molecular and cellular levels to the 
organismal, ecosystem, and even biosphere levels. These investments 
continue to have significant pay offs, both in terms of the knowledge 
directly generated and in deepening collaborations and fostering 
innovation among communities of scientists. This increase is needed as 
BIO received only a 1 percent increase in fiscal year 2016, and a 2 
percent increase in fiscal year 2015, which when adjusted for 
inflation, actually represents a loss in purchasing power.
    The Biological Sciences Directorate's Plant Genome Research Program 
(PGRP) is an excellent example of a high impact program that has laid a 
strong scientific research foundation for understanding plant genomics 
as it relates to energy (biofuels), health (nutrition and functional 
foods), agriculture (impact of changing climates on agronomic 
ecosystems), and the environment (plants' roles as primary producers in 
ecosystems). ASPB asks that the PGRP be funded at the highest possible 
level and have sustained funding growth to address 21st century 
challenges. Furthermore, in light of the need to create 
cyberinfrastructure across a wide range of scientific disciplines, ASPB 
supports efforts to homogenize metadata formats and enhance data 
sharing.
    ASPB also supports the proposed new program, Rules of Life, within 
the BIO Directorate. This program would support research on genotype to 
phenotype studies, as well as plant science, microbiome, and synthetic 
biology. Research supported by Rules of Life will encourage using 
quantitative approaches to advance biological research, increasing the 
use of innovative new methods and interdisciplinary approaches to 
complex research questions. ASPB supports the proposed $13 million for 
the new Rules of Life program within NSF BIO.
    Without significant and increased support for BIO and the NSF as a 
whole, promising fundamental research discoveries will be delayed and 
vital collaborations around the edges of scientific disciplines will be 
postponed, thus limiting the ability to respond to the pressing 
scientific problems that exist today and the new challenges on the 
horizon. Addressing these scientific priorities also helps improve the 
competitive position of the United States in a global marketplace.
 continued support for nsf education and workforce development programs
    The National Science Foundation is a major source of funding for 
the education and training of the American scientific workforce and for 
understanding how educational innovations can be most effectively 
implemented. NSF's education portfolio impacts students at all levels, 
including K-12, undergraduate, graduate, and postgraduate, as well as 
the general public.
    ASPB urges the subcommittee to support expanding NSF's fellowship 
and career development programs--such as the Postdoctoral Research 
Fellowships in Biology, the Graduate Research Fellowship (GRF) and the 
Faculty Early Career Development (CAREER) programs--thereby providing 
continuity in funding opportunities for the country's most promising 
early career scientists.
    Furthermore, the nearly 7-year median for a life-science PhD in the 
United States contrasts with other nations where students specialize 
earlier, thus entering doctoral programs with more uniform and advanced 
scientific foundations. To focus more attention on new types of skills, 
such as private-sector experience and data-science training, NSF may 
wish to consider encouraging universities to tailor undergraduate 
curricula to allow committed students to enter PhD programs without 
needing a significant amount of textbook-style coursework. One way to 
do so would be to offer a seamless, 7-year curriculum that combines 
bachelor's and doctoral education, thereby making the career path more 
attractive and reducing costs to investigators, institutions, and 
funding bodies. NSF may wish to fund exploration and development of 
this kind of program or curriculum.
    ASPB urges support for NSF to further develop programs aimed at 
increasing the diversity of the scientific workforce by leveraging 
professional scientific societies' commitment to provide a professional 
home for scientists throughout their education and careers and to help 
promote and sustain broad participation in the sciences. Discrete 
focused training and infrastructure support programs for Hispanic 
Serving Institutions, Historically Black Colleges and Universities, and 
Tribal Colleges and Universities remain vitally important, because they 
foster a scientific workforce that reflects the U.S. population.
    ASPB urges support for education research that enhances our 
understanding of how educational innovations can be sustainably and 
most effectively implemented in a variety of settings. NSF Education 
and Human Resources programs provide opportunities to expand NSF's 
research and evaluation efforts to address scale-up and sustainability. 
ASPB encourages continued support for education research programs 
within NSF's Education and Human Resources portfolio with a focus on 
understanding how previous investments in educational strategies can be 
made most effective.
    Grand research challenges will not be resolved in a year, an 
administration, or a generation, but will take continued attention and 
investment at Federal research agencies, such as the National Science 
Foundation, over decades.
    Thank you for your consideration of ASPB's testimony. For more 
information about ASPB, please visit us at www.aspb.org.
                                 ______
                                 
  Prepared Statement of the Association of Science-Technology Centers
Introduction
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, thank you for the opportunity to submit written testimony 
for the record. My name is Anthony (Bud) Rock, and I serve as the 
President and Chief Executive Officer of the Association of Science-
Technology Centers (ASTC). My testimony today addresses the importance 
of science, technology, engineering, mathematics (STEM), and 
environmental education, and will focus specifically on the fiscal year 
2017 budgets for four specific programs at three Federal agencies over 
which your subcommittee has jurisdiction: (1) the Competitive Program 
for Science Museums, Planetariums, and NASA Visitor Centers Plus Other 
Opportunities (CP4SMP+) at the National Aeronautics and Space 
Administration (NASA), which would not be funded under the President's 
fiscal year 2017 request; the Bay-Watershed Education and Training (B-
WET) Regional Programs and Competitive Education Grants (CEG)/
Environmental Literacy Grants (ELG) programs at the National Oceanic 
and Atmospheric Administration (NOAA), which would not be funded under 
the President's fiscal year 2017 request; and the Advancing Informal 
STEM Learning (AISL) program at the National Science Foundation (NSF), 
which would receive $62.5 million under the President's fiscal year 
2017 request (although only $55 million of that amount is being 
requested from traditional discretionary spending).
Our Request
    On behalf of ASTC and the nearly 400 science centers and museums we 
represent here in the United States, I urge the subcommittee to 
continue its strong support for critical STEM and environmental 
education programs within NASA, NOAA, and NSF as the Commerce, Justice, 
Science, and Related Agencies Appropriations Bill for Fiscal Year 2017 
moves forward. Specifically, I urge you to:

  --Provide $10 million for the Competitive Program for Science 
        Museums, Planetariums, and NASA Visitor Centers Plus Other 
        Opportunities at the National Aeronautics and Space 
        Administration.
  --Provide $12 million for the Bay-Watershed Education and Training 
        Regional Programs and $8 million for the Competitive Education 
        Grants/Environmental Literacy Grants programs at the National 
        Oceanic and Atmospheric Administration.
  --Provide $62.5 million for the Advancing Informal STEM Learning 
        program at the National Science Foundation.
  --Continue to thoroughly examine any proposals that would seek to 
        consolidate, reorganize, or eliminate Federal STEM and 
        environmental education programs in an effort to ensure that 
        stakeholder input has been sought and that proven, successful 
        programs are maintained.

    Before providing more detail about ASTC and the science center and 
museum field, I want to first offer a brief snapshot of these Federal 
programs and why they are so vital to communities across the country.
National Aeronautics and Space Administration
    NASA's Competitive Program for Science Museums, Planetariums, and 
NASA Visitor Centers Plus Other Opportunities provides support for 
education or research engagement projects, exhibits, and/or 
partnerships with K-12 schools to support inquiry- or experiential-
based activities led by informal education institutions--like science 
centers and museums--that feature NASA missions, science, engineering, 
explorations, or technologies.
    Though Congress--and this subcommittee in particular--have been 
very supportive of this program since its inception in fiscal year 
2008, NASA has not indicated how much (if any) fiscal year 2015 or 
fiscal year 2016 funds will be available for new grants. The agency 
did, however, recently invite eligible grantees to submit new proposals 
for funding, which were due on December 7, 2015. With regard to fiscal 
year 2017 funding, the President did not include any funding for the 
program in his budget request. I encourage the subcommittee to continue 
its strong support for the CP4SMP+ by providing $10 million for fiscal 
year 2017.
National Oceanic and Atmospheric Administration
    NOAA's Bay-Watershed Education and Training Regional Program offers 
competitive grants to promote locally relevant, authentic experiential 
learning focused on K-12 audiences. The program serves seven areas of 
the country (California, the Chesapeake Bay, the Great Lakes, the Gulf 
of Mexico, Hawai'i, New England, and the Pacific Northwest) and 
supports activities inside and outside of the classroom while seeking 
to increase the understanding and stewardship of watersheds and related 
ocean, coastal, riverine, estuarine, and Great Lakes ecosystems. Last 
September, NOAA announced that 84 new and continuing projects--
including those in Alabama, California, Connecticut, Delaware, Maine, 
Maryland, and Rhode Island--would benefit from a total of over $7 
million in appropriated funding for the program.
    NOAA's Competitive Education Grants/Environmental Literacy Grants 
program, which the agency touts as ``the longest-standing and most 
comprehensive national grants program focused on environmental 
literacy,'' aims to increase the understanding and use of environmental 
information to promote stewardship and increase informed decisionmaking 
by U.S. educators, students, and the public. In its 2015 ELG funding 
announcement, NOAA challenged applicants to develop proposals that 
specifically addressed community resilience to extreme weather events 
and environmental changes, one of the agency's prime areas of focus. 
Since its inception, NOAA has made 80 ELG awards to 60 institutions 
across the country who, in turn, count nearly 30 million visits each 
year. Despite this broad, nationwide reach, the President's fiscal year 
2017 budget request once again proposes the termination of both the B-
WET and the CEG/ELG programs, which received $7.2 million and $3 
million, respectively, for fiscal year 2016. I urge the subcommittee to 
remain supportive of the programs by providing $12 million in funding 
for B-WET and $8 million in funding for CEG/ELG for fiscal year 2017.
National Science Foundation
    The Advancing Informal STEM Learning program, offered by the 
Directorate for Education and Human Resources, typically provides 
resources to support design, adaptation, implementation, and research 
on innovative modes of learning in the informal environment, with 
important emphases on citizen science, making, and cyberlearning. Just 
last year, new awards were made to the Exploratorium (San Francisco), 
the Museum of Science and Industry (Chicago), Northwestern University, 
the University of Maryland Center for Environmental Sciences, the 
University of Maryland at College Park, the University of Wisconsin-
Madison, West Virginia University, and ASTC itself, to name just a few.
    While the President's fiscal year 2017 budget request technically 
includes level funding of $62.5 million for AISL, I must point out that 
a significant portion of the total, $7.5 million, would come from 
newly-proposed mandatory funding rather than via discretionary (CJS 
appropriations) sources. As a result, I encourage the subcommittee to 
provide $62.5 million in fiscal year 2017 funding for AISL.
STEM Education Consolidation and Reorganization
    With regard to the Federal STEM education consolidation plan first 
released by the administration for fiscal year 2014 and amended in 
subsequent budget requests, I continue to have serious concerns about 
proposals to eliminate effective programs that support informal STEM 
learning. Integral Federal investments, including the aforementioned 
NASA and NOAA offerings, are once again slated for elimination in 
fiscal year 2017. I sincerely appreciate the subcommittee's thoughtful 
consideration of the harmful effect of the proposed terminations, and 
ask you to remain steadfast in your support of these programs.
About ASTC and Science Centers
    The Association of Science-Technology Centers is a global 
organization providing collective voice, professional support, and 
programming opportunities for science centers, museums, and related 
institutions, whose innovative approaches to science learning inspire 
people of all ages about the wonders and the meaning of science in 
their lives. Science centers are sites for informal learning, and are 
places to discover, explore, and test ideas about science, technology, 
engineering, mathematics, health, and the environment. They feature 
interactive exhibits, hands-on science experiences for children, 
professional development opportunities for teachers, and educational 
programs for adults. As Members of this subcommittee know, it is 
imperative that we spark an interest in STEM fields at an early age, an 
elemental role of community-based science centers and museums who often 
undertake the effort with modest, but vital, support from NASA, NOAA, 
NSF, and other Federal agencies.
    ASTC works with science centers and museums to address critical 
societal issues, locally and globally, where understanding of and 
engagement with science are essential. As liaisons between the science 
community and the public, science centers are ideally positioned to 
heighten awareness of critical issues like agriculture, energy, the 
environment, infectious diseases, and space; increase understanding 
of--and exposure to--important and exciting new technologies; and 
promote meaningful exchange and debate between scientists and local 
communities.
    ASTC now counts 651 members, including 486 operating or developing 
science centers and museums in 42 countries. Collectively, our 
institutions garner 100 million visits worldwide each year. Here in the 
United States alone, your constituents pass through science center 
doors 69 million times to participate in intriguing educational science 
activities and explorations of scientific phenomena.
    Science centers come in all shapes and sizes, from larger 
institutions in big metropolitan areas to smaller centers in somewhat 
less populated ones. ASTC represents institutions as diverse as the 
Anchorage Museum at Rasmuson Center (Alaska); the Connecticut Science 
Center (Hartford); the Creative Discovery Museum (Chattanooga, 
Tennessee); ECHO, Leahy Center for Lake Champlain (Burlington, 
Vermont); the EdVenture Children's Museum (Columbia, South Carolina); 
the Mid-America Science Museum (Hot Springs, Arizona); Science Museum 
Oklahoma (Oklahoma City); SEE Science Center (Manchester, New 
Hampshire), and the U.S. Space and Rocket Center (Huntsville, Alabama).
    Our centers reach a wide audience, a significant portion of which 
are school groups. Here in the U.S., 94 percent of our members offer 
school field trips, and we estimate that more than 13 million children 
attend science centers and museums as part of those groups each year. 
Field trips, however, are truly just the beginning of what science 
centers and museums contribute to our country's educational 
infrastructure, as: 92 percent offer classes and demonstrations; 90 
percent offer school outreach programs; 76 percent offer workshops or 
institutes for teachers; 74 percent offer programs for home-schoolers; 
67 percent offer programs that target adult audiences; 65 percent offer 
curriculum materials; 50 percent offer after-school programs; 34 
percent offer youth employment programs; and 22 percent offer citizen 
science projects.
Conclusion
    With this in mind, and while I am fully aware of the significant 
budget challenges that face this subcommittee, the full Appropriations 
Committee, Congress, and the Nation, I hope you will continue to 
recognize the important educational offerings science centers and 
museums make available to students, families, and teachers, along with 
the essential Federal support they receive from NASA, NOAA, and NSF.
    Again, I respectfully request that you provide $10 million for the 
Competitive Program for Science Museums, Planetariums, and NASA Visitor 
Centers Plus Other Opportunities at the National Aeronautics and Space 
Administration; $12 million for the Bay-Watershed Education and 
Training Regional Programs and $8 million for the Competitive Education 
Grants/Environmental Literacy Grants program at the National Oceanic 
and Atmospheric Administration; and $62.5 million for the Advancing 
Informal STEM Learning program at the National Science Foundation. In 
addition, please continue to closely examine any proposals that would 
seek to consolidate, reorganize, or eliminate Federal STEM and 
environmental education programs in an effort to ensure that 
stakeholder input has been sought and that proven, successful programs 
are maintained.
    Thank you once again for your strong support for America's science 
centers and museums--and for the opportunity to present these views. My 
staff and I would be happy to respond to any questions or provide 
additional information as needed by the subcommittee.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
    Thank you, Chairman Shelby and Ranking Member Mikulski for allowing 
me to submit testimony on behalf of the Nation's 215 AZA-accredited 
zoos and aquariums. Specifically, I want to express my support for the 
inclusion of $4 million for the John H. Prescott Marine Mammal Rescue 
Assistance Grant Program, $8,000,000 for the NOAA Environmental 
Literacy Grants Program (including funding for ocean education grants), 
$12,000,000 for the Bay Watershed Education and Training Program, and 
$8,000,000 for the Marine Debris Program in the fiscal year 2017 
Commerce, Justice, Science, and Related Agencies appropriations bill.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. AZA-accredited zoos and aquariums annually see more than 
183 million visitors, collectively generate more than $17 billion in 
annual economic activity, and support more than 166,000 jobs across the 
country. Over the last 5 years, AZA-accredited institutions supported 
more than 4,000 field conservation and research projects with 
$160,000,000 annually in more than 100 countries. In the last 10 years, 
accredited zoos and aquariums formally trained more than 400,000 
teachers, supporting science curricula with effective teaching 
materials and hands-on opportunities. School field trips annually 
connect more than 12,000,000 students with the natural world.
    The John H. Prescott Marine Mammal Rescue Assistance Grant Program 
provides grants or cooperative agreements to eligible stranding network 
participants for the recovery and treatment (i.e., rehabilitation) of 
stranded marine mammals; data collection from living or dead stranded 
marine mammals; and, facility upgrades, operation costs, and staffing 
needs directly related to the recovery and treatment of stranded marine 
mammals and collection of data from living or dead stranded marine 
mammals. Eligible applicants are currently active, authorized 
participants, including AZA-accredited zoos and aquariums, or 
researchers in the National Marine Mammal Stranding Network.
    Without the Prescott grant program, NOAA would have to rely on 
private organizations as it coordinates the response to marine mammals 
in distress; determines disease, injury and potential cause(s) of 
death; and supports emergency response for marine mammals during oil 
spills, outbreaks of diseases, and unusual mortality events. Network 
partners may not have the funds or the ability to respond to some 
stranding events, leaving animals at risk for prolonged exposure and 
likely death. Without funding for this program the critical ability to 
monitor marine mammal health trends, collect scientific data, and 
perform analysis would also be diminished. Information about the causes 
of marine mammal strandings is useful to the public because marine 
mammals can serve as an indicator of ocean health, giving insight into 
larger environmental issues that also have implications for human 
health and welfare.
    At the same time that AZA-accredited zoos and aquariums are working 
with Federal partners to conserve ocean wildlife, they also are 
providing essential learning opportunities, particularly about science, 
for schoolchildren in formal and informal settings. Increasing access 
to formal and informal science education opportunities has never been 
more important. Studies have shown that American schoolchildren are 
lagging behind their international peers in certain subjects including 
science and math.
    The NOAA Environmental Literacy Grants Program and Bay Watershed 
Education and Training Program bring students closer to science by 
providing them with the opportunity to learn firsthand about our 
world's marine resources. Through these grant programs, aquariums work 
closely with Federal, State, and local partners on projects with long-
lasting benefits not only for the students but also for their 
communities. For example, previous projects funded by NOAA 
Environmental Literacy Grants at AZA aquariums have focused on 
establishing a regional network of summer camp programs grounded in 
ocean science, enhancing teen conservation leadership programs, and 
increasing the effectiveness of informal science educators to promote 
public understanding of threats to ocean. As schools face increased 
budgetary pressures, these types of education programs at aquariums 
will become even more important in ensuring that American 
schoolchildren receive the necessary foundation in science education 
that they will need to be competitive in the 21st century global 
economy.
    Finally, AZA-accredited aquariums and zoos work with Federal, 
State, and local partners to address the marine debris accumulating in 
the ocean and in rivers, lakes, and streams across the country. Recent 
studies estimate that at least 8 million metric tons of plastic are 
dumped into the world's oceans each year. This pollution affects the 
availability of clean water for humans, harms the species living in 
these vital bodies of water, and has an impact on the economy and local 
communities.
    The NOAA Marine Debris Program offers several nationwide, 
competitive funding opportunities for marine debris projects including 
removal grants, education and outreach grants, and research grants. 
Important projects recently funded by this program include an 
initiative by The National Aquarium to work with local partners and 
advocates in the Masonville Cove region of Baltimore through community 
cleanups, leadership and education training. With the amount of marine 
debris expected to significantly increase over the next decade, these 
grants are critical to cleaning up the existing trash as well as 
educating citizens about how to address this global problem.
    AZA-accredited zoos and aquariums are essential partners at the 
Federal, State, and local levels to improve education for 
schoolchildren and ensure that current and future generations will be 
good stewards of the world's oceans. Therefore, I urge you to include 
$4 million for the John H. Prescott Marine Mammal Rescue Assistance 
Grant Program, $8,000,000 for the NOAA Environmental Literacy Grants 
Program (including funding for ocean education grants), $12,000,000 for 
the Bay Watershed Education and Training Program, and $8,000,000 for 
the Marine Debris Program in the fiscal year 2017 Commerce, Justice, 
Science, and Related Agencies appropriations bill.
    Thank you for your consideration of our comments.

    [This statement was submitted by Kristin L. Vehrs, Executive 
Director.]
                                 ______
                                 
                Prepared Statement of Erwin Chemerinsky
    I appreciate your accepting my statement in connection with your 
hearing on President Obama's recently announced Executive action to 
more effectively enforce existing Federal gun laws.
    I am the founding Dean and Distinguished Professor of Law, and 
Raymond Pryke Professor of First Amendment Law, at UC Irvine School of 
Law, with a joint appointment in Political Science. Prior to assuming 
this position in 2008, I was the Alston and Bird Professor of Law and 
Political Science at Duke University from 2004-2008, and before that 
was a professor at the University of Southern California Law School 
from 1983-2004, including as the Sydney M. Irmas Professor of Public 
Interest Law, Legal Ethics, and Political Science. I am the author of 
eight books, including leading casebooks and treatises on 
constitutional law, and over 200 law review articles. I am a graduate 
of Northwestern University and Harvard Law School.
    President Obama's recent Executive actions to more effectively 
enforce Federal laws regulating guns are clearly constitutional. The 
new policies announced by President Obama are relatively modest and are 
entirely focused on enforcing existing statutes. Thus all are within 
the permissible scope of Executive power without infringing the Second 
Amendment.
    Federal law requires that anyone engaged in the business of dealing 
firearms must obtain a Federal license and subjects licensed dealers to 
inspection and basic record-keeping requirements. Congress has 
established a National Instant Criminal Background Check system and 
mandated that licensed gun dealers conduct criminal background checks 
to ensure that would-be gun purchasers are not individuals who are 
prohibited from purchasing a gun because of a criminal record.
    President Obama's Executive action clarifies which gun sellers are 
``engaged in the business'' of dealing firearms, and therefore must 
obtain Federal licenses and conduct background checks on would-be gun 
purchasers. A large numbers of firearms are sold by unlicensed dealers 
at gun shows and over the Internet, frequently without conducting any 
background checks. The failure of these high-volume sellers to obtain 
licenses and conduct background checks creates a ready source of 
firearms for dangerous criminals and other prohibited persons, and 
fuels the illegal gun trafficking that arms criminals and undermines 
efforts to reduce gun violence.
    President Obama, through his Executive action defining who is in 
the business of dealing firearms, has closed this dangerous loophole. 
The hobbyist who occasionally sells guns is not covered, while those 
who regularly sell guns must comply with Federal law.
    Also, President Obama has directed the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF) and Federal Bureau of Investigation (FBI) 
to prosecute individuals who illegally attempt to obtain firearms and 
also to inform State law enforcement whenever a prohibited person in 
their State fails a background check. It is common sense that law 
enforcement has a strong interest in knowing when anyone the law deems 
too dangerous to buy a gun attempts to do so. This is simply the 
President taking long overdue action to better enforce Federal laws. To 
make this work more effectively, the President has ordered that the FBI 
improve the National Instant Criminal Background check system to make 
it more efficient.
    Similarly, President Obama has asked the ATF to issue a rule 
requiring background checks for purchasers of certain dangerous 
firearms and other items who purchase them through a trust, corporation 
or other legal entity. It also will issue a rule clarifying that gun 
dealers and licensees who ship firearms have the responsibility to 
notify law enforcement if their guns are lost or stolen in transit.
    All of these actions fall within the President's power to ensure 
that Federal laws ``be faithfully executed.'' The President has the 
authority, and the duty, to issue rules and regulations to ensure that 
the laws are enforced as written and intended. Executive action to 
ensure enforcement of the law--including issuing clarifying guidance 
and directing comprehensive enforcement of Federal gun laws--is 
entirely compatible with the will of Congress and the President's 
constitutional authority.
    Nor is there any plausible argument that the President's actions 
violate the Second Amendment. All of the Federal laws being enforced by 
the President's Executive action are unquestionably constitutional. The 
Supreme Court has been explicit that the Second Amendment is not an 
absolute right for people to have guns. For example, the Court has said 
that the Government can regulate who has guns, including prohibiting 
those with criminal records or a history of serious mental illness from 
possessing firearms. That is exactly the purpose of the Federal laws 
being enforced by President Obama's Executive action. Not one Federal 
court ever has questioned the constitutionality of the Federal laws 
being enforced by President Obama's Executive order.
    Much more needs to be done to prevent gun violence. The President's 
Executive action is necessarily narrow in scope because it is limited 
to better enforcing existing Federal laws. It is stunning and 
disturbing that even these efforts are opposed by gun rights extremists 
as going too far and falsely condemned by political candidates as 
President Obama wanting to ``take away people's guns.''
    The repeated gun tragedies must be an impetus to do more to keep 
guns out of the hands of those who are dangerous. No solution will 
prevent all or even most gun violence. But drug laws do not keep 
everyone from getting illegal drugs and even murder laws don't stop all 
murders. But stricter enforcement of existing laws, which is all that 
President Obama is doing, hopefully can keep some dangerous people from 
getting guns and save some lives. That is constitutional and very much 
worth doing.
                                 ______
                                 
       Prepared Statement of the Consortium for Ocean Leadership
    On behalf of the Consortium for Ocean Leadership, I appreciate the 
opportunity to discuss the fiscal year 2017 Federal science budget for 
the National Science Foundation (NSF), the National Oceanic and 
Atmospheric Administration (NOAA), and the National Aeronautics and 
Space Administration (NASA). Ocean Leadership represents the leading 
ocean science, education, and technology institutions, with the mission 
to shape the future of ocean sciences. Ocean science strengthens our 
national security, supports a safe and efficient marine transportation 
system, underpins our economy, and furthers our understanding of 
complex ocean and coastal ecosystems. We respectfully request the 
subcommittee provide no less than $7.96 billion for NSF (including full 
funding for geosciences); $2.03 billion for Earth Sciences at NASA; and 
$6.0 billion for NOAA. These funding provisions are essential to our 
future security and economic prosperity.
    As Congress addresses Federal investments in the face of 
constrained budgets, it is important to recognize and maintain support 
for basic and applied research as a core Federal responsibility. This 
Federal investment must be a priority given that our Nation's science- 
and technology-based economy strongly relies on a foundation built upon 
scientific advances, both within specific disciplines as well as across 
disciplines. Historic Federal investment in basic research and 
development has been critically important to advancing our science 
superiority on the world stage as well as growing our economy, both of 
which can and should be built upon in the fiscal year 2017 
appropriations process. Investing in earth, ocean, and atmospheric 
sciences--collectively known as the geosciences--are opportunities for 
the American taxpayer to address global issues while maintaining U.S. 
primacy in science and technology, as well as benefitting the U.S. 
economy, national security, and public safety. Geosciences are found 
across the Federal family, in: NSF's Geoscience Directorate, NOAA's 
Office of Oceanic and Atmospheric Research, and NASA's Earth Science 
Division; with each agency partnering, leveraging, and building upon 
each other's data and information. The ocean science and technology 
community urges Congress to look to the future of our Nation. With 
geosciences contributing $100 billion to U.S. GDP in 2012 \1\ with an 
expected increase to $127 billion by 2022,\2\ it is clear that these 
scientific disciplines are valuable to our economy.
---------------------------------------------------------------------------
    \1\ Wilson, C. E. (2014), The Status of the Geoscience Workforce. 
American Geosciences Institute: Alexandria, Virginia, p. 110.
    \2\ Wilson, C. E. (2014), The Status of the Geoscience Workforce. 
American Geosciences Institute: Alexandria, Virginia, p. 110.
---------------------------------------------------------------------------
                      national science foundation
    NSF is the premier Federal agency tasked with supporting basic 
scientific research, and has been a primary force in providing support 
for discoveries that have driven our Nation's economy through 
innovation. In fact, 70 percent of Nobel Laureates since 1950 have 
received Federal funding from NSF at one time.\3\ Historically, 
Congress has appropriated top line numbers for the agency, refraining 
from directing the course of the agency's research agenda or setting 
science or infrastructure priorities for the agency. We hope that this 
policy will continue so the Foundation can continue to make decisions 
based on the highest quality peer-reviewed science, rather than 
politics. For example, through this method of Federal science support, 
NSF's physical science, computer science, and geoscience basic research 
have resulted in the development of radar systems, satellites, and 
computer models used by other Federal agencies which have improved 
weather and ocean forecasting; and ultimately saved countless lives and 
livelihoods. Given the tremendous impact that natural hazards have on 
our Nation's economy and public welfare, we believe that investing in 
the geosciences is critical to advance our knowledge of the planet, 
while at the same time investing in social and behavioral sciences can 
improve our ability to understand and communicate key scientific 
findings and risks to the public and policymakers, who must deal with a 
rapidly changing planet. Additionally, with NSF providing 64 percent of 
all funding for basic geoscience research at U.S. universities \4\ and 
the projected 14 percent geoscience job growth,\5\ it is obvious that 
this Federal agency plays a key role in both workforce development and 
industry growth in the United States.
---------------------------------------------------------------------------
    \3\ Cordova, France, 2016. Testimony before U.S. House of 
Representatives Committee on Science. https://science.house.gov/sites/
republicans.science.house.gov/files/documents/HHRG-114-SY15-WState-
FCordova-20160322.PDF.
    \4\ https://www.nsf.gov/geo/about.jsp. National Science Foundation.
    \5\ 2012-2022, Status of the Geoscience Workforce Report, the 
American Geosciences Institute, 2014. This handout was compiled by the 
American Geosciences Institute (AGI), 2014.
---------------------------------------------------------------------------
            national oceanic and atmospheric administration
    To meet its many missions and mandates, NOAA requires timely, 
accurate, and sensitive observations of the planet. Given the pressures 
of the current fiscal climate, we are confident that NOAA can more 
efficiently and effectively meet its scientific requirements through 
partnerships with extramural academic and private sector partners that 
enhance and strengthen its scientific capability. Such collaborations 
have led to innovative and cost-effective sensor technologies, 
streamlined data assimilation and dissemination, improvements in our 
ability to understand and forecast harmful algal blooms and ocean 
chemistry, and to a greater understanding of how the ocean and coasts 
are changing over time. Accessing and partnering with the best minds of 
the Nation to help manage resources, observe and analyze trends, make 
forecasts, and address critical concerns requires a greater commitment 
to external, competitive, and peer-reviewed grant opportunities.
    As the ocean absorbs much of the heat and carbon dioxide in the 
atmosphere, it is crucial to better understand air-sea-ice 
interactions. These and other ocean and coastal observations provide 
data and information critical to: forecasting typhoons, hurricanes, 
flooding, heat waves, droughts, and wildfires; they help calibrate and 
validate satellite observations; they provide baselines for fisheries 
management, and long-term data sets on ecosystems, tides and currents, 
sea level change, and ocean chemistry. Without sustained observations 
feeding into our prediction capabilities on regional and seasonal 
scales, we are essentially flying blind in terms of managing resources 
and protecting overall public health. There are many major natural 
threats facing our Nation, and significant challenges ahead in 
understanding, forecasting, and mitigating them, all of which require 
significant financial resources. Ocean and coastal observations require 
Federal investment and the return on that investment includes accurate 
forecasts of weather and extreme events; communities that are prepared 
for, and can respond to, long-term changes as well as sudden events 
(e.g., flooding, drought); national, international, State, and local 
governments having science-based resource management; and weather-
climate sensitive industries working with greater certainty in their 
business models.
             national aeronautics and space administration
    The ocean science and technology community urges the subcommittee 
to fund NASA's Earth Science Division at $2.03 billion in order to 
support ocean science and education. NASA satellites provide a view of, 
and data pertaining to, the planet we live on--ocean and land, 
atmosphere and deserts, ice sheets and mountains--all important 
components of a complex and changing system. Beyond interesting 
information and glorious imagery, NASA earth science activities 
facilitate and improve the forecasting leading to a national science 
enterprise with stellar weather, climate and natural hazard predictive 
capabilities.
                          geoscience education
    The interdisciplinary nature of oceanography (e.g., physics, 
biology, chemistry, geology, engineering, computer and information 
science) requires dedicated education and training opportunities for 
the next generation of ocean scientists. We believe that the mission 
agencies mentioned above should continue to have a robust role in 
education and training as they are best situated to anticipate changing 
trends and challenges. With 20 percent of American jobs requiring a 
high level of STEM understanding \6\ (26 million) and 63 percent of 
high school graduates not meeting the college readiness benchmark for 
science,\7\ this is a timely investment. We can ill afford to have a 
135,000 geoscience worker shortage over the next decade--as the 
Workforce Research team at the American Geosciences Institute have 
calculated--workers that are vital for national and international 
security, energy and weather forecasting industries, as well as natural 
resource managers, land-use planners and first-responders. 
Additionally, diversity continues to be a challenge for the scientific 
community overall; we need to develop a workforce whose composition 
better resembles the broader population. We greatly appreciate the 
support this committee has given to STEM education programs at NSF, 
NOAA, and NASA, and encourage this support to extend into the 
geoscience directorate at NSF, which aids the development of thousands 
of early career geoscientists.
---------------------------------------------------------------------------
    \6\ The Hidden STEM Economy, Metropolitan Policy Program, Brookings 
Institute, 2013, http://www.brookings.edu//media/research/files/
reports/2013/06/10%20stem%20economy%20rothwell/
thehiddenstemeconomy610.pdf.
    \7\ ACT standardized test. ``The Condition of STEM 2014,'' ACT, 
http://www.act.org/stemcondition/14/pdf/National-STEM-Report-2014.pdf. 
This handout was compiled by the American Geosciences Institute, 2015.
---------------------------------------------------------------------------
                                summary
    Geosciences impact everyday Americans every day; and across the 
Nation, across science disciplines, across the Federal family, it is 
clear that robust and sustained Federal investments in geosciences are 
key to addressing global and national challenges, underpinning new and 
growing economies while maintaining and supporting existing ones, and 
improving technologies that preserve lives and livelihoods, persons and 
property. As the subcommittee drafts the fiscal year 2017 spending 
bill, we hope that you reflect on the fact that the bulk of the 
intellectual capacity regarding the ocean resides within the academic 
research community. Peer-reviewed extramural research is the most 
efficient and effective vehicle for providing our policy makers and our 
commercial partners with the expertise, information, and data necessary 
to address the emerging challenges facing our Nation. We also hope that 
you will continue to permit science priorities and decisions to be made 
by the scientific community, a proven method that has enabled America's 
thriving, innovation economy for decades.
    Mr. Chairman and members of the subcommittee, we greatly appreciate 
the opportunity to share our recommendations, and I encourage you to 
continue your long-standing bipartisan support for geoscience funding, 
including ocean science and technology, in the fiscal year 2017 
appropriations process and into the future.
    Below is a list of the institutions that are represented by the 
Consortium for Ocean Leadership:

      Alabama

Dauphin Island Sea Lab

      Alaska

Alaska Ocean Observing System
Arctic Research Consortium of the United States (ARCUS)
North Pacific Research Board
University of Alaska Fairbanks

      California

Aquarium of the Pacific
Bodega Marine Lab
Esri
Hubbs-SeaWorld Research Institute
L-3 MariPro, Inc.
Liquid Robotics, Inc.
Monterey Bay Aquarium Research Institute
Moss Landing Marine Laboratory
Naval Postgraduate School
Romberg Tiburon Center for Environmental Studies
Stanford University
Teledyne
University of California, San Diego (Scripps)
University of California, Santa Barbara
University of California, Santa Cruz
University of Southern California

      Colorado

Cooperative Institute for Research in Environmental Sciences (CIRES)

      Connecticut

University of Connecticut

      Delaware

Mid-Atlantic Regional Association Coastal Ocean Observing System 
(MARACOOS)
University of Delaware

      Florida

Earth2Ocean, Inc.
Florida Institute of Oceanography
Mote Marine Laboratory
Nova Southeastern University
University of Florida
University of Miami
University of South Florida

      Georgia

Skidaway Institute of Oceanography of the University of Georgia

      Hawaii

University of Hawaii

      Illinois

John G. Shedd Aquarium

      Maine

Bigelow Laboratory for Ocean Sciences

      Maryland

National Aquarium
University of Maryland Center for Environmental Science

      Massachusetts

University of Massachusetts, Dartmouth
University of Massachusetts, Lowell
Woods Hole Oceanographic Institution

      Michigan

University of Michigan

      Mississippi

University of Mississippi
University of Southern Mississippi

      New Hampshire

University of New Hampshire

      New Jersey

Monmouth University Urban Coast Institute (UCI)
Rutgers University

      New York

Columbia University (LDEO)
Stony Brook University

      North Carolina

Duke University Marine Laboratory
East Carolina University
North Carolina State University
University of North Carolina at Chapel Hill
University of North Carolina at Wilmington

      Oregon

Oregon State University

      Pennsylvania

Pennsylvania State University

      Rhode Island

University of Rhode Island

      South Carolina

South Carolina Sea Grant Consortium
University of South Carolina

      Texas

Fugro
Harte Research Institute
Sonardyne, Inc.
Texas A&M University
University of Texas at Austin

      Virginia

CARIS, USA
CNA
College of William and Mary (VIMS)
Institute for Global Environmental Strategies (IGES)
Old Dominion University
U.S. Arctic Research Commission

      Washington

Sea-Bird Scientific
University of Washington

      Washington, DC

Marine Technology Society
National Ocean Industries Association (NOIA)
Southeastern Universities Research Association (SURA)

      Wisconsin

University of Wisconsin-Milwaukee School of Freshwater Sciences
                      
                                 ______
                                 
  Prepared Statement of the Consortium of Social Science Associations
    On behalf of the Consortium of Social Science Associations (COSSA), 
I offer this written testimony to the Senate Appropriations 
Subcommittee on Commerce, Justice, Science and Related Agencies for 
inclusion in the official committee record. For fiscal year 2017, COSSA 
urges the subcommittee to appropriate $8 billion for the National 
Science Foundation (NSF), $1.634 billion for the Census Bureau, $48 
million for the National Institute of Justice (NIJ), and $58 million 
for the Bureau of Justice Statistics (BJS).
    COSSA serves as a united voice for a broad, diverse network of 
organizations, institutions, communities, and stakeholders who care 
about a successful and vibrant social science research enterprise. We 
represent the collective interests of all fields of social and 
behavioral science research, including but not limited to sociology, 
anthropology, political science, psychology, economics, statistics, 
language and linguistics, population studies, law, communications, 
educational research, criminology and criminal justice research, 
geography, history, and child development. Social science research 
studies social contexts across various time and spatial scales, 
including economic, cultural, demographic, and political contexts. 
Behavioral research seeks to better understand learning, cognition, 
emotion, temperament, motivation, and biobehavioral interactions.
    Social and behavioral science research is supported across the 
Federal Government, including at the National Science Foundation and 
the Department of Justice. Further, Federal statistics collected by the 
Census Bureau and other Federal statistical agencies provide important 
data needed to conduct social science research that informs policy 
decisions. Taken together, Federal social and behavioral science and 
statistical data help to provide us with answers to complex, human-
centered questions such as:

  --How to convince a community in a path of a tornado to heed 
        warnings; or
  --What are the best strategies for slowing the HIV/AIDS epidemic, or 
        more recently, the Ebola crisis; or
  --How to thwart cybercrime and protect Americans' privacy and 
        security in an increasingly connected world.

    In addition, new findings continue to increase the efficiency of 
our industries, improve the quality of K-12 education, help us 
understand crime patterns and evaluate prevention strategies, help 
manage our natural resources, keep our troops safe, help us to be 
informed as consumers, and allow paralyzed individuals to communicate. 
Among the countless innovations enabled by Federal support for basic 
social science research are GPS, telecommunications spectrum auctions, 
life-saving kidney exchanges, and warning systems to protect lives and 
property from extreme weather events.
    In short, knowledge derived from social and behavioral science 
research has made our population healthier, our democracy fairer, our 
nation safer, and our economy stronger. Without these sciences, policy-
making on major national issues would not be based on evidence, and 
billions of dollars would be wasted.
                national science foundation ($8 billion)
    First, I wish to thank the subcommittee for its longstanding 
support for Federal science agencies. Despite the tough, ongoing fiscal 
challenges, the subcommittee has remained vigilant in its efforts to 
ensure adequate funding for basic research, particularly at the 
National Science Foundation. Thank you.
    For fiscal year 2017, COSSA joins the broader scientific community 
in support of $8 billion for NSF in fiscal year 2017, an increase of 
6.7 percent. This amount would put NSF back on a growth trajectory and 
would allow the agency to recover some of the purchasing power lost in 
recent years due to sequestration and caps on discretionary spending.
    NSF funds basic scientific discovery, workforce training, and 
state-of-the-art facilities that keeps the U.S. ahead of our global 
scientific competitors. NSF supports about a quarter of all federally 
funded basic scientific research conducted at colleges and universities 
nationwide. Most notably, NSF serves as the largest single funder of 
university-based basic social and behavioral science research. While 
the Social, Behavioral, and Economic Sciences Directorate (SBE) 
represents only about 3.6 percent of the entire NSF research budget, it 
supports more than two-thirds (67 percent) of total Federal funding for 
academic basic research in the social and behavioral sciences.

    Social and behavioral science discoveries funded by NSF have 
improved people's lives by:

  --Improving public health.
  --Improving the safety of our troops in combat areas through cultural 
        research and understanding.
  --Helping us understand how to prepare for and respond to natural and 
        human-made disasters.
  --Enhancing teaching and learning in education.
  --Reducing violence among our youth.
  --Improving the effectiveness of the criminal justice system.
  --Generating billions of dollars for the U.S. Treasury with the 
        creation of the telecommunications spectrum auctions.

    As you know, the administration requested an increase of only 1.3 
percent in discretionary funding for NSF, while proposing that Congress 
approve one-time mandatory funding in the amount of $400 million to 
bring the total NSF budget of $8 billion for fiscal year 2017. We 
recognize that the addition of new mandatory funding is not likely this 
year; however, I hope the proposed funding maneuver will not distract 
the subcommittee from the real needs of the agency. As Dr. France 
Cordova, NSF Director, testified before the House earlier this month, 
nearly $4 billion worth of projects that are reviewed as ``very good'' 
to ``excellent'' are left on the cutting room floor each year due to 
inadequate funding. She added that this essentially invites 
researchers, especially new and young investigators, to leave the field 
and pursue other STEM careers. Simply put, there are far more exciting, 
potentially transformative research ideas out there than there is 
support. Further, as you may recall, the America COMPETES 
Reauthorization Act of 2010 sought a budget level of $8.3 billion by 
fiscal year 2013. While times have changed and sequestration remains a 
reality, we need not abandon the scientific aspirations Congress set 
for NSF in the original America COMPETES Act of 2007 and its 
reauthorization in 2011.
    Second, COSSA urges the subcommittee to maintain current practice 
when appropriating funds for NSF. The scientific community strongly 
contends that experts at NSF, the merit-review process, and the vast 
network of scholars around the country who provide technical and 
content expertise to the NSF leadership are best suited to advise the 
agency on the most promising science worthy of support. Making a change 
to current practice--such as by appropriating specific, arbitrary 
amounts for each NSF directorate--would place scientific disciplines in 
direct competition with one another for what are already scarce 
resources, thereby discouraging interdisciplinary science. In addition, 
it would dismantle the scientific infrastructure that has been 
assembled over the last several decades by side-stepping the 
multifaceted, merit-based process that has served the agency so well 
since its founding. For this reason, we hope the Senate CJS 
Appropriations Bill will maintain the current practice of appropriating 
funds to the Research & Related Activities account, leaving NSF with 
the flexibility to fund the most promising science across all fields.
       census bureau ($1.5 billion), u.s. department of commerce
    COSSA urges the Committee to appropriate $1.634 billion to the U.S. 
Census Bureau in fiscal year 2017. Accurate, objective, representative, 
timely, reliable and accessible data and statistics are necessary 
ingredients to the conduct of evidence-based analyses of Federal 
programs.
    Fiscal year 2017 is a critical one for the Census Bureau as we near 
the 2020 Decennial Census. The Census Bureau will be working to 
complete production of interoperable systems for the reengineered 
decennial. To do so, the Bureau requires funding to fully evaluate and 
develop new methods and operations. COSSA urges Congress to appropriate 
$778 million for 2020 Census planning, a reasonable request at this 
critical juncture in the decennial planning cycle that will allow the 
agency to complete its sweeping design reforms and prepare for the 2018 
End-To-End Readiness Test.
    One critically important function of the Census Bureau is the 
American Community Survey, which is the Nation's only source of 
comparable (across geography), consistent (across time), timely 
(updated annually), high quality demographic and socio-economic data 
for all communities in the United States. The ACS replaced the Census 
``long form'' in 2005 at the behest of Congress. The accuracy of the 
data collected by the ACS relies on the mandatory nature of the 
program. If successful, efforts to make the ACS voluntary could 
translate to a decline in response rates of at least 20 percent and an 
increase in survey costs by about $100 million, according to agency 
estimates. More importantly, reliable socio-economic data would be lost 
for entire communities, especially those in rural areas. COSSA asks 
Congress to appropriate $251.1 million for the American Community 
Survey (ACS). Funding at this level will allow the Census Bureau to 
maintain a valid sample size and continue research on new methods and 
streamlined operations to reduce respondent burden, improve question 
wording, and control costs. We further ask that the mandatory status of 
the ACS be maintained.
   national institute of justice ($48 million) and bureau of justice 
          statistics ($58 million), u.s. department of justice
    COSSA urges the subcommittee to appropriate $48 million for the 
National Institute of Justice (NIJ) and $58 million for the Bureau of 
Justice Statistics (BJS) within the U.S. Department of Justice (DOJ). 
NIJ serves as the research arm of the Department of Justice, playing a 
critical role in helping the agency to understand and implement 
science-based strategies for crime prevention and control. It supports 
rigorous social science research that can be disseminated to criminal 
justice professionals to keep communities safe and prevent and reduce 
crime. The Bureau of Justice Statistics (BJS) is one of 13 principal 
Federal statistical agencies. BJS produces data that provides 
statistical evidence needed by researchers and criminal justice policy 
decision makers. Taken together with NIJ, these investments represent 
the only dedicated sources of Federal research support committed to 
enhancing our understanding of crime and the criminal justice system, 
including around topics like victimization, law enforcement, recidivism 
and reentry, drugs and crime, and tribal justice.

    Social science research supported by the agencies informs 
policymaking on timely crime and justice issues like:

  --Human trafficking;
  --Evaluation of anti-gang programs;
  --Policing;
  --Children exposed to violence;
  --Sentencing alternatives to incarceration;
  --Elder abuse; and
  --Reentry and probation.

    Demand by policymakers and criminal justice professionals for 
rigorous, objective research on policing, mental health, sentencing 
reform, and other timely topics has increased to unprecedented levels 
in recent years. However, at the current funding levels, NIJ and BJS 
simply do not have the capacity to meet the demand. In addition to our 
request of $48 million for NIJ for fiscal year 2017, we further urge 
Congress to approve the administration's request to increase the 
Research, Evaluation, and Statistics set-aside from 2 to 3 percent, 
providing additional flexibility to the agency to take on new, timely 
research questions as they arise.
    Thank you for the opportunity to present this testimony on behalf 
of the social and behavioral science research community. Please do not 
hesitate to contact me should you require additional information.

    [This statement was submitted by Wendy A. Naus, Executive 
Director.]

           Consortium of Social Science Associations (COSSA)

American Anthropological Association
American Association For Public Opinion Research
American Economic Association
American Educational Research Association
American Political Science Association
American Psychological Association
American Society of Criminology
American Sociological Association
American Statistical Association
Association of American Law Schools
Law and Society Association
Linguistic Society of America
Midwest Political Science Association
National Communication Association
Population Association of America
Society for Personality and Social Psychology
Society for Research in Child Development
                      
                                 ______
                                 
  Prepared Statement of the National Court Appointed Special Advocate 
                              Association
    Chairman Shelby, Vice Chairwoman Mikulski and Members of the 
Commerce, Justice, Science, and Related Agencies Subcommittee, thank 
you for the opportunity to submit remarks on the Department of Justice 
(DOJ) fiscal year 2017 budget, including our request for full funding 
of the Court Appointed Special Advocates (CASA) Program through the 
Office of Juvenile Justice and Delinquency Prevention (OJJDP) at the 
congressionally authorized level of $12 million.
    CASA/Guardian ad Litem (GAL) advocacy is a well-established model 
operating in 49 States and the District of Columbia that is strongly 
associated with improved long-term outcomes for child victims of 
neglect and abuse, an underserved population whose needs continue to be 
both deeply profound and devastating. With Congressional support at the 
fully authorized level, National CASA will enhance and advance 
specialized training, tools and resources to continue delivering vital 
one-on-one advocacy that addresses the increasingly complex needs of 
traumatized children in foster care who have been abused or neglected 
by their primary caregivers--the very individuals responsible for their 
safety and care.
    The children served by our network are among the most vulnerable in 
America. Abused and neglected children are more likely to have 
educational performance and other issues that impact their prospects 
for future employment and stability within the community. They are also 
at significantly higher risk of juvenile delinquency, incarceration in 
adulthood and homelessness as they age out of the system. Without the 
intervention of a CASA/GAL advocate, the outlook for a child that 
passes through the foster care system is bleak.
    These tragic outcomes have a hefty impact on Federal, State, and 
local spending, given that at least one-quarter of the DOJ budget is 
dedicated to funding our Nation's prison system. At the same time, the 
Centers for Disease Control and Prevention (CDC) estimates the economic 
and social costs of child abuse and neglect to total $124 billion 
nationwide per annum. Independent research has shown that local CASA/
GAL programs offer an effective service to child victims of abuse and 
neglect that improves outcomes, increases the efficiency of our court 
systems, and reduces the amount of time these victims spend in the 
foster care system--amounting to tens of millions of dollars in Federal 
and State taxpayer savings annually.
    Last year, CASA/GAL programs leveraged community-based resources to 
serve 251,000 abused and neglected children in foster care, but more 
than 400,000 children remain without the powerful intervention of a 
CASA/GAL advocate. These children are currently ``going it alone''--
navigating their way through the complex legal system and unfamiliar 
out of home placements, which could include foster homes or congregate 
care. Our advocates get to know these child victims outside the 
courtroom. They are involved in every aspect of the child's life--
sometimes as the only caring and consistent adult presence--making it 
more likely that they will find safe, permanent homes where they can 
thrive and reach their full potential. These efforts require 
specialized training, standards, and resources to support a nationwide 
system of programs that adhere to the highest quality of services and 
care for the child victim, which National CASA Association provides to 
its State and local programs.
    With DOJ support, the Association sets national standards and 
provides assessment, accountability and evaluation of these standards 
across 949 local, State, and tribal programs. DOJ's investment enables 
National CASA to deliver evidence-based practices, intensive technical 
assistance, direct program guidance and quality assurance to serve 
children across the country.
    Additionally, given the nature of the CASA/GAL advocate's intensive 
work with child victims of abuse and neglect, CASA programs employ 
rigorous screening, training, and supervision nationwide, with 
congressional support, to ensure consistent quality for victims who 
directly benefit from having their needs and rights championed in the 
courtroom and in the community. Comprehensive pre-service, in-service, 
and issue-focused training curricula--including training in 
disproportionality, ethnic and racial identity, and working with older 
youth--ensure a cutting edge approach to victim services centered on 
the child thriving well into the future as a member of the community.
    Unfortunately, child victimization and maltreatment is on the rise, 
exacting a heavy toll on our Nation's children and on society more 
broadly. Emerging issues such as the commercial sexual exploitation of 
children and our Nation's growing opioid epidemic--for which children 
account for a growing number of victims--require greater specialization 
for our advocates to deliver the most effective advocacy, and, as the 
Victims of Child Abuse Act requires, to serve every child victim. 
Federal support at the fully authorized level is critical to bridging 
advocacy training and best practice tools to address these increasingly 
common tragedies and bolster support around the issues of child 
trafficking and substance abuse specifically.
    Even as we commit to enriching the quality of CASA/GAL advocacy 
under these increasingly complex circumstances, our national network is 
committed to sustainably increasing growth to serve a targeted and 
record 270,000 child victims of abuse and neglect, with full funding at 
$12 million.
    Caring, dedicated, and extensively trained CASA/GAL advocates bring 
about positive changes in the lives of child victims. Full funding is 
needed to expand the advocate pipeline, enhance the training, 
resources, and services provided to and through CASA/GAL programs, and 
strengthen outcomes for future members of our Nation's workforce. We 
can change the trajectory for victims of child abuse and neglect, 
together, with congressional support.
    We urge the subcommittee to fund the Court Appointed Special 
Advocates Program at $12 million in fiscal year 2017 to address the 
overwhelming need for dedicated advocacy on behalf of child victims of 
abuse and neglect. Thank you for your consideration.
                                 ______
                                 
                 Prepared Statement of Demand Progress
    Dear Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee:

    Thank you for the opportunity to submit testimony regarding 
appropriations for the Department of Justice. I am writing on behalf of 
Demand Progress, a national grassroots organization with more than 2 
million affiliated activists who fight for basic rights and freedoms 
needed for a modern democracy. Our policy agenda encompasses civil 
liberties, civil rights, money in politics, and government reform. 
Today we write regarding transparency and accountability at the 
Department of Justice.
    Our testimony today will address the following components: the FARA 
Registration Unit, the Office of Legal Counsel, and the Office of 
Information Policy.
                       the fara registration unit
    Knowing when agents of foreign governments are lobbying the Federal 
Government to act or forebear action is an important aspect of the 
policymaking process. Foreign lobbying has been an issue raised by 
lawmakers and the President. It also has been the topic of news 
coverage.\1\ However, the mechanism by which agents of foreign 
government report is inadequate to the task and impedes the ability of 
the Department of Justice to properly enforce the law.\2\
---------------------------------------------------------------------------
    \1\ See, e.g. ``The Misinformation Industry: U.S. lobbying, PR 
firms give human rights abusers a friendly face--From Azerbaijan to 
Saudi Arabia, countries with poor human rights records spend millions 
to polish public image,'' Center for Public Integrity (December 2015), 
available at http://www.publicintegrity.org/2015/12/17/19051/us-
lobbying-pr-firms-give-human-rights-
abusers-friendly-face.
    \2\ See, e.g., ``Loopholes, Filing Failures, and Lax Enforcement: 
How the Foreign Agents Registration Act Falls Short,'' Project on 
Government Oversight (December 2014), available at http://www.pogo.org/
our-work/reports/2014/loopholes-filing-failures-lax-enforcement-how-
the-
foreign-agents-registration-act-falls-short.html.
---------------------------------------------------------------------------
    During his first Presidential campaign, candidate Obama pledged to 
``create a centralized Internet database of lobbying reports . . . in a 
searchable, sortable, downloadable format.'' \3\ While persons who 
lobby on behalf of domestic entities have their information published 
in this way,\4\ reporting practices for lobbyists for foreign entities 
have not been similarly modernized. The Department of Justice oversees 
reporting under the Foreign Agents Registration Act \5\ under its FARA 
Registration Unit.\6\ The FARA Registration Unit maintains an online 
database of reports.\7\ It currently permits registrants to submit 
paper documents and publishes those documents as PDFs. This publication 
methods obscures the useful information contained in the reports and 
hinders the Justice Department's ability to prosecute violators of the 
law.\8\
---------------------------------------------------------------------------
    \3\ http://change.gov/agenda/ethics_agenda/.
    \4\ https://www.senate.gov/legislative/Public_Disclosure/
database_download.htm.
    \5\ 22 U.S.C. Sec. 611 et seq.
    \6\ http://www.fara.gov/.
    \7\ http://www.fara.gov/search.html.
    \8\ See ``The Misinformation Industry'' above; also see generally 
``Post Government Employment Restrictions and Foreign Agent 
Registration,'' Government Accountability Office (July 2008), available 
at www.gao.gov/new.items/d08855.pdf.
---------------------------------------------------------------------------
    Transparency advocates expend significant energy trying to 
transform these paper files into a searchable, sortable, downloadable 
database. The Sunlight Foundation, for example, built an online tool 
called the ``Foreign Influence Explorer'' that digitized more than 
7,000 records.\9\ The staffer who built that tool now works inside 
GSA's technology consultancy, 18F, which provides technology assistance 
to Federal agencies. We also have met with members of the FARA 
Registration Unit in an effort to encourage and them to improve their 
database. We met with some success. We also successfully recommended 
that the Justice Department include in its third Open Government Plan 
the following commitment:
---------------------------------------------------------------------------
    \9\ See http://foreign.influenceexplorer.com/. See also ``A better 
way to explore foreign influence,'' Sunlight Foundation (May 2014), 
available at https://sunlightfoundation.com/blog/2014/05/07/
a-better-way-to-explore-foreign-influence/.

        In the process of implementing the Open Government Plan, the 
        FARA Registration Unit, in conjunction with the National 
        Security Division Information Technology Section, has begun to 
        assess the feasibility of generating additional features to the 
        current online portal, which will enable the public to search, 
        sort, and print information from the database more easily. Over 
        the next 2 years, the Department will continue to review the 
        FARA website and electronic filing system, while soliciting 
        reasonable and concrete suggestions and feedback from the 
        public, and will work to make feasible and appropriate 
        modifications to the database. Throughout this process, the 
        Department will specifically investigate collecting and 
        publishing registration information as structured data in a 
---------------------------------------------------------------------------
        machine-readable format.\10\ (emphasis added)

    \10\ Department of Justice Open Government Plan 3.0, p. 8 (May 
2014), available at https://www.justice.gov/open/doj-open-government-
plan.pdf.
---------------------------------------------------------------------------
    Unfortunately, this process has ground to a halt. Despite repeated 
attempts, the FARA Registration Unit appears currently uninterested in 
consulting with the public and disinclined to investigate ``collecting 
and publishing registration information as structured data in a 
machine-readable format.''
    We believe the Department of Justice should require all filings be 
made in an electronic format where the information can easily flow into 
a machine-processable digital format. In turn, that information should 
be released to the public in bulk as structured data so that the data 
it contains may be searched and sorted. It would empower the use of 
analytics by DOJ as well.
    We request the committee include language in its committee report 
requiring the FARA Registration Unit to complete its consultations with 
the public and technologists and publicly report to the committee 
within 3 months on a plan to publishing registration information as 
structured data in a machine-readable format. We further request the 
committee urge the Justice Department to implement publication in a 
structured-data format within a reasonable timeframe.
                      the office of legal counsel
    Congressional and public access to the final opinions of the Office 
of Legal Counsel are essential for the proper functioning of 
Government. They often act serve as a final interpretation of the law 
for the executive branch; adherence to its advice will cause the 
Justice Department to forebear prosecution for wrongdoing. 
Unfortunately, an unknown subset of these opinions has been actively 
kept secret by the executive branch under claims of executive 
privilege, deliberative process, and attorney-client privilege. Their 
concealment undermines the system of checks and balances wrought by the 
framers. At times, the withholding served to conceal wrongdoing and 
faulty legal interpretations \11\ and may include examples of executive 
overreach.
---------------------------------------------------------------------------
    \11\ See, e.g., ``Testimony sheds new light on the torture issue,'' 
David Johnson and Scott Shane, the New York Times (April 2008), 
available at http://www.nytimes.com/2008/04/03/washington/03intel.html.
---------------------------------------------------------------------------
    In an Executive order,\12\ President Obama wrote that ``agencies 
should take affirmative steps to make information available to the 
public'' and should ``adopt a presumption in favor of disclosure.'' His 
first nominee to head the Office of Legal Counsel, Dawn Johnsen, joined 
by many others who served in the Justice Department, called on OLC to 
``publicly disclose its written legal opinions in a timely manner, 
absent strong reasons for delay or nondisclosure.'' \13\ OLC, in its 
``best practices'' memo, declares that ``the Office operates under the 
presumption that it should make its significant opinions fully and 
promptly available to the public,'' including considering ``disclosing 
documents even if they technically fall within the scope of a FOIA 
exemption.'' \14\ We have found, however, that many opinions are not 
available to the public.\15\
---------------------------------------------------------------------------
    \12\ http://www.whitehouse.gov/the-press-office/freedom-
information-act.
    \13\ http://www.acslaw.org/files/Microsoft%20Word%20-
%2011_Johnsen_OLC.pdf.
    \14\ http://www.justice.gov/olc/pdf/olc-legal-advice-opinions.pdf.
    \15\ https://sunlightfoundation.com/blog/2012/08/15/39-of-office-
of-legal-counsel-opinions-kept-from-the-public/.
---------------------------------------------------------------------------
    We believe the policy of the Justice Department should be to 
require disclosure of all opinions to congress and the public by 
default, except public disclosure may be limited in certain 
circumstances. A determination to withhold publication should be made 
at the highest levels within the DOJ and be based upon clearly 
articulated rules. To the extent a document is withheld in full or in 
substantial part, a detailed unclassified summary of the opinion should 
be made available to the public in a timely way that conveys the 
essence of the opinion. In addition, the OLC should publish a complete 
list of all final opinions and contemporaneously update the list.
    We request the committee include legislative language to require 
the Justice Department to public report to the committee: (1) the total 
number of final OLC opinions currently in effect, (2) the standard by 
which the Justice Department concluded an opinion was ``final'' and 
``currently in effect,'' (3) the dates of the opinions, (4) the legal 
issue at stake, and (5) an unclassified summary of each opinion. In 
addition, the Justice Department should be required to provide the full 
text of all final opinions still in effect to the subcommittee, the 
Senate Judiciary Committee, and other committees of jurisdiction.
                    the office of information policy
    The Office of Information Policy (OIP) in the Department of Justice 
has responsibility for government-wide oversight of the Freedom of 
Information Act. As has been recently reported,\16\ the Justice 
Department actively lobbied against FOIA legislation that would have 
codified the administration's own language on instantiating a 
presumption of openness. Related legislation passed the Senate,\17\ 
accompanied by a stern scolding of the Justice Department from 
government transparency organizations.\18\ There are examples of where 
the Office of Information Policy has been insufficiently zealous in 
promoting the proper implementation of FOIA.\19\ In fact, concerns 
about OIP in part prompted the creation of a FOIA watchdog in another 
agency.
---------------------------------------------------------------------------
    \16\ See ``It Took a FOIA Lawsuit to Uncover How the Obama 
Administration Killed FOIA Reform,'' Jason Leopold, VICE (March 2016), 
available at https://news.vice.com/article/it-took-a-foia-lawsuit-to-
uncover-how-the-obama-administration-killed-foia-reform.
    \17\ See ``Freedom of Information Bill Passes the Senate,'' Daniel 
Schuman, Demand Progress (March 2015), available at https://medium.com/
demand-progress/freedom-of-information-bill-passes-the-senate-
6d8928963c6b#.t8wmlvan7.
    \18\ See Letter to Barrack Obama (March 2016), available at https:/
/s3.amazonaws.com/new.demandprogress.org/letters/2016-03-
16_Letter_to_the_President_on_FOIA_reform.pdf (``The Justice 
Department's positions are at variance with the underlying intent of 
the FOIA, good public policy, common sense, and the administration's 
oft-stated position on transparency.'')
    \19\ See, e.g., ``FOIA is Broken: A Report,'' U.S. House of 
Representatives Committee on Oversight and Government Reform (January 
2016), available at https://oversight.house.gov/wp-
content/uploads/2016/01/FINAL-FOIA-Report-January-2016.pdf.
---------------------------------------------------------------------------
    The Office of Information Policy has three major areas of 
responsibility--processing FOIA requests for seven senior management 
offices within the Justice Department; adjudicating administrative 
appeals for all units within the Department of Justice; and 
(government-wide) FOIA policy and compliance. These responsibilities 
likely create issues with respect to prioritization of tasks and mixed 
incentives.
    I reviewed how OIP allocated its resources to meet these tasks and 
ran into some difficulty getting clear information.\20\ However, it 
appears that FOIA policy and compliance has the fewest resources to 
carrying out that mission.
---------------------------------------------------------------------------
    \20\ See ``FOIA Oversight: The Budget Perspective,'' Daniel 
Schuman, Citizens for Responsibility and Ethics In Washington (June 
2014), available at http://www.citizensforethics.org/blog/entry/foia-
oversight-the-budget-perspective.
---------------------------------------------------------------------------
    We request the committee require OIP to publicly report on the 
funding it receives and how it allocates it among these three areas of 
responsibilities. We request a breakdown of the number of staff and 
contractors that work on issues in each functional unit. In addition, 
we request that GAO be tasked with reviewing whether OIP is devoting 
sufficient resources to FOIA policy and compliance, an assessment of 
whether OIP is properly performing its duties with respect to FOIA 
policy and compliance, and whether mixed incentives arise by housing 
these three function units under the same director and possible 
remedies.
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for the 
National Science Foundation (NSF). ESA requests a robust fiscal year 
2017 appropriation of $8 billion for NSF, including strong support for 
the Directorate for Biological Sciences (BIO).
    Research in basic biological sciences, including entomology, 
provides the fundamental discoveries that advance knowledge and 
facilitate the development of new technologies and strategies for 
addressing societal challenges related to economic growth, national 
security, and human health. Basic research on the biology of insects 
has provided fundamental insights not only within entomology but also 
across all areas of biology, spanning cell and molecular biology, 
genomics, physiology, ecology, behavior, and evolution. In turn, these 
insights have been applied toward meeting challenges in a wide range of 
fields, including conservation biology, habitat management, livestock 
production, and pest control. Moreover, insects have long played an 
essential role as model organisms for understanding basic biological 
processes across all organisms, including humans. Insects are often 
ideal laboratory experimental subjects because they are generally small 
in size and inexpensive to obtain, they complete development rapidly, 
and they can be maintained without the special facilities required for 
vertebrate animals. The familiar ``fruit fly,'' Drosophila 
melanogaster, for example, has been the subject of NSF-funded research 
that has profoundly transformed the understanding of human health in 
countless ways; in 1995, NSF-funded studies elucidating the genetic 
control of embryo development in this insect was recognized with the 
Nobel Prize in Medicine or Physiology.
    NSF is the only Federal agency that supports basic research across 
all scientific and engineering disciplines, outside of the medical 
sciences. Each year, the foundation supports an estimated 300,000 
researchers, scientific trainees, teachers, and students, primarily 
through competitive grants to approximately 2,000 colleges, 
universities, and other institutions in all 50 States. NSF also plays a 
critical role in training the next generation of scientists and 
engineers, ensuring that the United States will remain globally 
competitive in the future. For example, the NSF Graduate Research 
Fellowship Program selects and supports science and engineering 
graduate students demonstrating exceptional potential to succeed in 
science, technology, engineering, and mathematics (STEM) careers.
    Through activities within its BIO Directorate, NSF advances the 
frontiers of knowledge about complex biological systems at multiple 
scales, from molecules and cells to organisms and ecosystems. In 
addition, the directorate contributes to the support of essential 
research resources, including biological collections and field 
stations. NSF BIO is also the Nation's primary funder of fundamental 
research on biodiversity, ecology, and environmental biology.
    One project funded by NSF that illustrates the broad reach of basic 
biology research is focused on how diverse insects, including flies and 
butterflies, use their specialized mouthparts for imbibing fluids.\1\ 
This study examines common and divergent elements allowing these 
insects to ingest fluids, including wettability properties, fluid 
uptake mechanisms, and the influence of the form of the fluid, as a 
pool or a film, on dynamics of fluid acquisition. Results of this 
project can elucidate how insects select and utilize diets ranging from 
floral nectar to vertebrate blood and how fluid use leads to species 
diversification in groups with tremendous impact on human life, 
including pollinators and blood-feeding disease vectors. At the same 
time, this work is yielding bio-inspired principles of fluid uptake and 
transport that can be applied to developing flexible microfluidic 
probes and other new engineering devices for use in diagnostic medicine 
and other purposes.
---------------------------------------------------------------------------
    \1\ Adler, P. et al. Mechanisms of Fluid Feeding in Insects, from 
Nanoscale to Organism, Award Abstract #1354956.
---------------------------------------------------------------------------
    Another group of investigators is funded by NSF to study the 
reproductive biology of the red imported fire ant, an invasive species 
that infests over a dozen southern States and costs this region more 
than $5 billion dollars annually in health costs, crop and livestock 
losses, and control efforts.\2\ These investigators are examining how 
the colonies of this species, particularly those with multiple queens, 
grow so rapidly, focusing on how neuronal signaling molecules respond 
to the nutritional status of the queen and regulate the network of 
genes involved in ovary development and egg maturation. Information 
obtained through these studies is both expanding basic knowledge of 
task allocation in social insects, which collectively comprise 
approximately 75 percent of all insect biomass on the planet, and 
provide new insights into stemming invasions and restoring the health 
of land lost to fire ant infestation.
---------------------------------------------------------------------------
    \2\ Pietrantonio, P. and C. Tamborindeguy, Neuropeptide Receptors 
and Identification of Genes in Signaling Networks Involved in 
Reproduction and Nutrition in the Red Imported Fire Ants. Award 
Abstract #1257837.
---------------------------------------------------------------------------
    Yet another example of how NSF's support for basic research on 
insects is important for the Nation's economic, social, and 
environmental well-being is the collaborative project between two 
universities on the classification and evolutionary history of a group 
of beetles known as the pygmy borers.\3\ These tiny beetles comprise 
one of the largest groups of so-called bark beetles, which collectively 
infest and kill millions of acres of trees every year by boring into 
bark or other tree parts; some species compound the damage they inflict 
by infecting their tree hosts with pathogenic fungi. One pygmy borer 
species, called the coffee berry borer, damages the coffee berries that 
produce coffee ``beans''; this tiny insect, less than 2 mm (8/100ths of 
an inch) long, is capable of destroying an entire coffee harvest in 
some regions. These investigators are using cutting edge methods, 
including next-generation genome sequencing, along with automated 
matrix-based identification techniques to reconstruct the evolutionary 
history of and relationships among the pygmy borers, determine whether 
widespread species in the group are actually many different cryptic 
species, and to understand the effects of bacterial parasites on the 
genomes of species in the group. A product of this research will be 
new, powerful but cost-effective ways to differentiate among species, 
which can be exceedingly difficult to identify, that will enable 
quarantine officers to identify and prevent this species from expanding 
its range into new areas.
---------------------------------------------------------------------------
    \3\ Collaborative Research: Cognato, A.; Hulcr, J.The Pygmy Borers 
(Col., Scolytinae: Cryphalini): revision of genera, evolution of the 
genome, and modernization of insect systematics. Award Abstract 
#1256663, Award Abstract #1256968.
---------------------------------------------------------------------------
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, ESA supports an 
overall fiscal year 2017 NSF budget of $8 billion. ESA requests robust 
support for the NSF BIO Directorate, which funds important research 
studies and biological collections, enabling discoveries in the 
entomological sciences to contribute to understanding environmental and 
evolutionary biology, physiological and developmental systems, and 
molecular and cellular mechanisms.
    ESA, headquartered in Annapolis, Maryland, is the largest 
organization in the world serving the professional and scientific needs 
of entomologists and individuals in related disciplines. Founded in 
1889, ESA has nearly 7,000 members affiliated with educational 
institutions, health agencies, private industry, and government. 
Members are researchers, teachers, extension service personnel, 
administrators, marketing representatives, research technicians, 
consultants, students, pest management professionals, and hobbyists.
    Thank you for the opportunity to offer the Entomological Society of 
America's support for NSF. For more information about the Entomological 
Society of America, please see http://www.entsoc.org/.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                      Experimental Biology (FASEB)
                      national science foundation
    The Federation of American Societies for Experimental Biology 
(FASEB) is composed of 30 societies with 125,000 members, making it the 
largest coalition of biomedical research associations in the United 
States. FASEB enhances the ability of scientists and engineers to 
improve health, well-being, and productivity through research and is 
recognized as the policy voice of biological and biomedical 
researchers. We thank the subcommittee the opportunity to offer our 
support and recommendations for the National Science Foundation (NSF).
    NSF is the only Federal agency supporting discovery-oriented 
research in all fields of science and engineering and is the major 
source of funding for mathematics, computer science, and social 
sciences research. NSF's mission is ``to promote the progress of 
science; to advance the national health, prosperity, and welfare; to 
secure the national defense . . .'' More than 200 Nobel Laureates have 
received NSF support throughout their careers. The agency's fellowship 
programs educate and train thousands of graduate students pursuing 
advanced degrees in science, technology, engineering, and mathematics, 
ensuring a robust and competitive workforce. Funding is distributed 
annually through merit-based reviews, to 200,000 scientists, engineers, 
educators, and pre- and post-doctoral students across all 50 States. 
NSF supports approximately 24 percent of all federally supported basic 
research and awards an average of 11,500 new competitive awards per 
year.
    To sustain the Nation's leadership in science, the research 
community relies on NSF to provide access to major research facilities, 
mid-scale instrumentation, advanced computational and data resources, 
and cyberinfrastructure. Large-scale NSF facilities fund equipment that 
can propel entire fields of research forward, maximizing our investment 
and promoting the use of shared resources. NSF is also responsible for 
helping to address a new set of challenges in managing, storing, and 
providing access to the explosion of data currently being produced by 
researchers.
    Research supported by NSF has led to significant advances in 
nanotechnology, leading to the creation of new devices and materials 
with remarkably useful and versatile properties. Today, many private 
sector companies are pursing the development of nanoscale products for 
commercial uses. NSF has also funded research that has created products 
used in everyday life such as bar codes and computer-aided design (CAD) 
software. In addition, research funded by NSF helped develop Doppler 
radar enabling meteorologists to forecast the location and severity of 
storms with greater accuracy.
    Recent highlights from NSF-funded research that address important 
problems related to the conditions of humans, animals, the environment 
include:

  --CRISPR-Cas9 and Gene Editing: Basic research into the mechanisms of 
        bacterial immunity has opened a new frontier in biotechnology. 
        The CRISPR-Cas9 system, pioneered by researchers at 
        institutions including the University of California, Berkeley, 
        allows biologists to make precise, targeted changes to 
        individual genes in the genomes of a myriad of organisms and 
        cell-types. This not only gives researchers an unprecedented 
        ability to study biological processes at the molecular level, 
        but opens up a new universe of potential therapeutics and 
        biotechnological applications.\1\
---------------------------------------------------------------------------
    \1\ http://www.nsf.gov/discoveries/
disc_summ.jsp?cntn_id=134286&org=BIO.
---------------------------------------------------------------------------
  --Studying Amphibians to Understand the Microbiome and Disease: 
        Researchers at the University of California-Santa Barbara have 
        demonstrated that a fungal pathogen responsible for massive 
        declines in amphibian species changes the microbiome that 
        normally resides on the animals' skin. Using next-generation 
        DNA sequencing to document shifts in skin bacteria of frog 
        communities during pathogen outbreaks, the researchers 
        discovered varying patterns of disease dynamics that may be 
        related to tolerance or vulnerability to the pathogen. The 
        results are important for developing responses to counter the 
        mass extinction of amphibians worldwide, and may also have 
        implications for studies of human health.\2\
---------------------------------------------------------------------------
    \2\ http://www.nsf.gov/discoveries/
disc_summ.jsp?cntn_id=133263&org=NSF.
---------------------------------------------------------------------------
  --Using Genetics to Address Colony Collapse Disorder: Important 
        commercial crops in the United States and throughout the world 
        are pollinated by honey bees. However, over the last decade, 
        there has been a drastic decline in bee populations, 
        threatening food security and billions of dollars of 
        agricultural production. By studying the African relatives of 
        domestically raised bees, researchers at Pennsylvania State 
        University are beginning to understand genetic and 
        environmental factors that might allow bees to resist the 
        agents that threaten them. This work may lead to new management 
        and breeding strategies that will save this crucial 
        pollinator.\3\
---------------------------------------------------------------------------
    \3\ http://www.nsf.gov/discoveries/
disc_summ.jsp?cntn_id=135470&org=BIO.
---------------------------------------------------------------------------
  --Understanding Variation in Tolerance to Oxygen Deprivation: Oxygen 
        deprivation is an important cause of disease and injury in 
        humans, animals, and aquatic ecosystems. Some animals, such as 
        painted turtles, are ideal models for understanding the limits 
        of oxygen deprivation because they can naturally tolerate the 
        condition. Comparative physiologists at Saint Louis University 
        are using next-generation transcriptomic approaches to identify 
        the genes underlying the turtle's ability to survive without 
        oxygen. Their aim is to uncover new targets for interventions 
        that could reduce or eliminate tissue injury in more vulnerable 
        species.\4\
---------------------------------------------------------------------------
    \4\ https://www.nsf.gov/awardsearch/
showAward?AWD_ID=1253939&HistoricalAwards=false.
---------------------------------------------------------------------------
  --Mathematical Modeling of Blood Flow to Understand Glaucoma: 
        Researchers at Indiana University are developing a mathematical 
        model of ocular blood flow in order to study glaucoma, a 
        disease of the optic nerve and a leading cause of blindness. By 
        using new, quantitative approaches, this work has the potential 
        to improve the interpretation of clinical eye measurements, not 
        only for the diagnosis and treatment of glaucoma, but also for 
        other vascular diseases that present systems in the eye such as 
        diabetes, hypertension, and atherosclerosis.\5\
---------------------------------------------------------------------------
    \5\ http://www.nsf.gov/awardsearch/
showAward?AWD_ID=1224195&HistoricalAwards=false.
---------------------------------------------------------------------------
  --Blocking the Transmission of Malaria: Malaria, a parasitic 
        infection transmitted by mosquitoes, is a scourge that affects 
        millions of people globally each year. Biochemists at the 
        University of Oklahoma have identified a protein in the 
        mosquito digestive system that is critical for the transmission 
        of the malarial parasite. With this insight, researchers hope 
        to harness the activity of this protein in order to develop 
        compounds that might block parasite uptake by mosquitoes and 
        prevent further spread of the disease.\6\
---------------------------------------------------------------------------
    \6\ http://www.nsf.gov/discoveries/
disc_summ.jsp?cntn_id=135733&org=BIO.
---------------------------------------------------------------------------
  --Real-Time Imaging of Organs and Tissues: Biomedical engineers at 
        Washington University in St. Louis have developed a novel 
        approach to biomedical imaging. This technique, which uses 
        lasers to create miniscule changes in temperature in the object 
        to be imaged, does not require the use of chemical agents, and 
        thus can be used to visualize living material in its natural 
        environment. Such new bioimaging technology will give 
        researchers an unprecedented ability to visualize and 
        understand myriad biological processes, and ultimately may give 
        clinicians a powerful new diagnostic tool.\7\
---------------------------------------------------------------------------
    \7\ http://www.nsf.gov/discoveries/
disc_summ.jsp?cntn_id=135473&org=BIO.
---------------------------------------------------------------------------
                      facilitating new discoveries
    New research will be required to solve vexing problems facing the 
United States and the world. The breadth and diversity of NSF's mission 
makes the Foundation uniquely suited to pioneer bold, new scientific 
directions. Indeed, many of the most innovative ideas and interesting 
frontiers are interdisciplinary in nature, drawing upon concepts and 
expertise from several different scientific traditions. In this spirit, 
the NSF has become adept at leveraging its expertise both within and 
across units at the agency, and will continue to pursue new multi-
directorate initiatives, such as the Innovations at the Nexus of Food, 
Water, and Energy investment.\8\
---------------------------------------------------------------------------
    \8\ http://www.nsf.gov/pubs/2016/nsf16524/nsf16524.htm?org=NSF.
---------------------------------------------------------------------------
    Despite this unprecedented level of scientific opportunity, the 
budget of NSF has increased only marginally over the last several 
years. This, coupled with the rising cost of research, has eroded the 
ability of the NSF to be a cornerstone of the America's scientific 
enterprise and restricted the Foundation's ability to train the next 
generation of scientists and engineers. What is required is a renewed 
commitment to NSF that puts the agency on a path of sustained, steady 
budget increases such that science may flourish and the Nation may 
continue to benefit from the landmark discoveries and innovations 
enabled by NSF funding.
    Providing NSF with a budget of $7.96 billion ($500 million above 
fiscal year 2016 levels) would allow the agency to fund approximately 
500 additional research grants at colleges, universities, and other 
research centers across the Nation. Funding at this level is also 
consistent with a vision of predictable, sustained growth for NSF that 
has been proposed in past reauthorizations, such as the America 
Creating Opportunities to Meaningfully Promote Excellence in 
Technology, Education, and Science (COMPETES) Act of 2010.
    FASEB recommends a minimum of $7.96 billion for NSF in fiscal year 
2017, as an important first step in ensuring a sustainable, competitive 
basic research enterprise.
                                 ______
                                 
                 Prepared Statement of Friends of NOAA
    Dear Members of Congress:

    As supporters, stakeholders, employees, and partners of the 
National Oceanic and Atmospheric Administration (NOAA), Friends of NOAA 
strongly supports funding the agency at $6.05 billion in fiscal year 
2017.
    NOAA is essential to America's economy, security, environment, and 
quality of life. More than half of all Americans live along our coasts, 
over 2.8 million jobs are in ocean-dependent industries, and the 
insured value of coastal property now exceeds $10 trillion. Moreover, 
weather and climate sensitive industries account for an overwhelming 
majority of the U.S. GDP. Americans need NOAA's fully integrated range 
of oceanic and atmospheric data, products, and services now more than 
ever before. Investing in NOAA in a balanced manner not only 
strengthens our Nation's capacity for science-based innovation but also 
provides superior economic value by enabling businesses and government 
to better manage risk and optimize decisionmaking.
    Investments in NOAA translate into an extensive list of benefits, 
from reduced natural hazard risks to increased national security. The 
following items are only some of the many contributions that NOAA makes 
to our Nation and its citizens.
Timely and Accurate National Weather Service Forecasts and Warnings
    Weather, water, and climate events cause an average of 
approximately 650 deaths and $15 billion in damage per year. They are 
also responsible for around 90 percent of all presidentially-declared 
disasters. Additionally, about one-third of the U.S. economy--$3 
trillion--is weather and climate sensitive, which means that millions 
of people, businesses, and communities rely on National Weather Service 
(NWS) products every day. Sufficient funding for NWS will support the 
program's ``Weather Ready Nation'' campaign and the National Water 
Center, which help to build community resilience in the face of growing 
vulnerability to extreme weather events by increasing advanced warning 
times, improving how forecasts are communicated, and providing 
emergency managers with decision support services.
    More specifically, strong support for NOAA will allow the agency to 
develop a new Integrated Water Prediction (IWP) initiative, resulting 
in a new generation of flooding and drought forecasts. Increased 
funding is also required for NOAA to maintain its NEXRAD Weather Radars 
and Automated Surface Observing Systems, which are essential for 
critical tornado and severe weather warnings and in avoiding critical 
data gaps.
Environmental Management to Reduce Risk
    NOAA provides the essential data and information that people need 
to understand and prepare for climate variability and change. Long-term 
environmental information is essential to reducing the natural hazard 
risks and limiting liabilities for agriculture, marine and freshwater 
resources, maritime trade and commerce, forest management, coastal 
resilience, and wildfire control. Drought forecasts alone are worth up 
to $8 billion per year to the farming, transportation, tourism, and 
energy sectors, and knowledge about a changing ocean can help protect 
coastal properties worth $170 billion.
    Strong investments in NOAA are critical to support public and 
private stakeholders in carrying out careful environmental monitoring 
and analysis that can save time, money, and lives. Furthermore, 
increased funding is essential for updating NOAA's computing capacity 
and, in addition to improved baseline atmospheric and ocean data 
collection, will also allow the agency to expand forecast outlooks to 
three to 4 weeks, which do not currently exist.
Maintenance and Sustainability of Healthy Oceans and Coasts
    NOAA's work in understanding our oceans and coasts is absolutely 
essential to our economic, ecological and public health. A healthy 
ocean has drawn approximately half of all Americans to live on the 
coasts--and coastal counties alone contribute nearly $6.6 trillion 
annually to the GDP. Sustained ocean research and observations support 
initiatives such as managing harmful algal blooms, exploring how ocean 
acidification affects our communities and ecosystems, and responding to 
coastal emergencies like the Deepwater Horizon oil spill, NOAA helps to 
strengthen local ocean-dependent economies, aids place-based 
stewardship, and sustainably manages coastal natural resources. NOAA 
requires strong Federal funding to continue to ensure the existence of 
clean beaches, healthy oceans, and sustainable coastal communities.
    With increased support, NOAA can further our understanding of ocean 
acidification and its impacts on marine resources, expand grants for 
critical research on ecological, economic, and social coastal issues, 
and help coastal planners integrate ecosystem-based solutions into 
hazard mitigation and coastal resilience strategies.
Informed and Productive Fishery Management
    Fishery stock assessments and data collection are essential for 
providing managers the information they need to sustain fishing 
opportunities while preventing overfishing. As a result of the agency's 
fishery management, NOAA has rebuilt 37 stocks since 2000, resulting in 
overfishing numbers dropping to an all-time low in 2014. Rebuilding all 
overfished stocks and harvesting them at their maximum sustainable 
yields will generate $31 billion in sales impacts and support 500,000 
jobs.
    Investment in NOAA is vital to the implementation of science-based 
catch limits that maintain productive fisheries, secure fishing 
opportunities, and support the economic vitality of coastal 
communities. Strong funding will allow the agency to combat global and 
domestic illegal, unreported, unregulated fishing, monitor endangered 
marine species, and provide crucial disaster assistance to fisheries.
Innovative and Cutting-edge Geostationary and Polar Satellite Systems
    All levels of government, public, industry, and military rely on 
NOAA satellites for weather forecasting, storm tracking, and long-term 
Earth observations that protect lives and infrastructure. 39,000 people 
worldwide have been saved by NOAA's Search and Rescue Satellite-Aided 
Tracking System alone. Stable funding is essential for data acquisition 
efficiency, for minimizing total cost to taxpayers, and for ensuring 
that launch dates are not delayed, which would leave millions of 
Americans without detailed severe weather information they rely on 
every day.
    Strong support for the agency will allow NOAA to maintain current 
launch schedules of both GOES-R and JPSS, as well as ensuring that 
following satellites in the series are developed on time. Increased 
funding also translates into the continuation of exploring the 
potential of commercial data use in NOAA's modeling and forecasting, 
completing the development of COSMIC-2A ground stations and enhancing 
NOAA's capabilities in space weather forecasting and imaging as DSCOVR 
reaches the end of its projected mission life in 2022.
World Class Research and Development
    NOAA research has led to new technologies and scientific advances 
that have increased our understanding of the planet and improved our 
lives. NOAA research also engages students--the next generation's 
scientists--from around the country, helping to expand the agency's 
capacity and prepare for the future. Continuing this cutting edge work, 
however, will require the comprehensive modernization of all of NOAA's 
observation and monitoring operational systems, including its 
oceanographic fleet of vessels, fleet of aircraft, suite of in-situ 
ocean and coastal sensors, and remote capabilities.
    Without adequate investment, for example, the NOAA fleet will 
decline by 50 percent, with half of its vessels set to retire in the 
next 10-12 years. In addition, strong funding for NOAA will allow the 
agency to more efficiently transition the most promising research into 
operations, applications, and commercialization, as well as expand 
regional research to help manage climate risks and support climate 
assessment efforts.
    FoNOAA urges Congress to support a balanced budget for NOAA. From 
satellites and weather operations to fisheries and coastal management, 
every facet of NOAA serves a purpose essential to the Nation. 
Therefore, we strongly encourage you to recognize the unique role that 
NOAA plays in supporting our economy, national security, and 
environmental resiliency by funding the agency at $6.05 billion in 
fiscal year 2017.
    If Friends of NOAA can be of service or provide additional 
information, please contact <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e38a8d858ca385918a868d87908c858d8c8282cd8c9184cd">[email&#160;protected]</a>
    Thank you for your consideration of this request.

            Sincerely,

AccuWeather, Inc.
Alliance for Earth Observations
American Association of Port Authorities
American Geophysical Union
American Geosciences Institute
American Rivers
American Weather And Climate Industry Association
American Weather And Climate Industry Association
Association for the Sciences of Limnology and Oceanography
Association of Public and Land-grant Universities
Association of Zoos & Aquariums
Associaton of National Estuary Programs
Ball Aerospace & Technologies Corp.
Battelle
Campaign for Environmental Literacy
Campbell Marketing Group
City of Port Washington, Wisconsin
Coastal States Organization
Colorado Ocean Coalition
Columbia University
Consortium for Ocean Leadership
Department of Fisheries Biology, Humboldt State University
Federal Science Partners
Fugro Pelagos, Inc.
Georgia Conservancy
Global Science & Technology, Inc.
Guanaja Mangrove Restoration
Hubbs-Seaworld Research Institute
I.M. Systems Group, Inc.
Institute for Exploration
Integrated Systems Solutions, Inc.
International Fund for Animal Welfare
International SeaKeepers Society
IOOS Association
Joint Ocean Commission Initiative
Lamont-Doherty Earth Observatory, Columbia University Earth Institute
Marine Conservation Institute
Marine Fish Conservation Network
Mariners' Museum
Meridian Institute
Michigan Technological University
National Aquarium
National Association of Marine Laboratories
National Council of Industrial Meteorologists
National Estuarine Research Reserve Association
National Federation of Regional Associations for Coastal and Ocean 
Observing
National Marine Sanctuary Foundation
National Weather Service Employees Organization
Natural Resources Defense Council
Navocean, Inc.
Ocean Conservancy
Ocean Conservation Research
Ocean Exploration Trust
Ogeechee Riverkeeper
Oregon State University
Quantum Spatial
Raytheon
Reinsurance Association of America
Restore America's Estuaries
School of Ocean and Earth Science and Technology, University of Hawaii
Scripps Institution of Oceanography
Sea Grant Association
Sea Stewards
SeaWeb
Shipbuilders Council of America
The JASON Project
The Maritime Alliance
The Ocean Foundation
The Ocean Project
The University of Oklahoma
The Weather Coalition
UC Davis Bodega Marine Laboratory
UCLA Institute of the Environment and Sustainability
United Fisherman's Marketing Association, Inc.
University Corporation for Atmospheric Research
University of Colorado, Boulder
University of Maryland
University of Miami, Rosenstiel School of Marine and Atmospheric 
Science
University of South Florida
University of Washington
Vaisala, Inc.
WeatherBank, Incorporated
West Marine
Wisconsin Maritime Museum
Woods Hole Oceanographic Institution
World Wildlife Fund
                      
                                 ______
                                 
         Prepared Statement of the Genetics Society of America
    Thank you for the opportunity for the Genetics Society of America 
(GSA) to provide our perspective on the fiscal year 2017 appropriations 
for the National Science Foundation (NSF). GSA recommends a minimum of 
$7.96 billion for NSF to support fundamental research across the 
Nation.
    GSA is a professional scientific society with more than 5,500 
members from all 50 States working to deepen our understanding of the 
living world by advancing the field of genetics, from the molecular to 
the population level. While NSF provides 24 percent of all Federal 
research for sciences, its contributions comprise 68 percent of the 
total Federal investment in non-biomedical biology--including genetics 
research.\1\ Members of our community rely on support from NSF to 
answer fundamental research questions. This is especially true for our 
members whose line of scientific inquiry does not have a foreseeable 
health application, but fits directly into NSF's mission to ``promote 
the progress of science.''
---------------------------------------------------------------------------
    \1\ NSF Fiscal Year 2015 Budget Request to Congress. http://
www.nsf.gov/about/budget/fy2017.
---------------------------------------------------------------------------
    Fundamental research supported by the NSF has led to ground-
breaking discoveries in our field and beyond. For example, research 
into the mechanisms of bacterial immunity funded by NSF led to the 
development of CRISPR/Cas9, the breakthrough technology which has 
accelerated the potential for gene editing.\2\ As a result, researchers 
now have an unprecedented ability to study biological processes at the 
molecular level in a growing array of experimental systems and a new 
universe for biotechnological applications is now open for exploration. 
In another example, results from genetics research on the decline of 
bee colonies--which are a crucial pollinator for U.S. crops--will be 
implemented to create new management and breeding strategies to ensure 
that bee populations are maintained.\3\ This research investment could 
prevent threats to food security and billions of dollars in losses in 
agricultural production.
---------------------------------------------------------------------------
    \2\ http://www.nsf.gov/discoveries/
disc_summ.jsp?cntn_id=134286&org=BIO.
    \3\ http://www.nsf.gov/discoveries/disc_summ.jsp?cntn_id=131953.
---------------------------------------------------------------------------
    Sustainable funding for the National Science Foundation is critical 
to ensure that these types of investigator-initiated projects, which 
have implications for society at large, continue to be supported. If 
the full funding request of $7.96 billion is appropriated, the agency 
will be able to increase its success rate for investigator-initiated 
grants to 23 percent, corresponding to 800 new projects, any number of 
which could lead to the next great scientific innovation.
    We also wish to emphasize the importance of sustainable support for 
research infrastructure. Biological databases, stock centers, and other 
shared research resources are essential for maintaining consistency 
across different research laboratories and are vital to scientists 
nationwide. For example, genomic databases speed innovation by 
providing accelerated access to well-curated data that can be used to 
validate new techniques. They also serve as searchable data 
repositories that allow scientists to connect their research findings 
and identify collaborators rapidly. Further, research databases 
function as a central place for data sharing, improving research 
transparency, and positively impacting research reproducibility. We 
believe that sustained public support for these community resources is 
essential and allows them to operate on an open access model, thus 
assuring that all researchers have the tools they need for discovery.
    A significant fraction of the GSA membership are trainees--
undergraduates, graduate students and postdoctoral scholars--who are 
concerned about the future of research funding and its implications for 
their careers. In 2015, 350,000 senior researchers, postdocs, graduate, 
and undergraduate students were funded directly through the NSF.\1\ The 
requested increase in the agency's budget would allow 20,600 more 
scientists to be positively impacted by agency funds.\1\ Such an 
increase would ensure that graduate students and postdocs remain in 
research careers, making strides in science and technology that will 
allow the U.S. to remain a world leader in STEM advances.
    Finally, we would like to emphasize our support for the NSF's 
existing practice of setting priorities for research investments 
through engagement with the scientific community including the National 
Science Board, National Academy of Sciences, and other advisory bodies. 
The Genetics Society of America supports the merit review process of 
the NSF to select the most promising research and to enable the 
foundation to have flexibility to use its appropriation to pursue 
promising opportunities across the breadth of its mission.
    We appreciate the opportunity to provide input into your 
deliberations about NSF appropriations. We are happy to provide any 
additional information about the impact of NSF funding on our community 
and the advancement of genetics research. Please contact GSA's 
Executive Director, Adam P. Fagen, PhD (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcfdfadddbd9d2fcdbd9d2d9c8d5dfcf91dbcfdd92d3cedb">[email&#160;protected]</a>) or 
GSA's Policy and Communications Manager, Chloe N. Poston, PhD 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85c6d5eaf6f1eaebc5e2e0ebe0f1ece6f6a8e2f6e4abeaf7e2">[email&#160;protected]</a>) with any questions.

    ABOUT GSA: Founded in 1931, the Genetics Society of America (GSA) 
is a professional scientific society with more than 5,500 members 
worldwide working to deepen our understanding of the living world by 
advancing the field of genetics, from the molecular to the population 
level. GSA promotes research and fosters communication through a number 
of GSA-sponsored conferences including regular meetings that focus on 
particular model organisms. GSA publishes two peer-edited scholarly 
journals: GENETICS, which has published high quality original research 
across the breadth of the field since 1916, and G3: Genes <rm-bond> 
Genomes <rm-bond> Genetics, an open-access journal launched in 2011 to 
disseminate high quality foundational research in genetics and 
genomics. The Society also has a deep commitment to education and 
fostering the next generation of scholars in the field--as well as 
helping to enhance public understanding of genetics and model organism 
research. For more information about GSA, please visit www.genetics-
gsa.org. Also follow GSA on Facebook at facebook.com/GeneticsGSA and on 
Twitter @GeneticsGSA.
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) supports strong and 
sustained investments in geoscience research and education at the 
National Science Foundation (NSF) and National Aeronautics and Space 
Administration (NASA). We encourage Congress to appropriate $8.0 
billion and fully support geoscience research at NSF. We support the 
increase proposed for Earth science research at NASA in the request but 
are concerned about proposed cuts to planetary science in the request. 
Investment in NSF and NASA is necessary for America's future economic 
and science and technology leadership, both through discoveries that 
are made and the talent developed through their programs. Earth and 
space science at these two agencies play a vital role in understanding 
and documenting mineral and energy resources that underpin economic 
growth; researching and monitoring potential natural hazards that 
threaten U.S. and international security; and determining and assessing 
water quality and availability.
    The Geological Society of America, founded in 1888, is a scientific 
society with over 26,000 members from academia, government, and 
industry in all 50 States and more than 100 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind.
                      national science foundation
    The Geological Society of America (GSA) urges Congress to provide 
the National Science Foundation (NSF) $8.0 billion in fiscal year 2017. 
Sustained increases beyond research inflation are necessary to regain 
America's economic and science and technology leadership. Facing a 
budget that does not keep pace with inflated costs of research over the 
past few years, NSF has reduced the number of awards funded each year. 
This decline is particularly burdensome for early career scientists. 
Limiting funding opportunities for early career researchers today 
places our position as a science and technology leader of tomorrow in 
jeopardy.
    Geoscience research is a critical component of the overall science 
and technology enterprise and should be funded without restriction. 
NSF's Directorate for Geosciences is the largest Federal supporter of 
basic geoscience research at universities. NSF's programs in geoscience 
research and graduate and undergraduate student support contribute 
significantly to the education and training of the geoscience 
workforce. A recent report by the American Geosciences Institute, 
Status of Recent Geoscience Graduates 2015, illustrates the diversity 
of careers supported by geoscience research. For example, the report 
found that 67 percent of master's graduates found jobs in the oil and 
gas industry, while environmental services, which includes fields such 
as environmental consulting and remediation of land assets such as 
water and soil, hired the highest percentage of bachelor's graduates. 
Other industries hiring geoscientists include manufacturing, trade, 
construction, information technology services, and agriculture.
    Increased investments in NSF's geoscience portfolio are necessary 
to address such issues as natural hazards, energy, water resources, and 
education; geoscience is a key contributor to groundbreaking research 
across disciplines at NSF. Specific needs include:

  --The recent National Research Council report Sea Change: 2015-2025 
        Decadal Survey of Ocean Sciences highlights research questions 
        to guide NSF investment. Tasked ``to identify areas of 
        strategic investment with the highest potential payoff,'' the 
        report identifies questions that will guide our understanding 
        of risks to our planet including: What are the rates, 
        mechanisms, impacts, and geographic variability of sea level 
        change? How different will marine food webs be at mid-century? 
        In the next 100 years? How can risk be better characterized and 
        the ability to forecast geohazards like megaearthquakes, 
        tsunamis, undersea landslides, and volcanic eruptions be 
        improved?
  --Natural hazards are a major cause of fatalities and economic 
        losses. Landslides alone, which occur in every State, cause 
        more than $3 billion in damage each year. NSF research improves 
        our understanding of these geologic hazards, which allows for 
        effective planning and mitigation. We urge Congress to support 
        NSF investments in fundamental Earth science research and 
        facilities that underpin innovations in natural hazards 
        monitoring and warning systems through Risk and Resilience 
        initiative such as ``Prediction of and Resilience Against 
        Extreme Events.''
  --Recent studies have shown that rare earth elements are essential to 
        the production, sustainment, and operation of U.S. military 
        equipment. Reliable access to the necessary material is a 
        bedrock requirement for the Department of Defense. In addition, 
        many emerging energy technologies--such as wind turbines and 
        solar cells--depend upon rare earth elements and critical 
        minerals that currently lack diversified sources of supply. The 
        Division of Earth Sciences supports research on the structure, 
        composition, and evolution of the Earth and the processes that 
        govern the formation and behavior of the Earth's materials. 
        This research contributes to a better understanding of the 
        natural distribution of mineral and energy resources for future 
        exploration.
  --The devastating droughts in the western United States highlight our 
        dependence on water. NSF's research addresses major gaps in our 
        understanding of water availability, quality, and dynamics, and 
        the impact of both a changing and variable climate, and human 
        activity, on the water system. The initiative ``Innovations at 
        the Nexus of Food, Energy and Water Systems'' highlights the 
        important linkages and research needs between these systems.
  --The Division of Atmospheric and Geospace Sciences provides critical 
        infrastructure and research for understanding our planet, such 
        as weather and precipitation variability on multiple time 
        scales and atmospheric and space weather hazards.
             national aeronautics and space administration
    GSA supports increased investment in Earth science and planetary 
exploration research at National Aeronautics and Space Administration 
(NASA). We support the increases proposed for Earth science research in 
the fiscal year 2017 request. The National Academies' Earth Science 
Decadal Survey begins with an explanation of the importance of this 
research:

        ``Understanding the complex, changing planet on which we live, 
        how it supports life, and how human activities affect its 
        ability to do so in the future is one of the greatest 
        intellectual challenges facing humanity. It is also one of the 
        most important challenges for society as it seeks to achieve 
        prosperity, health, and sustainability.''

    The data and observations from Earth observing missions and 
research are a tremendously important resource for natural resource 
exploration and land use planning, as well as assessing water resources 
natural disaster impacts, and global agriculture production. GSA 
supports interagency efforts to ensure the future viability of Landsat 
satellites, including Landsat 9 and 10, as well as funding to increase 
the capabilities and uses of multi-spacecraft constellations of small 
scientific satellites.
    Two missions--Pre-Aerosol, Clouds, and Ocean Ecosystem (PACE) and 
Surface Water and Ocean Topography (SWOT)--will provide valuable 
information to decision makers on water. PACE will help monitor oil 
spills and detect algal blooms, which have a significant negative 
impact on human health, ocean ecology, and fisheries. The global survey 
of Earth's surface water by SWOT could provide key data for flood and 
drought management; improve risk assessments by the insurance industry; 
harness energy; and optimize both military and commercial marine 
operations.
    GSA is concerned, however, about proposed cuts to planetary science 
in the fiscal year 2017 request; we appreciate past congressional 
support for this area and urge you to continue to increase this 
important area to support priority areas identified in the Planetary 
Science Decadal Survey.
    Planetary research is directly linked to Earth science research and 
cuts in either program will hinder the other. To support missions to 
better understand the history and workings of the entire solar system, 
planetary scientists engage in both terrestrial field studies and Earth 
observation to examine geologic features and processes that are common 
on other planets, such as impact structures, volcanic constructs, 
tectonic structures, and glacial and fluvial deposits and landforms. In 
addition, geochemical planetary research studies include investigations 
of extraterrestrial materials now on Earth, including lunar samples, 
meteorites, cosmic dust particles, and, most recently, particles 
returned from comets and asteroids.
    Exploration of other planets in the solar system requires major 
national and international initiatives, significant funding levels, and 
long timelines for mission planning and collaborative research. For 
scientists, the funding cycle is much shorter than typical mission 
cycles, and in particular, graduate student and career-development 
timelines are much shorter than mission timeframes. Therefore, the 
growth and continued development of a robust workforce capable of 
conducting complex space missions and analyzing the scientific data 
returned from such missions does not depend on individual missions as 
much as it depends upon a consistent, sustained program that educates 
and develops planetary scientists.
      support needed to educate future innovations and innovators
    Earth science research and education are fundamental to training 
the next generation of Earth science professionals. We are very 
concerned that cuts in Earth science funding will cause students and 
young professionals to leave the field, potentially leading to a lost 
generation of professionals in areas that are already facing worker 
shortages.
    A 2013 report by the National Research Council, Emerging Workforce 
Trends in the Energy and Mining Industries: A Call to Action, found, 
``In mining (nonfuel and coal) a personnel crisis for professionals and 
workers is pending and it already exists for faculty.'' Another recent 
study, Status of the Geoscience Workforce Report 2014, found an 
expected deficit of approximately 135,000 geoscientists by 2022.
    Increased NSF and NASA investments in Earth science education are 
necessary to meet these workforce needs and develop an informed, 
science-literate electorate. Earth scientists will be essential to 
meeting the environmental and resource challenges of the twenty-first 
century. NSF's Education and Human Resources Directorate researches and 
improves the way we teach science and provides research and fellowship 
opportunities for students to encourage them to continue in the 
sciences. Similarly, NASA's educational programs have inspired and led 
many into science careers. GSA fully supports these efforts, as well as 
new and existing programs to make the geoscience workforce more 
diverse.
    Please contact GSA Director for Geoscience Policy Kasey White at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a514d52534e5f7a5d5f55495559535f4e431455485d">[email&#160;protected]</a> for additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
water resources, planetary research, energy and mineral resources, 
natural hazards, climate change, and public investment in Earth science 
research.
                                 ______
                                 
     Prepared Statement of Stephen P. Halbrook,\1\ Attorney at Law
---------------------------------------------------------------------------
    \1\ Author of Firearms Law Deskbook and The Founders' Second 
Amendment. Rerepresented a majority of members of Congress as amici 
curiae in District of Columbia v. Heller, 554 U.S. 570 (2008). See 
further www.stephenhalbrook.com.
---------------------------------------------------------------------------
                                                     March 1, 2016.

Prepared for the Subcommittee on Commerce, Justice, and Science, and 
Related Agencies, U.S. Senate, Committee on Appropriations

Re:  White House Executive Action on Firearms

     Bureau of Alcohol, Tobacco, Firearms & Explosives

     Hearing on the Department of Justice's Role in Implementing New 
Executive Actions Related to Gun Control

    The administration has announced that persons who wish to engage in 
the business of dealing in firearms at gun shows should obtain licenses 
and conduct background checks. The President is apparently unaware that 
the Bureau of Alcohol, Tobacco, Firearms & Explosives has a long-
standing policy of refusing to issue licenses to persons who wish to 
engage in the business of selling firearms only at gun shows. This 
policy is not justified by any law or regulation and should be changed.
    The Fact Sheet: New Executive Actions to Reduce Gun Violence and 
Make Our Communities (Jan. 4, 2016) states as its very first point: 
``1. Keep guns out of the wrong hands through background checks. The 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) is making 
clear that it doesn't matter where you conduct your business--from a 
store, at gun shows, or over the Internet: If you're in the business of 
selling firearms, you must get a license and conduct background 
checks.'' \2\
---------------------------------------------------------------------------
    \2\ https://www.whitehouse.gov/the-press-office/2016/01/04/fact-
sheet-new-executive-actions-
reduce-gun-violence-and-make-our.
---------------------------------------------------------------------------
    Yet ATF has a long-term policy of refusing to issue licenses to 
persons who wish to engage in the business of selling firearms only at 
gun shows. The ATF Form 7, Application for Federal Firearms License, 
states: ``18a. Do You Intend To Sell Firearms Only at Gun Shows? (If 
yes, do not submit application).'' \3\ Thus, to the extent that persons 
wish to engage in the firearm business only at gun shows, which would 
entail conducting background checks, the inability to obtain licenses 
is ATF's own doing.
---------------------------------------------------------------------------
    \3\ https://www.atf.gov/file/61506/download.
---------------------------------------------------------------------------
    Yet both the administration and ATF have been completely silent on 
this discrepancy. Why the sudden discovery that persons who engage in 
the business only at gun shows are entitled to a license? Will the 
license application be amended to delete the above disqualification?
    Among the qualifications in the Gun Control Act for issuance of a 
Federal firearms license is that ``the applicant has in a State (i) 
premises from which he conducts business subject to license under this 
chapter or from which he intends to conduct such business within a 
reasonable period of time. . . .'' 18 U.S.C. Sec. 923(d)(1)(E). ATF has 
previously interpreted this to mean that a dealer must sell firearms at 
the licensed premises, which is a qualification for selling firearms at 
gun shows. But a dealer who sells only at guns shows would still 
conduct business subject to license when buying and receiving firearms 
at the licensed premises, in order to resell them at gun shows.
    ATF's premises-bound reading was rejected in United States v. 
Ogles, 440 F.3d 1095 (9th Cir. 2006) (en banc). A licensee sold a 
firearm at a gun show in a State other than the State in which the 
licensed premise was located (ATF maintains that a licensee can sell at 
a gun show only within the same State). While it is unlawful for any 
person ``except . . . a licensed dealer'' to engage in the business of 
dealing in firearms, the indictment alleged that the defendant 
``engaged in the business of dealing firearms without a license, that 
is outside the State in which the licensee's place of business was 
located.'' Id. at 1098. The court stated: ``Curiously, the indictment 
included a locality requirement, which the text of the statute does 
not.'' Id.
    Ogles added that ``a gun dealer's license under 18 U.S.C. 
Sec. 922(a)(1)(A) is not location-specific. . . .'' Id. at 1099. One 
judge commented: ``Belatedly, but without any evident embarrassment, 
the Government stated unequivocally that it had reevaluated its 
position and acknowledged that Ogles could not `be convicted as both a 
licensed and unlicensed person with regard to the same transaction and 
at the same time.' '' Id. at 1105 (Reinhardt, J. concurring in part & 
dissenting in part).
    While there is no case law on ATF's refusal to issue licenses to 
persons who wish to sell firearms only at gun shows, the above 
demonstrates the fallacy of ATF's view that in order to engage in the 
business of selling firearms at gun shows, one must also do so at the 
licensed premises. Nothing in the Gun Control Act makes any such 
requirement.
    In sum, the administration demands that persons who wish to engage 
in the business of selling firearms only at gun shows obtain a license 
and conduct background checks. ATF refuses to issue licenses to such 
persons. ATF's policy should change.
                                 ______
                                 
     Prepared Statement of the Human Factors and Ergonomics Society
    On behalf of the Human Factors and Ergonomics Society (HFES), we 
are pleased to provide this written testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, and Science, and 
Related Agencies for the official record. HFES urges the subcommittee 
to provide $8 billion for the National Science Foundation (NSF), in the 
fiscal year 2017 appropriations process.
    HFES and its members recognize and appreciate the challenging 
fiscal environment in which we as a Nation currently find ourselves; 
however, we believe strongly that investment in scientific research 
serves as an important driver for innovation and the economy and for 
maintaining American global competitiveness. We thank the subcommittee 
for its longtime recognition of the value of scientific and engineering 
research and its contribution to innovation in the United States.
           the value of human factors and ergonomics science
    HFES is a multidisciplinary professional association with over 
4,500 individual members worldwide, including psychologists and other 
scientists, engineers, and designers, all with a common interest in 
designing safe and effective systems and equipment that maximize and 
adapt to human capabilities.
    For over 50 years, the U.S. Federal Government has funded 
scientists and engineers to explore and better understand the 
relationship between humans, technology, and the environment. 
Originally stemming from urgent needs to improve the performance of 
humans using complex systems such as aircraft during World War II, the 
field of human factors and ergonomics (HF/E) works to develop safe, 
effective, and practical human use of technology. HF/E does this by 
developing scientific approaches for understanding this complex 
interface, also known as ``human-systems integration.'' Today, HF/E is 
applied to fields as diverse as transportation, architecture, 
environmental design, consumer products, electronics and computers, 
energy systems, medical devices, manufacturing, office automation, 
organizational design and management, aging, farming, health, sports 
and recreation, oil field operations, mining, forensics, and education.
    With increasing reliance by Federal agencies and the private sector 
on technology-aided decisionmaking, HF/E is vital to effectively 
achieving our national objectives. While a large proportion of HF/E 
research exists at the intersection of science and practice--that is, 
HF/E is often viewed more at the ``applied'' end of the science 
continuum--the field also contributes to advancing ``fundamental'' 
scientific understanding of the interface between human decisionmaking, 
engineering, design, technology, and the world around us through 
research funded by NSF. The reach of HF/E is profound, touching nearly 
all aspects of human life from the healthcare sector, to the ways we 
travel, to the hand-held devices we use every day.
    human factors and ergonomics at the national science foundation
    HFES and its members believe strongly that Federal investment in 
NSF will have a direct and positive impact on the U.S. economy, 
national security, and the health and well-being of Americans. It is 
for these reasons that HFES supports robust funding for the Foundation 
to encourage further advancements in the fields of technology, 
education, defense, and healthcare, among others. In the past, NSF 
funding for HF/E basic research has strengthened interdisciplinary 
partnerships allowing for a multilateral approach to technology 
research and development, including the human and user perspectives. 
The benefits of this research are not confined to one field but rather 
span across a range of disciplines to increase understanding of the way 
humans interact with technology, as well as with each other.

    In particular, NSF funds HF/E research to:

  --Better understand and improve the effectiveness of how individuals, 
        groups, organizations, and society make decisions.\1\
---------------------------------------------------------------------------
    \1\ Decision, Risk & Management Sciences (DRMS) Program (http://
www.nsf.gov/funding/pgm_summ.jsp?pims_id=5423).
---------------------------------------------------------------------------
  --Improve understanding of the relationship between science and 
        engineering, technology, and society, in order to advance the 
        adoption and use of technology.\2\
---------------------------------------------------------------------------
    \2\ Science, Technology, and Society (STS) Program (http://
www.nsf.gov/funding/pgm_summ.jsp?pims_id=5324&org=SES&from=home).
---------------------------------------------------------------------------
  --Gain a better understanding of how humans and computers interact to 
        ensure the development of new devices or environments that 
        empower the user.\3\
---------------------------------------------------------------------------
    \3\ Human Centered Computing (HCC) Program (http://www.nsf.gov/
funding/pgm_summ.jsp?pims_id=503302&org=IIS&from=home).
---------------------------------------------------------------------------
  --Inform decisionmaking in engineering design, control, and 
        optimization to improve individual engineering components and 
        entire systems.\4\
---------------------------------------------------------------------------
    \4\ Systems Engineering and Design Cluster (http://www.nsf.gov/
funding/pgm_summ.jsp?pims_id=13473&org=CMMI&from=home).
---------------------------------------------------------------------------
                               conclusion
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, HFES supports an 
overall fiscal year 2017 NSF budget of $8 billion. This investment 
funds important research studies, enabling an evidence-base, 
methodology, and measurements for improving organizational function, 
performance, and design across sectors and disciplines.
    On behalf of HFES, we would like to thank you for the opportunity 
to provide this testimony. Please do not hesitate to contact us should 
you have any questions about HFES or HF/E research. HFES truly 
appreciates the subcommittee's long history of support for scientific 
research and innovation.

    [This statement was submitted by William S. Marras, President, and 
Lynn Strother, Executive Director.]
                                 ______
                                 
           Prepared Statement of the Independent Review Team
    Thank you for the opportunity to testify today and to address the 
serious funding needs that have limited and continue to hinder the 
operations of tribal judicial systems in Indian Country. We are 
representing the Independent Tribal Court Review Team. We thank this 
subcommittee for the additional $10.0 million funding in fiscal year 
2010, the last significant increase. These funds were a blessing to 
tribes. Even minimal increases are always put to good use. It is the 
strong recommendation of the Independent Tribal Courts Review Team that 
the Federal tribal courts budget be substantially increased in fiscal 
year 2017 to support the needs of tribal judicial systems.
            budget priorities, requests and recommendations
    1.  +$2.6 Million--Support fiscal year 2017 proposed increased for 
tribal courts
    2.  +$58.4 Million authorized under the Indian Tribal Justice Act 
of 1993, Public Law 103-176, 25 USC 3601 and re-authorized in year 2000 
Public Law 106-559 (no funds have been appropriated to date)
    3.  Support the requests and recommendations of the National 
Congress of American Indians

The increase will support:

    1.  Hiring and training of court personnel
    2.  Compliance with the Tribal Law and Order Act of 2010
    3.  Compliance with and implement the VAWA Act of 2013
    4.  Salary increases for existing judges and court personnel
    5.  State-of-the-art technology for tribal courts
    6.  Security and security systems to protect court records and 
privacy of case information
    7.  Tribal court code development
    8.  Financial code development

    The Independent Tribal Courts Review Team supports the proposed 
$2.6 million increase for Tribal courts in the fiscal year 2017 
President's Budget.--Tribal courts need an immediate, sustained and 
increased level of funding. The lack of funding has delayed 
implementation of the Tribal Law and Order Act (TLOA) and the Violence 
Against Women Act (VAWA) to a critical level and the resources that 
have been appropriated are required to provide attorneys to represent 
non-Indian defendants which further strain the capacity of the tribal 
judicial system. Tribal systems remain underfunded, understaffed and 
ill-equipped to function effectively and in a manner comparable to non-
Indian government judicial systems. Tribal courts are at a critical 
stage in terms of need. The Tiwahe Initiative, as a means to be 
responsive to tribal concerns, demonstrates that the administration and 
Congress are listening to the tribes, but there needs to be a greater 
effort to fund the authority that was enacted in 1993.
    Section 402 of TLOA reauthorized the Tribal Justice Act, and Indian 
Tribal Justice Technical and Legal Assistance Act of 2001. These Acts 
authorize funding for tribal court judges, court personnel, public 
defenders, court facilities, and the development of records management 
systems and other needs of tribal court systems. The Tribal Justice 
Act, originally enacted December 1993, authorized the appropriation of 
$58.4 million in tribal court base funding. Yet, not a single dollar 
under the Tribal Justice Act has been appropriated in the 22 years 
since it was enacted. Of particular note is the provision of the Tribal 
Justice Act that states that Federal funds may be used specifically for 
``training programs and continuing education for tribal judicial 
personnel.'' Appropriations should finally be made to fulfill the 
promise of these Acts.\1\ We recommend that the Interdepartmental 
Tribal Justice, Safety and Wellness Session, of which the Department of 
the Interior (DOI) is a member, resume outreach to support the efforts 
of TLOA, VAWA and the Tiwahe Initiative.
---------------------------------------------------------------------------
    \1\ Defining the Indian Civil Rights Act's ``Sufficiently Trained'' 
Tribal Court Judge, Jill Elizabeth Tompkins, American Indian Law 
Journal [Vol, 4:53].
---------------------------------------------------------------------------
    The Tiwahe Initiative was launched in 2015 to address several 
lagging family welfare and poverty issues in Indian Country including a 
strategy to reduce incarceration in Indian Country. The alternative to 
incarceration is intended to address underlying causes of repeat 
offenses, such as substance abuse and the lack of adequate social 
service support, by utilizing alternative courts to increase treatment 
opportunities, probation programs, and interagency and 
intergovernmental partnerships with tribal, State and Federal 
stakeholders. In response to the unusual high rates of alcohol and/drug 
related repeat offenders that are dominating the resources of the 
justice system, the Bureau of Indian Affairs (BIA) created the 
Diversion and Re-Entry Division (DRD) within the Tribal Justice Support 
Directorate. In fiscal year 2016 tribal courts received a 4.9 percent 
increase, and the budget request for 2017 is $2.6 million over the 
enacted 2016 level. There is an even greater need to ensure that court 
personnel are trained, equipped and prepared to address these new 
challenges. We support the fiscal year 2017 proposed $21.0 million 
increase for Tiwahe to expand social services, Indian Child Welfare, 
housing, tribal courts and job placement and training.

Background:

    The Bureau of Indian Affairs provides funding to tribal governments 
to supplement their justice systems including courts. Tribal courts 
play a ``vital role'' in Tribal Self-Determination and Self-Governance 
as cited in long-standing Federal policy and Acts of Congress. Funding 
levels from BIA to support tribal justice systems have not met the 
Federal obligations.
    There is a great deal of variation in the types of tribal courts 
and how they apply laws. Some tribal courts resemble Western-style 
courts in that written laws and court procedures are applied. Others 
use traditional Native means of resolving disputes, such as 
peacemaking, elders' councils, and sentencing circles. Some tribes have 
both types of courts. The BIA also manages a small number of CFR (Code 
of Federal Regulations) courts.
    Since 1999, Bureau of Justice Assistance (BJA) in the Department of 
Justice (DOJ) has administered the Tribal Courts Assistance Program, 
designed to provide funds for tribes to plan, operate, and enhance 
tribal judicial systems. They have made attempts to evaluate tribal 
courts but discovered their means of doing so was insensitive to 
American Indian and Alaska Native (AI/AN) people and unrealistic in the 
absence of elements that were key to Indian Country, such as: (1) the 
importance of tribal culture and traditions; (2) the inability to apply 
State and local criminal justice initiatives to tribal settings; (3) 
the lack of cooperation from non-tribal entities; and, (4) the lack of 
available data on tribal justice.
    The Independent Tribal Court Review Team has had more hands on 
success in reviewing tribal court systems. For 7 years, we traveled 
throughout Indian Country assessing how tribal courts are operating. 
During this time, we have completed 84 Court Reviews. We also completed 
28 Corrective Actions. There is no one with more hands-on experience 
and knowledge regarding the current status of tribal courts than our 
Review Team.

Justification for Request:

    1.  Hiring and Training of Court Personnel.--Tribal courts make do 
with underpaid staff, under-experienced staff and minimal training. (We 
have determined that hiring tribal members limits the inclination of 
staff to move away; a poor excuse to underpay staff.)
    2.  Compliance with the Tribal Law & Order Act of 2010.--To provide 
judges, prosecutors, public defenders, who are attorneys, who are bared 
to do ``enhanced sentencing'' in tribal courts.
    3.  Compliance with the 2013 VAWA Act.--To provide tribal courts 
with the ability to provide non-Indians with all the rights under the 
U.S. Constitution in domestic violence actions in tribal courts (12 
person juries, provide licenses attorneys for non-Indians, provide 
licensed attorneys in court personnel in domestic violence cases as in 
TLOA, etc.)
    4.  Salary Increases for Existing Judges and Court Personnel.--
Salaries should be comparable to local and State court personnel to 
keep pace with the non-tribal judicial systems and be competitive to 
maintain existing personnel.
    5.  Tribal Courts Need State-of-the-Art Technology.--(Software, 
computers, phone systems, tape recording machines.) Many Tribes cannot 
afford to purchase or upgrade existing court equipment unless they get 
a grant. This is accompanied by training expenses and licensing fees 
which do not last after the grant ends.
    6.  Security and Security Systems to Protect Court Records and 
Privacy of Case Information.--Most tribal courts do not even have a 
full time Bailiff, much less a state-of-the-art security system that 
uses locked doors and camera surveillance. This is a tragedy waiting to 
happen.
    7.  Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic development 
so code development does not take priority. Tribes make do with under-
developed codes. The Adam Walsh Act created a hardship for tribes who 
were forced to develop codes, without funding, or have the State assume 
jurisdiction. (States have never properly overseen law enforcement in a 
tribal jurisdiction.)
    8.  Financial Code Development.--We have rarely seen tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from tribe to tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among tribes.

    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to 
allocate funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained Judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and judges from political 
pressure. No longer in Indian Country are judges automatically fired 
for decisions against the legislature.
    Tribal courts have other serious needs. Tribal appellate court 
judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts do offer jury trials. In many courts, one sustained jury trial 
will deplete the available budget. The only place to minimize expenses 
is to fire staff. Many tribal courts have defense advocates. These 
advocates are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated.) However, this is a large item in court budgets and if 
the defense advocate, or prosecutor, should leave, the replacement 
process is slow.
    On behalf of the Independent Tribal Court Review Team, Elbridge 
Coochise, Ralph Gonzales, Charles Robertson, Philip Lujan and Myrna 
Rivera, thank you for this opportunity to appear before you today.
                                 ______
                                 
              Prepared Statement of the Innocence Project
    On behalf of the Innocence Project, thank you for allowing me to 
submit written testimony to the Senate Appropriations Subcommittee on 
Commerce, Justice, Science, and Related Agencies as it considers budget 
requests for fiscal year 2017, and thank you for the subcommittee's 
support of innocence and forensic science research programs in fiscal 
year 2016. I write to request fiscal year 2017 funding for the 
following programs, please:

  --$5 million for the Wrongful Conviction Review Program at the 
        Department of Justice (DOJ), Bureau of Justice Assistance (the 
        Wrongful Conviction Review Program is a part of the Capital 
        Litigation Improvement Program)
  --$5 million for the Kirk Bloodsworth Post-Conviction DNA Testing 
        Program (the ``Bloodsworth Program'') at the DOJ, National 
        Institute of Justice (NIJ);
  --$14 million for the Paul Coverdell Forensic Sciences Improvement 
        Grant Program (the ``Coverdell Program'') at the NIJ;
  --$5 million for the Department of Justice to support the National 
        Commission on Forensic Science; related forensic science 
        standards setting activities at the National Institute of 
        Standards and Technology (NIST); and implementation research at 
        the NIJ;
  --$15 million for NIST to support forensic science research and 
        measurement science.

    National Registry of Exonerations data show that the number of 
exonerations has significantly increased since Federal innocence 
programs, the Bloodsworth Post-Conviction DNA Testing and Wrongful 
Convictions Review programs, began to receive funding in 2008 and 2009, 
respectively. (See http://www.law.umich.edu/special/exoneration/Pages/
Exoneration-by-Year.aspx). This dramatic increase in the number of 
exonerations is in part a result of the Federal decision to invest in 
this critical component of the criminal justice system. In the 20 years 
prior to the initiation of innocence program funding (from 1989 to 
2008), the rate of exonerations was much lower. In the last 3 years, 
the numbers of exoneration cases has been at its highest level, with 
2015 being the best year--149 exonerations last year alone. These 
statistics show the power and need to invest in Federal innocence and 
forensic science programs.
    Additionally, freeing innocent individuals and preventing wrongful 
convictions through reform greatly benefits public safety. Every time 
DNA identifies a wrongful conviction, it enables the identification of 
the real perpetrator of those crimes. True perpetrators have been 
identified in approximately half of the over 300 DNA exoneration cases. 
Unfortunately, many of these real perpetrators went on to commit 
additional crimes while an innocent person was convicted and 
incarcerated in their place.
    To date, 337 individuals in the United States have been exonerated 
through DNA testing, including 20 who served time on death row. These 
innocents served an average of 14 years in prison before exoneration 
and release. However, the value of Federal innocence and forensic 
science programs is not to just these exonerated individuals. It is 
important to fund these critical programs because reforms and 
procedures that help to prevent wrongful convictions enhance the 
accuracy of criminal investigations, strengthen criminal prosecutions, 
and result in a stronger, fairer system of justice that provides true 
justice to victims of crime.
                   wrongful conviction review program
    We know that wrongful convictions occur in cases where DNA evidence 
is not sufficient or even available to prove innocence. The National 
Registry of Exonerations currently lists a total of almost 1,800 
exonerations since 1989--over 300 of which were based primarily on DNA. 
The Wrongful Conviction Review Program provides critical support to 
ensure that experts are available to navigate the complex landscape of 
post-conviction litigation, as well as oversee the thousands of 
volunteer hours local innocence organizations leverage to help 
investigate these complex cases and support the significant legal work 
they require. Between January 2015 and January 2016, the Wrongful 
Conviction Review Program contributed to the exoneration of 16 innocent 
individuals.
    The Wrongful Conviction Review Program provides funding to local 
innocence organizations so that they may provide this type of expert, 
high quality, and efficient representation for innocent individuals. 
The program's goals are both to alleviate burdens placed on the 
criminal justice system through costly and prolonged post-conviction 
litigation and to identify, whenever possible, the real perpetrator of 
the crime.
    To help continue this important work, we urge you to provide $5 
million for the Wrongful Conviction Review Program in fiscal year 2017. 
(Please note that the Wrongful Conviction Review Program is a part of 
the Capital Litigation Improvement Program.)
                        the bloodsworth program
    The Kirk Bloodsworth Post-Conviction DNA Testing Program supports 
States and localities that want to pursue post-conviction DNA testing 
in appropriate cases. The program does not directly fund the work of 
local innocence organizations, but instead focuses on State and local 
grantees, including law enforcement agencies, crime laboratories, and 
others--often in collaboration with each other, as well as with local 
innocence organizations. For example, a Bloodsworth grant to Arizona 
allowed the Arizona Attorney General's Office to partner with the 
Arizona Justice Project to create the Post-Conviction DNA Testing 
Project. This effort canvassed the Arizona inmate population, reviewed 
cases, worked to locate evidence and filed joint requests with the 
court to have evidence released for DNA testing. In addition to 
identifying the innocent, Arizona Attorney General Terry Goddard noted 
that the ``grant enable[d] [his] office to support local prosecutors 
and ensure that those who have committed violent crimes are identified 
and behind bars.'' \1\ Such joint efforts have been pursued in many 
other States.
---------------------------------------------------------------------------
    \1\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-
receives-Federal-DNA-grant.htm (last visited Mar. 13, 2012).
---------------------------------------------------------------------------
    The Bloodsworth program is a powerful investment for States seeking 
to free innocent individuals and to identify the true perpetrators of 
crime. The program has resulted in the exonerations of 28 wrongfully 
convicted persons in 10 States. The true perpetrator was identified in 
11 of those cases. For example, Virginian Thomas Haynesworth, who was 
wrongfully incarcerated for 27 years, was freed thanks to Bloodsworth-
funded DNA testing that also revealed the real perpetrator. The real 
perpetrator in that case went on to terrorize the community by 
attacking 12 women, with most of the attacks and rapes occurring while 
Mr. Haynesworth was wrongfully incarcerated. Given the importance of 
this program to both innocent individuals and public safety, we urge 
you to provide $5 million to continue the work of the Bloodsworth Post-
Conviction DNA Testing Program in fiscal year 2017.
                         the coverdell program
    Recognizing the need for independent government investigations in 
the wake of allegations of forensic negligence or misconduct, Congress 
created the forensic oversight provisions of the Coverdell Program, a 
crucial step toward ensuring the integrity of and improving public 
confidence in forensic evidence. Specifically, in the Justice for All 
Act, Congress required that

        [t]o request a grant under this subchapter, a State or unit of 
        local government shall submit to the Attorney General . . . a 
        certification that a government entity exists and an 
        appropriate process is in place to conduct independent external 
        investigations into allegations of serious negligence or 
        misconduct substantially affecting the integrity of the 
        forensic results committed by employees or contractors of any 
        forensic laboratory system, medical examiner's office, 
        coroner's office, law enforcement storage facility, or medical 
        facility in the State that will receive a portion of the grant 
        amount.\2\
---------------------------------------------------------------------------
    \2\ 42 U.S.C. Sec. 3797k(4) (emphasis added).

    The Coverdell Program provides State and local crime laboratories 
and medical examiner offices with much needed Federal funding to carry 
out their work both efficiently and effectively. As forensic science 
budgets find themselves on the chopping block in many States and 
localities, and as Federal bodies recommend the implementation of new 
policies, standards, and guidelines, the Coverdell funds are critical 
to ensure that crime labs can function both efficiently and 
effectively. As the program supports both the capacity of crime labs to 
process forensic evidence and the essential function of ensuring the 
integrity of forensic investigations in the wake of serious allegations 
of negligence or misconduct, we urge you to provide $14 million for the 
Coverdell Program in fiscal year 2017.
                      forensic science improvement
    To continue the critical work to improve forensic science, and help 
prevent wrongful convictions, we urge you to provide the following 
amounts for forensic science improvements, including:

  --$5 million for the Department of Justice, including:

    --$1 million for the DOJ-NIST National Commission on Forensic 
            Science to continue its work.
    --$1 million for the National Institute of Justice to conduct 
            implementation and applied research in this area.
    --$3 million directed to NIST to support technical standards 
            development in forensic science through the Organization of 
            Scientific Area Committees.

  --$15 million for the National Institute of Standards and Technology 
        (NIST) at the Department of Commerce to support forensic 
        science research and measurement science.

    As the Federal entity that is both perfectly positioned and 
institutionally constituted to conduct measurement science and 
foundational research in support of forensic science, NIST's work will 
improve the validity and reliability of forensic evidence, a need cited 
by the National Academy of Sciences 2009 report, Strengthening Forensic 
Science in the United States: A Path Forward.\3\ NIST's reputation for 
innovation will result in technological solutions to advance forensic 
science applications and achieve a tremendous cost savings by reducing 
court costs posed by litigating scientific evidence.
---------------------------------------------------------------------------
    \3\ National Research Council. Strengthening Forensic Science in 
the United States: A Path Forward. Washington, DC: The National 
Academies Press, 2009. doi:10.17226/12589, p. 22-23.
---------------------------------------------------------------------------
    NIST forensic science standards setting groups are seen by many as 
the most significant Federal forensic science initiative in recent 
years. State and local forensic scientists, who conduct the vast 
majority of forensic science casework, are in strong support and are 
significantly involved in this effort. Also, the National Commission on 
Forensic Science, a partnership between the Department of Justice and 
the Department of Commerce through NIST, is an important policy 
guidance group, which includes State and local systems experts as well 
as leading scientific experts. At a time when public safety and 
national security are some of our Nation's top priorities, it is 
imperative that Congress invest in scientific tools that support these 
endeavors. The Coverdell Program and forensic science activities and 
research at NIJ and NIST will help to greatly improve forensic 
disciplines and propel forensic science toward greater accuracy and 
reliability.
    Thank you for your leadership in helping to ensure the integrity, 
accuracy, and reliability of our Nation's criminal justice system. We 
urge you to support all of the aforementioned programs, including the 
Wrongful Conviction Review; Bloodsworth; Coverdell; and forensic 
science programs. If you have any questions or need additional 
information, please do not hesitate to contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="225040504d554c624b4c4c4d41474c414752504d484741560c4d50450c">[email&#160;protected]</a>

    [This statement was submitted by Rebecca Brown, Policy Director.]
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
Interest of the IME
    The Institute of Makers of Explosives (IME) is a nonprofit 
association founded over a century ago to provide accurate information 
and comprehensive recommendations concerning the safety and security of 
commercial explosive materials. Our mission is to promote safety and 
protection of employees, users, the public and the environment, and to 
encourage the adoption of uniform rules and regulations in the 
manufacture, transportation, storage, handling, use and disposal of the 
explosive materials used in blasting and other essential operations. 
IME represents U.S. manufacturers, distributors and motor carriers of 
commercial explosive materials and oxidizers as well as other companies 
that provide related services. The majority of IME members are ``small 
businesses'' as determined by the U.S. Small Business Administration.
    Millions of metric tons of high explosives, blasting agents, and 
oxidizers are consumed annually in the United States. These materials 
are essential to the U.S. economy. Energy production, construction, 
mining, quarrying, demolition, and other specialized applications begin 
with the use of commercial explosives. IME member companies produce 99 
percent of these commodities. These products are used in every State 
and are distributed worldwide. The ability to manufacture, distribute, 
and use these products safely and securely is critical to this 
industry.
    Commercial explosives are highly regulated by a myriad of Federal 
and State agencies. The Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) plays a predominant role in assuring that explosives 
are manufactured, identified, tracked, and stored in a safe and secure 
manner and received only by authorized persons. It is in the 
standpoint, as a highly regulated industry that shares ATF's focus on 
safety and security, that we offer the following perspectives on the 
fiscal year 2017 budget submission.
ATF's Explosives Regulatory Program
    IME understands the difficult decisions that ATF and the Federal 
Government face when allocating scarce resources. We also understand 
the other important work and responsibilities that ATF is assigned. 
Nevertheless, the members of IME, their employees and customers rely on 
a properly funded regulatory program. The success of ATF's explosives 
programs in preventing the misappropriation of commercial explosives 
should not be seen as an opportunity to reallocate funding, but that a 
base level of funding is necessary for ATF to retain a cadre of trained 
personnel to perform these vital services. The commerce of explosives 
is so closely regulated that failure to provide adequate personnel and 
resources can be detrimental to our industry, our customers, our 
employees, and the industrial sector of the U.S. economy.
    On January 13, 2016, IME sent a letter to the House and Senate 
Subcommittees on Commerce, Justice and Science Appropriations, 
requesting that no funds be reprogramed from fiscal year 2016 
appropriations used by ATF to administer the Bureau's explosives 
programs in order to implement the President's recent Executive order 
to reduce gun violence. We were pleased to see no reprogramming took 
place, and instead the administration is seeking programmatic increases 
to fund the initiative.
    ATF is the primary Federal law enforcement agency that regulates 
the explosives industry, licensing and permitting businesses and 
individuals to engage in the business of manufacturing, importing, or 
dealing in explosives, or receiving or transporting explosives 
materials.\1\ By law, ATF must inspect an estimated 10,000 explosives 
licensees and permittees at least once every 3 years. ATF's workload 
also involves ensuring background checks of employee possessors of 
explosives and responsible persons. The Bureau estimates that the 
requirement to inspect 100 percent of the licensees and permittees 
within their 3-year license/permit cycle consumes between 25 and 41 
percent of available inspector resources in any given year. In the 
budget submission, ATF acknowledges the staffing difficulties it faces 
in the next few years as hundreds of experienced personnel with highly 
specialized skill sets are expected to retire. IME urges Congress to 
review ATF's staffing needs and ensure the Bureau has sufficient 
explosive expertise that is critical to the success of the explosives-
related programs.
---------------------------------------------------------------------------
    \1\ Fiscal Year 2017 ATF Budget Submission, page 6.
---------------------------------------------------------------------------
    In past years, IME has recommended that ATF harmonize its vetting 
and clearance procedures with those used by other Federal programs. 
Doing so would allow ATF's vetting program to be reciprocally 
recognized by these programs and save time and resources of the agency 
and the individuals being vetted. In 2015, the Department of Homeland 
Security moved to accept ATF's vetting program. However, concerns 
remain about the equivalency of the ATF program with other Federal 
vetting programs because the Bureau's program lacks recurrent vetting 
and fails to prohibit individuals on the Terrorist Watchlist. We 
strongly encourage efforts to harmonize ATF's vetting standards and 
procedures with those used by other agencies.
ATF-Industry Partnership
            National Center for Explosives Training and Research
    IME would like to commend ATF for its work at the National Center 
for Explosives Training and Research (NCETR), including training, 
testing and research, which is critically important for the safety and 
security of explosive materials. IME and its member companies employ 
recognized subject matter experts in the safe and secure development, 
manufacture, handling and use of commercial explosives. IME welcomes 
continued opportunities to partner with NCETR on research and testing 
initiatives related to commercial explosives and encourages the 
subcommittee to ensure that NCETR receives sufficient funding and 
resources to continue its critical work.
            United States Bomb Data Center
    The U.S. Bomb Data Center (USBDC) is responsible for collecting and 
storing explosives-related incident data, to include information on 
thousands of explosives incidents investigated by ATF and other 
Federal, State, and local law enforcement agencies. While this data 
helps government entities perform trend analysis and compare incidents 
for similarities and crime methodologies, USBDC data also helps the 
industry in efforts to identify any potential weaknesses or reaffirm 
the effectiveness of safety and security practices, and to update 
industry standards accordingly. In 2013, USBDC reinstated the issuance 
of the Explosives Incident Report (EIR) for calendar years 2010-2013, 
including valuable information on fillers of improvised explosives 
devices and on thefts, losses, and recoveries categorized by the type 
and amount of explosives involved. IME has recently advised that 2014 
data is forthcoming, and IME commends ATF on its commitment to release 
the EIR data to industry at least once per year.
            IMESAFR
    IME has spent years developing a credible alternative to strict 
interpretation of quantity distance tables used to determine safe 
setback distances from explosives. The result is a scientifically based 
computer model for assessing the risk from a variety of commercial 
explosives activities called IMESAFR.\2\ ATF and other regulatory 
agencies are recognizing the value of IMESAFR. In April 2015, we were 
pleased to see ATF approve the first variance from the American Table 
of Distances (ATD) based on risk assessment using IMESAFR. NCETR has 
partnered with IME on efforts to further validate IMESAFR data and 
ensure transparency of the scientific process by participating in 
testing and supporting an IMESAFR Science Panel. We welcome and 
strongly encourage ATF's continued support and leadership related to 
IMESAFR. The benefits of risk-based modeling should continue to be 
recognized by ATF, and resources should be provided to develop policies 
that allow the use of such models to meet regulatory mandates.
---------------------------------------------------------------------------
    \2\ IMESAFR was built on the Department of Defense Explosives 
Safety Board's software model, SAFER. The DDESB currently uses SAFER 
and table-of-distances methods to approve or disapprove Department of 
Defense explosives activities. Not only can IMESAFR determine the 
amount of risk presented, but it can also determine what factors drive 
the overall risk and what actions would lower risk, if necessary. The 
probability of events for the activities were based on the last 20 
years of experience in the U.S. and Canada and can be adjusted to 
account for different explosive sensitivities, additional security 
threats, and other factors that increase or decrease the base value.
---------------------------------------------------------------------------
International Engagement
    One of ATF's strategic goals for 2010-2016 is, ``Explosives, Bombs, 
and Bombings: Advance domestic and international explosives expertise 
to prevent, detect, and investigate acts of violent crime and 
terrorism, and to enhance public safety.'' As the ATF works through the 
process of updating and revising its strategic plan for 2017 and 
beyond, IME encourages ATF to remain publicly committed to working at 
the international level to participate in international regulatory 
forums that advocate for the safety and security of explosives and that 
promote consistency in standards and policies. The United States must 
be a leader in explosive safety and security, and IME applauds ATF for 
re-engaging with the international regulatory explosives community.
            Marking Harmonization Efforts
    Explosive manufactures and importers are required to mark products 
with codes to aide law enforcement agencies in the U.S. and foreign 
countries in tracing lost or stolen materials. Additionally, others in 
the global supply chain also cooperate in these tracing efforts. 
However, more and more government entities are imposing their own 
unique system of identification marks without recognizing each other's 
marks. These redundant and competing marks create non-tariff barriers 
to trade and hampers successful tracing and investigation. IME has 
petitioned the United Nations (U.N.) Sub-Committee of Experts on the 
Transport of Dangerous Goods (TDG) to include in its model regulations 
a single, globally harmonized explosives marking protocol. ATF has 
issued a letter in support of IME's U.N. proposal to the U.S. head of 
delegation, the Department of Transportation, and assigned a 
representative to participate with the U.S. delegation. While the U.N. 
did not approve IME recommendations in 2015, we are again working to 
see these standards adopted in 2016. We thank ATF for the support and 
ask for continued support as we move forward with this important issue.
Industry Standards
    IME holds in high regard the statutory obligation that ATF take 
into account industry's standards of safety when issuing rules and 
requirements. We continue to fulfill this obligation through our 
development of industry best practices for safety and security, 
membership in relevant standard-setting organizations, and active 
participation in forums for training. We have offered to ATF 
recommendations that we believe will enhance safety and security 
through our participation in the rulemaking process, in the Bureau's 
important research efforts, and in other standard-setting activities.
    On this issue, IME notes that ATF affirms its ``use [of] risk-based 
assessments to focus limited inspection resources on entities that have 
been identified as at risk for non-compliance.\3\'' IME firmly believes 
that using risk-based measures will help ATF focus its resources where 
it can maximize the value of its efforts.
---------------------------------------------------------------------------
    \3\ Fiscal Year 2017 ATF Budget Submission, page 15.
---------------------------------------------------------------------------
Conclusion
    ATF plays a critical role in helping the explosives industry 
achieve and maintain a strong safety and security record. Even though 
explosives may be dangerous materials when in the wrong hands, the 
manufacture and distribution of explosives is accomplished with a 
remarkable degree of safety and security. The use of explosives is 
essential to sustain the economy, and the explosives industry and the 
general public are dependent on ATF. ATF must have adequate resources 
to fulfill its mission and keep the American public safe. It is up to 
Congress to ensure that ATF has the resources it needs. IME strongly 
recommends full funding for ATF's explosive programs.
                                 ______
                                 
            Prepared Statement of Jamestown S'Klallam Tribe
    On behalf of the Jamestown S'Klallam Tribe, I am pleased to submit 
this written testimony on our funding priorities and requests for the 
fiscal year 2017 Department of Justice and Department of Commerce 
Budgets.

                 TRIBAL SPECIFIC--DEPARTMENT OF JUSTICE

    1.  Tribal Courts--$20,000 (Office of Justice Programs)
    2.  DOJ Transparency Regarding Available Programs and the 
Effectiveness of CTAS

     REGIONAL REQUESTS AND RECOMMENDATIONS--DEPARTMENT OF COMMERCE

    1.  Provide $110 million for the Pacific Coastal Salmon Recovery 
Fund (NOAA/NMFS)
    2.  Provide $14.7 million for the Pacific Salmon treaty, including 
the additional $3 million for the 2008 Chinook Salmon Agreement (NOAA/
NMFS)
    3.  Provide $20.3 million for the Mitchell Act Hatchery Program 
(NOAA/NMFS)

      NATIONAL REQUESTS AND RECOMMENDATIONS--DEPARTMENT OF JUSTICE

    1.  Hold Indian Country Programs Harmless from Budgetary 
Reductions, Rescissions and Sequestration
    2.  Provide Funding to the Civil Rights Commission to Update the 
Quiet Crisis Report of 2003
    3.  Fully Fund the Tribal Law and Order Act
    4.  Fully Fund Violence Against Women Act (VAWA) Extend the Bureau 
of Prisons Pilot Project for Violent Offenders
    5.  Eliminate Competitive Grant Funding
    6.  Create a 10 Percent Tribal Set-Aside for Victims of Crime Act 
Funding
    7.  Support the requests and recommendations of the National 
Congress of American Indians
TRIBAL SPECIFIC
            Tribal Courts--Flexible 7 Percent Tribal Set-Aside for All 
                    Discretionary Office of Justice Programs (OJP) 
                    Programs
    The Jamestown S'Klallam Tribe has repeated advocated for a 7 
percent tribal set-aside from all discretionary Office of Justice 
Programs (OJP) programs to address public safety and tribal criminal 
justice needs in Indian country. This 7 percent set-aside would provide 
a more flexible grant structure to tribes, which was envisioned to 
complement the DOJ's Coordinated Tribal Assistance Solicitation (CTAS). 
We now know that this streamlined application model will never achieve 
its intended success unless and until it is accompanied by a 
streamlined funding mechanism. Stable funding for tribal courts is a 
prerequisite to ensure a safe, healthy and thriving tribal community. 
Although Congress and the administration have taken steps in recent 
years to try and address some of these concerns through the passage of 
the Tribal Law and Order Act (TLOA) of 2010 and the Reauthorization of 
the Violence Against Women Act (VAWA) of 2013, significant funding is 
needed in order to implement these new authorities to address the 
crisis level need in Indian country and elevate the safety and wellness 
of our tribal citizens and communities. Tribal court systems are 
evolving to meet the increasing demands of tribal communities and 
ensure that tribal citizens are provided with adequate legal 
representation and protection. Under TLOA and VAWA tribal courts are 
required to expand judicial services and meet certain costly 
thresholds, including, providing public defenders, recording criminal 
proceedings, and retaining legally trained and licensed tribal judges. 
Without adequate funding for tribal court systems, decisions to arrest, 
prosecute and detain will be based on financial restraints rather than 
in the best interest of public safety.
            DOJ Transparency Regarding Available Programs and 
                    Effectiveness of CTAS
    In fiscal year 2010, DOJ launched the Coordinated Tribal Assistance 
Solicitation (CTAS). As noted above the CTAS program is not supported 
by a funding mechanism that will support success of and has created 
other challenges and gridlocks for tribes. While CTAS grants can be 
used for a variety of justice programs and services in nine different 
areas the application process is highly competitive, tedious and 
complex and there are many restrictions imposed on how the funds may be 
utilized. It has taken numerous staff members a number of weeks to fill 
out and apply for the CTAS program with no guarantee that funding will 
be awarded. The process must be simplified and streamlined. There is 
also a lack of transparency, coordination and communication with 
respect to the programs and services that are available for tribes to 
access through CTAS or other Indian-centric programs at DOJ. We would 
like an accurate accounting of all of the programs, services and 
funding that is available for tribes; how the funds are being 
distributed; the percentage of the dollars that have been received by 
the tribes; steps DOJ has taken to coordinate with other agencies and 
tribal governments to implement tribal priorities and practices that 
bolster tribal justice systems and an analysis on the effectiveness and 
deficiencies of CTAS.
REGIONAL REQUESTS AND RECOMMENDATIONS--NOAA
    1. $110 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
NMFS).--The fiscal year 2016 appropriations provided a total of $65.0 
million. These funds have decreased from the peak of $110.0 million in 
fiscal year 2002. The tribes' overall goal in the PCSRF program is to 
restore wild salmon populations while the key objective is to protect 
and restore important habitat in Puget Sound and along the Washington 
coast. These funds support policy and technical capacities within 
tribal resources management to plan, implement, and monitor recovery 
activities.
    2. $14.7 million for the Pacific Salmon Treaty--The U.S. Section 
estimates that this funding is needed to implement national commitments 
created by the Treaty (NOAA/NMFS).--The Pacific Salmon Commission (PSC) 
establishes fishery regimes, develops management recommendations, 
assesses each country's performance and compliance with the treaty, and 
is the forum for all entities to work towards reaching an agreement on 
mutual fisheries issues.
    3. $20.3 million for the Mitchell Act Hatchery Program (NOAA/
NMFS).--Funding is provided for the operation and maintenance of 
hatcheries that release between 50 and 60 million juvenile salmon and 
steelhead in Oregon and Washington. This program has historically 
provided fish production for tribal treaty and non-tribal commercial 
and recreational fisheries in the Columbia River, and also contributes 
to ocean fisheries from Northern California to Southeast Alaska.
NATIONAL REQUESTS AND RECOMMENDATIONS DEPARTMENT OF JUSTICE
    1. Hold Indian Country Programs Harmless from Budgetary Reductions, 
Rescissions and Sequestration.--Decades of unfulfilled Federal 
obligations has devastated tribal communities who continue to face 
persistent shortfalls and overwhelming unmet needs. Until tribes attain 
exclusive taxing jurisdiction within their tribal lands, Federal 
support remains critical to ensure the delivery of essential 
governmental services to our tribal citizens. The Federal trust 
obligation must be honored and vital programs and services for tribes 
must be sustained and held harmless in any budgetary deal enacted to 
reduce the national deficit.
    2. Civil Rights Commission--``Quiet Crisis Report 2003''.--We urge 
you to provide funding for the United States Commission on Civil Rights 
to update the ``A Quiet Crisis Report''. The 2003 Report assessed the 
adequacy of Federal funding and provided data on the unmet need in 
Indian country. The study highlighted the fact that Federal funding was 
insufficient to address the basic and urgent needs of American Indian/
Alaska Native people funding gaps for Indian programs. This report is 
an important tool that tribes can use to demonstrate budget needs.
    3. Fully Fund the Tribal Law and Order Act (TLOA).--The Tribal Law 
and Order Act was an important step in empowering tribes to better 
address the unique public safety challenges and reduce the prevalence 
of violent crime in Indian country. However, effective implementation 
of TLOA is contingent upon adequate Federal funding. Funding is needed 
to implement the comprehensive and improved measures that were enacted 
to address the public safety crisis in tribal communities. The entire 
tribal justice system is dependent on this funding to carry out law 
enforcement, court, and detention functions, and to provide 
rehabilitation and preventive services.
    4. Extend the Bureau of Prisons Pilot Project for Violent 
Offenders.--In 2010, the Bureau of Prisons (BOP) launched a pilot 
project to house certain tribal offenders sentenced in tribal courts in 
Federal prisons. The program allows any federally recognized tribe to 
request that BOP incarcerate up to 100 tribal violent offenders at a 
time under the authorities of TLOA. A 2014 report was submitted to 
Congress that provided details on the status and recommendations of the 
program and the BOP affirmed its support for the program and included a 
recommendation to make the current pilot program permanent. We implore 
Congress to heed this recommendation and reauthorize and make permanent 
the BOP pilot project.
    5. Eliminate Competitive Grant Funding.--Grant funding is intended 
to be temporary, yet, many Federal agencies, including DOJ use grants 
as the primary funding mechanism for tribal justice programs. Tribal 
courts and justice systems are vital to the communities that they are 
operating in but they cannot be effective and efficient if they are 
forced to operate on grant funding. Many tribes cannot afford to 
provide additional financial assistance to their justice systems and 
often find themselves in a precarious and difficult position because 
when the funding runs out the system is forced to shut down. Many 
successful and innovative tribal justice programs have disappeared 
because the grant cycle has ended. Grant funding undermines core Self-
Governance tenants and hinders the tribes ability to redesign programs 
and services that better address the needs of their communities. It 
creates uncertainty in planning, includes extensive regulation and 
overly burdensome reporting requirements, restricts the use of indirect 
costs, and, forces tribes to compete against each other under DOJ's 
priorities and guidelines. We urge congress to end the practice of 
using grants and competitive processes to fund justice systems in 
Indian country and establish a permanent recurring base funding system 
for tribally determined justice priorities.
    6. Fully Fund Violence Against Women Act (VAWA).--Violence against 
Native women has reached epidemic proportions. The root cause of these 
high rates of violence was a justice system that forced tribal 
governments to rely on distant Federal, and in some cases, State 
officials to investigate and prosecute incidences of domestic violence 
committed by non-Natives against Native women. The statistics on 
violence against Native women show that outside law enforcement has 
proven ineffective in addressing these crimes of violence. Between 2005 
and 2007, U.S. Attorneys declined to prosecute nearly 52 percent of 
violent crimes that occurred in Indian country; and 67 percent of cases 
declined were sexual abuse related cases. It is unconscionable to force 
tribes to submit to a system of justice that declines to prosecute over 
half the criminal cases brought before it and leaves our Native women 
without judicial recourse. On some reservations, Native women are 
murdered at a rate that is 10 times the national average. In 2016, $2.5 
million was appropriated for tribes to implement the new VAWA 
provisions.
    7. Create a 10 Percent Tribal Set-Aside for Victims of Crime Act 
Funding.--Crime victimization rates on tribal lands have been estimated 
as much as 250 percent higher than the national rate and the rate of 
murder of American Indian/Alaska Native women on some reservations are 
1000 percent higher than the national average. Tribal governments, like 
State governments, are responsible for addressing the needs of victims 
in their communities. Congress created the Crime Victims Fund in 1984 
with the idea that money collected from those who commit crimes should 
be used to assist those that have been victimized. Each year, the fund 
is financed by the collection of funds, penalties and bond forfeitures 
from defendants convicted of Federal crimes. It is important to note 
that the fund receives no tax payer dollars. DOJ disburses funds to 
States and other entities. Despite the devastating rates of 
victimization in tribal communities, Indian tribes have largely been 
left out of the fund. In recent years, distributions from the fund have 
been about $700 million. Collections, however, were as high as $2.8 
billion in 2013 and the balance of funds in the account is 
approximately $13 billion dollars. Congress in 2015 and 2016 increased 
the distributions to $2.3 billion. Indian tribes are only able to 
access these dollars through State pass through grants or very limited 
short term competitive DOJ grants. Many States do not provide funds to 
tribes for victim services and the vast majority of tribes are unable 
to access these funds at all. Congress could remedy this situation by 
enacting a 10 percent set aside of VOCA funds for tribes.
    I would like to extend my thanks to the subcommittee for an 
opportunity to submit testimony on the fiscal year 2017 Appropriations 
for DOJ and DOC.

    [This statement was submitted by Hon. W. Ron Allen, Tribal 
Chairman/CEO.]
                                 ______
                                 
      Prepared Statement of the Joint Ocean Commission Initiative
    Chairman Shelby, Ranking Member Mikulski, and other distinguished 
members of the subcommittee on Commerce, Justice, Science, and Related 
Agencies, we thank you for the opportunity to submit written testimony 
regarding the fiscal year 2017 Commerce, Justice, Science, and Related 
Agencies appropriations bill. The Joint Ocean Commission Initiative is 
a collaborative, bipartisan effort to implement the important work of 
the U.S. Commission on Ocean Policy and the Pew Oceans Commission. Our 
2013 report, Charting the Course: Securing the Future of America's 
Oceans, contains recommendations to improve the management of our ocean 
resources that are echoed in this testimony. Furthermore, our testimony 
is informed by a series of regional ocean roundtables that we convened 
in the Arctic and on the East and West Coasts with regional, State, and 
local leaders to better understand the needs of their coastal regions. 
We are currently in the process of convening a roundtable for the Gulf 
of Mexico.
    The Joint Initiative is highly appreciative of the progress your 
subcommittee has made in providing incremental, but substantive 
additional resources to critical ocean and coastal accounts. We are 
acutely aware of the challenges you face addressing the funding needs 
of all the programs within the jurisdiction of your subcommittee. The 
Joint Initiative believes a continued commitment to protecting base 
funding and core programs at NOAA, NSF, and NASA that help manage, 
protect, and better understand our Nation's oceans and coasts and the 
Arctic is an investment in the future of our country that will provide 
significant economic, social, ecological, and national security 
benefits. Maintaining and increasing investment in the following 
programs should be prioritized in fiscal year 2017 appropriations:
               national oceans and coastal security fund
    The Joint Initiative strongly supports increasing NOAA's overall 
budget to $6 billion and, in doing so, maintaining the recent trend 
toward balancing NOAA's portfolio to emphasize ocean and coastal 
priorities. For example NOAA's National Ocean Service (NOS) would be 
increased in NOAA's budget by nearly $18 million to $528 million. 
Specifically, The Joint Initiative strongly encourages funding the 
National Oceans and Coastal Security Fund (NOCS) at the requested $10 
million.
    The Joint Initiative has a long history of leadership in the call 
for a dedicated oceans fund since the concept was initially proposed by 
both the U.S. Commission on Ocean Policy and the Pew Oceans Commission 
more than a decade ago. Allocating adequate and sustained funding has 
been a missing but essential link to any policy to achieve healthy 
oceans and coasts. The NOCS would support work by State and local 
governments, universities, non-profit organizations, and other oceans 
and coastal stakeholders to restore habitats, manage fisheries, plan 
for sustainable coastal development, enhance oceans monitoring and 
research, and acquire coastal properties for preservation.
                           coastal resilience
    The Joint Initiative asks you to consider funding the Regional 
Coastal Resilience Grant program consistent with NOAA's fiscal year 
2017 budget request at $20 million, a $10 million increase from the 
fiscal year 2016 appropriation. An important element of this program is 
its ability to provide competitive funding to support multi-State 
efforts to coordinate data sharing and improve decisionmaking across 
jurisdictions, implement innovative solutions to shared priorities, and 
effectively engage ocean and coastal stakeholders. Furthermore, 
resilient coastal communities are not only able to minimize loss and 
negative impacts to life, property, and the coastal ecosystem, they are 
also able to quickly return residents to productive activities and 
restore essential services. This is imperative to facilitating full and 
timely economic, social, and environmental recovery.
                          ocean acidification
    The Joint Initiative believes the inclusion of $22 million in the 
NOAA budget for the Integrated Ocean Acidification program is essential 
to help us begin to address the chemistry, variability, and impact of 
acidification on the marine environment. Ocean acidification is a 
global challenge needing global answers. It is evident along every 
shoreline in the United States, and its variability over time, with 
depth and horizontal space are not sufficiently measured or understood. 
While shellfish and coral reefs receive most of the attention related 
to ocean acidification, fisheries, aquaculture, and coastal ecosystems 
and economies and jobs around the Nation will be greatly affected. 
Funding the Integrated Ocean Acidification program at NOAA at increased 
levels will allow us to measure and assess the spatial and temporal 
extent of the emerging threat of ocean acidification, and better 
understand the complex dynamics causing it.
                                 arctic
    The Joint Initiative recommends that Congress make a significant 
investment through the fiscal year 2017 appropriations bill toward 
implementation of the National Strategy for the Arctic Region. 
Increased funding for Federal agencies operating in the Arctic, such as 
NOAA and NSF, is essential to our international leadership in the 
region and will enable cross-cutting efficiencies with the Coast Guard, 
the Navy, and the Department of the Interior.
    The Joint Initiative convened an Arctic Ocean Leadership Roundtable 
with U.S. Arctic leaders and key stakeholders from multiple sectors to 
generate ideas for how local, State, and regional work can inform and 
influence national policy with regard to Arctic ocean and coastal 
issues. Many of the ideas generated can be implemented with increased 
investment in the Arctic. This includes improving coordination and 
data-sharing on oil spill planning, preparedness, and response, vessel 
tracking, and search-and-rescue, as well as investment in new 
icebreakers, aircraft, and shore-based infrastructure. Additionally, 
funding Arctic-related programs at NOAA enables a range of important 
services essential to understanding the Arctic including ocean 
observation, weather and sea ice predictions, mapping and charting, and 
sound management of marine resources.
                      sustained ocean observations
    We are strongly supportive of enhanced capabilities for NOAA's 
Office of Oceanic and Atmospheric Research (OAR), the Integrated Ocean 
Observing System, and similar programs at NSF. Specifically we ask you 
to consider funding OAR at $500 million to support the continued and 
enhanced operations of this vital program. This funding is central to 
NOAA's ability to accurately forecast weather, enable communities to 
plan for and respond to climate events such as flooding and drought, 
and protect and manage the Nation's coastal and ocean resources.
    Funding NOAA's Sustained Ocean Observations and Monitoring program 
under this account at $42 million will provide information essential 
for accurate forecasting of hurricanes, tsunamis, calibrating 
satellites observations and monitoring fisheries. Sustained ocean 
observations will help maintain the continuity of long-term data sets 
that are essential for ensuring that communities are able to respond 
and adapt to a rapidly changing world, both today and into the future.
                         sustainable fisheries
    Over the last year, we have seen tremendous progress toward 
sustainable fisheries domestically and internationally. Through the 
commitment and tireless efforts of our fishermen, fishery management 
councils, scientists, and managers, the U.S. is poised to achieve this 
historic milestone in natural resource management. Not only that, but 
NOAA and other Federal agencies have announced new initiatives to 
combat illegal, unreported, and unregulated fishing on a global scale. 
The end of chronic overfishing means healthier ocean ecosystems and a 
brighter future for fishermen and coastal communities. The Joint 
Initiative supports domestic and international efforts to fully 
implement the recommendations in the Presidential Task Force on 
Combating Illegal, Unreported, and Unregulated (IUU) Fishing and 
Seafood Fraud and applauds Congress on the passage of the implanting 
legislation for the Port State Measures Agreement. The Joint Initiative 
asks the subcommittee to consider funding NOAA's National Marine 
Fisheries Service (NMFS) at the requested level of $900 million and 
support other administration initiatives to combat IUU fishing.
                           ocean exploration
    The Joint Initiative appreciates the subcommittee's long standing 
support of ocean exploration at NOAA and requests that you provide $32 
million for the Ocean Exploration program, consistent with funding in 
fiscal year 2016, to at least maintain the pace, scope, and efficiency 
of exploration. This would be $12 million above the NOAA budget request 
for fiscal year 2017. A bipartisan effort since inception, the Ocean 
Exploration program was strongly endorsed by Congress when created in 
2002. The program has greatly contributed to our knowledge of the 
ocean, producing Arctic surveys which enabled the U.S. to argue for an 
extension of our own Exclusive Economic Zone; baseline characterization 
of the Deepwater Horizon site in the Gulf before and after the oil 
spill; discovery of new gas hydrates stretching from Cape Cod to Cape 
Hatteras, with implications for coastal hazards and ocean 
acidification; and new fishery habitat maps off the Northeast.
                    science, research, and education
    The Joint Initiative calls attention to the need for consistent and 
dedicated funding for ocean science, research, and education. We ask 
you to increase funding for ocean science infrastructure, research, and 
grant programs at NOAA, NSF, and NASA that are working to improve our 
understanding of critical physical and biological ocean processes. 
These programs provide local, State, and national decision makers with 
the information they need to make informed decisions.
    An essential element of ocean science is the supporting 
infrastructure. This includes a variety of platforms including ships, 
mooring, buoys, gliders, floats and autonomous underwater vehicles, as 
well as computational and data management hardware. This core 
infrastructure is the backbone of sustained ocean and coastal 
observations, and in combination with the remote sensing capabilities, 
is essential to establishing and maintaining the long-term in-situ 
databases that are essential to understanding changes in physical, 
biological and biogeochemical processes and systems. The ocean science 
community is dependent upon the infrastructure provided by NOAA, NSF 
and the Navy, and it is imperative that Congress provide operational 
and maintenance support necessary to keep this infrastructure 
functioning, and to support its regular modernization. Support for this 
infrastructure is spread across many agencies and programs, and we ask 
the subcommittee to recognize and adequately support these programs and 
activities.
    In particular, we encourage you to provide $7.964 billion for the 
NSF, including $1.398 billion for the Geosciences Directorate and its 
Division of Ocean Science. NSF's investment in the geosciences has 
spurred innovations, addressed important national and global 
challenges, spurred new economic sectors, supported research that 
produces most of the technical geosciences jobs in American industry, 
and led to the development and implementation of advanced technologies 
that save lives, protect property, and support our economy. For 
example, investments supporting basic research in mathematics, physical 
sciences, computer sciences, and geosciences, have led to the 
development of sophisticated models, satellites, radar, and 
instrumentation that has greatly improved hurricane forecasting, now 
allowing for nearly a week of preparations by cities, businesses, 
institutions, and unquestionably saving lives. Now more than ever, 
America must grow a future technical geoscience workforce while the 
price of oil is so low, because we will need that educated workforce 
when oil prices recover.
    We also urge $2.03 billion in funding for the NASA's Earth Science 
Division, up from $1.9 billion in fiscal year 2016 to support 
critically important ocean and coastal science and education. NASA 
improves our national capabilities to predict climate, weather, and 
natural hazards and better manage national resources.
                           concluding remarks
    The Joint Initiative greatly appreciates your commitment to 
stretching scarce resources to address the challenges of the world's 
greatest maritime nation. We will continue to track progress in 
advancing key ocean and coastal programs and accounts in fiscal year 
2017 and beyond. Recommendations from ``Charting the Course'' and other 
reports from the Joint Initiative identify specific areas of 
achievement and deficiency. Implementation of the recommendations will 
secure the future of our Nation's ocean ecosystems, and the critical 
resources they provide, and ensure that they will be abundant and able 
to support America's ocean, coastal, and Great Lakes economies and the 
jobs and communities on which our Nation depends. In that spirit, we 
urge you to resist riders which complicate the Nation's ability to 
coordinate State, regional and national policies to address urgent 
coastal and ocean issues.
    Thank you for considering our requests as the subcommittee begins 
its fiscal year 2017 appropriations process. The Joint Initiative 
appreciates your attention to this matter and stands ready to assist 
you in advancing positive and lasting changes in the way we manage our 
Nation's oceans and coasts.

       Joint Initiative Co-Chairs and Leadership Council Members

The Honorable William Ruckelshaus <rm-bond> The Honorable Norman Mineta

    Frances Beinecke <rm-bond> Don Boesch <rm-bond> Lillian Borrone 
                   <rm-bond> The Honorable Norm Dicks

  Quenton Dokken <rm-bond> Vice Admiral Paul Gaffney <rm-bond> Robert 
                   Gagosian <rm-bond> Sherri Goodman

   Scott Gudes <rm-bond> The Honorable Conrad Lautenbacher <rm-bond> 
                            Margaret Leinen

Christopher Lischewski <rm-bond> The Honorable Jane Lubchenco <rm-bond> 
                             Julie Packard

          The Honorable Leon Panetta <rm-bond> John Pappalardo

 The Honorable Pietro Parravano <rm-bond> Diane Regas <rm-bond> Randy 
                                 Repass

    Andrew Rosenberg <rm-bond> The Honorable Christine Todd Whitman

                                 ______
                                 
Prepared Statement of Law Professors on the Constitution and Executive 
                     Action to Reduce Gun Violence
    In speaking to the Nation in the wake of the mass shooting at 
Umpqua Community College in Roseburg, Oregon, President Obama implored 
Congress to act but also pledged that his administration would take 
whatever actions it could to reduce gun violence in America.\1\
---------------------------------------------------------------------------
    \1\ The White House, Office of the Press Secretary, Statement by 
the President on the Shootings at Umpqua Community College, Roseburg, 
Oregon (Oct. 1, 2015); The White House, Office of the Press Secretary, 
Remarks by the President in Press Conference (Oct. 2, 2015).
---------------------------------------------------------------------------
    We, the undersigned professors with expertise in constitutional 
law, write to urge the President to follow through on his pledge. There 
are numerous actions the administration can take which are fully 
consistent with the constitutional limitations on the President's 
power, which preserve the Second Amendment rights of Americans, while 
reducing gun violence and saving lives.
    Twice in the last decade, the Supreme Court has stressed that the 
Second Amendment right is ``not unlimited'' and that it is ``not a 
right to keep and carry any weapon whatsoever in any manner whatsoever 
and for whatever purpose.'' \2\ And twice in the last decade, the Court 
has made clear that a wide range of gun regulations are presumptively 
constitutional and do not infringe the Second Amendment. Indeed, the 
Court has endorsed the constitutionality of laws restricting access to 
firearms, regulating the carrying and storage of guns, and imposing 
conditions on gun sales that can keep guns out of dangerous hands.
---------------------------------------------------------------------------
    \2\ District of Columbia v. Heller, 554 U.S. 570, 626 (2008); see 
also McDonald v. City of Chicago, 561 U.S. 742, 786 (2010) (quoting 
Heller).
---------------------------------------------------------------------------
    The Court's recognition that these types of laws are compatible 
with the Second Amendment reflects the historical understanding of the 
constitutional right: since the Colonial and Founding Eras, robust 
government regulation of the ownership and use of firearms has 
coexisted alongside, and been understood as consistent with, the Second 
Amendment.\3\
---------------------------------------------------------------------------
    \3\ See generally Saul Cornell, A Well-Regulated Militia: The 
Founding Fathers and the Origins Of Gun Control (2006); Adam Winkler, 
Gunfight: The Battle Over the Right To Bear Arms in America (2011); 
Robert J. Spitzer, Guns Across America: Reconciling Gun Rules and 
Rights (2015).
---------------------------------------------------------------------------
    That tradition continues today. Alongside numerous firearm laws 
adopted by State legislatures and municipal governments across the 
country, Congress has enacted a broad range of gun laws designed to 
promote public safety. Through a series of Federal statutes adopted 
over the course of the last century, Congress has prohibited dangerous 
people--including felons, convicted domestic abusers, and the 
dangerously mentally ill--from purchasing or possessing firearms.\4\ 
Congress has required that anyone engaged in the business of dealing 
firearms must obtain a Federal license, and has subjected licensed 
dealers to inspection and basic record-keeping requirements.\5\ And 
Congress has established a National Instant Criminal Background Check 
system and mandated that licensed gun dealers conduct criminal 
background checks to ensure that would-be gun purchasers are not 
prohibited from purchasing a gun.\6\
---------------------------------------------------------------------------
    \4\ See 18 U.S.C. Sec. Sec. 922(d), (g).
    \5\ See id. Sec. 922(a); 27 C.F.R. Sec. 478.1 et seq.
    \6\ See 18 U.S.C. Sec. 922.
---------------------------------------------------------------------------
    Within our constitutional government of divided powers, it falls on 
the President to ensure that these congressional mandates ``be 
faithfully executed.'' \7\ As such, the President must ensure full 
compliance with the Federal gun laws that reflect the clear will of 
Congress. To do so, it is appropriate for the administration to issue 
such rules and regulations as are necessary to ensure that the laws are 
enforced as written and intended. Executive action to ensure robust 
enforcement of the law--including issuing clarifying guidance and 
directing comprehensive enforcement of Federal gun laws--is entirely 
compatible with the will of Congress and the President's constitutional 
authority.\8\
---------------------------------------------------------------------------
    \7\ U.S. Const. art. II, Sec. 3.
    \8\ See Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 636-38 
(1952) (Jackson, J., concurring) (noting that the President's authority 
is at its lowest when ``incompatible with the express or implied will 
of Congress,'' but at its peak when the President acts consistent with 
the express or implied will of Congress).
---------------------------------------------------------------------------
    Accordingly, we join the many individuals and organizations that 
have urged the President to take every action within the power of his 
administration to reduce gun violence and save lives. A recent report 
by the gun-violence-prevention organization Everytown for Gun Safety 
outlined more than a dozen actions within the President's power,\9\ and 
we urge the administration to act promptly to explore how to implement 
these and any other measures within its authority.
---------------------------------------------------------------------------
    \9\ Beyond Gridlock: How White House Action on Gun Violence Can 
Save Lives, Everytown for Gun Safety (2015), http://
everytownresearch.org/reports/beyond-gridlock/.
---------------------------------------------------------------------------
    We do not purport to offer here a comprehensive list of all actions 
that the administration might take to reduce gun violence. But we do 
highlight several important actions within the administration's power 
that would ensure the Federal gun laws are applied consistent with 
congressional intent. Among these steps are:

  --Clarifying which gun sellers are ``engaged in the business'' of 
        dealing firearms, and therefore must obtain Federal licenses 
        and conduct background checks on would-be gun purchasers. Just 
        as services like eBay and Craigslist allow Americans to offer a 
        broad range of goods for sale online, numerous Internet 
        services facilitate the sale of large numbers of firearms by 
        unlicensed dealers, frequently without conducting any 
        background checks. The failure of these high-volume sellers to 
        obtain licenses and conduct background checks creates a ready 
        source of firearms for dangerous criminals and other prohibited 
        persons, and fuels the illegal gun trafficking that arms 
        criminals and undermines efforts to reduce gun violence. The 
        administration should act to close this dangerous loophole.
  --Directing the Bureau of Alcohol, Tobacco, Firearms and Explosives 
        (ATF) and Federal Bureau of Investigation (FBI) to identify 
        which prohibited persons are most likely to commit crimes after 
        failing a background check when attempting to buy a gun; to 
        prosecute these individuals for illegally attempting to obtain 
        firearms; and to inform State law enforcement whenever a 
        prohibited person in their State fails a background check. It 
        is common sense that law enforcement has a strong interest in 
        knowing when anyone the law deems too dangerous to buy a gun 
        attempts to do so. The administration should act to ensure 
        prompt and appropriate follow-up by law enforcement when 
        prohibited persons attempt to buy guns.
  --Issuing guidance to ensure that the Federal statute prohibiting gun 
        possession by persons convicted of ``misdemeanor crimes of 
        domestic violence'' is interpreted broadly to prohibit gun 
        possession by convicted abusers, regardless of their marital 
        status. In 2009, and again just last year, the Supreme Court 
        made clear that Congress intended the Federal domestic violence 
        misdemeanor statute to be applied broadly to protect victims of 
        abuse from gun violence.\10\ To effectuate this congressional 
        directive, the administration should clarify that the term 
        ``similarly situated to a spouse'' in the domestic violence 
        misdemeanor law should be interpreted consistent with the 
        Violence Against Women Act.\11\
---------------------------------------------------------------------------
    \10\ See United States v. Hayes, 482 F.3d 749 (2009); United States 
v. Castleman, 572 U.S. __ (2014).
    \11\ See 18 U.S.C. Sec. 2266 (2006).

    These are just three steps the administration could take today to 
help reduce gun violence, and we urge it to explore the numerous other 
ways in which executive action can save lives, even in the absence of 
new action by Congress. We urge President Obama to direct his 
administration to consider these and other steps that may be useful in 
---------------------------------------------------------------------------
reducing the deadly toll of American gun violence.

Signed,

Elise Boddie
Associate Professor of Law, Rutgers Law School--Newark

Rebecca L. Brown
The Rader Family Trustee Chair in Law, USC Gould School of Law

Erwin Chemerinsky
Dean and Distinguished Professor of Law, UC Irvine School of Law

Lee Epstein
Ethan A.H. Shepley Distinguished University Professor, Washington 
University in St. Louis

Daniel A. Farber
Sho Sato Professor of Law, UC Berkeley School of Law

Barry Friedman
Jacob D. Fuchsberg Professor of Law, New York University School of Law

Jamal Greene
Professor of Law, Columbia Law School

Kent Greenfield
Professor of Law and Dean's Research Scholar, Boston College Law School

Ariela Gross
John B. and Alice R. Sharp Professor of Law and History, USC Gould 
School of Law

Mark R. Killenbeck
Wylie H. Davis Distinguished Professor, University of Arkansas School 
of Law

Carlton F.W. Larson
Professor of Law, UC Davis School of Law

Sanford V. Levinson
W. St. John Garwood and W. St. John Garwood, Jr., Centennial Chair, 
University of Texas

William G. Merkel
Associate Professor of Law, Charleston School of Law

Gillian Metzger
Stanley H. Fuld Professor of Law and Faculty Director, Center for 
Constitutional Governance, Columbia Law School

Alan B. Morrison
Lerner Family Associate Dean for Public Interest & Public Service Law, 
George Washington Law School

Gene Nichol
Boyd Tinsley Distinguished Professor, UNC School of Law

Allen Rostron
Associate Dean for Students and the William R. Jacques Constitutional 
Law Scholar and Professor of Law, UMKC School of Law

Lawrence Rosenthal
Professor of Law, Chapman University School of Law

Theodore W. Ruger
Dean and Bernard G. Segal Professor of Law, University of Pennsylvania 
Law School

Kate Shaw
Assistant Professor of Law, Benjamin N. Cardozo School of Law

Neil S. Siegel
David W. Ichel Professor of Law and Professor of Political Science, 
Duke Law School

Geoffrey R. Stone
Edward H. Levi Distinguished Service Professor of Law, The University 
of Chicago

Keith Werhan
Ashton Phelps Chair in Constitutional Law, Tulane Law School

Adam Winkler
Professor of Law, UCLA School of Law.

University affiliation provided for identification purposes only.
                                 ______
                                 
            Prepared Statement of the Monterey Bay Aquarium
                                                    March 24, 2016.

To: Subcommittee on Commerce, Justice, Science, and Related Agencies

Re: NOAA Marine Debris and Education Programs

Hon. Richard Shelby, Chairman
Subcommittee on Commerce, Justice, Science, and Related Agencies
U.S. Senate Committee on Appropriations

Hon. Barbara Mikulski, Vice Chairwoman
Subcommittee on Commerce, Justice, Science, and Related Agencies
U.S. Senate Committee on Appropriations

    Dear Chairman Shelby and Vice Chairwoman Mikulski: On behalf of the 
Monterey Bay Aquarium, I am writing to express our strong support for 
the Marine Debris Program at the National Oceanic and Atmospheric 
Administration (NOAA). We respectfully request that you make it a 
funding priority to include $8,000,000 for the NOAA Marine Debris 
Program in the Fiscal Year 2017 Commerce, Justice, Science, and Related 
Agencies (CJS) appropriations bill.
    Our ocean is at increasing risk from growing levels of plastic 
pollution. Studies estimate that an average of 8 million metric tons of 
plastic enter the global ocean each year. Unless we curb the flow, 
scientists estimate that there could be 1 ton of plastic for every 3 
tons of fish in the ocean by 2025, posing a risk to water quality, 
wildlife and human health. Ocean plastic pollution is an issue that is 
especially relevant to our millions of visitors--and to Californians in 
general, many of whom have taken action to clean up local beaches and 
reduce the use of plastic bags in grocery stores.
    For these reasons, we support strengthening the NOAA Marine Debris 
Program, which offers competitive grants for aquariums and others to 
work with Federal, State, and local partners on marine debris education 
and reduction projects. Monterey Bay Aquarium has received $52,306 from 
this program for our Ocean Plastic Pollution Summit for Teachers. Over 
100 pre-K to 12th grade teachers from throughout California have 
participated in the Summit and follow-up activities, learning how to 
use the issue of ocean plastic pollution to engage their students in 
marine conservation and science.
    We also want to join the Association for Zoos and Aquariums in 
urging your support for three additional NOAA programs. Specifically, 
we request that you include $8,000,000 for the Environmental Literacy 
Grants Program, $12,000,000 for the Bay, Watershed, Education and 
Training Program, and $4,000,000 for the John H. Prescott Marine Mammal 
Rescue Assistance Grant Program in the fiscal year 2017 CJS bill.
    Thank you for your ongoing leadership in enhancing ocean health 
nationwide.

            Sincerely,
                                   Aimee David,
                                   Ocean Conservation Policy Director.
                                 ______
                                 
     Prepared Statement of the National Association of Drug Court 
                             Professionals
    To Chairman Shelby, Ranking Member Mikulski, and distinguished 
members of the subcommittee, I am honored to have the opportunity to 
submit my testimony and respectfully request my statement be entered 
into the record.
    As we as a Nation look for models of criminal justice reform, we 
need to look no further than Drug Courts and Veterans Treatment Courts. 
They are evidence-based criminal justice reform in action that have 
successfully reduced crime, saved billions of tax dollars, and 
transformed the lives of over 1.25 million citizens for decades.
    I ask for you to support criminal justice reform in action by 
ensuring $50 million for the Drug Court Discretionary Grant Program and 
$10 million for Veterans Treatment Courts at the Department of Justice, 
Office of Justice Programs in fiscal year 2017.
    In my home State of Alabama, we have seen firsthand the impact Drug 
Courts can have on substance abuse and crime. Thus, earlier this month, 
28 Drug Court Judges throughout the State signed a letter to Senator 
Shelby urging for funding for these life-saving programs. I have 
included a copy of the letter in my testimony.
    For far too long, we attempted to incarcerate our way out of an 
epidemic of substance abuse and crime instead of addressing the core 
issue of addiction. Our first Drug Court in Alabama launched in 1993, 
and since then, another 116 have opened their doors. As a Chief 
Justice, I felt I had an obligation to ensure that justice in my State 
was meted out as effectively, efficiently and with the greatest results 
on public safety as possible. This is the reason I pushed so ardently 
for the establishment of Drug Courts. And I am not alone. The 
Conference of Chief Justices, an organization of which I am proud to 
have been a member, represents the highest State judicial officers in 
the Nation. The Conference has called Drug Courts ``the most effective 
strategy for reducing drug abuse and criminal recidivism among criminal 
offenders.'' As former Chairman of the Conference of Chief Justices, 
Conference of State Court Administrators Criminal Justice and 
Evidenced-Based Sentencing Committee, I can assure you that the Chief 
Justices and State Court Administrators are adamant in their support of 
data-driven solutions to drug-induced crime. The answer is Drug Courts.
    And the U.S. Government Accountability Office agrees. In 2011, it 
released its fourth report on Drug Courts, concluding once again that 
Drug Courts reduce recidivism and cut crime. The report confirmed that 
Drug Courts reduce crime by up to 58 percent.
    There is no questioning the explosive impact that substance abuse 
has had on our criminal justice system. As a Nation, we annually spend 
a staggering $60 billion on corrections, an investment that has done 
little to stem the tide of crime or substance abuse. Half of the 
Nation's prison population is clinically addicted to drugs or alcohol. 
Upon their release, nearly all will relapse into substance abuse, and 
as many as 80 percent will commit a new crime (typically drug-related). 
In this revolving door pattern, it is easy to see why spending on 
corrections remains exorbitant. Given the abysmal outcomes of 
incarceration on addictive behavior, there's absolutely no 
justification for State governments to continue to waste tax dollars 
feeding a situation where generational recidivism is becoming the norm, 
and parents, children and grandparents may find themselves locked up 
together. This is simply an appalling fiscal policy. But there is a 
solution.
    From serving our veterans addicted to prescription drugs to aiding 
countless methamphetamine addicts; from helping juveniles addicted to 
designer drugs to parents facing the loss of their children to 
addiction; from rural towns to our largest cities; from an alternative 
to incarceration to re-entry into the community, Drug Courts save vast 
resources and tax dollars by reducing drug abuse, crime and recidivism 
at a level unmatched by any other program in our Nation's history.
    However, we have a long way to go. The Department of Justice has 
reported that 1.2 million offenders would be eligible for Drug Court if 
one were made available to them. To be smart on crime, we must expand 
the existing Drug Court system to ensure every eligible offender 
receives a chance at these life-saving programs.
    Now more than ever, we must focus on proven programs that guarantee 
financial returns and measurable success. There is simply no better 
investment this Congress can make than in Drug Courts. Drug Courts have 
been proven through rigorous scientific research to decrease crime, 
save taxpayer dollars, rehabilitate offenders, and restore families and 
communities. No other criminal justice or behavioral healthcare program 
has a comparable record of success or such strong bipartisan support in 
Congress. One would be hard-pressed to identify another Federal program 
that has been as avidly endorsed and sustained by States and counties. 
Supported by policy analysts on both ends of the political spectrum, 
Drug Courts offer a roadmap for a practical, evidence-based and 
fiscally conservative drug policy that works.
    I strongly urge an investment of $50 million for the Drug Court 
Discretionary Grant Program and $10 million for Veterans Treatment 
Courts at DOJ. Adequate funding for Drug Courts and Veterans Treatment 
Courts will ultimately save countless lives and tax dollars in not only 
Alabama, but every State in this great Nation.

    [This statement was submitted by former Chief Justice of Alabama 
Sue Bell Cobb.]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    The National Association of Marine Laboratories (NAML) is a 
nonprofit organization representing the ocean, coastal and Great Lakes 
interests of member laboratories that employ thousands of scientists, 
engineers and professionals nationwide. NAML labs conduct high quality 
research which is used to improve decisionmaking on important issues 
related to our coasts, oceans, and Great Lakes. In setting NAML's 
priorities, NAML recognizes the importance of the Federal investment in 
the geosciences and related disciplines as contributory factors to the 
Nation's economic and national security, and public safety. 
Specifically, NAML supports:

  --Enhancing research, education and public engagement at marine labs 
        for the continued development of the Nation's workforce, 
        expansion of opportunities for active learning and 
        collaborative research, and improved public engagement;
  --Increasing support for competitive, merit-based ocean, coastal, and 
        Great Lakes research and education from relevant Federal 
        agencies to address research priorities and agency mission 
        priorities; and
  --Promoting a network of advanced connectivity among Federal and non-
        Federal laboratories that strengthens the Nation's research and 
        education enterprise--including advanced cyber infrastructure, 
        integration of environmental observing systems, and the co-
        location of Federal scientists and infrastructure at NAML 
        facilities.

    Six economic sectors of the U.S. economy depend on the oceans, 
coasts, and Great Lakes, which provide an important and resilient part 
of the national economy: including marine construction; living 
resources; offshore mineral extraction; ship and boat building; tourism 
and recreation; and marine transportation. According to NOAA, in 2012, 
the ocean economy accounted for 147,000 business establishments, 2.9 
million employees, $113 billion in wages, and $343 billion in gross 
domestic product. In 2012, the ocean economy's contribution to gross 
domestic product grew by 10.5 percent--more than four times as fast as 
the U.S. economy as a whole (which grew by 2.5 percent). During the 
same year, employment in the ocean economy increased 3.8 percent 
(adding 108,000 jobs). This was twice the national average employment 
growth of 1.8 percent.
    Programs such as NOAA's Sea Grant program, NSF's geoscience and 
biological sciences research programs including the Field Stations and 
Marine Laboratories program, NOAA's National Estuarine Research Reserve 
System, ocean observing and education programs at NSF and NOAA, and 
other agencies' national estuaries and other water-related programs all 
contribute to either the continued economic development of our coastal 
economies and/or the improved management of coastal and marine natural 
resources.
            research and education: commitment to innovation
    Innovation in the form of new goods, services, or processes builds 
new knowledge and technology, contributes to national competitiveness, 
improves living standards, and furthers social welfare. Research and 
development is a major driver of innovation. R&D expenditures indicate 
the priority given to advancing science and technology relative to 
other national goals.
    According to the latest data, the U.S. science and engineering 
(S&E) enterprise still leads the world. The United States invests the 
most in research and development (R&D), produces the most advanced 
degrees in science and engineering and high-impact scientific 
publications, and remains the largest provider of information, 
financial, and business services. However, Southeast, South, and East 
Asia continue to rapidly ascend in many aspects of S&E. The region now 
accounts for 40 percent of global R&D, with China as the stand-out as 
it continues to strengthen its global S&E capacity. The National 
Science Board's (NSB) Science and Engineering Indicators 2016 
(Indicators) report highlights that China, South Korea and India are 
investing heavily in R&D and in developing a well-educated workforce 
skilled in science and engineering. Indicators 2016 makes it clear that 
while the United States continues to lead in a variety of metrics, it 
exists in an increasingly multi-polar world for S&E that revolves 
around the creation and use of knowledge and technology.
    At the same time that China and other Asian nations have continued 
to increase their R&D investments, the United States' commitment to 
Federal Government-funded R&D has declined. Federal obligations for the 
total of R&D and R&D plant were $129 billion in fiscal year 2008, $145 
billion in fiscal year 2009, and $147 billion in fiscal year 2010. But 
the years thereafter have been mostly marked by funding declines: 
fiscal years 2011 and 2012 were down $6--$7 billion from the fiscal 
year 2010 peak and then declined further to $127 billion in fiscal year 
2013. In fiscal year 2014, the total increased to $131 billion. 
Nonetheless, the drop from the fiscal year 2010 level to that in fiscal 
year 2014 is a current dollar decline of 11 percent--and when inflation 
is factored in, it is steeper still, at 17 percent. Since the Great 
Recession, substantial, real R&D growth annually--ahead of the pace of 
U.S. GDP--has not returned. Inflation-adjusted growth in total U.S. R&D 
averaged only 0.8 percent annually over the 2008-2013 period, behind 
the 1.2 percent annual average for U.S. GDP.
    The Nation is faced with a widening gap between the actual level of 
Federal funding for research and education and what the investment 
needs to be if the United States is to remain the world's innovation 
leader. The Nation needs to increase its investments in research and 
education to develop the ideas, the people, and the innovations that 
power the Nation's economy, create jobs, improve health, and strengthen 
our national security, ensuring the United States maintains its role as 
a global leader.
                      national science foundation
    NSF's annual budget represents 25 percent of the total Federal 
budget for basic research conducted at U.S. colleges and universities, 
and this share increases to 60 percent when medical research is 
excluded. In many fields NSF is the primary source of Federal academic 
support. For example, NSF provides 61 percent of all Federal support 
for basic research at academic institutions in the environmental 
sciences and 66 percent in biology (excluding the biomedical sciences). 
NSF provides the broadest base of support, including funding for 
research in physical, biological, and chemical oceanography and marine 
geology and geophysics, and the development, implementation, and 
operational support for ocean, coastal, and Great Lakes research 
infrastructure.
    NAML strongly supports robust funding for NSF particularly in the 
geo and biological sciences. Since fiscal year 2011, despite an 
increase of nearly 10 percent to the NSF research and related account, 
funding for the geosciences has remained nearly flat. This has 
exacerbated the budgetary pressures on core research programs and the 
support for infrastructure throughout the directorate and as 
specifically addressed in the Decadal Study on Ocean Sciences (DSOS). 
The fiscal year 2017 NSF budget request contains a proposed 6 percent 
increase for both the geosciences and the biological sciences, with a 
6.5 percent increase for NSF's entire research budget. NAML strongly 
supports this requested investment in research and education through 
NSF. Research emphases at NSF should reflect the priority science 
questions contained in DSOS. NSF's support for ocean research 
infrastructure should be realigned with these research priorities. NAML 
is particularly supportive of the creation of new research networks 
that connect NAML laboratories and terrestrial field stations in ways 
that would enhance other ecosystem networks (e.g., LTERs) supported by 
NSF. NAML embraces this and other recommendations, which stem, in part, 
from Enhancing the Value and Sustainability of Field Stations and 
Marine Laboratories in the 21st Century.
    NAML notes the increasing share of NSF's division of ocean 
science's funding to support facilities and infrastructure, is 
approaching 50 percent of the total division's budget. This is up 
substantially from the historical 40 percent share. Advanced 
infrastructure, while expensive, is essential for the field to move 
forward. However, the support for infrastructure must be balanced with 
the need to support individual investigators--particularly young 
investigators--with the resources needed for high quality research 
activities. The DSOS considers marine laboratories and field stations 
critical for the research priorities related to coastal and estuarine 
oceans, biodiversity and marine ecosystems, and marine food webs. NAML 
endorses the recommendations of DSOS including:

  --To sustain a robust ocean science community, holistic fiscal 
        planning is necessary to maintain a balance of investments 
        between core research programs and infrastructure. To maintain 
        a resolute focus on sustaining core research programs during 
        flat or declining budgets, NSF should strive to control 
        operating costs of its major infrastructure programs over the 
        next 5 years.
  --NSF should reconsider whether the current regional class research 
        vessels (RCRV) design is aligned with scientific needs and is 
        cost effective in terms of long-term O&M pressures, and after 
        doing so, should act accordingly.
  --NSF should expand its partnership capabilities with other Federal 
        agencies and international partners, particularly with regard 
        to shared community research priorities (e.g., climate change, 
        ocean acidification, hypoxia, HABs, etc.).
            national oceanic and atmospheric administration
    One of NOAA's key priorities is providing information and services 
to make communities more resilient to coastal hazards. America's 
coastal communities and shorelines are facing escalating risks from 
changes in storm intensity, precipitation, flooding, rising sea levels, 
and ocean ecosystems, as well as from earthquakes and tsunamis that can 
result in dramatic human and economic losses. Increasing population 
density along the coast will further intensify pressures on 
ecologically and economically important areas, and put more people at 
risk. Rising sea level can further escalate the costs and risks of 
inundation events. A study by the National Institute of Building 
Sciences on Federal hazard mitigation grants estimated that $1 spent on 
hazard mitigation potentially leads to avoidance of $4 in disaster 
relief costs and lost Federal tax revenue. Smartly investing in 
resilience strategies and programs will reduce the economic impacts of 
these hazards and improve national economic security. Similarly, the 
Great Lakes region boasts a massive geographic footprint, and is a 
major driver of the North American economy. With economic output of 
$4.7 trillion in 2011, the region accounts for 28 percent of combined 
Canadian and U.S. economic activity. Continued investments will be 
required to modernize the Nation's critical infrastructure in the very 
near future. This represents an opportunity to incorporate green 
infrastructure materials and strategies into communication, 
transportation, water supply and other critical systems.
    Continued support for NOAA's coastal programs will be necessary to 
ensure that these systems are resilient to extreme weather, natural 
disasters and other hazards. Comprehensive resilience planning will 
help protect coastal communities and resources from the effects of 
hazards and land-based pollution to vulnerable ecosystems by addressing 
competing uses, improving water quality and fostering integrated 
management for sustainable uses. Geospatial services will support 
communities, navigation and economic efficiency with accurate, useful 
characterizations, charts and maps, and assessment and decision support 
tools. NOAA programs and services will help build capacity among 
coastal decision makers to adaptively manage coastal communities and 
ecosystems with the best natural and social science available. 
Resilient coastal communities and economies cannot be achieved without 
strong partnerships. NOAA should increase its outreach to and usage of 
NAML laboratories by increasing support of existing programs before 
embarking on the establishment of new, potentially duplicative, 
programs.
    NAML strongly supports recommendations that call for priority 
support for NOAA extramural programs. Extramural funding enables NOAA 
to leverage its R&D and operational investments with the resources of 
the Nation's leading university scientists resulting in greater and 
faster scientific advances at lower costs. A predictable and reliable 
partnership with the extramural research community is critical to 
NOAA's long-term success. The NOAA budget request for fiscal year 2017 
includes requested increases for the Office of Coastal Management 
(OCM), the Coastal Science and Assessment, including the Competitive 
Research program that supports harmful algal blooms, hypoxia, and the 
coastal resilience management grants program which NAML is pleased to 
support. NAML is concerned, however, with proposed reductions in 
oceans, coastal, and Great Lakes research--including the National Sea 
Grant College Program, the Ocean, Coastal, and Great Lakes Cooperative 
Institutes and Ocean Exploration and Research.
    As available resources become scarcer and major program 
reorganizations may be considered, NOAA should expand its efforts to 
co-locate agency research staff and infrastructure at non-Federal 
marine laboratories. Such actions will not only result in significant 
cost savings, but also will achieve a greater return for its investment 
and increase scientific collaborations and productivity. NAML also 
continues to express concern with NOAA proposals contained in 
appropriation language requests that would enable NOAA to compete with 
non-Federal and private entities for private sector support (See 
proposed Sec 109 on p. 219 of the Appendix to the Budget of the U.S. 
Government for Fiscal Year 2017). NOAA should adhere to its public-
private partnership policy, which recognizes the distinct, yet 
cooperative, roles of the public and private sectors as it relates to 
environmental information.
           education, diversity and an ocean literate america
    The United States continues to be at risk with respect to student 
achievement in science, technology, engineering and math among 
industrialized nations, as well as, emerging industrializing nations. 
As reported in Indicators: the Program for International Student 
Assessment data show that the U.S. average mathematics and science 
literacy scores are below the average scores for all developed 
countries, and the United States has substantially fewer high scores 
and more low scores than other developed countries. U.S. students' 
average mathematics score of 481 in 2012 was lower than the average 
score for all developed countries, 501. The average science literacy 
score for U.S. students in 2012 was 497, lower than the average science 
score of 511 for all developed countries.
    NAML continues to believe it is critically important that we 
improve ocean literacy and workforce development among all sectors of 
our nation. Place-based networks such as NAML offer unique 
opportunities to provide hands-on training in diverse field settings 
with advanced sampling and sensing technologies The importance of 
marine laboratories in support of coastal States' environmental 
literacy plans is essential in developing a literate public. Investment 
is needed today in coastal, ocean and Great Lakes education programs at 
NAML laboratories that support formal and informal learning at all age 
levels, in all disciplines and for all Americans. NAML supports the 
administration's proposed $7 billion investment in STEM education 
across the Federal Government--with its expansion of access to rigorous 
STEM courses, improving STEM teaching and support for active learning, 
and expansion of opportunities for all students in STEM education. NAML 
laboratories believe the mission agencies have a role in helping to 
educate and train the workforce they will need in the future to carry 
out their missions. Therefore, NAML strongly objects the proposed 
budget reductions to NOAA's education programs. NAML also continues to 
strongly support partnerships with Federal agencies to address the 
ocean education needs of the Nation.
    Thank you for the opportunity to submit this information for the 
fiscal year 2017 appropriations process.
                                 ______
                                 
         Prepared Statement of the National Children's Alliance
    Chairman Shelby, Vice-Chair Mikulski and members of the 
subcommittee:

    Thank you for the opportunity to provide testimony regarding the 
funding priorities of the Senate Appropriations Subcommittee on 
Commerce, Justice, Science, and Related Agencies.
    National Children's Alliance is the member-accrediting body for 
almost 800 Children's Advocacy Centers (CACs) throughout the United 
States. We empower local communities to respond to child abuse by 
providing grants for the start-up and development of CACs, which 
coordinate a multidisciplinary team for the investigation, prosecution, 
and treatment of child abuse. Funded through the Victims of Child Abuse 
Act, these critical centers served more than 311,000 child victims of 
abuse throughout the United States in 2015; a majority of whom were 
victims of sexual abuse. In addition, CACs provided more than 1.8 
million individuals with child abuse prevention education. As you begin 
drafting your subcommittee's fiscal year 2017 appropriations bill, we 
respectfully urge you to again fully fund the Victims of Child Abuse 
Act program at its current authorized level of $20 million in the 
Department of Justice's Office of Justice Programs, Juvenile Justice 
Account.
                           child sexual abuse
    Children of every gender, age, ethnicity, socioeconomic status, and 
family structure are at risk for sexual abuse. Child sexual abuse is a 
crime perpetuated by silence and secrecy. Isolation, whether within a 
family or by community, adds significant risk for sexual abuse. 
Children who live in rural areas, for example, are almost 2 times more 
likely to be identified as victims of child sexual abuse.\1\
---------------------------------------------------------------------------
    \1\ Sedlack, et al 2010.
---------------------------------------------------------------------------
    Understanding the scope of the problem also requires understanding 
that child sexual abuse exists on a continuum of deviant and harmful 
behavior by the perpetrator that begins on one end with secretive and 
furtive victimization, slides into amateur or professional photo-
documentation of that abuse primarily for the sexual gratification of 
the offender, may move toward commercialization or public sharing of 
those images with other offenders, and on the far end of that continuum 
may include prostituting or trafficking the child. And, of course, a 
child may experience one, all, or some combination of these forms of 
child sexual abuse.
 responding to child abuse and the role of children's advocacy centers
    Children's Advocacy Centers play a key role in the investigation 
and prosecution of child abuse cases, and in the healing of victims. 
CACs are child-friendly facilities in which a multidisciplinary team 
comprised of law enforcement, child protective services, prosecutors, 
victim advocates, medical practitioners, and mental health 
professionals convenes and coordinates its efforts to investigate and 
prosecute child abuse cases while protecting children and providing 
needed treatment to victims. Across the United States, there are almost 
800 Children's Advocacy Centers, which together served more than 
311,000 child victims of abuse in 2015 alone.
    The majority of these Children's Advocacy Centers were founded 
after the passage of the Victims of Child Abuse Act in 1990; which was 
an important part of Congress' efforts to improve the investigation, 
prosecution, and treatment of child abuse. Monies appropriated by 
Congress, each year since 1992, have improved the response within 
existing Centers, while aiding the development of new Children's 
Advocacy Centers in areas previously underserved. This much appreciated 
Federal investment has been used to leverage State funding, private 
foundations, and local community donors.
    This investment has yielded significant returns. The model of 
comprehensive care for child abuse victims has significant evidence of 
its efficacy. Independent research has found that child abuse cases 
coordinated through a Children's Advocacy Center have:

  --a shortened length of time to disposition; \2\
---------------------------------------------------------------------------
    \2\ Walsh, W.A., Lippert, T., Cross, T. P., Maurice, D. M. & 
Davison, K. S. (2008). How long to prosecute child sexual abuse for 
community using a children`s advocacy center and two comparison 
communities? Child Maltreatment, 13(1), 3-13.
---------------------------------------------------------------------------
  --increased rates of prosecution; \3\
---------------------------------------------------------------------------
    \3\ Smith, D. W., Witte, T. H., & Fricker-Elhai, A. E. (2006). 
Service outcomes in physical and sexual abuse cases: A comparison of 
child advocacy center-based and standard services. Child Maltreatment, 
11(4), 354-60.
---------------------------------------------------------------------------
  --more satisfaction on the part of child victims and their non-
        offending caregivers; \4\
---------------------------------------------------------------------------
    \4\ Lalayants, M., & Epstein, I. (2005). Evaluating 
multidisciplinary child abuse and neglect teams: a research agenda. 
Child Welfare, 84(4), 433-58.
---------------------------------------------------------------------------
  --higher levels of service provision for medical evaluations; and
  --increased referrals for mental health treatment than non-CAC 
        cases.\5\
---------------------------------------------------------------------------
    \5\ Smith et al 2006.

    In short, the multidisciplinary team approach has shown that it is 
possible to reduce trauma to child victims of abuse while improving the 
legal outcome of cases and holding offenders accountable. And, at a 
time when financial resources are limited at every level of government, 
Children's Advocacy Centers have been demonstrated to save on average 
over $1,000 per child abuse case compared to non-CAC communities.\6\
---------------------------------------------------------------------------
    \6\ Formby, J., Shadoin, A. L., Shao, L, Magnuson, S. N., & 
Overman, L. B. (2006). Cost-benefit Analysis of community responses to 
child maltreatment: A comparison of communities with and without Child 
Advocacy Centers. (Research Report No. 06-3). Huntsville, Alabama: 
National Children's Advocacy Center.
---------------------------------------------------------------------------
                     the victims of child abuse act
    Sadly, this effective and efficient response is not available to 
every child sexual abuse victim in the United States. Currently, abused 
children in 2,104 counties in the United States have access to the 
services of a Children's Advocacy Center. This also means that abused 
children in more than 1,000 counties have no access to this 
comprehensive care. Indeed, those areas that are underserved are the 
most rural, most geographically isolated, and the most resource-poor 
parts of our country. But, these children are not simply Alabama's 
children, or Maryland's children, or Mississippi's children: they are 
America's children. Indeed, the Victims of Child Abuse Act was 
conceived by Congress on a bipartisan basis to create and sustain a 
support system for every law enforcement officer and prosecutor 
combating child abuse across the Nation, while also ensuring a network 
of care for the victims. And in 2014, Congress reaffirmed its 
overwhelming support of federally funding the Victims of Child Abuse 
Act by unanimously reauthorizing the statue.
    Children's Advocacy Centers are also uniquely equipped to be the 
first point of contact for victims of child trafficking. Recent 
research indicates that ``one of the major ways that officers 
[reported] compromising previous potential human trafficking 
investigations was through poor interviewing of victims.'' \7\ In that 
same report, researchers noted that ``human trafficking victims who 
suffer from trauma may require multiple interviews before they can 
accurately discuss the victimization they experience.'' \8\ For more 
than 25 years, Children's Advocacy Centers have proven their forensic 
interviewing techniques, and trauma-focused intervention services, help 
victims through the process. And, more recently, many of our CACs have 
begun developing programs specifically aimed at providing services for 
trafficking victims, funded in part with Victims of Child Abuse Act 
monies.
---------------------------------------------------------------------------
    \7\ Farrell A., McDevitt J., Pfeffer R., Fahy S., Owens C., Dank 
M., Adams W. (2012). Identifying Challenges to Improve the 
Investigation and Prosecution of State and Local Human Trafficking 
Cases. Northeastern University's Institute on Race and Justice and the 
Urban Institute's Justice Policy Center, pp 96-97.
    \8\ Ibid.
---------------------------------------------------------------------------
    Beyond intervention services for victims and their families, 
Children's Advocacy Centers also provide training to their 
multidisciplinary team members. Last year, National Children's 
Alliance, and their Children's Advocacy Center members and partners, 
provided training to more than 67,000 child abuse professionals. 
Investigating, prosecuting, and treating child abuse is complex and 
specialized work that requires highly trained professionals and access 
to continuing education for those professionals. Because 98 percent of 
child abuse investigations and prosecutions occur at the State/local 
level, training resources using Federal funds should likewise be driven 
down to this level, and the Victims of Child Abuse Act funding supports 
this vital training.
    While this network has been deeply threatened over the past several 
years when funding for the Victims of Child Abuse Act was either 
eliminated or cut in half within the President's Department of Justice 
budgets, Congress's continued support to ignore the request and restore 
these critical funds ensures victim services for those in need.
    We understand that the past few budget years, and current budget 
climate, have forced increasingly difficult choices on Congress and the 
administration and are deeply grateful the Victims of Child Abuse Act 
continues to receive full funding. This modest Federal funding 
investment leverages Children's Advocacy Centers as a vital resource to 
law enforcement and prosecutors, ensuring that our communities are 
safer and offenders are held accountable.
                services for child sexual abuse victims
    While child abuse investigations are important to the safety of 
victims and the accountability of offenders, we must also help victims 
learn to cope with the trauma. Child sexual abuse has well-documented 
life-long effects. Victims of child sexual abuse are more likely than 
their non-abused counterparts to become pregnant as teens, to drop out 
of high school, to abuse substances, to engage in self-destructive and 
risk-taking behavior, and to experience anxiety and depression. As 
adults, these individuals have increased morbidity and mortality, 
suffering from a host of physical and mental ailments at higher rates 
than their non-abused peers.\9\ Moreover, their own children are more 
likely to suffer sexual abuse during the course of their lifetimes than 
other children. This is truly the saddest possible cycle of abuse.\10\
---------------------------------------------------------------------------
    \9\ Dube S.R., Anda R.F., Whitfield C.L., Brown D.W., Felitti V.J., 
Dong M., Giles W.H. (2005). Long-term consequences of childhood sexual 
abuse by gender of victim. American Journal of Preventive Medicine, 28 
(5), pp. 430-438.
    \10\ Penelope K. Trickett, Jennie G. Noll and Frank W. Putnam 
(2011). The impact of sexual abuse on female development: Lessons from 
a multigenerational, longitudinal research study. Development and 
Psychopathology, 23, pp 453-476 doi:10.1017/S0954579411000174.
---------------------------------------------------------------------------
    This host of maladies is the result of the trauma caused by abuse. 
Child abuse victims experience rates of trauma symptoms (hyperarousal, 
fear, sleep disturbances, anxiety, and depression) at rates verging on 
those experienced by war veterans. Fortunately, much has been learned 
over the past 15 years about successfully treating trauma in children. 
Every child who has been the victim of abuse deserves to be assessed to 
see if they would benefit from mental health treatment, and if so, to 
have it provided to them promptly.
    Abused children served within Children's Advocacy Centers have 
access to such trauma-focused, evidence-supported mental health 
treatment. For the more than 311,000 children served within Children's 
Advocacy Centers last year, there is no doubt that the care they 
received was improved, and suffering they experienced was reduced for 
having had access to such treatment.
                               in summary
    Child sexual abuse is a far too common experience for America's 
children. And child sexual abuse is preventable. More than 2 decades of 
research reflects the effectiveness of child sexual abuse prevention 
and body safety information for children. One of the most effective 
prevention and response systems is available through Children's 
Advocacy Centers. There are close to 800 such centers throughout the 
United States that have been proven to be cost-effective and efficient 
in coordinating the investigation, prosecution, and protection of 
children while ensuring that child victims of abuse receive effective 
treatment. While the investigation and prosecution of child abuse cases 
is important in holding offenders accountable, this alone is not 
sufficient to help victims heal. Victims require trauma-focused, 
evidence-supported mental health treatment in order to heal.
    We urge your strong support for again funding the Victims of Child 
Abuse Act at $20 million for fiscal year 2017 to provide valuable 
assistance to law enforcement, keep communities safer, and strengthen 
justice and healing for victims. Thank you.
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                              Association
    Chairman and members of the subcommittee, my name is Cory Riley and 
I am the Manager of the Great Bay National Estuarine Research Reserve 
in New Hampshire, administered by the new Hampshire Fish and Game 
Department. I submit this testimony in my capacity as President of the 
National Estuarine Research Reserve Association (NERRA). NERRA is a 
not-for-profit scientific and educational organization dedicated to the 
protection, understanding, and science-based management of our Nation's 
estuaries and coasts.
    Thank you on behalf of these special places and all of the 
communities they support. We appreciate the investment Congress has 
made in the National Estuarine Research Reserve System over the past 42 
years. Because of your support, this system has grown into a network 28 
protected places where more than 36,000 people use research reserves to 
address critical challenges like how to balance conservation with 
economic growth, plan for changing sea levels and extreme storms, 
protect nursery habitat that supports fishing, and prepare our children 
to be wise stewards of these precious resources in the future.
A national program with local relevance
    Twenty-eight National Estuarine Research Reserves have been 
designated in 22 States and Puerto Rico, protecting over 1.3 million 
acres of land and water in perpetuity. This unique State-Federal 
partnership brings the scientific expertise and financial investment of 
NOAA into coastal communities across the country. Investments in the 
research reserves support locally implemented science-based coastal 
resource management, research, and education programs. As a network, 
the sites study important estuarine trends, and conduct science-based 
education and outreach to meet national priorities as mandated by 
Congress in the Coastal Zone Management Act (CZMA) of 1972.
    The NERRS program has grown as States have increasingly recognized 
the value of the program. The addition of new reserves has provided 
more science, training, and education resources that can be applied 
nationally. However, the cost associated with operating the NERR 
program nationally has increased given the recent addition of two 
reserves (Texas and Wisconsin) with a third (Hawaii) entering the 
system in fiscal year 2017, and a fourth (Connecticut) engaged in the 
designation process now. NERRA would like to expand the network while 
continuing high quality programs at each reserve and maintaining the 
national infrastructure needed to monitor each site. To do this, the 
system will need more funding.
NERRA encourages investing $900,000 above the administration request
    For fiscal year 2017, NERRA strongly recommends the following 
reserve system programs and funding levels within the National Oceanic 
and Atmospheric Administration (NOAA):

 
 
 
NERRS Operations                                       $23.9 million
NERRS Procurement, Acquisition, and Construction       $1.7 million
 (PAC)
 


    The administration's fiscal year 2017 request for the NERRS is $23 
million; leaving a $900 thousand dollar gap between the administration 
request and NERRA's request. After reviewing the detailed NOAA budget 
request sent to the Congress, we believe that the States are 
inadequately supported to implement this national program and 
compromised in their ability to fulfill the vision of Congress in its 
creation of the NERRS program. NERRA is deeply concerned with the 
administration's funding levels that we believe are inconsistent with 
key tenants of NOAA's own strategic plan--specifically, enhancing 
community and economic resiliency and strengthening science in support 
of coastal resource management.
The Administration's fiscal year 2017 requested funding level will 
        diminish the NERRS's capacity to:
    1.  Maintain and improve coastal intelligence: Reserves provide 
environmental observing and water quality data and products based on 
the most comprehensive national, long-term data set on estuarine 
conditions. System-wide monitoring and data networks provide immediate 
and long-term information to understand harmful algal blooms, assess 
water quality, identify habitat impacts from changing sea levels, aid 
in weather forecasting, and improve response to storm surge. Hundreds 
of entities use the NERRS water quality and weather data, including; 
State water quality control programs, county health departments, 
shellfish growers and fishing industry professionals, the National 
Weather Service, and insurance companies.
    2.  Serve as an early warning center for changes to our coast: 
Reserves are working to understand changes in water levels, acidity, 
salinity and elevation on our coasts. In addition, reserves are 
sentinels for changes to tidal marshes, mangroves and sea grass beds. 
These habitats provide a wide range of highly valued ecosystem services 
such as nursery habitat for commercial and recreational important fish, 
erosion and flood control, and water quality improvements. 
Understanding how the coastal conditions are changing in relation to 
stressors such as storm surge, changes in precipitation, sea level 
rise, and development patterns is critical to understanding the ability 
of natural coastal habitats to provide food, flood storage, and 
pollution mitigation.
NERRS provide needed services at a low cost
    Coastal dependent communities, businesses and industries rely on 
research reserve generated information about coastal conditions; local 
boards and elected officials rely on the reserves to provide relevant 
information and data related to hazards and sea level rise; and 
educators rely on reserves to teach students and teachers how to 
collect, analyze and translate environmental data. Funding of $23.9 
million for the NERRS is the minimal amount needed to provide each 
reserve with the necessary funding to insure that cuts to the States as 
well as to existing core programs and services do not occur.
    Investments in the NERRS are dollar-smart because funding for the 
program is matched by the States and leveraged significantly, resulting 
in an average of more than five other local and State partners 
contributing to the work at each reserve. In addition, the program 
significantly benefits from volunteers that are engaged in habitat 
restoration, citizen science and education which offset operation costs 
at reserves by donating thousands of hours. Annually, volunteers 
contribute more than 100,000 hours to the NERRS with an estimated value 
of over $2.2 million.
NERRA encourages investment in NERRS PAC funds and BWET grants
    The NERRS Procurement, Acquisition, and Construction (PAC) funding 
is designated for land conservation, through acquisition of priority 
lands, and essential facilities construction and upgrades. This 
competitive funding program is matched by State funds and is critical 
to maintaining the places that host NERR research, education and 
outreach. These funds have resulted in not only the preservation of 
critical coastal lands as described above, but also in the increase of 
construction jobs. For example NERRS creates more than 60 jobs for each 
$1 million of Federal construction (PAC) money spent. In addition, 
NERRS leveraged investments of more than $115 million to purchase over 
30,000 acres of coastal property over the last 12 years.
    Within the budget request for NOAA, the administration is again 
proposing the elimination of funding for the Bay-Watershed Education 
and Training (B-WET) regional programs--a reduction of $7.2 million in 
funding. The rationale provided for program reductions is misleading in 
stating that NOAA education experiences will continue to be provided by 
programs including the NERRS. Where States are eligible for B-WET 
funding, reserves are able to increase their educational capacity by as 
much as 50 percent. The B-WET regional program funding is money that is 
spent in addition to the annual NERRS money invested in the education 
programs, allowing each program to reach more students and teachers in 
coastal communities. The NERRS educate more than 83,000 children 
annually. NERRA strongly opposes the cut of B-WET regional programs and 
any of the other NOAA STEM educational programs.
                               conclusion
    NERRA greatly appreciates the past support the subcommittee has 
provided. This support is critical to sustain and increase the economic 
viability of coastal and estuary-based industries.
    With NERRA's fiscal year 2017 request of $23.9 million for the 
NERRS Operations and $1.7 million for NERRS PAC, the program will be 
able to maintain delivery of credible scientific research and 
translation to the 28 reserves around the country. We urge the 
subcommittee to support this request, and to restore funding for the B-
WET regional programs.
    Thank you for the opportunity to present these remarks. On behalf 
of NERRA, I would be happy to answer questions or provide additional 
information to the subcommittee.
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
Fiscal Year 2017 Appropriations Request
    The National Marine Sanctuary Foundation (NMSF) works with Congress 
and the National Oceanic and Atmospheric Administration (NOAA) to 
connect fellow citizens to the underwater places that define the 
American ocean--the National Marine Sanctuary System.
    NMSF applauds the subcommittee's continued support for America's 
national marine sanctuaries. But, we remain concerned that NOAA's 
Office of National Marine Sanctuaries (ONMS) has not received 
sufficient appropriations for several budget cycles. Recognizing the 
strong and growing public support within communities and the economic 
growth and job creation benefits provided by sanctuaries, NMSF 
respectfully requests the subcommittee remedy this situation by 
appropriating:

  --$55 million to Sanctuaries and Marine Protected Areas, within 
        NOAA's Operations, Research, and Facilities account; and
  --$5.5 million to Marine Sanctuaries Construction, within NOAA's 
        Procurement, Acquisition, and Construction account.

    Joining NMSF in this request is a national network of community-
based, non-profit organizations that support sites within the sanctuary 
system. On behalf of their members, the California Marine Sanctuary 
Foundation (California), Cordell Marine Sanctuary Foundation 
(California), Farallones Marine Sanctuary Association (California), 
Friends of Thunder Bay National Marine Sanctuary (Michigan), Gray's 
Reef National Marine Sanctuary Foundation (Georgia), Hawai`i National 
Marine Sanctuary Foundation (Hawaii), and Sanctuary Friends Foundation 
of the Florida Keys (Florida) support funding the National Marine 
Sanctuary System at these levels.
A Growing Grassroots Movement: Strengthening the National Marine 
        Sanctuary System
    The National Marine Sanctuary System consists of 14 sites 
encompassing over 170,000 square miles of marine and Great Lakes waters 
from Washington State to the Florida Keys, and from Lake Huron to 
American Samoa. Sanctuaries protect vibrant ocean ecosystems, conserve 
essential habitat for endangered and commercially important marine 
species, and safeguard historical and cultural resources.
    The American people have seen the benefits that sanctuaries provide 
for local communities and our Nation, and they are voicing their 
support. Communities are coming together to discuss how to protect our 
ocean, coasts and Great Lakes by strengthening existing sites and 
nominating and designating new sanctuaries for the first time in 15 
years. The expansions of Thunder Bay, Greater Farallones, and Cordell 
Bank national marine sanctuaries were grounded and driven by broad-
based, diverse community support and Congressional leadership. 
Likewise, recent nominations and designations for new sites are 
championed by local leaders bringing together their communities.
    Just as the Nation is on the verge of celebrating and conserving 
its maritime resources and heritage, ONMS should receive additional 
funding to be responsive to the growing grassroots movement for 
national marine sanctuaries in communities nationwide.
Sanctuaries are Highly-Participatory, Multi-Use, Balanced Ocean 
        Conservation Tools
    Communities nationwide benefit from the highly participatory, 
multi-use, balanced approach offered by national marine sanctuaries. 
Generations of Americans have grown up, worked jobs, and supported 
their families on the waters of our national marine sanctuaries. Among 
all the statutes enacted by Congress to govern ocean resources, the 
National Marine Sanctuaries Act stands alone in terms of the 
comprehensiveness, transparency and balanced approach provided for all 
stakeholders.
    An independent legal analysis concluded that ``the National Marine 
Sanctuaries Act is the best existing mechanism available for preserving 
ocean ecosystems,'' due to sanctuaries' commitment to public 
participation, community engagement, and use of a place- and ecosystem-
based approach.\1\ Unlike other ocean resource laws, the National 
Marine Sanctuaries Act protects nationally significant places and their 
natural, historical, and cultural riches. Experience shows that this 
approach is vital to maintaining the healthy seascapes that underpin 
our productive economies, supporting thousands of businesses while 
maintaining public access for recreation, science, exploration, and 
education.
---------------------------------------------------------------------------
    \1\ Perkins Coie LLP. (2013) ``Area-Based Management of Marine 
Resources: A Comparative Analysis of the National Marine Sanctuaries 
Act and Other Federal and State Legal Authorities.'' Available: http://
www.nmsfocean.org/files/ABMReport.pdf.
---------------------------------------------------------------------------
National Marine Sanctuaries are Economic Engines for Coastal 
        Communities
    Sanctuaries foster economic growth, support jobs and businesses, 
generate billions of dollars in local revenue, preserve underwater and 
maritime treasures, and provide valuable public access for ocean 
recreation, research, exploration, and education. Because of strong 
ties to the local communities, businesses, and organizations, 
sanctuaries are able to heavily leverage private funds and 
contributions for taxpayer benefits, ensuring that the benefits of 
funding national marine sanctuaries far outweigh the Federal outlays 
that support them.
    Last year, the 14 sites in the sanctuary system helped drive more 
than $8 billion annually to their communities.\2\ Additionally, 
sanctuaries afford their visitors many recreation opportunities, and 
the money these activities generate has a substantial economic impact 
on the surrounding local and regional communities:
---------------------------------------------------------------------------
    \2\ National Marine Sanctuaries Socioeconomic Fact Sheet Available: 
http://sanctuaries.
noaa.gov/science/socioeconomic/pdfs/onms-socioeconomics-summary.pdf.

  --Miami-Dade and Broward County's economies are dependent on the 
        Florida Keys National Marine Sanctuary. Economic contributions 
        of visitors to the sanctuary generated $1.897 billion in sales 
        and $2.62 billion in income for the residents.\3\
---------------------------------------------------------------------------
    \3\ Vernon Leeworthy and Rod Ehler (2010) Economic Contribution of 
Recreating Visitors to the Florida Keys/Key West 2007-2008 Available: 
http://sanctuaries.noaa.gov/science/socioeconomic/floridakeys/pdfs/
economic08.pdf.
---------------------------------------------------------------------------
  --Over $126 million in whale watching revenue and 600 jobs at 31 
        businesses resulting from less than $2 million invested in the 
        Stellwagen Bank National Marine Sanctuary off of 
        Massachusetts.\4\
---------------------------------------------------------------------------
    \4\ O'Connor, Simon et al (2009). Whale Watching Worldwide: tourism 
numbers, expenditures and expanding economic benefits, a special report 
from the International Fund for Animal Welfare. Prepared by Economists 
at Large. Available: http://www.ifaw.org/Publications/
Program_Publications/Whales/asset_upload_file841_55365.pdf.
---------------------------------------------------------------------------
  --2,100 jobs and a $291 million budget from marine science and 
        education at the Monterey Bay National Marine Sanctuary, more 
        than 100 times the $3 million investment by taxpayers.\5\
---------------------------------------------------------------------------
    \5\ Monterey Bay Crescent Ocean Research Consortium. (2012) ``Major 
Marine Sciences Facilities in the Monterey Bay Crescent-2012.'' 
Available: http://web.me.com/paduan/mbcorc/
Membership_Info_files/MontereyBayLabs2012-2.pdf.
---------------------------------------------------------------------------
  --Over half (58 percent) of visitors to Alpena, Michigan came to 
        visit Thunder Bay National Marine Sanctuary, which is the 
        region's most popular attraction, boasting nearly 100,000 
        visitors per year.\6\
---------------------------------------------------------------------------
    \6\ Source: Molnar, Lawrence. 2013. ``Economic Impact Analysis for 
the National Oceanic and Atmospheric Administration, Thunder Bay 
National Marine Sanctuary, Final Report.'' Ann Arbor, Michigan: 
Institute for Research on Labor, Employment, and the Economy, 
University of Michigan (July). Available: http://irlee.umich.edu/
Publications/Docs/ThunderBay
NMS_FinalReport.pdf.
---------------------------------------------------------------------------
  --$11.8 million in new revenue and 334 new jobs would be created by 
        the proposed Central Coast National Marine Sanctuary with a 
        projected 5 percent increase in tourism for San Louis Obispo 
        County and a regional impact of $18 million and 547 new 
        jobs.\7\
---------------------------------------------------------------------------
    \7\ Jason Scorse and Judith Kildow (2014) The Potential Economic 
Impacts of the Proposed Central Coast National Marine Sanctuary 
Available: https://chnms.files.wordpress.com/2014/10/chumash-sanctuary-
ecomonic-report-100814.pdf.
---------------------------------------------------------------------------
  --$127 million is spent on non-consumptive recreation, which accounts 
        for 95 percent and 86.7 percent in the Northern portion of 
        Monterey Bay and Greater Farallones National Marine 
        Sanctuaries, respectively. This non-consumptive recreation 
        industry supports 1,700 jobs.\8\
---------------------------------------------------------------------------
    \8\ U.S. Department of Commerce, NOAA, NOS, ONMS (2015) Economic 
Impact of Recreational Fisheries on Local County Economies in 
California's National Marine Sanctuaries 2010, 2011 and 2012 Available: 
http://sanctuaries.noaa.gov/science/socioeconomic/pdfs/california_rec_
sanctuaries.pdf.
---------------------------------------------------------------------------
  --$101.6 million was spent on recreation in the Olympic Coast 
        National Marine Sanctuary. This spending generated, with 
        multiplier impacts, $128.2 million in output, $78 million in 
        value-added (gross regional product), and $46.1 million in 
        income, which supported 1,192 jobs.\9\
---------------------------------------------------------------------------
    \9\ Personal Communication.
---------------------------------------------------------------------------
National Marine Sanctuaries Start and Stay in Local Communities
    Sanctuaries are created by and for the people. Public participation 
is a hallmark of the Office of National Marine Sanctuaries and 
underscores its dedication to civic engagement and leadership. From 
nomination to designation and day-to-day management decisions, 
sanctuaries start and stay in local communities. Because of this model, 
citizens and communities nationwide are expressing a growth of 
enthusiasm for national marine sanctuaries.
    Communities have a controlling influence on sanctuary priorities to 
ensure unique, local circumstances are addressed. Sanctuary rules and 
regulations are developed on a site-by-site basis, and, from the 
outset, sanctuaries are designed to accommodate multiple uses of the 
ocean.

  --Over 440 community representatives serve on Sanctuary Advisory 
        Councils with members from the fishing, tourism, and maritime 
        commerce industries; tribes, State and local government; and 
        scientists, educators, and conservationists to provide advice 
        to sanctuary superintendents on sanctuary operations.
  --Over 149,000 hours--equivalent to 74 Full Time Federal Employees 
        and valued at $3.46 million--are contributed by local sanctuary 
        volunteers each year in areas of research, monitoring, 
        enforcement, education and outreach, and management advisory.
National Marine Sanctuaries' Programmatic Outlook Under Reduced Fiscal 
        Year 2017 Funding Levels
    Funding decreases have resulted in layoffs and cutbacks to mission 
critical sanctuary programs. A lack of funds may result in cuts to 
public access and recreation opportunities, reduced operations at 
visitor centers, cancellation of partnerships, a lack of contingency 
funding needed in case of emergencies like oil spills, and additional 
inoperable vessels. Of particular concern are proposals to reduce 
funding for necessary and ongoing renovation and construction projects.
    The potential impact of reducing sanctuary appropriations goes far 
beyond the individual sanctuaries themselves: limiting visitor center 
hours, eliminating research programs, and diminishing enforcement 
capacities prevents ONMS from fulfilling its statutory mandates, while 
also reducing the economic activity and job creation from which healthy 
communities benefit. Funding sanctuaries below NMSF's recommended 
levels could force the program to:

  --Reduce public access and recreation opportunities for all 
        Americans: Funding cuts risk the Florida Keys National Marine 
        Sanctuary's 767 mooring buoys, which provide public access and 
        recreational opportunities within the sanctuary while 
        protecting coral reefs and shipwrecks from anchor damage.
  --Cut visitor center hours: Sanctuary visitor centers act as a public 
        face of NOAA to over 350,000 visitors per year, including 
        Monterey Bay National Marine Sanctuary Exploration Center 
        (California), Mokupapapa Discovery Center (Hawaii), Great Lakes 
        Maritime Heritage Center (Michigan), and Florida Keys 
        EcoDiscovery Center (Florida).
  --Cancel education and outreach programs that leverage private funds: 
        Reduced funding jeopardizes education and outreach activities 
        on the water, at sanctuaries and visitor centers, and in 
        classrooms.
  --Vessels Stuck at the Docks and Facing Safety Concerns: Continued 
        under-investment in the sanctuary fleet maintenance and 
        procurement of new vessels to replace an aging fleet has left a 
        backlog of repairs and needs that could eventually result in 
        the need to leave sanctuary vessels tied up at the docks or 
        could pose a safety concern for sanctuary staff and partners 
        alike.
                                 ______
                                 
  Prepared Statement of the National Network to End Domestic Violence
    Chairman Shelby, Vice Chairwoman Mikulski, and distinguished 
members of the appropriations subcommittee, thank you for this 
opportunity to provide testimony on the importance of investing in 
Violence Against Women Act programs and the Victims of Crime Act. I 
sincerely thank the subcommittee for its ongoing support for these 
lifesaving programs.
    I am the president and CEO of the National Network to End Domestic 
Violence (NNEDV), the Nation's leading voice for victims of domestic 
violence and their advocates. We represent the 56 State and territorial 
domestic violence coalitions, their over 2,000 member domestic violence 
and sexual assault programs, and the millions of victims they serve. 
Our direct connection with victims and those who serve them gives us a 
unique understanding of their needs and the vital importance of these 
continued investments.
    The purpose of this testimony is to request an investment of the 
full authorized amount of $568.5 million in the Violence Against Women 
Act (VAWA) and the release of $2.6 billion from the Victims of Crime 
Act Fund administered by the U.S. Department of Justice in the fiscal 
year 2017 budget.
    Incidence, Prevalence, Severity and Consequences of Domestic and 
Sexual Violence.--The crimes of domestic and sexual violence are 
pervasive, insidious and life-threatening. In 2011, the Centers for 
Disease Control and Prevention (CDC) released the first-ever National 
Intimate Partner and Sexual Violence Survey, which found that domestic 
violence, sexual violence, and stalking are widespread. Domestic 
violence affects more than 12 million people each year, and nearly 
three in ten women and one in four men have experienced rape, physical 
violence, or stalking in his or her lifetime. The terrifying conclusion 
of domestic violence is often murder, and every day in the United 
States an average of 3 women are killed by a current or former intimate 
partner.\1\ The cycle is perpetuated as approximately 15.5 million 
children are exposed to domestic violence every year.\2\ One study 
found that men exposed to physical abuse, sexual abuse and adult 
domestic violence as children were almost four times more likely to 
have perpetrated domestic violence as adults.
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics (2013). Intimate Partner Violence: 
Attributes of Victimization, 1993-2011 (Special Report NCJ243300).
    \2\ McDonald, R., et al. (2006). ``Estimating the Number of 
American Children Living in Partner-Violence Families.'' Journal of 
Family Psychology, 30(1), 137-142.
---------------------------------------------------------------------------
    In addition to the terrible cost of domestic and sexual violence to 
individual victims and their families, these crimes cost taxpayers and 
communities. According to the Centers for Disease Control, based on 
1999 figures, the cost of intimate partner violence exceeds $5.8 
billion each year, $4.1 billion of which is for direct healthcare 
services.\3\ Translating this into 2016 dollars, based on the Bureau of 
Labor Statistics Consumer Price Index, the annual cost to the Nation is 
over $9 billion per year. In addition, domestic violence costs U.S. 
employers an estimated $3 to $13 billion annually.\4\
---------------------------------------------------------------------------
    \3\ National Center for Injury Prevention and Control. Costs of 
Intimate Partner Violence Against Women in the United States. Atlanta 
(GA): Centers for Disease Control and Prevention; 2003.
    \4\ Bureau of National Affairs Special Rep. No. 32, Violence and 
Stress: The Work/Family Connection 2 (1990); Joan Zorza, Women 
Battering: High Costs and the State of the Law, Clearinghouse Rev., 
Vol. 28, No. 4, 383, 385.
---------------------------------------------------------------------------
    Despite this grim reality, we know that when a coordinated response 
is developed and immediate, essential services are available, victims 
can escape from life-threatening violence and begin to rebuild their 
lives. To address unmet needs and build upon their successes, VAWA 
programs and the Victims of Crime Act fund release should receive 
significant increases in the fiscal year 2017 Commerce, Justice, 
Science Appropriations bill.
    The Need for Increased Funding to Maintain Programs and Bridge the 
Gap.--At a congressional briefing in March 2016, NNEDV released 
Domestic Violence Counts (the Census), a 24-hour national snapshot of 
domestic violence services. The report revealed that in just one day, 
71,828 victims of domestic violence received services; over 12,197 
requests for services went unmet due to lack of funding and resources. 
That same year, domestic violence programs reported that they had laid 
off nearly 1,235 staff positions. Of the staff that were laid off 79 
percent were direct service positions, such as case managers, 
advocates, shelter staff, and child advocates. Programs also reduced or 
eliminated 1,936 services in the past year ranging from prevention 
services, therapy, to child welfare advocacy. I urge you to look at the 
full results at nnedv.org/census2015. For those individuals who are not 
able to find safety, the consequences can be dire, including 
homelessness or continued exposure to life-threatening violence. In 
order to meet the immediate needs of victims in danger and to continue 
to prevent and end domestic violence, VAWA funding must be increased 
and additional funds must be released from VOCA.
                  victims of crime act (voca) funding
    VOCA uses non-taxpayer money from the Crime Victims Fund for 
several programs that serve victims of crime, including State formula 
victim assistance grants. These funds, which are generated by fines 
paid by Federal criminals, support services to 4 million victims of all 
types of crimes annually, through 4,400 direct service agencies such as 
domestic violence shelters, rape crisis centers, and child abuse 
treatment programs. Additional VOCA funds are critically needed to 
respond to the crisis caused by the dangerous lack of available 
services for victims of domestic and sexual violence.
    With an obvious need for increased funding, and a balance of more 
than $11 billion dollars in the Fund, we were pleased that the 
subcommittee released $3.04 billion in VOCA funds in fiscal year 2016. 
Now is the time to maintain a long-term, logical and consistent basis 
for determining the annual VOCA cap in order to release additional 
money for the purpose Congress intended and for which it has been 
collected. The balance in the Crime Victims Fund is more than enough to 
significantly increase VOCA funding without jeopardizing the Fund's 
future sustainability.
    We urge you to request that the subcommittee set the annual VOCA 
funding release level at no less than the average amount deposited into 
the Fund over the three previous fiscal years, which is approximately 
$2.6 billion for fiscal year 2016. We urge you to release $2.6 billion 
from the VOCA fund in fiscal year 2017 to address the urgent needs of 
victims of crime.
    Fiscal year 2016 appropriations transferred VOCA funds to VAWA and 
the President's fiscal year 2017 proposal recommends the same transfer. 
We oppose VOCA funds being transferred to other CJS accounts, as this 
reduces vital funding for direct victim services.
    Additionally, we urge you to establish a Federal funding stream 
from VOCA for tribes. Individuals on tribal lands experience 
disproportionately high rates of domestic and sexual violence and 
desperately need funding for victim services.
    Finally, we request report language that would expand the purpose 
areas of the Office of Victims of Crime's discretionary funding 
(10603(c)) to include innovative and needed victim services such as 
hotlines and helplines, nationwide or multi-State crime victim 
services, and services for U.S. citizens who are victims of crimes 
committed outside of the United States. Previously, Congress has 
appropriated $12 million for this purpose and the President request $25 
million in fiscal year 2017.
                   violence against women act (vawa)
    Violence Against Women Act (VAWA)--$568.50 million funding 
request.--Since its passage in 1994, VAWA has been the cornerstone of 
our Nation's response to domestic violence. VAWA has contributed to 
substantial progress toward ending domestic violence. Despite this 
progress, an unconscionable need remains for victim services. The 
progress and promise of VAWA, and related programs aimed at addressing 
domestic and sexual violence, can only be only be fulfilled if the 
programs receive continued investment through the appropriations 
process. We have highlighted the following programs as key priorities 
and we urge you to support full funding for these and all VAWA programs 
as you work on the fiscal year 2017 CJS bill.
    VAWA STOP Program--$222 million funding request.--VAWA's STOP Grant 
Program is at the core of effective coordinated community responses to 
domestic violence and sexual assault. These coordinated responses help 
hundreds of thousands of victims find safety and get the services they 
need to start over, while holding perpetrators accountable. As the 
foundational VAWA program, the STOP program awards funds to every State 
and territory through a formula-based system. States use this STOP 
funding for law enforcement, prosecution, and courts training and 
response. Many States establish special units in law enforcement 
agencies and prosecutors' offices to address domestic and sexual 
violence. Victims benefit from services including advocacy, crisis 
intervention, local crisis hotlines, counseling and support, and victim 
witness notification. A 2014 report to Congress revealed that the STOP 
grant program helped 431,244 victims of domestic violence, sexual 
assault, dating violence and stalking; funded over 2,200 staff; and 
provided professional training for over 200,000 individuals. Increased 
investment in STOP will allow communities to expand their lifesaving 
homicide reduction efforts, continue to improve their law enforcement 
and prosecution responses, and serve more victims. We urge you to 
request $222 million to support these essential, comprehensive 
services. We also request report language that would exempt the STOP 
program from being subject to the Prison Rape Education Act (PREA) 
penalty, which would cut 5 percent of this program's funding in States 
that are not in compliance with PREA.
    Legal Assistance for Victims (LAV)--$57 million funding request.--
Research indicates that the practical nature of legal services gives 
victims long-term alternatives to their abusive relationships. However, 
the retainers or hourly fees for private legal representation are 
beyond the means of most victims of domestic violence, dating violence, 
sexual assault and stalking. Legal services are second only to medical 
services as the most-requested need of victims. Sadly, of all women who 
reported needing legal services, 64 percent received no assistance from 
an attorney.\5\ The LAV program is the only federally funded program 
designed to meet the legal needs of victims. Targeted increases to the 
LAV program are a sound investment in long-term solutions to violence. 
We urge you to provide $57 million for this program to support legal 
help for victims.
---------------------------------------------------------------------------
    \5\ National Center for Injury Prevention and Control, Centers for 
Disease Control and Prevention, Intimate Partner Violence in the United 
States--2010 (2014) at 56.
---------------------------------------------------------------------------
    Rural Grant program--$50 million funding request.--The Rural Grant 
Program supports services for victims of domestic violence and sexual 
assault living in rural and isolated areas. Rural victims face unique 
barriers, including lack of access to child care, legal services, and 
public transportation, under-resourced law enforcement, and a shortage 
of safe shelter and services. Funding for this program has either been 
cut or remained stagnant for the last several years despite the great 
need and a number of States becoming newly eligible through the most 
recent VAWA reauthorization. We urge you to provide $50 million for 
this program.
    Transitional Housing program--$35 million funding request.--This 
vital VAWA program helps communities in every State offer victims a 
safe place to begin to rebuild their lives. In just one day in 2015, 
40,302 adults and children were housed in domestic violence 
transitional housing programs. On the same day, however, 7,728 requests 
(63 percent of the unmet requests) for emergency shelter or 
transitional housing were denied due to a lack of resources. The 
extreme dearth of affordable housing produces a situation where many 
victims of domestic violence must return to their abusers because they 
cannot find long-term housing, while others are forced into 
homelessness. Increased investment in the Transitional Housing program 
will allow more States and localities to ensure that victims do not 
have to make these unfathomable choices. We urge you to provide $35 
million for this program.
    Grants to Encourage Arrest (GTEAP)--$73 million funding request.--
GTEAP helps communities develop and sustain a seamless and 
comprehensive criminal justice response to domestic violence, enhancing 
victims' safety and holding perpetrators accountable. GTEAP encourages 
State, local, and tribal governments and State, local, and tribal 
courts to treat domestic violence, dating violence, sexual assault, and 
stalking as serious violations of criminal law requiring the 
coordinated involvement of the entire criminal justice system. The 
homicide reduction initiative set aside ($4 million) is designed to 
address the risk of homicide of abuse victims, especially those in 
escalating domestic violence situations. Additionally, a set aside for 
firearms lethality initiative will allow communities to address the 
deadly combination of firearms and domestic violence. Increased 
investment in GTEAP to $73 million will allow communities to continue 
this lifesaving work.
    Sexual Assault Services Program--$40 million funding request.--The 
Sexual Assault Services Program (SASP) is the only Federal funding 
source dedicated to providing direct services to adult and minor 
victims of sexual violence and is distributed through a State formula 
grant. Services include hotlines, crisis intervention, advocacy, and 
accompaniment through medical and legal systems. Increased funding will 
help eliminate waiting lists and respond to the unmet needs of victims. 
We urge you to provide $40 million for this vital program.
    Remaining VAWA programs--full funding.--All VAWA programs work 
together to improve the system-wide response domestic and sexual 
violence and to meet the unique and pressing needs of victims. VAWA 
programs should be funded at their full authorization levels, as 
indicated in the funding chart below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               conclusion
    These programs work together to prevent and end domestic and sexual 
violence. While our country has made continued investments in the 
criminal justice response to these heinous crimes, we need an equal 
investment in the human service, public health and prevention responses 
in order to holistically address and end the violence. These vital, 
cost-effective programs help break the cycle, reduce related social 
ills, and will save our Nation money now and in the future.

    [This statement was submitted by Kim Gandy, President and CEO.]
                                 ______
                                 
         Prepared Statement of the National Science Foundation
    Dear Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to present testimony in support of strong and balanced 
funding for the National Science Foundation. This testimony is 
submitted on behalf of the organizations listed in the left margin on 
this and subsequent pages. They all support funding the National 
Science Foundation at $8 billion in fiscal year 2017--including full 
funding for the geosciences portfolio of research and related national 
and user facilities within the NSF request.
    We believe investing in NSF will support the kind of basic research 
and development investment that will prevent an innovation deficit and 
help ensure the United States maintains the world's most innovative, 
dynamic and vibrant economy. Robust Federal investment in basic 
research and development has long proven key to accelerating our 
economy's productivity growth and much in the fiscal year 2017 budget 
would help build on that progress. Increasing research investments in 
the earth, ocean, atmospheric and climate sciences--areas with 
incredible need and potential--are examples where this budget proposal 
seeks to address global problems with U.S.-led research that can also 
yield real economic benefits, national security, and public safety for 
our Nation.
               geosciences research and national security
    On September 15, 2015, a distinguished group of former military and 
national security leaders said the following:

        ``. . . we urge you to protect funding for NASA Earth science 
        and NSF Geoscience programs. These programs are essential parts 
        of a broader whole of government and whole of society effort to 
        provide essential data about and better scientific 
        understanding of global, regional, and local Earth processes. 
        That essential data about better scientific understanding of 
        the underlying science are critical to many strategic planning, 
        strategy, and investment decisions in both the private and 
        public sectors, very much including national security. From 
        better understanding weather, wind patterns and intensity, 
        changing global land cover, snow, ice and glacier melting, and 
        seismic activity, to capturing new insights about ocean-
        atmosphere dynamics and changing ocean circulation, these . . . 
        programs represent one of the pillars of our Nation's 
        environmental information supply chain. This critical but 
        fragile chain begins with science and data and evolves into 
        decision support products and tools that inform and protect our 
        citizens, property, businesses, and interests around the world. 
        [These programs] directly link to food, water, energy, and 
        economic security, all of which are inherently tied to our 
        national security.''

    The national security implications are far reaching as they may 
exacerbate existing stressors, contributing to poverty, environmental 
degradation and political instability providing enabling environments 
for terrorist activity abroad. For example, the impacts of climate 
change on key economic sectors, such as agriculture and water, can have 
profound effects on food security, posing threats to overall stability.
    On January 14, 2016, Robert Work, the Deputy Secretary of Defense 
issued DOD Directive 4715.21 that establishes departmental policy and 
responsibilities within DOD to assess and manage risks associated with 
the impacts of climate change. The policy statement in this directive 
says:

        ``. . . The DOD must be able to adapt current and future 
        operations to address the military. Mission planning and 
        execution must include: (a) identification and assessment of 
        the effects of climate change on the DOD mission; (b) taking 
        those effects into consideration when developing plans and 
        implementing procedures; and (c) anticipating and managing any 
        risks that develop as a result of climate change to build 
        resilience . . .''

    DOD's ability to implement this new policy directive is dependent 
on the scientific information that comes out of the geosciences 
research supported by NSF and other agencies.
     geosciences and the private sector commercial weather industry
    On June 5, 2015, the Chairman and Executive Officer of the Weather 
Company said the following about the economic importance of the 
geosciences and related disciplines:

        ``. . . Research conducted through NSF's geosciences program, 
        NASA's Earth Sciences program and NOAA's weather and climate 
        research programs have enabled us, in partnership with these 
        agencies, to inform citizens and businesses of weather and 
        climate events in a tailored manner that enables them to be 
        weather-ready and climate-smart. Cutting these investments . . 
        . will have negative consequences on our economy and quality of 
        life in the coming years. They are vital investments to 
        maintain our leadership in environmental information and 
        services.''
                 geosciences and the insurance industry
    In a hearing before the Senate Environment and Public Works 
Committee in July of 2013 the President of the Reinsurance Association 
of America said the following about the importance of research in the 
geosciences to the economic viability of the insurance industry and 
those they insure:

        ``. . . Our industry [the reinsurance industry] is science 
        based. Blending the actuarial sciences with the natural 
        sciences is critical in order to provide the public with 
        resources to recover from natural events . . . Developing an 
        understanding about climate and its impact on droughts, heat 
        waves, the frequency and intensity of tropical hurricanes, 
        thunderstorms and convective events, rising sea levels and 
        storm surge, more extreme precipitation events and flooding is 
        critical to our role in translating the interdependencies of 
        weather, climate risk assessment and pricing . . .''
        geosciences and the private sector aquaculture industry
    On May 8, 2015 Diane Pleschner-Steele, Executive Director of 
California Wetfish Producers Association, a major industry aquaculture 
organization in California said:

        ``. . . NSF's Geoscience Directorate funds data collecting 
        buoys that provide a long-term signal of increased ocean 
        acidification among other measurements. These forecasts will be 
        critical to maintain for both open-ocean aquaculture and 
        important shellfish fisheries, as these industries are hugely 
        important economically on both west and east coasts. Proposed 
        cuts to the Geoscience Directorate put the data on which the 
        seafood industry depends, and the domestic seafood-producing 
        economy as a whole, at risk . . .''
    research underlying fracking technology yields economic benefits
    Investment in the geosciences provided the fundamental 
understanding of geologic structures and processes necessary to utilize 
hydraulic fracturing (fracking) processes to release oil and gas from 
shale formations. The ability of U.S. companies to develop these 
natural resources is built upon decades of fundamental research and 
technology development in the earth sciences. According to a 2013 
report from U.S. Chamber of Commerce's 21st Century Energy Institute, 
fracking has created a job boom even in States that don't actually have 
shale deposits, with 1.7 million jobs already created and a total of 
3.5 million projected by 2035.
    geoscience graduates--source of technical talent for energy and 
                          environment industry
    The geosciences research that NSF funds helps educate and train the 
next generation of geoscientists. According to the Bureau of Labor 
Statistics (BLS), there were a total of 296,963 geoscience jobs in 
2012, and this number is expected to increase by 14 percent by 2022 to 
a total of 339,737 jobs. Approximately 143,000 geoscientists are 
expected to retire by 2022, but over the next decade, approximately 
51,000 students will be graduating with their bachelor's, masters, or 
doctoral degrees in the geosciences. Therefore, according to the 
American Geosciences Institute's (AGI) Status of the Geoscience 
Workforce Report 2014, assuming minimal non-retirement attrition from 
the geoscience workforce, there is expected to be a deficit of 
approximately 135,000 geoscientists by 2022. Texas leads the Nation in 
the number of geoscience undergraduates and graduate students enrolled 
within geoscience departments.
    The AGI report, Status of Recent Geoscience Graduates 2015, shows a 
shift in hiring patterns for geoscience industries. For the first time 
in the report's history, an industry other than oil and gas hired the 
highest percentage of bachelor's graduates: environmental services. 
According to the report, approximately 40 percent of bachelor's 
graduates found a job in the environmental services industry, which 
includes fields such as environmental consulting and remediation of 
land assets such as water and soil. Sixteen percent of bachelor's 
graduates went on to find jobs in the oil and gas industry in 2015, 
down from 36 percent in 2014. Changing employment dynamics and record 
low oil prices have led the oil and gas industry to reduce employment 
opportunities. Nevertheless, 67 percent of master's graduates found 
jobs in the oil and gas industry, an increase from 59 percent in 2014. 
Other industries hiring geoscientists include: manufacturing or trade, 
construction, information technology services, and agriculture. NSF's 
support for the geosciences contributes significantly to the education 
and training of these individuals via NSF's programs in research, 
graduate student support, and undergraduate student support.
                               conclusion
    It is important to appreciate that the NSF's investments in all 
fields of science and engineering--including the geosciences--have 
addressed important national and global challenges, spurred new 
economic sectors, and led to the development and implementation of 
advanced technologies that save lives, protect property, and support 
our economy. We appreciate the difficult decisions Congress must make 
within the constraints of the budget environment. However, we believe 
the future of the Nation is well served by a strong and sustained 
investment in the full scope of our research enterprise, which includes 
the geosciences. Thank you for the opportunity to present these views.
                                 ______
                                 
     Prepared Statement of the National Weather Service Employees 
                              Organization
    The employees of the National Weather Service urge the subcommittee 
to once again reject the administration's proposal to eliminate funding 
for the NWS Information Technology Officers. We also express our 
concern over the woefully inadequate funding being sought to make 
urgently needed repairs to our Nation's weather offices.
                    information technology officers
    The administration has proposed to eliminate 122 additional 
positions at Weather Forecast Offices nationwide in addition to over 
300 positions already eliminated from those offices since 2010 through 
attrition. Congress has rejected this proposal in each of the last four 
appropriations cycles, insisting that the NWS first complete its 
Operational and Workforce Analysis, currently being conducted by 
McKinsey and Co. This analysis is still ongoing, but the first phase of 
the study, released last fall, revealed that there were nearly 600 
vacant positions in the NWS overall (a 14 percent vacancy rate) and 
that most forecast offices have insufficient staff to handle the 
existing workload. The ITOs are necessary to assist with these critical 
staffing shortages. Many are also trained meteorologists, and even 
those that are not assist during critical weather events. The ITO at 
the Albany Forecast Office describes how he contributes to the offices 
operations during severe weather:

          Although our job title is Information Technology Officer, the 
        majority of ITOs do indeed work weather forecast shifts, issue 
        watches, warnings and advisories, provide decision support 
        services, conduct media interviews for weather, work severe 
        weather events and conduct storm surveys. ITOs are a main 
        component during severe weather events. There is absolutely no 
        time to pickup the phone and call a support desk if there is an 
        issue with an F2 tornado warning going out. Most offices have a 
        policy to have the ITO working during severe weather events. 
        During my time at Albany, I have issued numerous severe 
        thunderstorm warnings, tornado warnings, flash flood warnings, 
        flood warnings and civil emergency messages. I also provided 
        decision support services for numerous incident events from a 
        chemical spill to a tour boat with 65 people capsizing. During 
        extreme events, ITOs are constantly wearing two hats 
        (meteorologist and IT).

    The ITO from the Nashville Forecast Office, who is not a 
meteorologist, explains how he is also able to contribute broadly to 
the work of his office:

          For the past several years I have filled in to do the job of 
        Observation Program Leader and the coop program, and fill in 
        pulling upper air shifts for a retired Hydro-Meteorological 
        Technicians. During severe weather operations, I help with 
        timely local storm reports, weather products and graphics, and 
        onsite support. On February 20th, 2014, we had a NOAA Weather 
        Radio console failure, resulting in none of our tornado and 
        severe thunderstorm warnings getting out to our customers via 
        Weather Radio. For over 2 hours, I went live while 
        troubleshooting and correcting the issue. Without my service in 
        and out of operations, this would have never happened in a 
        timely, life-protecting manner. Off site support would have 
        never provided the life protecting service that I did that 
        night. Severe weather operations do not end with the end of the 
        event. I also am a team leader in post storm severe weather 
        surveys.

    As the Senate Appropriations Committee noted when rejecting an 
earlier proposal to eliminate the ITOs, the ``IT staff have proven to 
be valuable parts of the local weather forecast teams.'' Senate Report 
No. 112-158, at 31. In fact, the ITO at the Baltimore/Washington 
Forecast Office was recently named as the NWS Eastern Region ``Employee 
of the Year'' for 2015, out of over 500 co-workers. A team that 
included the three ITOs from Charleston, South Carolina and Morehead 
City and Wilmington, North Carolina, was named ``Eastern Region 
Outstanding Team of the Quarter'' for the second quarter of 2015 by the 
NWS Eastern Region Director, Jason Tuell, who wrote in an ``all-hands'' 
email:

          The 2015 tropical season was the inaugural season for the 
        baseline AWIPS II tropical software. A rare, preseason tropical 
        cyclone resulted in significant challenges as AWIPS II software 
        configuration and testing for tropical cyclones needed to be 
        greatly accelerated. The team collaborated non-stop for the 
        week leading up to the formation of Tropical Storm Ana. Through 
        the accelerated process of achieving operational readiness, the 
        team identified several previously unknown software 
        deficiencies, implemented and shared short-term fixes ``on the 
        fly'', and coordinated long-term solutions with software 
        developers. As the first Tropical Storm Watches were raised by 
        the National Hurricane Center on the evening of May 7, the team 
        stayed on the job well into the early morning hours to 
        troubleshoot and overcome technical difficulties that would 
        otherwise have resulted in significant delays in the 
        dissemination of critical tropical cyclone products and 
        services. The team continued to provide operational support 
        through the weekend of May 9 and 10, ensuring that the NWS 
        mission was fulfilled as slow-moving Tropical Storm Ana made 
        landfall in the Carolinas.

    The NOAA budget justification contains a promise to reassign the 
ITOs to other vacant positions. But the NWS should promptly fill the 
hundreds of critical vacancies with new hires instead. Reassignment of 
ITOs to other vacancies will do nothing to reduce the overall staffing 
shortfall that, as the McKinsey study has already determined, has 
resulted in a dire situation in which the workload exceeds available 
workforce at most forecast offices.
    And once again, the budget justification fails to explain how 24 
regionally based ITOs can, at a distance, handle the same workload 
performed by 122 employees who work at the site of the problem. No 
workload analysis has ever been conducted. This year's budget 
justification contains the same preposterous claim that the regional 
team approach will ``meet or exceed current service levels'' without 
any factual basis or prototyping. The proposal once again claims that 
``the current service delivery model has redundancies,'' but it fails 
to identify a single one.
    The budget justification also claims that the NWS ``has identified 
efficiencies which have been realized in the delivery of IT support to 
field offices through investments in open source software and 
implementation of IT best practices.'' NWSEO circulated NOAA's budget 
justification to the ITOs for review and comment. Not a single ITO 
could identify any ``efficiencies which have been realized'' through 
open source software of implementation or any so-called ``IT best 
practices.'' Simply stated, the ITOs don't know what this portion of 
the budget justification could possibly be referring to. The workload 
of the ITOs remains as busy, if not busier, than ever. According to the 
ITOs, the deployment of AWIPS 2 has not reduced their workload as the 
budget justification claims. The ITO at the Wichita Forecast Office 
explains that:

          With the completed implementation of AWIPS II, having an ITO 
        on site with local knowledge is even more crucial. The new 
        AWIPS platform, while more user-friendly, is considerably more 
        complex to maintain. When problems are encountered in AWIPS, 
        forecasters often notify the office ITO, when applicable, who 
        then determines if the problem can be fixed locally, or needs 
        to be escalated to the remote Network Control Facility (NCF). 
        Baseline issues and serious problems are escalated to the NCF, 
        so that any fixes can be incorporated into future releases, or 
        issued as Discrepancy Reports. In most cases, however, the ITO, 
        who has intricate, local knowledge of the system can rectify 
        the issues much more quickly. In addition, the AWIPS II 
        contractor has left the field offices with hundreds of software 
        deficiencies, for which the local field offices must mitigate 
        or find work-arounds.

    This view was echoed by the ITO at the Atlanta Forecast Office:

          Since deployment of AWIPS 2, I've found out that my workload 
        regarding AWIPS 2 has not decreased, but at the very least, 
        stayed the same. There is still customization and testing of 
        AWIPS 2 that still needs to be done, to ensure that AWIPS 2 is 
        properly configured, something a centralized READI team member 
        will struggle with, as (s)he will need to be aware of each 
        office's unique situation.

    It appears to NWSEO and to the ITOs that the author of this portion 
of the budget justification has no familiarity with the actual work of 
the NWS ITOs nor of NWS Forecast Office operations, but rather relied 
on some generic justification for reducing IT positions elsewhere in 
the government.
                    facility construction and repair
    As the agency's budget justification correctly notes, ``maintaining 
the structural integrity'' of NWS forecast offices and other 
operational facilities is required for ``ensuring uninterrupted 
forecasts for local communities.'' NOAA Budget Estimates Fiscal Year 
2017 at NWS-80. The President's budget requests $8,650,000 for 
``facilities construction and major repairs'' at the Nation's 122 
Weather Forecast Offices, 13 River Forecast Centers and 18 smaller 
Weather Service Offices. However, this amount is woefully inadequate to 
address rapidly deteriorating conditions at these critical 
installations.
    The NWS's Office of Facilities is conducting a 3-year ``Facilities 
Condition Assessment.'' NWS facilities are being surveyed by a third-
party independent evaluator. One-third of the facilities are being 
surveyed each year. The first third--consisting of 65 sites--was 
surveyed in fiscal year 2014 and the results of that survey have just 
been compiled and assessed. Shockingly, the survey reveals that 
$26,515,622 is needed for ``Priority 1 maintenance'' that is ``required 
within 90 days.'' This number represents the immediate need at just 
one-third of the agency's facilities, and therefore it is fair to 
assume that at least $75 million may be needed agency-wide for 
immediate, essential repairs. All but four of the Weather Forecast 
Offices surveyed in this first set need over $100,000 in ``priority 1'' 
maintenance. Numerous facilities were identified that need repairs in 
excess of one-third of the replacement cost of the entire building. 
Yet, the amount requested by the President's budget only envisions ``up 
to 12 highest priority major system replacements annually.'' NOAA 
Budget Estimates Fiscal Year 2017 at NWS-80.
    The failing physical condition of NWS facilities is attributable to 
two primary causes. Unlike most other Federal offices, Weather Forecast 
Offices and other NWS operational facilities operate 24/7, 365 days a 
year and therefore receive three to four times the normal ``wear and 
tear'' on its systems than do other offices in the same amount of time. 
In addition, the amount of funds requested and appropriated in prior 
years has been inadequate to address the growing maintenance problems. 
Further delayed maintenance may well require more costly building 
replacement. Therefore, Congress should appropriate at least the 
$26,515,622 identified so far as needed for priority 1 repairs.
    Thank you for considering the views of the employees of National 
Weather Service as you shape this year's Department of Commerce 
Appropriations Act.
                                 ______
                                 
         Prepared Statement of the Native American Rights Fund
    Summary of the Request: The Native American Rights Fund (NARF) \1\ 
submits this written statement regarding the fiscal year 2017 budget 
request for the Department of Justice (DOJ) for the record. We 
respectfully request this subcommittee's consideration in the 
development of the fiscal year 2017 Commerce, Justice, Science and 
Related Agencies appropriations bill of maintaining funding within the 
Department of Justice, Office of Justice Program, State and Local Law 
Enforcement Assistance account at a level similar to that provided in 
recent years of approximately $2 million for the Tribal Civil and 
Criminal Legal Assistance, Training and Technical Assistance grant 
program within either ``assistance to Indian tribes'' or a tribal set-
aside of a percentage of all Office of Justice Programs accounts, as 
the administration has again proposed for fiscal year 2017. We also 
request the inclusion of report language--as provided in recent years 
in the Committee's report accompanying the spending bill--that would 
direct that DOJ's allocation of fiscal year 2017 funding for 
``assistance to Indian tribes'' or under a tribal set aside of overall 
DOJ funding include mention of some funding for the provision of civil 
and criminal legal assistance to individual tribal citizens and to 
tribal judicial systems pursuant to the Indian Tribal Justice Technical 
and Legal Assistance Act (Public Law 106-559).
---------------------------------------------------------------------------
    \1\ Founded in 1970, the Native American Rights Fund (NARF) is the 
oldest and largest non-profit law firm dedicated to asserting and 
defending the rights of Indian tribes, organizations and individuals 
nationwide. NARF's practice is concentrated in five key areas: the 
preservation of tribal existence; the protection of tribal natural 
resources; the promotion of Native American human rights; the 
accountability of governments to Native Americans; and the development 
of Indian law and educating the public about Indian rights, laws, and 
issues.
---------------------------------------------------------------------------
    Background to the Request: In 2000, Congress enacted the Indian 
Tribal Justice Technical and Legal Assistance Act (Public Law 106-559). 
Sections 102 and 103 of that statute specifically authorized the 
Department of Justice, subject to available appropriations, to provide 
grants to ``non-profit entities . . . which provide legal assistance 
services for Indian tribes, members of Indian tribes, or tribal justice 
systems pursuant to Federal poverty guidelines'' [emphasis added] for 
tribal civil and tribal criminal legal assistance, respectively. The 
Indian Tribal Justice Technical and Legal Assistance Act of 2000 was 
reauthorized as section 242 of the Tribal Law and Order Act (Public Law 
111-211).
    For the past 6 years, a consortium of 24 Indian Legal Services 
programs connected with the Legal Services Corporation (LSC) and 
operating in 23 States has been awarded funding under DOJ's Tribal 
Civil and Criminal Legal Assistance, Training and Technical Assistance 
(TCCLA) grants program. In addition to individual representation, 
Indian Legal Services programs are currently assisting more than 160 
tribal governments and/or tribal judicial systems.
    Most recently, under the fiscal year 2015 grant solicitation, the 
Bureau of Justice Assistance awarded the Indian Legal Services programs 
a total of $1.2 million to provide civil and criminal legal assistance 
to thousands of Native American clients, including juveniles, who meet 
Federal poverty guidelines. We are awaiting an announcement about 
whether some of the fiscal year 2016 appropriation for ``assistance to 
Indian tribes'' will be allocated to the TCCLA program.
    Since 1968, Indian Legal Services programs have been providing 
essential capacity-building services to many tribal courts across the 
country, and have provided representation of Indian individuals in 
those courts. In particular, Indian Legal Services programs have been 
assisting tribal governments and tribal citizens to implement and 
accomplish the significant victories that Indian Country achieved with 
the Tribal Law and Order Act of 2010 (TLOA) and the Violence Against 
Women Reauthorization Act of 2013 (VAWA).
    With respect to the work of capacity-building services to tribal 
judicial systems, tribes have noted that the lack of attorneys 
practicing in tribal court is the single biggest barrier to exercising 
the authorities under the Tribal Law and Order Act and the Violence 
Against Women Reauthorization Act of 2013. A number of Indian Legal 
Services programs are currently providing capacity-building assistance 
to tribes, and that is laying the foundation toward their 
implementation of TLOA and VAWA. This work includes assisting tribes 
with revisions to their criminal codes for compliance with these 
statutes, as well as drafting and updating codes, policies and 
procedures; establishing or rehabilitating tribal courts; training 
judicial and law enforcement personnel; and negotiation or litigation 
to address jurisdictional issues with State court systems. The programs 
are engaged in TLOA or VAWA implementation assistance for 18 of the 160 
tribes they serve, and provide the only public defender service 
available in at least 46 tribal courts.
    In many instances, these Indian Legal Services programs have been 
``on the ground'' in tribal communities for decades, an integral part 
of the legal structure of the reservation communities they serve. The 
attorneys are well-versed in the uniqueness and complexities of Indian 
law, and are specialized legal practitioners. The Indian Legal Services 
programs are assisting tribal governments and their justice systems in 
being grounded in solid codes and laws--which benefits not only members 
of the tribal community, but non-Indians who do business, attend 
school, collaborate with tribal enterprises and live in these tribal 
communities. This work includes such assistance as tribal court 
development, restructuring and improvement; development of tribal 
dispute resolution, peacemaker/mediation systems and alternatives to 
incarceration; drafting of civil and criminal codes, including 
children's codes, and rules of procedure; and training of tribal court 
and justice systems personnel and tribal court lay advocates and 
guardians ad litem. Lay advocate and peacemaker trainings have been 
done with tribal colleges and university law schools.
    In addition, legal representation of American Indian and Alaska 
Native youth and families is a central focus of many of the Indian 
Legal Services programs' individual representation cases. In affording 
access to justice for individuals, the programs' individual legal 
representation has expanded from traditional legal issues such as 
employment, disability benefits claims and housing issues to include 
domestic violence, pro se assistance, family member prisoner 
visitation, re-entry and expunctions for certain criminal charges, and 
child welfare, guardianship and adoption. This work also includes 
representation of families in Indian Child Welfare Act cases in State 
court; addressing the impact on individuals and families from substance 
abuse and correlated incidents of criminal activity by reforming tribal 
sentencing guidelines; representation in divorce, child custody, 
paternity, child support, guardianship (minor and adult), and children 
in need of care cases (juvenile dependency) and in will drafting cases; 
and providing civil legal and public defender services.

    Here are several State-specific examples of Indian Legal Services 
program:

  --Alaska Legal Services has continued working with a south-central 
        Alaska tribe that is developing a groundbreaking joint State-
        tribal therapeutic drug court, providing legal advice to the 
        tribe as it develops ideas on how State and tribal judges can 
        sit jointly on cases.
  --Serving the citizens of and located on the Navajo Reservation in 
        Arizona, New Mexico and Utah, one of DNA People's Legal 
        attorneys has been working with Navajo Nation Prosecutors to 
        start revising the Navajo Nation Criminal Code as it relates to 
        the Sex Offender Registration and Notification Act.
  --After meeting with the California law review commission, California 
        Indian Legal Services staff has been developing a final draft 
        of the model adult guardianship code to address how the tribes 
        will fit in the State's adoption of the Uniform Adult 
        Guardianship and Protective Procedures Act.
  --Pine Tree Legal Assistance of Maine has been assisting the 
        Passamaquoddy Restorative Justice Commission with proposed 
        revisions to the tribe's sentencing guidelines that would allow 
        for the inclusion of both traditional conflict resolution 
        practices and community-based healing and restoration 
        processes.
  --Oklahoma Indian Legal Services developed an expungement practice to 
        clear criminal records of tribal members whose lives are 
        adversely impacted by their criminal record.
  --Northwest Justice Project in Washington provides free legal advice 
        clinics for low-income tribal members on hard-to-reach Indian 
        reservations in the State. The legal advice clinics discuss 
        civil legal issues such as Family Law (custody, divorce and 
        child support); Housing Law (evictions foreclosures, tenant and 
        mobile home rights); Consumer Law (pay day loans, collections 
        and repossessions); Education Law (suspensions, expulsions and 
        special education rights); Employment Law (terminations); and 
        Health and Welfare Benefits.
  --Wisconsin Judicare has been participating with statewide efforts to 
        improve Indian Child Welfare Act compliance over the past 5 
        years since the passage of the Wisconsin Indian Child Welfare 
        Act.

    The TCCLA grants that Indian Legal Services programs have been 
awarded are funded separately from DOJ's Consolidated Tribal Assistance 
Solicitation (CTAS) program. In fact, a number of the Indian Legal 
Services programs provide capacity-building assistance to very small 
tribes or consortia of small tribes which do not have the personnel or 
resources to submit applications for CTAS funding, and/or civil or 
criminal legal representation of their members.
    In fiscal year 2017, whether Congress provides funding to the DOJ 
in an overall sum for Indian Country law enforcement programs (such as 
the $30 million appropriated in fiscal year 2016 for ``assistance for 
Indian tribes''), or as a tribal set-aside of a percentage of overall 
DOJ funding, we request that funding of approximately $2 million be 
designated for the purpose of the provision of tribal civil and 
criminal legal assistance to individual tribal citizens and to tribal 
judicial systems pursuant to the Indian Tribal Justice Technical and 
Legal Assistance Act.
    Thank you for your consideration of this request.
                                 ______
                                 
              Prepared Statement of the Nature Conservancy
    Thank you for the opportunity to comment on the fiscal year 2017 
appropriations for the National Oceanic and Atmospheric Administration 
(NOAA). The Nature Conservancy is a non-profit conservation 
organization working around the world to protect ecologically important 
lands and waters for both people and nature. As the Nation enters the 
fiscal year 2017 budget cycle and another year of fiscal challenges, 
the Nature Conservancy recognizes the need for fiscal restraint. We 
believe the budget levels the Nature Conservancy supports represent a 
prudent investment in our country's future with modest, targeted 
increases that are expected to yield great returns. This investment not 
only helps NOAA catalyze local and regional action, but also reduces 
risk and saves money based on tangible economic and societal benefits 
that natural resources provide.
    Over the years and across many sites, NOAA has been an invaluable 
partner to the Conservancy. NOAA programs that provide practical, 
community-oriented approaches to restoration, resource management, and 
conservation are natural fits for the Conservancy's mission. NOAA 
Fisheries has made important strides in addressing key challenges and 
strengthening fisheries management and recovery of protected species; 
however, much more needs to be done. To recover fish stocks so that 
they provide food and jobs to struggling fishermen now and in the 
future, we need to reduce destructive fishing practices, restore 
coastal habitats that produce fish, and support the efforts of 
fishermen and local communities that depend on fishing--and do so in a 
way that engages fishermen in collaborative efforts. In addition, 
NOAA's data, research, and monitoring of coastal and marine systems 
directly provide data and decision-support tools that inform the safe 
operations of industry, prioritize habitats for restoration, and 
advance science-based management decisions. Through financial and 
technical support, NOAA's programs enhance coastal economies dependent 
on healthy coastal systems and reduce the risk posed by storms and 
changing coastal conditions.
                   national marine fisheries service
    Fisheries and Ecosystem Science Programs and Services: The Nature 
Conservancy supports the President's request of $150.169 million. There 
is a high correlation between good information about the status of a 
fish stock and the effectiveness of management. Systems for collecting 
fishery data tend to be paper-based, slow, expensive and prone to 
errors and gaps. On-board video monitoring has been piloted, but has 
yet to be implemented in any U.S. fisheries. The administration has 
incorporated the fiscal year 2016 increase for Electronic Monitoring 
and Reporting into base funding. The subcommittee's previous report 
language has been very helpful, and continued congressional guidance on 
the need to provide clear data and storage standards will be useful in 
moving these efforts from pilot to full implementation. Priority should 
be given to those fisheries that have already piloted these efforts. 
Also key is improving our understanding of the ecological and economic 
connections between fisheries and nearshore habitats. The 
administration's proposed $5.929 million increase for Ecosystem-based 
Solutions for Fisheries Management will provide tools and information 
to better target fisheries habitat restoration efforts.
    Habitat Conservation and Restoration: The Nature Conservancy 
supports the President's request of $58.39 million. Coastal wetlands 
and nearshore waters produce the fish and shellfish that feed America. 
The health of these places is essential to the economic and social 
well-being of those who live, work, and recreate in coastal 
communities. Additionally the restoration and protection of coastal 
resources help to provide flood control and prevent erosion to protect 
our communities from storm surges. Through the Community-based 
Restoration Program and the Habitat Blueprint initiative, The Nature 
Conservancy works closely with NOAA to restore the health of degraded 
habitats in places and ways that benefit not just local marine life, 
but communities and coastal economies as well. Project funds are 
awarded on a competitive basis and typically leverage the resources and 
capacity of multiple partners. This work enhances our understanding of 
the connections between fisheries productivity and habitat, measures 
the effectiveness of conservation and restoration activities, and 
applies those lessons to improve future efforts. The administration has 
also requested an important $3.5 million increase to enhance NOAA's 
capacity to for consultations on and implementation of Essential Fish 
Habitat. The Regional Fishery Management Councils address fishing 
impacts on these areas, and NOAA must have sufficient capacity to 
provide technical assistance to the Councils and to work with Federal 
agencies to avoid, minimize, and mitigate the impacts of their actions 
on these important fishery habitats.
    Fisheries Management Programs and Services: The Nature Conservancy 
supports the President's request of $121.895 million. NOAA Fisheries 
has made important strides in addressing these challenges and 
strengthening fisheries management; however, much more needs to be 
done. To recover fish stocks so that they provide food and jobs to 
struggling fishermen now and in the future, we need to reduce 
destructive fishing practices, restore coastal habitats that produce 
fish, and support the efforts of fishermen and fishing communities and 
do so in a collaborative way. Work begun to improve the management of 
electronic monitoring and reporting with the increase in the fiscal 
year 2016 budget has notably been incorporated into base program 
funding. Recent legislation and administrative action to combat 
illegal, unreported, and unregulated (IUU) fisheries show great promise 
in leveling the playing field for legal fishermen. The modest proposed 
increase of $1.556 million to improve traceability will enable NOAA to 
take the next steps on traceability of seafood. Catch shares give 
participating fishermen a stake in the benefits of a well-managed 
fishery and align the incentives for resource stewardship with the 
natural incentive for fishermen to increase their earnings with a 
sustainable business model. Transition to these systems is difficult 
and the modest $2.505 million proposed increase will help NOAA get the 
design and implementation of these new catch share programs right by 
engaging fishing communities.
    Fisheries Data Collections, Surveys and Assessments: The Nature 
Conservancy supports the President's request of $164.749 million. 
Limited or poor quality information on the status of fishery stocks 
undermines the effectiveness of fishery management and can erode 
political support for conservation measures. Accurate and timely stock 
assessments are essential for the sound management of fisheries and the 
sustainability of fishing resources. The funding proposed will help the 
agency prioritize assessments, determine what level of assessments are 
needed and, where to appropriately incorporate ecosystem linkages--such 
as climate, habitat, multispecies assemblages, and socioeconomic 
factors.
    Pacific Coastal Salmon Recovery Fund: The Nature Conservancy 
supports the President's request of $65 million. The Conservancy 
appreciates the Subcommittee's efforts to maintain robust funding 
levels for the Pacific Coast Salmon Recovery Fund (PCSRF). It is the 
most critical Federal program addressing major threats to Pacific 
salmon so that these fish can continue to sustain culture, economies, 
recreation, and ecosystem health. PCSRF funding is tailored for each 
State, competitively awarded based on merit, and has funded hundreds of 
successful, on-the-ground salmon conservation efforts. PCSRF invests in 
cooperative efforts to conserve species under NOAA's jurisdiction, and 
projects are matched at a 3:1 ratio (Federal/non-Federal). Notably, the 
PCSRF has catalyzed thousands of partnerships among Federal, State, 
local, and tribal governments, and conservation, business, and 
community organizations.
    Protected Resources Science and Management: The Nature Conservancy 
supports the President's request of $216.721 million. Competitive 
grants to States and tribes support conservation actions that 
contribute to recovery, or have direct conservation benefits for, 
listed species, recently de-listed species, and candidate species that 
reside within that State. NOAA's proposed $16.012 million increase for 
Species Recovery Grants will allow the agency to expand partnerships to 
address the growing number of listed species and allow for larger, 
ecosystem-level scale recovery efforts. The Nature Conservancy works 
with State agency partners to restore endangered species and monitor 
the results of these efforts, including several Species in the 
Spotlight initiative species. These grants are essential for having a 
direct benefit to ``on the water'' restoration efforts. Additional 
listed species and emerging challenges to recovery has increased the 
number and complexity of NOAA's consultation and permitting 
requirements under the Endangered Species Act and Marine Mammal 
Protection Act. The proposed $13.452 million to Increase Consultation 
Capacity will aid NOAA's ability to complete these requirements in a 
timely and predictable manner. Recovery of listed Atlantic and Pacific 
salmon provide distinct challenges. NOAA's cooperative efforts with 
States, tribes, and other partners such as The Nature Conservancy help 
to improve our understanding of and ability to protect listed salmon 
and the habitats that sustain them. Maintaining the increase provided 
in fiscal year 2016 to the Atlantic salmon base funding and the propose 
$2.338 million proposed increase to Pacific salmon will allow NOAA to 
enhance recovery efforts including monitoring, fish passages, hatchery 
operations, and stakeholder engagement.
                         national ocean service
    Coastal Management Grants: The Nature Conservancy supports the 
President's request of $90.646 million. Our Nation's coastal areas are 
vital to our economy and our way of life. The narrow area along our 
coasts is home to approximately 163 million people and coastal 
economies contribute over 45 percent of our gross domestic product. The 
$15 million proposed increase in competitively awarded Regional Coastal 
Resilience Grants will provide the resources and tools to build coastal 
resilience to avoid costly Federal disaster assistance and sustain 
healthy fisheries, maintain robust tourism opportunities, provide for 
increased shipping demands, and other coastal industries. The inaugural 
funding solicitations for the grants combined into this proposal drew 
in 196 applications with $151 million in funding requests, nearly 16 
times the available funding, demonstrating a significant need for these 
grants. Coastal communities have clearly shown that they are ready to 
leverage this funding to take proactive measures to protect their way 
of life. If the subcommittee does combine the two grant programs as 
proposed, it should ensure the full range of eligible activities be 
maintained going forward. Additionally, the Nature Conservancy has 
worked with NOAA through the Digital Coast partnership to develop 
decision support tools and techniques that help communities understand 
and reduce risk and build resilience. By sharing the results of the 
work done through these grants and the Digital Coast partnership across 
Federal, State, and tribal agencies, industry, and with non-
governmental organizations can increase our collective ability to 
understand and incorporate into decisionmaking complex coastal 
economic, social, and ecological needs.
    Coral Reef Program: The Nature Conservancy supports no less than 
the President's request of $26.1 million. The decline of coral reefs 
has significant social, economic, and ecological impacts on people and 
communities in the United States and around the world. The Conservancy 
works with NOAA's Coral Reef Conservation Program under a competitively 
awarded, multi-year cooperative agreement to address the top threats to 
coral reef ecosystems: climate change, overfishing, and land-based 
sources of pollution. Together we develop place-based strategies, 
measure the effectiveness of management efforts, and build capacity 
among reef managers globally.
    Coastal Zone Management and Services: The Nature Conservancy 
supports the President's request of $53.847 million. NOAA's data, 
research, and monitoring of coastal and marine systems provide data and 
decision-support tools that inform the safe operations of industry, 
prioritize habitats for restoration, and advance science-based 
management decisions. The administration has requested a $5 million 
increase for Ecosystem-based Solutions for Coastal Resilience. 
Improving our ability to incorporate natural infrastructure into 
coastal protection efforts before and after storms can help communities 
achieve multiple benefits such as improving fisheries productivity and 
coastal water quality. The proposed $4.006 million increase for 
Capacity to Respond to Extreme Events will improve modeling and 
observations and increased technical assistance to coastal communities 
to help reduce their risk to coastal storms and extreme weather, 
ultimately saving Federal disaster response and recovery expenditures. 
This will be further leverage by the proposed $2 million increase for 
the AmeriCorps' Resilience Corps Pilot Program Training and Technical 
Assistance. Decision support tools and increasing capacity within 
communities are cost-effective mechanisms to enable the implementation 
of resilience strategies.
    National Estuarine Research Reserve System: The Nature Conservancy 
supports the President's request of $23 million. The National Estuarine 
Research Reserve System (NERRS) partners with States and territories to 
ensure long-term education, stewardship, and research on estuarine 
habitats. Atlantic, Gulf, Pacific, Caribbean and Great Lakes reserves 
advance knowledge and stewardship of estuaries and serve as a 
scientific foundation for coastal management decisions.
    Sanctuaries and Marine Protected Areas: The Nature Conservancy 
supports the President's request of $49.8 million. National marine 
sanctuaries support economic growth and hundreds of coastal businesses 
in sanctuary communities, preserve vibrant underwater and maritime 
treasures for Americans to enjoy, and provide critical public access 
for ocean recreation, research, and education.
    Thank you for this opportunity to share the Nature Conservancy's 
priorities. We would be pleased to provide the subcommittee with 
additional information on any of the Conservancy's activities.

    [This statement was submitted by Stephanie Bailenson, Senior Policy 
Advisor for Oceans & Coasts.]
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and members of the subcommittee, my name is Lorraine 
Loomis and I am the Chair of the Northwest Indian Fisheries Commission 
(NWIFC). The NWIFC is comprised of the 20 tribes that are party to the 
United States v. Washington \1\ (U.S. v. Washington). We are providing 
testimony for the record in support of funding for the National Oceanic 
and Atmospheric Administration (NOAA)/National Marine Fisheries Service 
(NMFS) for the fiscal year 2017 appropriations.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.

SUMMARY OF FISCAL YEAR 2017 APPROPRIATIONS REQUESTS
  --$110.0 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
        NMFS).
  --$14.7 million for the Pacific Salmon Treaty, including $3.0 million 
        for the 2008 Chinook Salmon Agreement (NOAA/NMFS).
  --$20.3 million for the Mitchell Act Hatchery Programs (NOAA/NMFS).

    We are generally pleased with the President's fiscal year 2017 
budget request but much more needs to be done. The natural resources 
that we depend on are vital to our tribal communities, economies and 
jobs. The land and the many natural resources we depend on are a 
necessity for our communities to thrive.
    The continued loss and degradation of the salmon habitat continues 
to hamper our salmon recovery efforts. The western Washington treaty 
tribes brought this concern to the Federal Government in our Treaty 
Rights at Risk (TRAR) initiative almost 5 years ago, which ultimately 
threatens our tribal treaty rights. The Federal Government has the 
obligation and authority to ensure both the recovery of salmon and the 
protection of tribal treaty rights. These constitutionally protected 
treaties, the Federal trust responsibility and extensive case law, 
including the U.S. v. Washington decision, all support the role of 
tribes as natural resource managers, both on and off reservation. The 
issues we put forth in our TRAR has been slow to create any change in 
the manner in which Federal agencies operate. It has not been enough to 
change the trajectory of salmon recovery in our region from a negative 
to a positive direction.
    Salmon has always been the foundation of tribal cultures, 
traditions and economies in western Washington. Wild salmon and their 
habitat continue to decline despite massive reductions in harvest and a 
significant investment in salmon recovery and habitat restoration. 
However, fulfilling these Federal obligations is not an option and 
these investments must continue as we work to recover the salmon 
populations.
    In Washington State, we have developed a successful co-management 
partnership between the Federal, State and tribal governments. Tribes 
seize every opportunity to coordinate with other governments and non-
governmental entities to avoid duplication, maximize positive impacts, 
and emphasize the application of ecosystem-based management. This 
collaboration has helped us to deal with many problems, and as 
sovereign nations, we will continue to participate in resource recovery 
and habitat restoration with the State of Washington and the Federal 
Government because we understand the great value of such cooperation.
    Hatchery production also continues to be a critical component in 
fulfilling these treaty-reserved rights and play a vital role in the 
management of our fisheries. In addition to our habitat concerns, the 
hatchery systems in the State of Washington are under attack by third 
party litigation due to the lack of approved Hatchery and Genetic 
Management Plans (HGMPs) under the Endangered Species Act (ESA). The 
problem will continue until the National Marine Fisheries Service and 
U.S Fish and Wildlife Service have completed their ESA determinations. 
Resources and immediate action is needed to address the current backlog 
of HGMPs so that our communities are not further impacted by loss of 
their fisheries.
    To address these many concerns adequate funding is necessary for 
hatchery production and salmon habitat restoration. The programs we 
support provide the necessary salmon production and assists tribes in 
the implementation of salmon recovery plans that moves us in the 
direction of achieving the recovery goals, which is a direct request in 
our TRAR initiative. As Congress considers the fiscal year 2017 budget, 
we ask you to consider our requests that are further described below.

JUSTIFICATION OF REQUESTS
Provide $110.0 million for NOAA Pacific Coastal Salmon Recovery Fund.
    We respectfully request $110.0 million, an increase of $45.0 
million over the President's fiscal year 2017 request of $65.0 million. 
The fiscal year 2016 appropriations provided a total of $65.0 million. 
These funds have decreased from the peak of $110.0 million in fiscal 
year 2002. We continue to support the original congressional intent of 
these funds that would enable the Federal Government to fulfill its 
obligations to salmon recovery and the treaty fishing rights of the 
tribes.
    The PCSRF is a multi-state, multi-tribe program established by 
Congress in fiscal year 2000 with a primary goal to help recover wild 
salmon throughout the Pacific coast region. The PCSRF supports projects 
that restore, conserve and protect Pacific salmon and steelhead and 
their habitats. PCSRF is making a significant contribution to the 
recovery of wild salmon throughout the region by financially supporting 
and leveraging local and regional efforts. Salmon restoration projects 
not only benefits fish populations and their habitat but provides much 
needed jobs for the local communities.
    The tribes' overall goal in the PCSRF program is to restore wild 
salmon populations while the key objective is to protect and restore 
important habitat in Puget Sound and along the Washington coast. This 
is essential for western Washington tribes to exercise their treaty-
reserved fishing rights consistent with U.S. v. Washington and Hoh v. 
Baldrige \2\ and also promotes the recovery of Endangered Species Act 
(ESA) listed species and other salmon populations. The tribes have used 
these funds to support the scientific salmon recovery approach that 
makes this program so unique and important.
---------------------------------------------------------------------------
    \2\ Hoh v. Baldrige--A Federal court ruling that required fisheries 
management on a river-by-river basis.
---------------------------------------------------------------------------
    These funds support policy and technical capacities within tribal 
resources management to plan, implement, and monitor recovery 
activities. In addition to watershed restoration and salmon recovery 
work they also help fund fish hatchery reform efforts to allow for the 
exercise of tribal treaty fishing rights. Hatchery projects are a 
critical component of salmon recovery as they help reduce the impacts 
of listed stocks. It is for these reasons that the tribes strongly 
support the PCSRF.
Provide $14.7 million for NOAA Pacific Salmon Treaty, including $3.0 
        million associated with the 2008 Chinook Salmon Agreement
    We support the Pacific Salmon Commission (PSC)/U.S. Section's 
request of $14.7 million, an increase of $3.4 million over the 
President's fiscal year 2017 request of $11.3 million. The fiscal year 
2016 appropriations provided a total of $11.3 million. We also support 
as part of their request $1.5 million for the Puget Sound Critical 
Stock Augmentation Program and $1.5 million for the Coded Wire Tag 
(CWT) Program as required by the 2008 PST Chinook Annex Agreement.
    The Puget Sound Critical Stock Augmentation Program provides 
funding for the operation and maintenance costs for the hatchery 
augmentation programs established for Dungeness, Stillaguamish, and 
Nooksack Chinook. These hatchery efforts were initiated in connection 
with the 2008 Chinook Agreement of the U.S./Canada Pacific Salmon 
Treaty (PST) as the conservation needs of these populations could not 
be met by harvest restriction actions alone. The CWT funding allows for 
continued maintenance and efficiency improvements of the coast-wide CWT 
program. This is essential for the sustainability and management of our 
fisheries resources. Currently there is not enough funding allocated to 
carry out the requirements of the PST, which causes the PSC to not be 
able to perform all of its responsibilities required in the treaty and 
its Chinook and coho annexes.
    The PST was implemented in 1985 through the cooperative efforts of 
tribal, State, U.S. and Canadian governments, and sport and commercial 
fishing interests. The PSC was created by the United States and Canada 
to implement the treaty, which was most recently updated in 2008. The 
PSC establishes fishery regimes, develops management recommendations, 
assesses each country's performance and compliance with the treaty, and 
is the forum for all entities to work towards reaching an agreement on 
mutual fisheries issues.
    Adult salmon returning to most western Washington streams migrate 
through U.S. and Canadian waters and are harvested by fisherman from 
both countries. For years, there were no restrictions on the 
interception of returning salmon by fishermen of neighboring countries. 
The 2008 update of the treaty gave additional protection to weak runs 
of Chinook salmon returning to Puget Sound rivers. The update also 
provided compensation to Alaskan fishermen for lost fishing 
opportunities, while also funding habitat restoration in the Puget 
Sound region.
Provide $20.3 million for NOAA Mitchell Act Hatchery Programs
    We support the President's fiscal year 2017 request of $20.3 
million for the Mitchell Act Hatchery Programs. The fiscal year 2016 
appropriations provided a total of $20.2 million. Funding is provided 
for the operation and maintenance of hatcheries that release between 50 
and 60 million juvenile salmon and steelhead in Oregon and Washington. 
This program has historically provided fish production for tribal 
treaty and non-tribal commercial and recreational fisheries in the 
Columbia River, and also contributes to ocean fisheries from Northern 
California to Southeast Alaska. Overall production from these 
hatcheries has been reduced from more than 110 million to fewer than 60 
million fish due to inadequate funding. The Mitchell Act hatchery 
production is intended to mitigate for fish and habitat loss caused by 
the Federal hydropower dam system on the Columbia River and provides 
important economic and cultural benefits.
    Funding is provided for improving the Mitchell Act Hatchery 
Programs to ensure that both conservation and harvest goals are met 
while contributing to sustainable fisheries and meeting the tribal 
treaty obligation. It is especially important to us in that they 
provide significant fish production for harvest opportunities for 
tribal treaty fisheries along the Washington coast. Providing adequate 
funding to maintain the current production levels from the Mitchell Act 
hatcheries on the Columbia River is important as this production not 
only supports coastal salmon fisheries but dampens the impact of 
Canadian and Alaskan ocean fisheries under the terms of the PST Chinook 
Annex on Puget Sound and coastal stocks.
    Substantial changes have been made, and will continue to be 
required of the Mitchell Act hatcheries, due to the application of the 
ESA throughout the Columbia Basin. Mitchell Act hatcheries are 
currently implementing hatchery reform efforts to ensure they are 
operated using the best scientific principles that will contribute to 
sustainable fisheries and the recovery of naturally spawning 
populations of salmon and steelhead. Adequate funding will allow these 
facilities to be retrofitted to meet current ESA standards as 
identified through the hatchery reform process.

CONCLUSION
    The treaties and the treaty-reserved right to harvest are the 
supreme law of the land under the U.S. Constitution. It is critically 
important for Congress and the Federal Government to do even more to 
coordinate their efforts with State and tribal governments. We need 
your continued support in upholding the treaty obligations and 
fulfilling the trust responsibility of those treaties in order for 
tribes to be successful.
    We respectfully urge you to continue to support our efforts to 
protect and restore our natural resources that in turn will provide for 
thriving economies. Thank you.
                                 ______
                                 
              Prepared Statement of the Ocean Conservancy
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2017 funding for NOAA. Ocean 
Conservancy has worked for over 40 years to address threats to the 
ocean through sound, practical policies that protect our ocean and 
improve our lives. We support funding for NOAA at or above the 
President's request of $5.8 billion, and we support balanced 
investments across NOAA's atmospheric and oceanic missions. We 
recommend the following funding levels for specific programs.


----------------------------------------------------------------------------------------------------------------
                                                       Fiscal year 2016    Fiscal year 2017    Fiscal year 2017
            Account, Program or Activity                    enacted           PB request          OC request
----------------------------------------------------------------------------------------------------------------
         Operations Research and Facilities
 
National Ocean Service:
    Coastal Science and Assessment:
        Marine Debris...............................               $6 m                $6 m                $8 m
    Ocean and Coastal Mgmt. and Services:
        Coastal Management Grants: Regional Coastal                $5 m               $20 m               $20 m
         Resilience Grants..........................
 
National Oceans and Coastal Security Fund...........  ..................              $10 m               $10 m
 
National Marine Fisheries Service:
    Marine Mammals, Sea Turtles, & Other Species....         $110.246 m          $125.107 m          $125.107 m
    Fisheries Data Collections, Surveys and                  $163.271 m          $164.749 m          $164.749 m
     Assessments....................................
 
Office of Oceanic and Atmospheric Research:
    Regional Climate Data and Information...........              $38 m           $52.703 m           $52.703 m
        NOAA Arctic Research Program................  ..................  $4.255 m increase   $4.255 m increase
    Climate Competitive Research....................              $60 m           $66.250 m           $66.250 m
        Impacts of Climate on Fish Stocks...........  ..................   $5.83 m increase    $5.83 m increase
    Integrated Ocean Acidification..................              $10 m           $21.775 m               $30 m
 
Office of Marine and Aviation Operations:
    Marine Operations & Maintenance.................         $178.838 m          $184.376 m          $184.376 m
----------------------------------------------------------------------------------------------------------------


Marine Debris: $8 million
    Marine debris, particularly plastic waste pollution, has become one 
of the most widespread pollution problems facing the world's oceans and 
waterways. It has serious effects on the marine environment and the 
economy, causing impacts from wildlife entanglement, ingestion and 
ghost fishing to navigational hazards and vessel damage. To address 
this growing problem, NOAA's Marine Debris program conducts reduction, 
prevention, and research activities through grants and engaging in 
strategic partnerships. The program is authorized at $10 million and 
was funded at $6 million in fiscal year 2016. More research is needed 
in four critical areas (the sources of plastic waste in the ocean, 
their distribution, the fates of those materials, as well as their 
impacts) to support data-driven policy solutions to prevent plastic 
from entering the environment. We support an increase in funding to $8 
million in order to meet these urgent research needs.
Regional Coastal Resilience Grants: $20 million
    The resilience of our coastal communities is a critical mission for 
NOAA and the National Ocean Service. Resilient means more than just 
storm-ready. Truly resilient communities are able to effectively adapt 
to changing economic, social, and environmental conditions over time 
and effectively respond to new challenges and threats to 
infrastructure, community well-being, and ecosystem health. 
Comprehensive resilience for coastal communities and economies can only 
be achieved at the regional level when communities, States, and Federal 
agencies come together to share their collective knowledge and 
establish a unified direction. Regions must evaluate a range of 
changing ocean conditions such as chemistry and ecology, sea level rise 
and coastal inundation, weather hazard risks, new ocean uses, and 
increasing use conflicts. Competitive Regional Coastal Resilience 
Grants from NOAA support work to address these regional challenges, 
ensuring that ocean priorities are set with fine-resolution, localized 
data to enable regional, State, and local implementation of resilience 
actions. We support an increase in funding to $20 million in order to 
meet significant demand for these grants, as demonstrated by more than 
$150 million in grant applications last year.
National Oceans and Coastal Security Fund: $10 million
    When the fiscal year 2016 Omnibus Appropriations Act passed in 
December, it established the National Oceans and Coastal Security Fund 
(NOCSF). This fund at the National Fish and Wildlife Foundation is to 
be jointly managed with NOAA. Dollars that flow through the fund will 
be spent on research and activities to better understand and utilize 
ocean and coastal resources and coastal infrastructure. This type of 
fund was first conceived in 2004 by the U.S. Commission on Ocean 
Policy. After 10 years of advocating for such a fund, Ocean Conservancy 
and others in the ocean community are pleased and relieved to finally 
see it created. We support the request in NOAA's budget for $10 million 
to capitalize the NOCSF so this program can begin its important work.
Gulf of Mexico Restoration
    Restoration of the Gulf of Mexico in the wake of the BP Deepwater 
Horizon oil disaster and years of environmental stressors is only in 
its early stages. It is critical that NOAA's expertise be deployed 
effectively to support and carry out restoration efforts. We support 
the following funding in NOAA's budget to ensure the success of Gulf 
restoration through the RESTORE Act and the Natural Resource Damage 
Act:

  --Funding for NOAA's Restoration Center as needed

     NOAA's Restoration Center is providing key coordination and 
expertise to government-wide restoration efforts. For example, it is 
clear that the Restoration Center will serve as a center of gravity for 
the Open Ocean Trustee Implementation Group. In order to effectively 
lead this effort, the Restoration Center must be sufficiently resourced 
and it must also have the support and services needed from other parts 
of NOAA.

  --Marine Mammals, Sea Turtles and Other Species: $125.107 million

     NOAA's work to protect living marine resources is important 
nationwide, but is especially critical in the Gulf region. We support 
the requested $13.452 million increase for Marine Mammals in particular 
because it will support increased capacity for restoration efforts in 
the Gulf region. In addition, we support continued funding for the John 
H. Prescott Marine Mammal Rescue Assistance Grant Program, which funds 
the first responders for sick or dying marine mammals.
Fisheries Science and Management
    We support funding for programs that implement the Magnuson-Stevens 
Fishery Conservation and Management Act. As we review the Act for 
reauthorization, it is important to note that the Act is working--NOAA 
has made great strides towards ending overfishing and continued 
investments in these programs are needed. In particular, we support the 
following:

  --Fisheries Data Collections, Surveys and Assessments: $164.749 
        million

     This recently consolidated line supports a host of activities 
critical to MSA implementation. For example, it provides resources for 
fisheries managers to assess priority fish stocks, implement the 
requirement for annual catch limits (ACLs), and ensure the successful 
recovery of overfished populations. Stock assessments give fishery 
managers greater confidence that their ACLs will avoid overfishing 
while providing optimal fishing opportunities. We also support funding 
for the Marine Recreational Information Program. Despite their often 
sizeable economic and biological impacts, much less data are collected 
from recreational saltwater fisheries than commercial fisheries due to 
the sheer number of participants and limited sampling of anglers' 
catches. The low level of data collection and lack of timely reporting 
of data in these fisheries is a large source of uncertainty and has 
become a flashpoint for controversy in regions where catch restrictions 
have been adopted to rebuild overfished stocks, particularly in the 
Southeast. By all accounts, improved sampling and timelier reporting of 
catch data are needed for successful management of marine recreational 
fisheries.

  --Electronic Monitoring and Reporting

     We support funding for electronic monitoring and reporting for 
nationwide efforts. In particular we support funding that goes to the 
Gulf of Mexico region, where managers need electronic monitoring to 
keep track of catch and prevent overruns in the red snapper fishery, 
there is significant need for additional funding. Based on the findings 
of the November 2014 ``Technical Subcommittee Report to the South 
Atlantic and Gulf of Mexico Fishery Management Councils: 
Recommendations for Electronic Logbook Reporting'' NOAA's requested 
increases are only a portion of what is needed to support effective 
electronic monitoring. The Gulf of Mexico region alone will require 
more than $5 million annually to support electronic monitoring.

  --Impacts of Climate on Fish Stocks: $5.83 million increase

     We support NOAA's request for increased funding in the Office of 
Oceanic and Atmospheric research to provide research grants that will 
provide new information and solutions to increasing challenges as 
important fisheries face a changing ocean due to climate change.

  --Marine Operations and Maintenance: $184.376 million

     Marine Operations and Maintenance should be funded at or above the 
President's request level of $178.838 million. Days at sea funded by 
this line are functionally tied to fishery stock assessments, and the 
two programs must be viewed together.
Integrated Ocean Acidification: $30 million
    In recent years, scientists have raised the alarm about ocean 
acidification--a process whereby ocean waters' absorption of carbon 
dioxide emissions alters marine acidity. These changes can have far-
reaching consequences for marine life, including economically important 
species like shellfish. For example, the shellfish industry in the 
Pacific Northwest has been devastated in recent years as increasingly 
acidic water impacted oyster hatcheries, nearly wiping out several 
years-worth of oyster ``seed.''
    Given the magnitude of the potential impacts of ocean acidification 
we believe this area warrants not the increased research investment 
proposed in the President's fiscal year 2017 request ($21.775 million), 
but rather the higher $30 million proposed in fiscal year 2016. We 
greatly appreciate last year's appropriation of $10 million for fiscal 
year 2016, and believe the increase in funding is critical to allow 
NOAA to do more than just keep existing programs running and continue 
assessing acidification effects on commercial and recreational marine 
species. With additional funding NOAA can improve and expand regional 
ocean acidification experimental facilities and take on additional 
projects, like developing synthesis and visualization products that 
stakeholders are asking for. By increasing the programmatic funding for 
Integrated Ocean Acidification, NOAA will be able to take these 
concrete actions to more effectively tackle the economic and local 
implications of ocean acidification and prepare for future strategies 
that will protect our Nation's key ocean and coastal economies.
NOAA Arctic Research Program: $4.255 million increase
    We support NOAA's request to make investments we need now to be 
prepared for economic and ecological challenges of a changing Arctic. 
Ocean Conservancy supported NOAA's requested increases for Arctic 
programs last fiscal year as well, but only a portion of the additional 
funding requested for the Arctic was appropriated. Considering the 
ongoing U.S. chairmanship of the Arctic Council, it is even more 
important now that investments be made to demonstrate U.S. leadership 
in the Arctic. Temperatures in the Arctic are warming at twice the rate 
of the global average and seasonal sea ice is diminishing rapidly. 
Funding to expand and improve NOAA's Arctic Observing Network is 
critical to track and understand these profound changes and provide 
products that inform industries and decision-makers and support our 
ability to adapt.
                                 ______
                                 
              Prepared Statement of the Planetary Society
    Humankind is on the cusp of a scientific revolution. For the first 
time in history, we have the ability to actively search for new biology 
in habitable environments beyond Earth. Whether or not we choose to 
pursue this opportunity will be a legacy of our generation.
    Mars and Europa are two of the most intriguing astrobiological 
destinations in our solar system and are proposed as the top two most 
important destinations for flagship missions in the National Academies' 
Visions and Voyages for Planetary Science decadal survey report. The 
ancient habitable environment of Mars may have preserved signs of life, 
should it have ever existed there. Europa, with its ocean of liquid 
water, abundance of necessary chemicals and nutrients, and heat created 
from interaction with Jupiter's enormous gravitational pull, is a prime 
candidate for an environment capable of supporting life now.
    The search for life isn't the only reason to explore. Knowledge of 
our solar system's origins and evolution is revealed through the 
information returned by robotic spacecraft. The extremes in climate 
represented by Venus and Mars can help us understand changes to our own 
climate. And the act of exploration itself is a sign of an open, 
curious culture committed to the pursuit of knowledge. Recent triumphs 
in exploration by NASA have delighted the public with scientific 
wonders in our solar system, revealing active glaciers on Pluto, 
strange bright spots on the asteroid Ceres, flowing water-brines on 
Mars, and the seasons on Titan, to name only a few. NASA has achieved 
these discoveries by maintaining steady investment in its Planetary 
Science Division in previous decades, though in recent years it has 
been subject to cuts proposed by the White House, though mitigated 
regularly by Congress.
    A healthy and vibrant space exploration program is an excellent 
investment to energize, engage, and inspire the next generation of 
scientists, engineers, educators, as well as our citizens. Space 
missions contribute to thousands of high-tech jobs in the aerospace 
industry, at research laboratories, and in universities around the 
country. They stimulate the best and brightest with interesting and 
meaningful scientific and technical challenges that make our Nation 
stronger and more competitive. NASA's exploration missions have 
repeatedly demonstrated their power in engaging and exciting the public 
imagination.
    The human spaceflight efforts of NASA also face a critical decision 
point that will determine our legacy to future generations. 
Specifically, how NASA will extend human exploration beyond Earth 
orbit. The Planetary Society strongly supports Mars as the destination 
for human exploration, and has encouraged NASA to develop a clear, 
executable, and affordable plan to achieve this goal over the next 
several decades. An orbit-first architecture, where humans would first 
orbit Mars in 2033 and then land later in the decade, is one highly 
promising concept that could fit within the current budget with 
inflationary growth. NASA's new start on a cis-lunar habitat, included 
in the fiscal year 2017 request, is a critical step on the path to 
humans on Mars.
    The Planetary Society notes that the administration's fiscal year 
2017 budget request for NASA is a step in the right direction compared 
to recent years. However, the Society is disappointed that the proposal 
falls short, by roughly $260 million, of the level Congress provided 
last year, and singles out the Planetary Science Division as the lone 
science division facing cuts in 2017. These numbers look even worse 
without the unlikely addition of new ``mandatory'' spending sources 
proposed in the budget.
    In addition to maintaining growth in the other science divisions, 
we urge the subcommittee to restore the Planetary Science Division to 
fiscal year 2016 levels plus growth for inflation--to at least $1.71 
billion.
    While there are positive aspects of the administration's request, a 
concern for the Society is the proposed delay and overall lack of 
commitment in the budget for the mission to Europa. Last year, Congress 
made clear that NASA was to move forward with a Europa multiple flyby 
spacecraft and a lander that meets the science goals of the decadal 
survey, along with a 5-year budget plan to support a 2022 launch on the 
Space Launch System (SLS). However, the administration's plan ignores 
the congressional mandate. Instead, NASA proposes to cut funding for 
Europa in fiscal year 2017 by $125 million and delay the mission until 
the late 2020s. The Society strongly supports the Europa approach 
spelled out in the Fiscal Year 2016 Appropriations Act and urges the 
subcommittee to stay the course.
    NASA's infrastructure here on Earth, particularly the Deep Space 
Network (DSN), is crucial for the successful exploration of our solar 
system and the cosmos. We are concerned that recent budget cuts to the 
DSN will impact the reliability of the network and potentially impact 
the safety of our deep space assets. Plutonium-238 infrastructure is 
well-funded in the request, and we thank the administration and 
Congress for the continued support for restoring this critical 
capability.
    We are pleased to see that the administration included funds for 
extended operations of all ongoing planetary science missions, though 
we note that the Mars Opportunity rover, Mars Express, and Mars Odyssey 
missions depend on new mandatory funding sources for their continued 
operations.
    The Society strongly supports a robust Mars exploration program, 
both human and robotic. The upcoming Mars 2020 rover is a critical step 
toward the scientific community's top priority of Mars sample return, 
as well as an important technology demonstration for entry, descent, 
and landing and in-situ resource utilization experiments that will 
inform future human exploration. Among its many scientific goals, the 
Mars 2020 mission will collect and store a cache of samples on the 
surface of the red planet. However, NASA has yet to define a plan for 
follow-on missions to retrieve these samples and return them to Earth, 
or even how it will continue to support ground assets with a future 
scientific/telecommunications orbiter. We urge the subcommittee to 
press NASA to clarify its plan to return these martian samples to Earth 
in the 2020s.
    The Society is concerned that proposed cuts to the Space Launch 
System (SLS) program could impact the availability of the new rocket. 
SLS is the foundation of the transportation system for sending humans 
to Mars, as well as a key enabler for a sustained outer planets 
exploration program, to Europa, Enceladus, and other destinations. 
Adequate funding should be provided to maintain SLS on the most 
efficient development timeline.
    Should Congress continue the budgetary momentum it has sustained 
for NASA in recent years, all major programs in human spaceflight--SLS, 
Orion, and Commercial Crew--could be funded at needed levels while 
maintaining the growth the science divisions and restoring Planetary 
Science to $1.71 billion in fiscal year 2017. This is a growth of 5 
percent, the same as in fiscal year 2016, bringing NASA's top-line to 
$20.3 billion.
    With the upcoming transition in Presidential administrations, we 
urge Congress and the administration to build on the broad bipartisan 
support for the Nation's space program and set NASA on a steady course 
forward. We believe humankind is on the brink of revolutionary 
discoveries, if we choose to make it happen.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers
    Thank you, Chairman Shelby, Ranking Member Mikulski, and other 
distinguished members of the subcommittee, for this opportunity to 
express support for the Census Bureau, the National Science Foundation 
(NSF), and the Bureau of Economic Analysis (BEA). These agencies are 
important to the Population Association of America (PAA) and 
Association of Population Centers (APC), because they provide direct 
and indirect support to population scientists and the field of 
population, or demographic, research overall. In fiscal year 2017, we 
urge the subcommittee to adopt the following funding recommendations: 
Census Bureau, $1.6 billion, consistent with the administration's 
request; National Science Foundation (NSF), $ 8 billion, consistent 
with the recommendation of the Coalition for National Science Funding; 
and, Bureau of Economic Analysis, $110.7 million, consistent with the 
administration's request.
    The PAA and APC are two affiliated organizations that together 
represent over 3,000 social and behavioral scientists and almost 40 
federally funded population research centers nationwide that conduct 
research on the implications of population change. Our members, which 
include demographers, economists, sociologists, and statisticians, 
conduct scientific research, analyze changing demographic and socio-
economic trends, develop policy recommendations, and train 
undergraduate and graduate students. Their research expertise covers a 
wide range of issues, including adolescent health and development, 
aging, health disparities, immigration and migration, marriage and 
divorce, education, social networks, housing, retirement, and labor. 
Population scientists compete for funding from the NSF and rely on data 
produced by the Nation's statistical agencies, including the Census 
Bureau and BEA, to conduct research and research training activities.
                           the census bureau
    The Census Bureau is the premier source of data regarding U.S. 
demographic, socio-economic, and housing characteristics. While PAA/APC 
members have diverse research expertise, they share a common need for 
access to accurate, timely data about the Nation's changing socio-
economic and demographic characteristics that only the U.S. Census 
Bureau can provide through its conduct of the decennial census, 
American Community Survey (ACS), and a variety of other surveys and 
programs.
    We recognize that the fiscal year 2017 request is $300 million more 
than the agency's fiscal year 2016 funding level. However, as you know, 
the Census Bureau's budget is cyclical, and fiscal year 2017 is a 
pivotal year in the 2020 Census planning cycle. Next year, the Census 
Bureau must complete production of interoperable systems to implement a 
re-designed Census as well as initiate the Local Update of Census 
Addresses program in partnership with State and local governments, 
finalize questionnaire content for congressional approval, and acquire 
Regional Census Centers. Additionally, the Bureau will be preparing to 
perform an End-to-End Readiness test in 2018, requiring completion of 
the new information technology systems. Other ambitious tasks on the 
agency's ``to do'' list include finalizing decisions on use of 
administrative records-- data collected through other government 
programs, such as IRS, Medicaid, and Postal Service--to remove vacant 
and nonexistent addresses from the costly field follow-up universe and 
to enumerate some households that do not self-respond
    These ambitious plans, if supported, would not only enhance the 
conduct and outcome of the 2020 Census, but could also make it more 
cost effective, saving an estimated $5 billion over the lifecycle cost 
of the census. Conversely, without sufficient resources to pursue these 
innovations, the bureau is likely to rely on traditional and far more 
costly census methods--an outcome that would jeopardize the accuracy of 
the 2020 Census and most certainly preclude the agency from abiding by 
Congress' directive to keep the cost of the next census at the 2010 
level.
    With respect to the ACS, the PAA and APC urge the subcommittee to 
oppose any attempts that may occur during consideration of the fiscal 
year 2017 Commerce, Justice, Science Appropriations bill to change the 
mandatory response status of the ACS. In 2003, the Census Bureau 
conducted a test on a voluntary ACS. They found that survey costs 
increased by approximately $60 million ($90 in real dollars) and 
response rates decreased by an estimated 20 percent. Canada's recent 
experience of moving from a mandatory to voluntary National Household 
Survey (NHS), the Canadian equivalent of the ACS, is a cautionary 
example. The overall response rate dropped from 94 percent to under 69 
percent, increasing costs by $22 million as Statistics Canada increased 
the sample size to make up for lower response. Despite these efforts, 
Statistics Canada could not produce reliable socio-economic estimates 
for 25 percent of all ``places'' in the Nation--mostly small 
communities and rural areas--alarming data users in the private and 
public sectors alike. Given the obvious failure of the voluntary NHS, 
within days of taking office, Canadian Prime Minister Justin Trudeau 
reinstated the mandatory NHS. The United States should heed Canada's 
example and maintain the integrity of the mandatory ACS.
                   national science foundation (nsf)
    The mission of NSF is to promote the progress of science; to 
advance the national health, prosperity, and welfare; and to secure the 
national defense. Understanding the implications of complex population 
dynamics is vital to the agency's mission. The Directorate of Social, 
Behavioral and Economic (SBE) Sciences is the primary source of support 
for the population sciences within the NSF. The Directorate funds 
critical large-scale longitudinal surveys, such as the Panel Study of 
Income Dynamics, that inform pressing policy decisions and enable 
policy makers to make effective decisions. Other projects, such as the 
Social Observatory Coordinating Network, integrate social science and 
health research, linking community and national data to improve 
population health.
    NSF is the funding source for over 20 percent of all federally 
supported basic research conducted by America's colleges and 
universities, including basic behavioral and social research. Moreover, 
the SBE Directorate funds more than half of the university-based social 
and behavioral sciences research in the Nation.
    PAA and APC, as members of the Coalition for National Science 
Funding, request that the subcommittee provide NSF with $8 billion. 
Since 2010, the agency has lost ground in real dollars, notwithstanding 
the modest increase appropriated in the fiscal year 2016 omnibus bill. 
The funding level recommended for fiscal year 2017 will enable the NSF 
SBE Directorate to continue its support of social science surveys and a 
robust portfolio of population research projects. The NSF also 
continues to focus on interdisciplinary research initiatives, 
recognizing that social and behavioral factors are intrinsic to many 
critical areas of research--for example the ongoing Understanding the 
Brain initiative. Funding at this level will allow NSF to continue 
funding the most promising grant applications that promote 
transformational and multidisciplinary research. Steady and sustainable 
real growth will enhance the Nation's capability to make new 
discoveries, leading to new innovations.
                   bureau of economic analysis (bea)
    While a relatively small agency, the BEA is enormously important to 
understanding our multi-trillion dollar economy. A diverse range of 
data users rely on BEA data: Federal, State and local government 
officials use BEA data to inform economic and fiscal policy; businesses 
use BEA data to guide investment decisions; and scientists use BEA data 
to understand and interpret trends in labor, employment, and national 
and international economies.
    PAA and APC are very grateful for the increase BEA received in 
fiscal year 2016, reversing the decline in inflation-adjusted dollars 
to its budget since fiscal year 2010. We join other national 
organizations to urge the subcommittee to sustain BEA by providing it 
with a modest increase in fiscal year 2017, bringing the total to 
$110.7 million. With this support, BEA could pursue new initiatives, 
including the Regional Economic Dashboard and the Accelerating and 
Improving Quality of Economic Indicators, which will improve our 
understanding of changing economic dynamics.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the population sciences.
                                 ______
                                 
 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                         National Policy Group
    The mission of the Regional Information Sharing Systems (RISS) is 
to assist local, State, Federal, and tribal criminal justice partners 
by providing adaptive solutions and services that facilitate 
information sharing, support criminal investigations, and promote 
officer safety. With the ongoing threats to safety and security, it is 
important to adequately fund proven and trusted programs such as RISS. 
It is respectfully requested that RISS be funded in fiscal year 2017 at 
$48.5 million.
    RISS is composed of six regional centers and the RISS Technology 
Support Center. RISS works regionally and nationwide to respond to the 
unique crime problems of each region while strengthening the country's 
information sharing environment. More than 9,000 local, State, Federal, 
and tribal law enforcement and public safety agencies are members of 
RISS. RISS supports efforts against organized and violent crime, gang 
activity, drug activity, terrorism, human trafficking, identity theft, 
cybercrime, and other regional priorities. Hundreds of thousands of law 
enforcement officers and criminal justice professionals use RISS 
services and resources every day to assist with their efforts in 
fighting crime.
    For more than 40 years, RISS has demonstrated its value and benefit 
to the criminal justice and law enforcement community (visit 
www.riss.net/Impact to view shared successes). RISS provides critical 
investigative and analytical services, secure access to intelligence 
systems and investigative data from all levels of government, 
technology and field-based solutions, and essential officer safety 
resources.
         riss--an excellent return on investment for our nation
    RISS provides diverse and specialized investigative services and 
resources to help identify, apprehend, and prosecute criminals. 
Specifically, RISS:

  --Develops analytical products, such as specialized charts, crime 
        scene diagrams, telephone toll analysis products, and financial 
        analysis reports.
  --Provides digital forensics and audio/video enhancements.
  --Loans specialized investigative equipment, such as specialized 
        cameras, recorders, and other devices.
  --Researches intelligence and investigative resources and provides a 
        comprehensive report of findings to officers.
  --Provides one-on-one technical support through RISS's field services 
        staff.
  --Provides confidential funds to assist officers with undercover 
        operations and buy-busts.
  --Trains thousands of law enforcement officers on timely and relevant 
        topics, such as emerging crime, officer safety, and 
        investigative techniques.
  --Develops publications and law enforcement-sensitive briefings.

    Every day, officers are using RISS to help detect, deter, prevent, 
and respond to crime problems. Without these services to support law 
enforcement efforts, narcotics, stolen property, and other contraband, 
as well as violent offenders, gang members, and other criminals, might 
still be on our streets. Over the last 10 years, officers leveraging 
RISS's services arrested almost 44,000 offenders and seized more than 
$625.9 million in narcotics, property, and currency. The resources and 
services offered by RISS are crucial to ensure that RISS officers and 
agencies can solve crimes and remove criminals from our communities. 
The Federal Government has invested in RISS, and RISS has proved to be 
an excellent return on that investment.
 riss--a source for secure and innovative information sharing solutions
    The ability to share information remains one of the most important 
factors to help communities address their most pressing criminal 
justice problems in effective ways. The RISS Secure Cloud (RISSNET) is 
a sensitive but unclassified (SBU) system that connects disparate 
systems, provides bidirectional sharing, and offers a single 
simultaneous search of connected systems. Without access to RISSNET 
resources and information, multijurisdictional information sharing 
would become difficult, leads may be lost, and some cases may not be 
solved timely or at all. Hundreds of resources (most owned by RISS 
partners) rely on the RISSNET infrastructure to share millions of 
records among and between law enforcement from all levels. Currently, 
more than 80 systems are connected or pending connection to RISSNET. 
More than 39.5 million records are available through these and other 
RISSNET resources. RISS has developed a number of resources accessible 
via RISSNET that are critical to the law enforcement community's 
mission, including the following:

  --The RISS Criminal Intelligence Database (RISSIntel) provides for a 
        real-time, online federated search of more than 40 RISS and 
        partner intelligence databases.
  --The RISS National Gang Program (RISSGang) consists of an 
        intelligence database, a Web site, and information resources.
  --The RISS Automated Trusted Information Exchange (ATIX) provides a 
        secure platform for law enforcement, public safety, first 
        responders, and the private sector to share information.
  --The RISSLeads Investigative Web site enables authorized law 
        enforcement officers to post information regarding cases or 
        other law enforcement issues.
  --The RISS Officer Safety Web site provides law enforcement and 
        criminal justice users with timely officer safety information 
        and a secure infrastructure to exchange and share officer 
        safety-related information among agencies.
  --Secure hosted Web sites enable partners to securely share 
        information and materials. There are more than 30 secure hosted 
        Web sites.
  saving lives and solving cases through officer safety deconfliction
    RISS recognized the importance of ensuring the safety of law 
enforcement officers and, in an effort to further enhance officer 
safety, developed the RISS Officer Safety Event Deconfliction System 
(RISSafe). Thousands of agencies and officers use RISSafe every day. 
Since inception, more than 1,175,800 operations have been entered into 
RISSafe, resulting in 362,000 identified conflicts. Without the 
identification of these conflicts, officers might have interfered with 
another agency's or officer's investigation, links between cases might 
have been lost, or officers or citizens might have been unintentionally 
hurt or killed. RISSafe is accessible and monitored on a 24/7/365 basis 
and available at no cost to all law enforcement agencies, regardless of 
RISS membership. Currently, 28 RISSafe Watch Centers are operational, 
22 of which are operated by organizations other than RISS. These 
organizations have invested resources to support this critical officer 
safety program.
    In May 2015, the three nationally recognized event deconfliction 
systems--Case Explorer, SAFETNet, and RISSafe--were integrated. The 
partners worked in collaboration to accomplish this goal with the help 
of many vested partners, including the Bureau of Justice Assistance 
(BJA); the Office of the Program Manager, Information Sharing 
Environment (PM-ISE); the U.S. Drug Enforcement Administration; the 
High Intensity Drug Trafficking Areas (HIDTA); and many others. This 
milestone further strengthens officer and citizen safety across the 
country.
          riss--an essential partner in nationwide initiatives
    RISS supports Federal and nationwide initiatives that help enhance 
and expand efficient and effective information sharing among the 
criminal justice community. Examples of RISS's Federal and nationwide 
partnerships include:

  --U.S. Department of Justice
  --Assured SBU Interoperability Initiative
  --Global Justice Information Sharing Initiative
  --National Network of Fusion Centers
  --Federal Law Enforcement Training Centers
  --INTERPOL
  --National Motor Vehicle Title Information System
  --United States Secret Service's Targeted Violence Information 
        Sharing System

    Many other partnerships have resulted in streamlined processes, 
increased information sharing and officer access to critical data, 
safer officers and communities, and the advancement of important 
technology solutions. Some of those are highlighted below.
    As part of the Northeast Fusion Center Intelligence Project, RISS 
is connecting fusion centers' intelligence systems to RISSIntel via 
RISSNET. Multiple fusion center systems have been connected to 
RISSIntel under this project.
    Through the Law Enforcement National Data Exchange (N-DEx) and RISS 
partnership effort, access to N-DEx is becoming available to authorized 
RISSNET users via the Federal Bureau of Investigation's Law Enforcement 
Enterprise Portal (LEEP) without an additional username or password. 
This capability enables officers to obtain information quickly, saves 
officers' time, streamlines operations, and enhances law enforcement's 
ability to respond to crime effectively and efficiently.
    As foundational members of the SBU Working Group and the National 
Identity Exchange Federation, the U.S. Department of Homeland Security 
(DHS) Homeland Security Information Network (HSIN) and RISS have made 
significant progress in implementing bidirectional secure single sign-
on between the two systems. This integration provides a streamlined 
approach that enables users to quickly and easily access critical 
information.
                building on riss successes in the future
    At the $48.5-million level, RISS will be positioned to maintain and 
build on its successes. Specifically, RISS will:

  --Move forward with important technology initiatives in the areas of 
        federation and bidirectional system connections.
  --Purchase essential network equipment to maintain and safeguard the 
        RISS secure infrastructure.
  --Expand and enhance existing RISS investigative services and RISSNET 
        resources.
  --Support RISSafe's 24/7/365 component and continue to work with 
        partners to promote the use of event deconfliction.
  --Support Federal efforts and nationwide partnerships to expand 
        information sharing capabilities and available resources to 
        officers and law enforcement personnel.
  --Replace and obtain new specialized equipment.
  --Support emerging initiatives, such as human trafficking, 
        cybersecurity, and school violence programs.

    Funding at $48.5 million will aid RISS in addressing these 
important initiatives and leverage proven technology, maximize trusted 
relationships, and help create a more secure information sharing 
environment. As criminals grow savvier and technologically advanced and 
as emerging crime problems arise, law enforcement will continue to seek 
effective, innovative, and trusted solutions to help them resolve and 
respond to criminal and terrorist activities. RISS is a necessary 
component of law enforcement efforts and is the ``one-stop shop'' to 
fill officers' needs and help maximize their efforts. RISS is dedicated 
to ensuring the highest quality in all of its programs.
                               conclusion
    RISS has worked diligently to seek innovative solutions to provide 
fast, quality-driven support to the law enforcement and public safety 
communities under reduced funding and is committed to finding solutions 
to help fill the gaps and move forward. Inadequate funding and support 
for RISS would significantly weaken the Nation's information sharing 
environment, hinder investigations, and impact the safety of our 
officers and our communities. It would be counterproductive to require 
local and State RISS members to self-fund match requirements or to 
reduce the amount of BJA discretionary funding. Agencies require more 
funding to fight the Nation's crime problem. RISS is unable to make up 
the decrease in funding that a match would cause, for it has no revenue 
source of its own. RISS is grateful to provide this testimony at your 
request and appreciates the support this committee continuously 
provides to the RISS Program.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect estuaries as 
essential resources for our Nation. Restore America's Estuaries is an 
alliance of community-based coastal conservation organizations across 
the Nation that protect and restore coastal and estuarine habitat. Our 
member organizations include: American Littoral Society, Chesapeake Bay 
Foundation, Coalition to Restore Coastal Louisiana, Save the Sound--a 
program of the Connecticut Fund for the Environment, Galveston Bay 
Foundation, North Carolina Coastal Federation, EarthCorps, Save The 
Bay--San Francisco, Save the Bay--Narragansett Bay, and Tampa Bay 
Watch. Collectively, we represent over 250,000 members nationwide.
    As you develop the fiscal year 2017 Commerce, Justice, Science and 
Related Agencies appropriations bill, Restore America's Estuaries 
encourages you to provide the funding levels below within the 
Department of Commerce, National Oceanic and Atmospheric Administration 
(NOAA) for core programs which significantly support coastal community 
and ecosystem resilience and local economies:

  --$68.4 million for Habitat Conservation and Restoration
     (NOAA: ORF: NMFS: Habitat Conservation and Restoration)
  --$10 million for Regional Coastal Resilience Grants
     (NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
Coastal Management Grants: Regional Coastal Resilience Grants)
  --$23.9 million for National Estuarine Research Reserve System 
        Operations
     (NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
National Estuarine Research Reserve System)
  --$1.7 million for National Estuarine Research Reserve System 
        Construction
     (NOAA: PAC: NOS: NERRS Construction)

    These non-regulatory investments strengthen and revitalize 
America's coastal communities by protecting and restoring habitat, 
improving local water quality, and enhancing resilience. Healthy 
coastlines protect communities from flood damage and extreme weather, 
improve commercial fisheries, safeguard vital infrastructure, and 
support tourism and recreational opportunities.
               noaa habitat conservation and restoration
(NOAA: ORF: NMFS: Habitat Conservation and Restoration)
    NOAA's Office of Habitat Conservation (OHC) protects, restores, and 
promotes stewardship of coastal and marine habitat to support our 
Nation's fisheries and improves the resilience of coastal communities 
through financial support and the provision of restoration expertise 
and services. Funding for the Office of Habitat Conservation through 
the Habitat Conservation and Restoration PPA supports the Community-
based Restoration Program, Coastal Ecosystem Resiliency Grants, the 
Estuary Restoration Program, and staff capacity to efficiently execute 
and facilitate habitat restoration nationwide.
    NOAA's Community-based Restoration Program (CBRP), funds on-the-
ground projects to restore the Nation's coastal, marine, and migratory 
fish habitat while creating jobs and benefiting local economies. 
Habitat restoration is critical to sustaining and rebuilding fish 
populations needed to support sportfishing opportunities and the 
commercial fishing industry in the coming years. Healthier habitats 
resulting from restoration increase community resilience by buffering 
against storms, protecting vital infrastructure, and providing new 
recreational opportunities.
    The Community-based Restoration Program provides scientific 
expertise, funding, and technical support to national, regional, and 
local conservation partners to restore coastal and marine habitat. This 
non-regulatory tool has helped build collaborations with more than 
2,500 organizations, from industry to nonprofits to local governments, 
and funded more than 2,000 projects that have restored over 81,000 
coastal acres. The program has engaged more than 258,000 project 
volunteers and generated more than $150 million in non-Federal match 
and in-kind contributions from project partners.
    Our Nation's coastal communities face ever-increasing pressures 
from extreme weather events, changing environmental conditions, and sea 
level rise. These hazards not only threaten the 39 percent of the 
Nation's population that live in coastal counties, but also the 
economy, to which coastal counties provide nearly half of the Nation's 
GDP.
    NOAA's Coastal Ecosystem Resiliency Grants aim to reduce these 
risks and associated costs by funding proactive, community-based 
projects that improve ecosystem and community resilience to extreme 
weather, sea level rise, flooding, and other coastal hazards. The 
Program focuses on building partnerships that leverage non-Federal 
funds to carry out projects that restore degraded or altered habitats 
to functioning, resilient ecosystems that not only provide direct 
benefits to communities, but also provide healthy habitat for 
commercial and listed fish species. The inaugural funding solicitation 
for this program drew in $46 million in funding requests for shovel-
ready resilience projects, more than nine times the available funding, 
demonstrating a significant need for these grants.
    The Estuary Restoration Program was transferred from the National 
Ocean Service to the National Marine Fisheries Service under the 
Habitat Conservation and Restoration PPA without additional funding in 
fiscal year 2014 omnibus appropriations. The Estuary Restoration Act 
established a comprehensive interagency organization, the Estuary 
Habitat Restoration Council, comprised of five key Federal restoration 
agencies to lead a coordinated approach to estuary habitat restoration. 
Under the Act, NOAA is responsible for maintaining the National 
Estuaries Restoration Inventory (NERI). Modest funding is necessary for 
maintaining and updating NERI and to ensure cross-agency collaboration 
continues. Restore America's Estuaries urges your continued support of 
the Estuary Restoration Council and NOAA's Estuary Restoration Program.
    We strongly urge the subcommittee to provide $68.4 million for 
Habitat Conservation and Restoration, including no less than $10 
million for Coastal Ecosystem Resiliency Grants and $21.1 million for 
the Community-Based Restoration Program. Funding at this level supports 
the President's fiscal year 2017 budget request, but we request that 
the subcommittee retain funding for Coastal Ecosystem Resiliency Grants 
within NMFS. We greatly appreciate the subcommittee's past strong 
support for habitat restoration and, in particular, the Coastal 
Ecosystem Resiliency Grants program.
                noaa regional coastal resilience grants
(NOAA: ORF: NOS: Ocean and Coastal Management and Services: Coastal 
        Management Grants: Regional Coastal Resilience Grants)
    The National Ocean Service Regional Coastal Resilience Grants help 
interested communities improve resilience to extreme weather events, 
climate hazards, and changing ocean conditions by providing funding for 
collaborative partnerships that develop and use science-based solutions 
to address coastal hazards. These diverse efforts, including risk 
assessment, development of strategic resilience plans, and 
implementation of comprehensive adaptation strategies will help ensure 
that coastal communities are prepared for and more easily recover from 
coastal hazards. In fiscal year 2016, NOAA received more than 130 
proposals from coastal communities requesting more than $151 million 
for coastal resilience projects, demonstrating an unmet need for 
resilience planning and tools and project implementation nationwide.
    Restore America's Estuaries urges the subcommittee to provide no 
less than $10 million for the Regional Coastal Resilience Grant 
Program. We ask the subcommittee to ensure that NOS coordinates closely 
with the NMFS Office of Habitat Conservation to increase efficiency and 
leverage capacity to help meet shared goals.
            noaa national estuarine research reserve system
(NOAA: ORF: NOS: Ocean and Coastal Management and Services: National 
        Estuarine Research Reserve System)/(NOAA: PAC: NOS: NERRS 
        Construction)
    The National Estuarine Research Reserve System (NERRS) is comprised 
of 28 protected reserves that support long-term research, education, 
training, and monitoring. Through an effective partnership between NOAA 
and coastal States, NERRS plays a critical role in sustaining resilient 
coasts and coastal communities.
    The States have been entrusted to operate and manage NOAA's program 
in 22 States and Puerto Rico, where over 1.3 million acres of land and 
water are protected in perpetuity. Through scientific research and 
science-based management, NERRS provides numerous benefits to 
communities that result in improved water quality, increased upland 
flood and erosion control, and improved habitat quality that support 
local fisheries and provide storm protection to coastal communities.
    NERRS assists our coastal communities, industries and resource 
managers to enhance coastal resiliency in a changing environment. As 
severe weather events become more common, Federal, State, and local 
officials are recognizing that estuaries have the capacity to provide 
green resilience infrastructure. Through NERRS, NOAA can tailor science 
and management practices to enable local planners to use estuarine 
habitat as a tool for resilience and adaptation.
    Restore America's Estuaries respectfully requests $23.9 million for 
NERRS operations and $1.7 million for NERRS construction in fiscal year 
2017. At this funding level, NERRS will be able to carry out much-
needed infrastructure maintenance and upgrades that will allow NERRS to 
continue to deliver comprehensive environmental intelligence data and 
services to support coastal communities.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs help to accomplish on-the-ground restoration work which 
results in major benefits:

  --Jobs.--Coastal habitat restoration projects create between 17-33 
        jobs per $1 million invested, more than twice as many jobs as 
        the oil and gas sector and road construction industries 
        combined.
  --More fish.--Traditional fisheries management tools alone are 
        inadequate. Fish need healthy and abundant habitat for 
        sustainable commercial and recreational fisheries.
  --Resiliency.--Restoring coastal wetlands knocks down storm waves and 
        reduces devastating storm surges before they reach the shore, 
        protecting lives, property, and vital infrastructure for the 
        nearly 40 percent of Americans that live in coastal communities
  --Leverage.--Community-based restoration projects leverage 3-5 times 
        the Federal investment through private matching funds, 
        amplifying the Federal investment and impact.

    Thank you for taking our requests into consideration as you move 
forward in the fiscal year 2017 appropriations process. We stand ready 
to work with you and your staff to ensure the health of our Nation's 
estuaries and coasts.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    Chairman Shelby and distinguished members of the subcommittee, I am 
Kay Rhoads, Principal Chief of the Great Sac and Fox Nation. The Sac 
and Fox Nation is home of Jim Thorpe, one of the most versatile 
athletes of modern sports who earned Olympic gold medals for the 1912 
pentathlon and decathlon. Thank you for accepting this written 
testimony which presents to you our tribal requests for funding 
programs in the Office of Justice Services, Department of Justice.
    Congress has taken historic steps in recent years with the passage 
of the Tribal Law and Order Act (TLOA) in 2010 and the Violence Against 
Women Reauthorization Act of 2013 (VAWA 2013), both of which begin to 
address some of the structural barriers to public health and safety in 
tribal communities. For the promise of these laws to be fully realized, 
they must be fully implemented, which requires sufficient resources for 
tribal justice systems and ongoing coordination and consultation 
between various Federal agencies and tribal governments. The public 
safety and justice needs of our communities should not be ignored and 
both of these bills should be funded to fulfill the intent of Congress.

    The Sac and Fox Nation would like to advance the following 
Department of Justice budget requests for fiscal year 2017:

    1.  Fully Fund the Tribal Law and Order Act
    2.  Fully Fund All Tribal Provisions of the Violence Against Women 
Act
    3.  Tribal Grants--Utilize DOJ Appropriations as Base Funding with 
Tribes Setting Own Priorities
    4.  Tribal Set-Aside from All Discretionary Office of Justice 
Programs

    The Sac and Fox Nation also supports the appropriation requests of 
the National Congress of American Indians.
About the Sac and Fox Nation
    The Sac and Fox Nation is a Self-Governance Tribe headquartered in 
Stroud, Oklahoma. Our tribal jurisdictional area covers Lincoln, Payne, 
and Pottawatomie counties. Of the 4,000 enrolled tribal members, 2,600 
live in Oklahoma. Our culture is based upon respect for the life within 
ourselves, our families, our communities, and all of creation. The 
Creator gave this way of life to the Sac and Fox people. The culture is 
the way things are done in relation to each other and all of creation. 
The Sac and Fox way of life is spiritually based. We seek the guidance 
of the Creator in how to live. The oldest continuing religious 
practices are ceremonies like clan feasts, namings, adoptions, and 
burials. More recent religious practices include the Drum Dance, the 
Native American Church and Christianity.
Fully Fund Tribal Law and Order Act as Authorized
    The Tribal Law and Order Act (TLOA) has three basic purposes:

    1.  Make Federal departments and agencies more accountable for 
serving Native peoples and land;
    2.  Provide greater freedom for Indian Tribes and Nations to design 
and run their own justice systems; and
    3.  Enhance cooperation among Tribal, Federal and State officials 
in key areas such as law enforcement, training, interoperability and 
access to criminal justice information.

    The Sac and Fox Nation operates a Juvenile Detention Center which 
provides services to 46 tribes in Oklahoma, Kanas and Texas, as well as 
the State of Oklahoma. We are anxious to advance the opportunities that 
TLOA can offer to further expand and increase access to our facility. 
However, unless TLOA is fully funded, facilities such as ours will not 
be able to attain the full potential and help to guide children in the 
system towards a successful future.
    The full potential of TLOA cannot be realized or implemented 
without sufficient resources for tribal justice systems and ongoing 
coordination and consultation between tribal governments and various 
Federal agencies. DOJ recognized the importance of completing the 
circle when it issued the ``Proposed Statement of Principles'', in 
which is referenced that a stable funding at sufficient levels for 
essential tribal justice functions is critical to the long-term growth 
of tribal institutions. Yet the act remains under funded.
Fully Fund Violence Against Women Act as Authorized
    We applaud the work of Indian Country and Congress to successfully 
enact the reauthorization of the Violence Against Women Act (VAWA) that 
includes all women in Indian Country as of December 12, 2014. The 
exemption of Alaska was disheartening and unacceptable to exclude any 
Native woman equal access to justice. Thank you for helping us to 
protect our mothers, daughters, sisters and wives from jurisdictional 
gaps or safe havens for criminals. But without funding to implement the 
law, this is an idle victory. We urge you to fully fund all of the 
tribal provisions of VAWA at the authorized amount.
    With the implementation of the expanded jurisdiction arising from 
the Reauthorization of the Violence Against Women Act, Tribal Nations 
are meeting a budget crisis. At the Sac and Fox Nation, we have gone 
through the process of amending all of our laws dealing with this 
jurisdiction to ensure both compliance and fairness for all defendants. 
However, in order to ensure that overarching need, we have to be able 
to provide for a proper public defender to ensure that all defendants 
are getting the best representation possible. However, the funding 
provided to justice programs is at such a low level that we are 
prevented from having someone on staff to fill that role. This creates 
a problem of access and availability which must be corrected. Moreover, 
we also need to have the ability to jail persons who are convicted, 
especially those with long sentences due to multiple convictions or 
serious offenses. However, the funding levels for incarceration that 
are currently appropriated to tribes are simply not enough to cover 
these costs. The Sac and Fox Nation is a prime example of this. We do 
not have our own facility to incarcerate convicted persons, or access 
to Bureau of Prisons facilities, and must send them to county jails 
which may cost us anywhere from $33-$78 per day. At those rates 
incarcerating one person for a year would use a large majority of our 
incarceration budget. This makes it significantly harder for us to 
protect the women and children of the Sac and Fox Nation from violence. 
We ask that you seriously consider increasing the appropriations to 
support the changes that we are making for the future.
Tribal Grants--Utilize DOJ appropriations as base funding with tribes 
        setting own priorities--Eliminate the competitive grant funding 
        process and utilize Justice Department appropriations as base 
        funding where tribes and tribal courts themselves determine 
        their own priorities.
    Competitive funding for tribal priorities is a no win situation 
that continues to pit tribe against tribe. One of the biggest issues 
with DOJ funding is that it is competitive. In order to obtain the 
funding tribes must compete against each other based on DOJ's 
priorities and guidelines rather than identifying their own priorities 
to best serve their citizens at the local level.
    Instead the approach should be to utilize DOJ appropriations as 
base funding so that tribes are encouraged to determine their 
priorities. It appears that DOJ understands this concept inasmuch as it 
posed the idea of base funding in the form of a block grant during 
tribal consultation on the Office of Violence Against Women (OVW). We 
propose that DOJ not merely propose this for OVW, but consider this for 
all tribal appropriations in the Department.
    Tribal Set-Aside (Seven Percent).--Again we ask for a 7 percent 
tribal set-aside from all discretionary Office of Justice Programs 
program funding. Ensure that they are allocated as flexible base 
funding. The 7 percent set-aside was cut in the passage of the fiscal 
year 2012 Consolidated and Further Continuing Appropriations Act. As a 
result tribal justice programs were cut across the board and continue 
to struggle to address the increasing need of these funds which were 
further impacted by the sequestration.
    A majority of tribal trust and treaty promises are funded in the 
domestic discretionary budget. In fiscal year 2014, non-defense 
discretionary funding was nearly 18 percent below fiscal year 2010 
levels adjusted only for inflation as a result of cuts made in the 
fiscal year 2011 appropriations process and the Budget Control Act, 
including sequestration. Tribes urged the appropriators to replace the 
sequestered funds and avoid cutting even more deeply from key domestic 
investments, which include the solemn duty to fund the trust 
responsibility. The Murray-Ryan budget agreement partially replaced 
sequestration but tribal programs were not restored.
    Congress and the administration should enact an amendment to the 
Budget Control Act of 2011 to fully exempt Indian program funding from 
future sequestrations to honor the Federal trust responsibility and the 
chronic and severe underfunding of all tribal programs.
    This would be a show of good faith that ``great nations like great 
men honor their word''!
    Thank you.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    This year marks the 50th anniversary of the National Sea Grant 
College Program. On behalf of the 33 Sea Grant programs in every 
coastal and Great Lake State, plus Puerto Rico and Guam, the Sea Grant 
Association (SGA) expresses its gratitude to the Congress for strong 
and consistent support it has provided year in and year out for the 
National Sea Grant College Program (Sea Grant). Sea Grant was created 
by the U.S. Congress in 1966 to be a highly leveraged Federal and State 
partnership to harness the intellectual capacity of the Nation's 
universities to solve ocean, coastal, Great Lakes and island (hereby 
referred to as coastal) problems. Sea Grant provides unique access to 
scientific expertise and to new discoveries. Through its scientists and 
communications, education, extension and legal specialists (hereby 
referred to as engagement professionals), Sea Grant generates, 
translates and delivers cutting-edge, unbiased, science-based 
information to address complex issues.
    For the United States to be more responsive to the economic 
development potential of its coastal resources, improve coastal 
resilience, and balance the environmental challenges its coastal 
communities face, the Sea Grant Association is requesting Federal 
funding of $80 million in fiscal year 2017 for the research, education, 
and extension activities that make up the National Sea Grant College 
Program. This recommended funding level would support the key focus 
areas in the program's strategic plan: healthy coastal ecosystems; 
sustainable fisheries and aquaculture; resilient communities and 
economies; environmental literacy and workforce development.
    The National Sea Grant College Program contributions to the 
economic health of the Nation's coastal communities.--In 2014, the Sea 
Grant program delivered the following benefits to the Nation as a 
result of its activities:

  --$450 million in economic development;
  --6,500 businesses created or retained;
  --17,500 jobs created or retained;
  --290,000 volunteer hours for outreach;
  --760 undergraduate students supported;
  --980 graduate students supported;
  --53,000 stakeholders modify practices based on information and 
        technical assistance provided by Sea Grant;
  --220 communities implement new sustainable practices; and
  --21,700 acres of ecosystems restored.

    The Importance of the Nation's Coastal Communities.--Sea Grant is 
NOAA's Federal-State partnership program that supports science-based, 
environmentally sustainable practices to ensure our coastal communities 
remain engines of economic growth in a rapidly changing world. More 
than half of the United States population lives in coastal counties 
that generate 58 percent ($8.3 trillion) of the Nation's gross domestic 
product (GPD). In 2011, Americans, on average, ate 15 pounds of fish 
and shellfish per person--4.7 billion pounds all together--making the 
U.S. second in the world in total seafood consumption. Offshore oil 
production in the U. S. Exclusive Economic Zone accounts for 24 percent 
of the total U.S. crude oil production. If American coastal watershed 
counties collectively comprised a single country, that country would 
have a GDP higher than that of China. The United States has 
jurisdiction over 3.4 million square miles of oceans--an expanse 
greater than the land area of all 50 States combined. This is a dynamic 
area that offers a mosaic of biologically diverse habitats that provide 
a wealth of environmental resources and economic opportunities, while 
at the same exposing human and biological communities to hazards such 
as damaging tsunamis and hurricanes, industrial accidents and outbreaks 
of water borne pathogens. Sea Grant's portfolio touches on all of these 
issues in meaningful ways helping those who live, work and recreate on 
our Nations' coast to prosper.
    Serious challenges present the greatest opportunities for change, 
and Sea Grant is prepared not only to respond, but to help coastal 
communities prepare to meet these challenges. One of Sea Grant's 
demonstrated strengths is its ability to quickly mobilize universities 
and other partners to address challenges across the country and around 
the world. The national Sea Grant network of university scientists and 
communication, education, extension and legal professionals has the 
ability, through the organization's coordinated State and regional 
infrastructure, to address local and State priorities of national 
importance. At this time of great risk to the sustainability of our 
ocean, coastal and Great Lakes resources, there is an even greater 
opportunity for the Sea Grant network to play a significant role, 
through innovation and creativity, in addressing the goals set forth in 
this plan. The Sea Grant programs will strive to achieve these national 
goals in a manner that reflects the particular needs of individual 
States and communities and the Nation as a whole.
    The National Sea Grant College Program envisions a future where 
people live, work and play along our coasts in harmony with the natural 
resources that attract and sustain them. This is a vision of coastal 
America where we use our natural resources in ways that capture the 
economic, environmental and cultural benefits they offer, while 
preserving their quality and abundance for future generations. This 
vision complements the vision articulated in NOAA's Strategic Plan: 
``Healthy ecosystems, communities and economies that are resilient in 
the face of change.'' Sea Grant's mission is to provide integrated 
research, communication, education, extension and legal programs to 
coastal communities that lead to the responsible use of the Nation's 
ocean, coastal and Great Lakes resources through informed personal, 
policy and management decisions.
    Sea Grant is a national network. This network includes the National 
Sea Grant Office, 33 university-based State programs, the National Sea 
Grant Advisory Board, the National Sea Grant Law Center, the National 
Sea Grant Library and hundreds of participating institutions. The Sea 
Grant network enables NOAA and the Nation to tap the best science, 
technology and expertise to balance human and environmental needs in 
coastal communities. Sea Grant's alliance with major research 
universities around the country provides access to thousands of 
scientists, students and engagement professionals. Sea Grant's 
university-based programs are fundamental to the development of the 
future scientists and resource managers needed to conduct research and 
to guide the responsible use and conservation of our Nation's coastal 
resources. With its strong research capabilities, local knowledge and 
on-the-ground workforce, Sea Grant provides an effective national 
network of unmatched ability to rapidly identify and capitalize on 
opportunities and to generate timely, practical solutions to real 
problems in real places. Since its creation, the National Sea Grant 
College Program has been at the forefront of addressing economic 
opportunities and environmental issues facing coastal communities 
through its research and outreach efforts. Sea Grant is user-driven and 
university-based, and it is fully and actively engaged with regional, 
State, and local organizations. Sea Grant helps America use its coastal 
resources wisely in order to sustain the health and productivity of 
coastal communities.
Sea Grant in Action in Local Communities
    Mississippi-Alabama Sea Grant research and outreach leads to 
development of commercial off-bottom oyster farming industry in Alabama 
that approaches $1,000,000 per year. The Gulf Coast oyster industry has 
suffered a number of setbacks, both natural and manmade, that are 
challenging an industry built around inexpensive, plentiful oysters. 
Off-bottom oyster farming for the high-value, half-shell niche market, 
as practiced on the northeast and Pacific coasts, provides an 
opportunity for Gulf residents to create jobs, increase profits and 
diversify the oyster industry. Sea Grant-funded scientists established 
two large oyster farming parks that serve as platforms for training and 
business development, as part of a partnership between Louisiana Sea 
Grant, the Mississippi-Alabama Sea Grant Consortium (MASGC), Auburn 
University, and Louisiana State University. The parks demonstrate grow-
out and harvesting technology and techniques. Scientists also provided 
technical advice and evaluations of possible sites to potential oyster 
farmers. Along with scientists, Sea Grant legal specialists were 
integral in providing research to inform passage of State legislation 
that clarified and simplified the permitting process. Nine new 
commercial oyster farms have been established in Alabama, with a total 
farm-gate value exceeding $825,000 to date, which is expected to more 
than double in 2015, increasing incomes and generation of local jobs 
(at least 6 full-time positions and over 10 part-time positions). At 
least 5 wholesalers in Alabama also profited from the sales of these 
oysters. Two new oyster equipment companies were established in 
Alabama, with total sales inception well over $100,000. Several 
applications for new commercial farms are pending the results of the 
governor's review board mandated by Alabama HB 361. This work has also 
led the Gulf Oyster Industry Council to appoint a technical advisor on 
oyster farming since 2012. In partnership with Organized Seafood 
Association of Alabama (OSAA), MASGC has conducted a hands-on training 
program Oyster Farming Fundamentals, which has trained 16 adult 
students that have collectively raised 350,000 oyster seed, and 
developing a ``vo-tech'' program that trains high school students to be 
oyster farmers.
    Wisconsin Sea Grant.--Sea Grant recognizes the vital nature of its 
engagement within collaborative NOAA activities. Such efforts not only 
broaden Wisconsin's experiences and learning opportunities but also 
allow Wisconsin staff to contribute to a stronger focus when addressing 
national and regional marine challenges to ensure sustainable use. One 
such rich partnership is with the Lake Superior National Estuarine 
Research Reserve. In 2010, the Lake Superior National Estuarine 
Research Reserve was dedicated. It was the culmination of several years 
of involvement by Wisconsin Sea Grant to bring this fellow NOAA program 
to the State. Sea Grant staff had contributed to the scoping study, 
participated in the site selection, currently serve on the advisory 
board and has co-located three staff members in the LS-NERR facility in 
Superior, Wisconsin. In total, these efforts have led to important 
collaborative work, including assistance with an annual science summit; 
a science speaker series; and Sea Grant funding for specific joint 
research projects. The joint research is also being funded through yet 
another NOAA partnership, with Minnesota Sea Grant.
    Florida's $3 Million commercial sponge fishery employed traditional 
harvesting practices that impaired the ability of sponges to regrow, 
making the industry unsustainable. Florida Sea Grant agent, John 
Stevely, an internationally recognized sponge expert, developed a new 
harvesting protocol (one that harvests sponges by cutting rather than 
hooking) that allows the sponges to regenerate. This method is now used 
by the industry to harvest sponges sustainably. Areas that had been 
traditionally closed to sponge harvesting have been reopened following 
Florida Sea Grant research that showed current harvesting methods are 
sustainable. It is estimated that Florida Sea Grant's recommended 
approach to sponge harvesting has resulted in the retention of 150 jobs 
and $3 million in annual earnings to the Florida commercial sponge 
industry. Jim Cantonis, President of ACME Sponge and Chamnios, Tarpon 
Springs, Florida, commented that ``If it was not for Florida Sea Grant, 
there would be no commercial sponge industry in Florida.''
    Sea Grant's role in STEM Education.--The Sea Grant program provides 
an important mechanism that delivers high quality, stimulating STEM 
education to students using the oceans and coasts or the Great Lakes, 
as the exciting vehicle for conveying important scientific and natural 
resource concepts. The support that Sea Grant provides is an important 
catalyst and helps create important educational partnerships in coastal 
communities. We urge the subcommittee to continue to support Sea Grant 
STEM activities in the fiscal year 2017 Commerce, Justice and Science 
Appropriations bill.
    Sea Grant--A Cost Effective Investment in Coastal Communities.--
Approximately 95 percent of the Federal funding provided to Sea Grant 
leaves Washington DC and goes to the State programs where it is used to 
conduct research, carry out extension and outreach activities, and 
deliver valuable services to the Nation. Moreover, Federal funding 
through the Sea Grant program has a significant leveraging impact with 
every two Federal dollars invested attracting at least an additional 
dollar in mandatory non-Federal resources in matching funding, in 
addition to the additional funds and resources leveraged through 
extensive partnerships. With $80 million in Federal funding for fiscal 
year 2017, Sea Grant will leverage an additional $40 million to $80 
million in State and local support, continue to increase the economic 
development and resiliency of our coastal communities, contribute to 
STEM education in our communities, and help sustain the health and 
productivity of the ecosystems on which they depend. The National Sea 
Grant College Program is one of the very few nationally competitive 
grant programs that can demonstrate this kind of real impact at the 
local, State, and national levels. The Sea Grant Association is 
grateful to the subcommittee for the opportunity to provide this 
information.
                                 ______
                                 
   Prepared Statement of SEARCH, the National Consortium for Justice 
                       Information and Statistics
Introduction
    Thank you, Mr. Chairman and members of the subcommittee, for the 
opportunity to submit testimony on the Department of Justice (DOJ) 
funding to be provided for in the fiscal year 2017 Commerce, Justice, 
Science, and Related Agencies appropriations bill. SEARCH recommends an 
appropriation of $73 million for the National Criminal History 
Improvement Program (NCHIP) and the National Instant Criminal 
Background Check System (NICS) Act Record Improvement Program (NARIP), 
which is the amount that was included in the 2016 Consolidated 
Appropriations Act.
    SEARCH, The National Consortium for Justice Information and 
Statistics (SEARCH), is a nonprofit membership organization created by 
and for the States. SEARCH's Governor-appointed, dues-paying members 
from the States and Territories have the responsibility, among other 
things, to oversee both NCHIP and NARIP within their States.
    Over the years, States have made great strides in meeting their 
criminal history record improvement goals under both programs. The past 
2 years of robust funding for these programs as reflected in the fiscal 
year 2015 and fiscal year 2016 Commerce, Justice, Science and Related 
Agencies appropriations was welcomed by the States who use the funding 
to modernize and enhance operations and technology, to more effectively 
share data for critical criminal justice and public safety decisions. 
NCHIP funding has helped States dramatically improve the quality and 
completeness of criminal history records, as well as make them 
electronically available nationwide. NARIP has vastly improved 
information available for firearms eligibility via the NICS system, 
including increasing mental health records available to NICS by nearly 
1500 percent.\1\
---------------------------------------------------------------------------
    \1\ http://www.search.org/mental-health-records-in-nics-increase-
1491-over-the-past-decade/.
---------------------------------------------------------------------------
    There is still work to be done to realize a truly complete and 
accurate national criminal history background check system. That system 
not only informs a variety of critical public safety decisions, but 
also noncriminal justice decisions, such as those regarding applicants 
for employment and licensing; volunteers who work with children, 
elderly and other vulnerable populations; and individuals purchasing 
firearms. It is important to recognize that information stored in the 
States' criminal history record repositories and used for criminal 
justice decisionmaking (such as at arrest, filing of charges, 
sentencing, and inmate housing), is the same information required for 
other public safety and civil decisions (such as decisions about 
individuals applying for employment or volunteer work, and for firearms 
eligibility determinations).
    The States are leveraging prior congressional funding to engage in 
broad-scale initiatives and partnerships with other State agencies to 
improve and enhance criminal history record information collection and 
sharing. These partnerships between the criminal history repositories 
and the State courts, corrections, prosecution and mental health 
agencies--among others--have been encouraged through these substantive 
grant funding streams and mean enterprise solutions can be developed to 
common cross-agency information sharing challenges. They hope to 
continue this work with new funding in fiscal year 2017.
    SEARCH appreciates the subcommittee's recognition that while both 
NCHIP and NARIP each focus on improvements to the efficiency, 
effectiveness, timeliness and accuracy of criminal history record and 
associated data for decisionmaking purposes, each program emphasizes 
specific and distinct goals.
    NCHIP allows States to focus on a broad range of criminal history 
improvement activities that are unique and specific to each State. 
States have identified and prioritized the improvements needed in their 
systems to support critical decisionmaking at the State and national 
level for both criminal and civil decisions. Some of those priorities 
include improving arrest records, increasing dispositions, increasing 
conviction record availability in the Federal systems, and enhancing 
positive identification capabilities.
    Maine, for example, has used NCHIP funding to locate missing 
criminal history record dispositions or fingerprint-supported records, 
specifically focusing on improving felony, sex offender and domestic 
violence records. Connecticut has used NCHIP funding to migrate paper 
criminal history record dispositions into a searchable electronic 
format to improve the overall efficiency in searching disposition 
records and reduce the disposition backlog. North Carolina has used 
NCHIP funding to identify and enter 74,000 mental health commitments 
into NICS. Washington State has used NCHIP funding to dramatically 
increase the number of dispositions in the State's criminal history 
system. Like many other States, Georgia and Vermont have used NCHIP 
funding to become fully compliant with the National Fingerprint File, 
assuming ownership of its criminal history records, and maintaining the 
record as part of the FBI's Interstate Identification Index.
    The flexibility of NCHIP funding allows States to enhance 
enterprise information sharing and data use to support a myriad of key 
decisions in the justice arena each and every day. For example, the 
lack of positive, biometric identification associated with criminal 
history records is often a major challenge. Kentucky used fiscal year 
2015 funding to develop a Court Fingerprint Notification application 
within its E-Warrants system. When an offender appears before a judge, 
the judge will be automatically notified if the offender's fingerprints 
are not on file, allowing the judge the ability to order that 
fingerprints be taken. South Carolina used NCHIP funding to improve the 
number and quality of palm prints it submits to the FBI for nationwide 
use.
    In contrast to the NCHIP grant funding, NARIP funding focuses 
specifically on improving information sharing with NICS for firearms 
purchases. There are 10 categories established in Federal law that 
disqualify an individual from purchasing firearms. They include 
disqualifiers such as felony conviction information, fugitive from 
justice, domestic violence protection order, involuntary commitment to 
mental health institution, etc.
    Nearly 90 percent of the records used to make these disqualifying 
decisions are based on the information that States provide to NICS.\2\ 
That information comes from three key sources: the Interstate 
Identification Index (III--the national system for exchanging criminal 
record information), the National Crime Information center (NCIC--an 
automated, nationally accessible database of crime data, criminal 
justice and justice-related records, including wanted persons and 
protection orders) and the NICS Index (created for presale background 
checks of firearms purchase). Any efforts States undertake to improve 
the information contribution to any of these databases enhances the 
effectiveness of firearms eligibility decisionmaking.
---------------------------------------------------------------------------
    \2\ FBI Criminal Justice Information Services III Statistics, 
February 1, 2013.
---------------------------------------------------------------------------
    NARIP grants allow States to improve information made available to 
NICS, such as increasing the number of disqualifying mental health 
records into the NICS Index and domestic violence orders of protection 
into the NCIC. Such targeted funding assists States meet challenges 
specifically associated with getting information to the system. 
However, NARIP funds are only available to 27 States at this point, as 
not all States qualify for the funding.\3\
---------------------------------------------------------------------------
    \3\ NARIP has two main requirements: States must (1) establish a 
process where those adjudicated as ``mentally defective'' can seek to 
reinstate their right to purchase a firearm, and (2) comply with a 
process to estimate the number of NICS disqualifying records they 
maintain. Only 27 States have met requirement #1.
---------------------------------------------------------------------------
    Those States that do qualify can target information sharing efforts 
to improve their contributions to NICS. Kentucky officials, for 
example, have used funds to develop a capability to identify persons 
prohibited from firearms purchases due to fugitive from justice status 
and automatically transmit these records to the NICS Index.
    In New York, NARIP grant funds have significantly improved the 
records that New York State makes available to the NICS Index. New York 
can now efficiently transmit records of mental health involuntary 
admissions and civil guardianships to NICS. The State also collects and 
reports Misdemeanor Crimes of Domestic Violence (MCDV) convictions to 
NICS so that vulnerable spouses, children and intimate partners are 
further protected. The State also completed significant system 
enhancements to improve the accuracy and completeness of disposition 
data made available to NICS via New York's Criminal History Reports.
    In Florida, the State Department of Law Enforcement (FDLE) 
partnered with the clerks of court and law enforcement agencies to 
update missing court dispositions, arrest records, and historic civil 
mental health records which could result in domestic violence 
convictions and other firearm purchase disqualifiers. Over 1.8 million 
new dispositions have been added and more than 6.4 million records have 
been updated. In addition, 180,000 civil mental health records were 
added and are now available for NICS firearm purchase decisions.

    SEARCH makes three key recommendations regarding NCHIP and NARIP 
funding:

    1. Support NCHIP funding for improvements to State criminal history 
record information to robustly support criminal and civil 
decisionmaking nationwide.--The NCHIP program has been successful in 
helping States to improve the accuracy, reliability and completeness of 
their automated, criminal history record systems. Meaningful NCHIP 
funding will more broadly improve this Nation's criminal justice 
information sharing backbone. And the Federal investment can be 
leveraged many times over by contributing to the ability of State and 
local criminal justice agencies to provide timely, accurate and 
compatible information to Federal programs such as III. Most 
importantly, all States qualify for funding under NCHIP.
    NCHIP funding since fiscal year 2014 has reinvigorated a program 
that had suffered in years past from considerably reduced funding. 
Because State criminal history records are the primary source for the 
FBI III database, any constraints on the States weakens the ability of 
many State and Federal programs to identify threats and keep our Nation 
safe.
    2. Continue to invest in improving background screening for 
firearms purchases.--We urge Congress to continue the investment in the 
Federal-State criminal background screening partnership that comprises 
NICS. NICS is a critical tool in the fight against gun violence, and 
the States and FBI rely on NICS every day for informed decisionmaking 
on firearms transactions.
    There are still many opportunities for improving the timeliness and 
availability of information to NICS. There are still millions of 
records related to felony convictions, under indictment/information, 
fugitive from justice and drug abuser prohibiting categories that are 
not always available to NICS. States have made huge strides in making 
mental health records available to NICS. Many States would like to 
target information sharing in the other prohibitor categories to 
further improve their information sharing to NICS.
    3. Provide an appropriation of $73 million for NCHIP and NARIP.--
Providing level funding for NCHIP and NARIP in fiscal year 2017 will 
allow States to utilize these programs to improve their criminal 
history records in support of general criminal justice and civil 
decisionmaking, as well as improvements to background screening for 
firearms purchases.
Conclusion
    SEARCH thanks the Chairman and members of the subcommittee for 
their steadfast support of these programs in the face of daunting 
budget challenges. Given the reliance on criminal history record 
systems for critical decisions that keep our citizens safe from guns, 
predators, terrorists and other criminals, it is a worthwhile and 
needed investment. The accuracy, completeness and reliability of the 
Nation's criminal history record system is more important than ever 
before, for criminal investigations; officer safety; sentencing and 
other criminal justice purposes; for expungement and other reentry 
strategies; for homeland security and anti-terrorism purposes; for 
public non-criminal justice purposes, such as security clearances and 
employment suitability; and for research that provides critical 
guidance in shaping law and policy.
    As you can see from the examples above, for both of NICS and NCHIP, 
SEARCH encourages Congress to allow States to use funding at their 
discretion to address the specific challenges each State faces in 
making more records available to the national system.
    On behalf of SEARCH's Governor-appointees, and the thousands of 
criminal justice officials who benefit from SEARCH's efforts, I thank 
you for your consideration.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                           Mathematics (SIAM)
    Summary: This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the National Science Foundation (NSF) in 
fiscal year 2017 by providing NSF with the President's proposed funding 
level of $7.964 billion. In particular, we urge you to provide strong 
support for key applied mathematics and computational science programs 
in the Division of Mathematical Sciences and the Division of Advanced 
Cyberinfrastructure.
    Full Statement: We are submitting this written testimony for the 
record to the Subcommittee on Commerce, Justice, Science, and Related 
Agencies of the Committee on Appropriations of the U.S. Senate on 
behalf of the Society for Industrial and Applied Mathematics (SIAM).
    SIAM has over 14,000 members, including applied and computational 
mathematicians, computer scientists, numerical analysts, engineers, 
statisticians, and mathematics educators. They work in industrial and 
service organizations, universities, colleges, and government agencies 
and laboratories all over the world. In addition, SIAM has almost 500 
institutional members, including colleges, universities, corporations, 
and research organizations.
    First, we would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the National Science Foundation (NSF) and its support for 
mathematics, science, and engineering in enabling a strong U.S. 
economy, workforce, and society.
    Today, we submit this testimony to ask you to continue your support 
of NSF in fiscal year 2017 and beyond. In particular, we join with the 
research and higher education community and request that you provide 
NSF with $8 billion.
    As we are reminded every day, the Nation's economic strength, 
national security, and public health and welfare are being challenged 
in profound and unprecedented ways. Addressing these challenges 
requires that we confront fundamental scientific questions. 
Computational and applied mathematical sciences, the scientific 
disciplines that occupy SIAM members, are particularly critical to 
addressing U.S. competitiveness and security challenges across a broad 
array of fields: medicine, engineering, technology, biology, chemistry, 
computer science, and others. SIAM recognizes the challenging fiscal 
situation; however, we also face an ``innovation deficit,'' the 
widening gap between the actual level of Federal Government funding for 
research and what the investment needs to be if the United States is to 
remain the world's innovation leader. Federal investments in 
mathematics, science, and engineering remain crucial as they power 
innovation and economic growth upon which our economy and fiscal health 
depend.
                      national science foundation
    NSF provides essential Federal support for applied mathematics and 
computational science, including more than 60 percent of all Federal 
support for basic academic research in the mathematical sciences. Of 
particular importance to SIAM, NSF funding supports the development of 
new mathematical models and computational algorithms, which are 
critical to making substantial advances in such fields as neuroscience, 
energy technologies, genomics, analysis and control of risk, and 
nanotechnology. In addition, new techniques developed in mathematics 
and computing research often have direct application in industry. 
Modern life as we know it--from search engines like Google to the 
design of modern aircraft, from financial markets to medical imaging--
would not be possible without the techniques developed by 
mathematicians and computational scientists. NSF also supports 
mathematics education at all levels, ensuring that the next generation 
of the U.S. workforce is appropriately trained to participate in 
cutting-edge technological sectors and that students are attracted to 
careers in mathematics and computing.
    Below are highlights of the main budgetary and programmatic 
components at NSF that support applied mathematics and computational 
science.
                 nsf division of mathematical sciences
    The NSF Division of Mathematical Sciences (DMS) in the Directorate 
for Mathematical and Physical Sciences (MPS) provides the core support 
for all mathematical sciences. DMS supports areas such as algebra, 
analysis, applied mathematics, combinatorics, computational 
mathematics, foundations, geometry, mathematical biology, number 
theory, probability, statistics, and topology. In addition, DMS 
supports national mathematical science research institutes; 
infrastructure, including workshops, conferences, and equipment; and 
postdoctoral, graduate, and undergraduate training opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, provide new ways of 
obtaining insight into the nature of complex phenomena, such as 
infectious diseases, financial transaction systems, terrorist networks, 
and designer materials. SIAM strongly urges you to provide at least 
$6.425 billion for Research and Related Activities at NSF to enable 
funding for DMS at the President's proposed level of $249.2 million. 
This funding would enable critical support for early career researchers 
and would help reverse the damaging cuts of recent years to enable 
essential mathematical research and workforce development programs.
    Investment in DMS is critical because of the foundational and 
cross-cutting role that mathematics and computational science play in 
sustaining the Nation's economic competitiveness and national security, 
and in making substantial advances on societal challenges such as 
energy, the environment, and public health. NSF, with its support of a 
broad range of scientific areas, plays an important role in bringing 
U.S. expertise together in interdisciplinary initiatives that bear on 
these challenges. DMS has traditionally played a central role in such 
cross-NSF efforts, with programs supporting the interface of 
mathematics with a variety of other fields. SIAM endorses DMS 
participation in NSF-wide initiatives such as Data for Scientific 
Discovery and Action (D4SDA), Risk and Resilience, Cyber-enabled 
Materials and Manufacturing for Smart Systems (CEMMSS), and 
Understanding the Brain (UtB), to develop mathematical and 
computational tools that enable progress on these challenges. SIAM also 
supports DMS in its role as leader and coordinator of MPS's 
participation in the crosscutting Optics and Photonics initiative. SIAM 
additionally applauds DMS's new effort to engage mathematical 
scientists broadly in national initiatives through the Mathematical 
Sciences Innovation Incubator, which enables DMS cooperation on a broad 
array of programs and initiatives to spur new collaborations between 
mathematical scientists and researchers in other fields.
              nsf division of advanced cyberinfrastructure
    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Division of 
Advanced Cyberinfrastructure (ACI) in the Directorate for Computer and 
Information Science and Engineering (CISE) focus on providing research 
communities access to advanced computing capabilities to convert data 
to knowledge and increase our understanding through computational 
simulation and prediction.
    SIAM again strongly urges you to provide at least $6.425 billion 
for Research and Related Activities to enable funding for ACI at the 
President's proposed funding level of $236.3 million. This investment 
in computational resources and science is needed to solve complex 
science and engineering problems. In addition, SIAM strongly endorses 
ACI's role as steward for computational science across NSF, 
strengthening NSF support for relevant activities and driving 
universities to improve their research and education programs in this 
multidisciplinary area.
    SIAM strongly supports ACI data activities, including data 
infrastructure, tools, and repositories, as well as the NSF-wide D4DSA. 
The explosion in data available to scientists from advances in 
experimental equipment, simulation techniques, and computer power is 
well known, and applied mathematics has an important role to play in 
developing the methods and tools to translate this shower of numbers 
into new knowledge. The programs in ACI that support work on software 
and applications for the next generation of supercomputers and other 
cyberinfrastructure systems are also very important to enable effective 
use of advances in hardware, to facilitate applications that tackle key 
scientific questions, and to better understand increasingly complex 
software systems.
    SIAM strongly endorses NSF's role in the government-wide National 
Strategic Computing Initiative (NSCI), which aims to position the 
Nation to meet critical national security needs, fully leverage 
computing technology for economic competitiveness and scientific 
discovery, and position the U.S. for sustained technical leadership. 
Together with MPS, ACI will co-lead NSF's participation in NSCI by 
facilitating the development of resilient, reusable, and durable 
scientific software architectures to advance discovery through 
scientific computation.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a critical role of NSF and a major step the Federal 
Government can take to ensure the future prosperity and welfare of the 
United States. SIAM strongly supports significant funding for the 
Graduate Research Fellowship (GRF) program and the Faculty Early Career 
Development (CAREER) program. Strong investments in these programs will 
support thousands of new graduate students, which will help develop the 
country's next generation of scientists.
    Before reaching the graduate and early career stage, young 
mathematicians and scientists gain critical interests and skills as 
undergraduates. SIAM supports efforts by NSF to improve undergraduate 
science, technology, engineering, and mathematics (STEM) education, and 
notes the key role that mathematicians play in training for these 
fields.
                               conclusion
    We would like to conclude by thanking you again for your ongoing 
support of NSF that enables the research and education communities it 
supports, including thousands of SIAM members, to undertake activities 
that contribute to the health, security, and economic strength of the 
United States. NSF needs sustained annual funding to maintain our 
competitive edge in science and technology, and therefore we 
respectfully ask that you continue robust support of these critical 
programs in fiscal year 2017.
    We appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM. SIAM looks forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2017 appropriations process.
                                 ______
                                 
  Prepared Statement of the Society for Industrial and Organizational 
                               Psychology
    On behalf of the Society for Industrial and Organizational 
Psychology (SIOP), we are pleased to provide this written testimony to 
the Senate Appropriations Subcommittee on Commerce, Justice, and 
Science, and Related Agencies for the official record. SIOP urges the 
Subcommittee to provide $8 billion for the National Science Foundation 
(NSF), including strong support for the Directorate for Social, 
Behavioral, and Economic Sciences (SBE), in the fiscal year 2017 
appropriations process.
    SIOP and its members recognize and appreciate the challenging 
fiscal environment in which we, as a nation, currently find ourselves; 
however, we believe strongly that Federal investment in social and 
behavioral science research directly impacts the U.S. economy, national 
security, and the health and well-being of Americans.
    Through SBE, NSF supports basic research to develop a scientific 
evidence base for improving the performance, effectiveness, management, 
and development of organizations. The methods, measurements, and 
theories developed through this Federal investment enhance business 
practices, policy-making, and interprofessional collaboration. The 
evidence base derived from basic research in the science of 
organizations is applied across sectors and disciplines. For example, 
the National Aeronautics and Space Administration (NASA) leverages the 
evidence base of organizational science for team selection and training 
for agency missions to mitigate team member conflicts and promote team 
cohesion.
    Additionally, new pressures to address privacy, performance, and 
safety in the workplace have further expanded the need for Federal 
investment in social and behavioral science research, especially 
industrial and organizational (I-O) psychology, emphasizing the 
importance of the entire work system, in addition to the individual. 
Recent events and conditions, including violence and incivility in the 
workplace, challenging economic circumstances, subtle and formal 
discrimination based on sexual orientation and gender, coping with 
talent shortages in technical jobs, and the implementation of new 
governmental regulations, catalyze the development and application of 
new methodologies for studying how people think and behave in the 
workplace.
    With funding assistance from NSF, as well as other Federal 
agencies, the field of I-O psychology has developed data-driven methods 
to predict successful teams, address workplace dysfunction, improve the 
work experience of individuals, and enhance job performance and 
employee engagement. Using this rich knowledge and understanding has 
informed and maximized private companies, as well as the public 
workforce. Continued Federal support for I-O psychology keeps the 
knowledge in the public domain and enhances shared workplace efficiency 
and understanding of worker well-being at all levels. Other 
applications of I-O psychology include: improving airline safety 
through Crew Resource Management, transitioning veterans and 
servicemembers to civilian jobs, managing age diversity in the 
workplace, and mitigating the impact of furloughs on the Federal 
workforce, among others.
    SIOP is a community of more than 8,000 members worldwide with the 
common interest in promoting the science, practice, and teaching of I-O 
psychology to enhance human well-being and performance in 
organizational and work settings. SIOP provides a platform for 
scientists, academics, consultants, and practitioners to collaborate, 
implement, and evaluate cutting-edge approaches to workplace challenges 
across sectors.
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, SIOP supports an 
overall fiscal year 2017 NSF budget of $8 billion. SIOP requests robust 
support for the NSF SBE Directorate, which funds important research 
studies, enabling an evidence base, methodology, and measurements for 
improving organizational function, performance, and design across 
sectors and disciplines.
    Thank you for the opportunity to offer SIOP's support for NSF. 
Please do not hesitate to contact SIOP should you have any questions. 
Additional information is also available at www.siop.org.

    [This statement was submitted by Steve Kozlowski, President, and 
Dave Nershi, Executive Director.]
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Mr. Chairman, and honorable members of the subcommittee, I am W. 
Ron Allen, the Alternate Tribal Commissioner and Chair for the U.S. 
Section Budget Committee of the Pacific Salmon Commission (PSC). I am 
also Tribal Chairman/CEO of the Jamestown S'Klallam Tribe located on 
the northern Olympic Peninsula of Washington State. The U.S .Section 
prepares an annual budget for implementation of the Pacific Salmon 
Treaty.
    Department of Commerce funding in support of implementing the 
Pacific Salmon Treaty is part of the Salmon Management Activities 
account in the National Marine Fisheries Service (NMFS) budget. Funding 
in the Department of Commerce budget intended for the programs to 
fulfill national commitments created by the Treaty was $11,170,919 in 
the 2015 budget. The U.S. Section estimates that a budget of 
$14,700,000 for fiscal year 2017 is needed to implement national 
commitments created by the Treaty.
    The implementation of the Treaty is funded through the Departments 
of Commerce, Interior and State. The Department of Commerce principally 
funds programs conducted by the States of Washington, Oregon, Idaho and 
Alaska and the National Marine Fisheries Service. The costs of the 
programs conducted by the States to fulfill national commitments 
created by the Treaty are substantially greater than the funding 
provided in the NMFS budget in past years. Consequently the States have 
supplemented the Federal Treaty appropriations from other sources 
including State general funds.
    The Pacific Salmon Treaty line Item of the National Marine 
Fisheries Service budget was funded at $6,780,987 for fiscal year 2015 
and provides base support for the States of Alaska, Washington, Oregon, 
and Idaho and the National Marine Fisheries Service to conduct salmon 
stock assessment and fishery management programs required to implement 
the Treaty's conservation and allocation provisions for coho, sockeye, 
Chinook, chum, and pink salmon fisheries. Effective, science-based 
implementation of negotiated salmon fishing arrangements and abundance-
based management approaches for Chinook, southern coho, Northern 
Boundary and Transboundary River salmon fisheries include efforts such 
as increased annual tagging and tag recovery operations, harvest 
monitoring, genetic stock identification and other emerging stock 
identification techniques. The U.S. Section identified a need of 
$9,700,000 for fiscal year 2017 to fully carry out these activities.
    The Chinook Salmon Agreement line item in the Salmon Management 
Activities is funded at $1,619,697 in fiscal year 2015 and represents a 
reduction of $217,000 from previous levels. This funding supports 
research and stock assessment necessary to acquire and analyze the 
technical information needed to fully implement the abundance-based 
Chinook salmon management program provided for by the Treaty. The 
States of Alaska, Washington, Oregon, and Idaho, and the 24 Treaty 
Tribes conduct projects that are selected through a rigorous 
competitive process.
    The International Fisheries Commissions line, under Regional 
Councils and Fisheries Commissions in the NMFS budget is funded at 
$356,889 and provides the U.S. contribution to bilateral cooperative 
salmon enhancement on the transboundary river systems which rise in 
Canada and flow to the sea through Southeast Alaska. This project was 
established in 1988 to meet U.S. obligations specified in the Treaty 
and had been previously funded at $400,000 annually.
    The 2008 Agreement line supports programs to improve the Coded Wire 
Tag system and to monitor and protect critical Puget Sound Chinook 
stocks. These funds are necessary to reach a new 2018 agreement with 
revised fishery provisions between the U.S. and Canada. The amount 
appropriated for fiscal year 2015 was $3,023,376. The U.S. 
Commissioners view continued funding of these programs in the fiscal 
year 2017 Federal budget as necessary to address Chinook salmon 
conservation needs and to meet existing Treaty commitments.
    The core Treaty implementation projects included in the Pacific 
Salmon Treaty line, and the U.S. Chinook Agreement line under Salmon 
Management Activities, as well as the International Fisheries 
Commission line under Regional Councils and Fisheries Commissions, 
consist of a wide range of stock assessment, fishery monitoring, and 
technical support activities for all five species of Pacific salmon 
evident in the fisheries and rivers from Cape Suckling in Alaska to 
Cape Falcon in Oregon. The States of Alaska, Washington, Oregon, Idaho, 
and the National Marine Fisheries Service conduct a wide range of 
programs for salmon stock abundance assessment, escapement enumeration, 
stock distribution, and fishery catch and effort information. The 
information is used to establish fishing seasons, harvest levels, and 
accountability to the provisions of Treaty fishing regimes.
    Like many other programs, funding to implement the Pacific Salmon 
Treaty decreased in recent years. Prior to that, the base annual Treaty 
implementation funding remained essentially flat since the inception of 
the Treaty in 1985. In order to continue to fulfill the Federal 
commitments created by the Treaty, and as costs and complexity has 
increased over time, the States had to augment Federal funding with 
other Federal and State resources. However, alternative sources of 
funding have been reduced, or in some cases completely eliminated.
    In addition to the recent budget reductions due to sequestration, 
NOAA changed the process for applying administrative fees to the 
funding intended for the implementation of the Pacific Salmon Treaty. 
This change was first implemented 2 years ago, after many years of not 
charging administrative fees to this account. Multiple administrative 
fees are applied at Department of Commerce headquarters, National 
Marine Fisheries Service headquarters and at the regional level 
resulting in less direct funding available for on the ground activities 
to implement the Treaty. While the U.S. Section understands the need 
for appropriate overhead charges to occur at the aforementioned offices 
to support administrative activities related to the Pacific Salmon 
Treaty, the current process for and rate of the administrative fees 
compromises the efforts to successfully implement the Treaty.
    The provisions of five annex chapters to the Treaty expire on 
December 31, 2018. These chapters contain the specifics for 
implementing the Treaty for each species in each geographic area. The 
renegotiation for revised annex chapters is underway. In order to 
ensure that the renegotiations are successfully completed, the programs 
in the National Marine Fisheries Service budget and contained within 
the Salmon Management Activities account must be adequately funded. The 
consequences of not successfully completing the renegotiations will 
negatively affect the health of Pacific salmon populations and the 
fisheries that depend on them.
    This concludes the Statement of the U.S. Section of the Pacific 
Salmon Commission submitted for consideration by your subcommittee. We 
wish to thank the subcommittee for the support given to us in the past. 
Please let us know if we can supply additional information or respond 
to any questions the subcommittee members may have.
    Thank you.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I am pleased to submit this testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, Science and Related 
Agencies supporting the fiscal year 2017 President's request for the 
vital research programs of NSF, NOAA, and NASA--with particular 
emphasis on the geosciences portfolio within their programs. These 
essential research agencies fund atmospheric and related science in 
hundreds of universities across the country, benefitting from the 
knowledge, expertise and innovation of our academic institutions.
    UCAR is a consortium of over 100 research institutions, including 
77 doctoral degree granting universities, which manages and operates 
the National Center for Atmospheric Research (NCAR) on behalf of the 
National Science Foundation (NSF). UCAR is proud to collaborate with 
and enhance the capabilities of our member universities and Federal 
partners so that they can carry out important research and meet mission 
responsibilities on behalf of the American public.
               the importance of our research investments
    UCAR has worked to elevate the understanding of, and support for, 
the atmospheric sciences nationwide. The atmospheric science 
departments at our member institutions are drivers of innovation and 
the fundamental scientific research that has pushed our understanding 
of weather, climate, space weather, atmosphere, and their interplay, 
into exciting and groundbreaking new areas. These advances have 
improved our ability to predict and understand some of the most 
dangerous phenomena that occur on our planet every day. Protection of 
life and property are the central drivers of this scientific innovation 
and discovery. However, more broadly, these innovations play a 
significant role in protecting our national security, our homeland, our 
businesses, our infrastructure and most importantly, our families and 
communities. As demand for information, prediction, and mitigation 
increase nationally and across the globe, it is the collaborative and 
exhaustive research being conducted in our universities and research 
laboratories that will answer this call and make our families, 
communities, businesses, and infrastructure better equipped and 
prepared to meet the challenges and dangers of living inside Earth's 
dynamic atmosphere.
    The return on investments in the atmospheric sciences exemplifies 
how Federal R&D drives economic growth. The commercial weather industry 
leverages U.S. investments in weather observation, atmospheric 
research, and computer modeling to produce tailored products for a wide 
variety of clients, including the general public. There are now more 
than 350 commercial weather companies in the U.S., generating nearly $3 
billion in annual revenues. The growth rate of this industry is 
estimated to be about 10 percent per year. The vast majority of these 
innovations and technological advances are products of our academic 
institutions. Researchers, graduate students, and investigators at our 
universities are an astounding and innovative resource that, in light 
of the linkage between innovation and our economy, should be seen for 
what they are--our most valuable national asset. Across the country 
there is groundbreaking atmospheric science being done that will power 
our economy, save lives, protect our citizens, and impact every single 
American in a profound way.
                  key programs at nsf, noaa, and nasa
    Within NSF, NOAA, and NASA, there are a number of specific 
initiatives we call to the subcommittee's attention and ask for your 
strong support for these initiatives:

  --NSF's geoscience directorate, its division of atmospheric and 
        geospace sciences; and the National Center for Atmospheric 
        Research (NCAR);
  --Key NOAA programs including the Airborne Phased Array Radar program 
        (APAR), the new Research Transition Acceleration Program 
        (RTAP), and the Constellation Observing System for Meteorology, 
        Ionosphere, and Climate--2 (COSMIC) and its ground station; and
  --NASA earth sciences and heliophysics research programs.

    National Center for Atmospheric Research (NCAR).--NCAR, NSF's only 
federally Funded Research and Development Center in the geosciences, 
has an exceptional record of leadership, scientific achievement and 
effective translation of scientific advances into useful knowledge for 
a nation that is highly impacted by atmospheric events that are 
sometimes catastrophic. Yet despite a 10 percent increase in NSF 
appropriations since fiscal year 2011, NSF base support for NCAR has 
remained essentially flat. There is real and growing concern by the 
UCAR Board of Trustees that at the current funding levels, NCAR will be 
unable to support critical new scientific priorities while maintaining 
existing national scientific capabilities; such as the expanded 
computing facility operating in Wyoming or the High-performance 
Instrumented Airborne Platform for Environmental Research (HIAPER). 
These are examples of newly established capabilities resulting from 
prior appropriations provided by this subcommittee now under stress due 
to shortfalls in NCAR base funding. NCAR is an essential part of the 
research capabilities needed by the atmospheric and geospace sciences 
community. Accordingly, we request that you support the NSF's request 
for the atmospheric and geospace sciences division ($268 million) and 
NCAR base funding of $105 million--a level that will help support 
current operating and staffing costs.
    Airborne Phased Array Radar (APAR).--The proposed NOAA investment 
of $4.6 million in the APAR program will enable research and 
development of advanced methods of aircraft-based hazardous weather 
observation, which provide critical information about severe, tropical 
and heavy precipitation storms, for more accurate public warnings and 
forecasts. Airborne Doppler radar measurements provide critical 
location and intensity information about these storms, especially over 
open ocean or rugged terrain, where other radar information does not 
exist. Forecasters around the world utilize these radar observations, 
combined with satellite data and other environmental observations, to 
study storms and generate predictions of storm intensity and direction. 
However, NOAA cannot fully take advantage of current technology due to 
mounting restrictions on aircrafts. Therefore, this proposed investment 
will initially focus on the research and development of an airborne 
radar system which can be utilized on a NOAA aircraft, and will provide 
more data, more accurately. Requested funding will be used to examine 
the potential benefits of APAR for providing the real time data needed 
for National Weather Service (NWS) forecasts and warnings and to 
determine how APAR's additional, advanced capabilities can improve 
forecasts in the future. NOAA Research will work with the research 
community to initially develop and demonstrate APAR's feasibility for 
collecting airborne radar measurements in hazardous weather 
environments, including hurricanes and severe local storms. 
Additionally, NOAA and its partners will use these measurements to 
conduct research to understand severe storms and improve NOAA's 
predictions and warnings for the public. Through this effort, future 
opportunities to develop and test other airborne observing systems, 
besides radar, will emerge and ensure that NOAA has the best airborne 
observing platform for hazardous weather events.
    Research Transition Acceleration Program (RTAP).--In fiscal year 
2017 NOAA proposes to establish a $10 million program to ensure 
continuous development and transition of the latest scientific and 
technological advances to National Weather Service (NWS) Operations. 
Through the RTAP proposal NOAA seeks to establish a broad program that 
accelerates the transition of the most promising research for the full 
spectrum of NOAA's mission requirements (e.g., weather, climate, 
fisheries management, ocean and coastal stewardship) to application and 
operations. The rapid transition of research projects to mission-driven 
applications, operational services, and commercialization is essential 
to achieve full return on NOAA's Research and Development (R&D) 
investment and to advance NOAA core missions. Numerous research 
projects with significant potential to benefit society are ready for 
rapid transition, but require increased resources for demonstration in 
relevant test environments, evaluation for commercial potential, and 
possible patent protection. This program will increase the number of 
demonstration-ready research activities for application and deployment 
to NOAA's diverse mission areas and for delivery to external partners 
and stakeholders. Funding will allow NOAA to accelerate the movement of 
transition ready projects through the demonstration and test phase of 
R&D and/or commercial application.
    Constellation Observing System for Meteorology, Ionosphere, and 
Climate
(COSMIC).--COSMIC is a six-satellite constellation that was launched to 
the polar orbit in 2006 in a joint collaboration between Taiwan, 
National Science Foundation, NASA, United States Air Force (USAF), and 
University Corporation for Atmospheric Research (UCAR). It was a 
research effort to explore a new, inexpensive atmospheric sounding 
technique, GNSS RO, to obtain global atmospheric temperature profiles, 
which were not available globally from other sources. The results of 
the research were so positive that NOAA started using GNSS RO data 
operationally. GNSS RO has been proven to be a cost-effective means of 
increasing the volume of quality global atmospheric soundings, 
providing temperature, water vapor, and pressure profiles, which result 
in more accurate long-range weather forecasts. The COSMIC design life 
was reached in April 2011.
    COSMIC-2 is a continuation of the partnership between the United 
States (NOAA and USAF) and Taiwan to produce an operational 
constellation of GNSS RO satellites. The USAF is providing six RO 
sensors to be launched in low-inclination (equatorial) orbit, known as 
COSMIC-2A. Taiwan will procure and operate the spacecraft for the GNSS 
RO satellites. NOAA will provide the ground reception system for 
processing data from the GNSS RO satellites. NOAA intends to leverage 
this ground system to acquire other RO data where possible whether from 
other governmental organizations or commercial operators. NOAA has 
requested $8.1 million for ground reception and processing of GNSS RO 
satellite data. UCAR strongly supports this request. With this funding 
NOAA intends to complete all information technology security testing 
and verification in preparation for COSMIC-2 launches. Also, UCAR 
processing functions will be tested and certified by the National 
Centers for Environmental Prediction. This level of funding will 
support the operational testing and validation of the Numerical Weather 
Prediction models for COSMIC-2.
    NASA Earth Science.--UCAR requests full funding of the Earth 
Science Division, per the President's request. This amount ensures 
exciting projects such as the Surface Water and Ocean Topography (SWOT) 
mission, which will conduct the first-ever global survey of Earth's 
surface water. Data from the satellite has promising uses for flood and 
drought management at local, regional, and national levels; improved 
risk assessments by the insurance industry; harnessing ocean energy 
opportunities; and optimizing the efficiency and effectiveness of both 
military and commercial marine operations. Strong funding for NASA 
Earth Sciences will also support the launch of Landsat 9 and 10 in a 
timely manner, which will provide manifest benefits to municipalities, 
corporations, and the general public in land-use planning.
    NASA Heliophysics.--UCAR requests full funding of the Heliophysics 
Science Division, per the President's request. This amount ensures 
strong research in the study of the sun and its impact on the Earth. In 
1859, a large Coronal Mass Ejection (CME)--known as the Carrington 
Event--sent charged plasma to the Earth from the sun, causing 
widespread failure of the telegraph system. Recently smaller events 
caused localized disruptions in telecommunications and electricity grid 
systems, which negatively impacted industry and military activities, as 
well as the daily lives of American citizens. Because of societal 
reliance on space-based assets, as well as the electricity grid, and a 
number of other systems vulnerable to extreme space weather, the 
economic impact of another Carrington Event to the United States alone 
is $2.6 trillion. As such, we must improve our ability to understand 
and predict space weather to mitigate the risks and costs associated 
with future threats. Strong funding for the Heliophysics Division would 
enable NASA to fully participate in the cross-agency Space Weather 
Action Plan that will enable the United States to better understand, 
prepare for, and respond to space weather.
                          concluding thoughts
    We recognize the constraints the subcommittee must confront in 
developing its fiscal year 2017 appropriations bill. We hope you will 
see the investment in the research programs of NSF, NOAA, and NASA as 
essential priority investments that will contribute to the Nation's 
economic and national security as well as public safety. Thank you for 
the opportunity to submit these views.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
